<html>
<title> - S. 1868: THE INTERNATIONAL RELIGIOUS FREEDOM ACT OF 1998</title>
<body><pre>[Senate Hearing 105-591]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 105-591


 
        S. 1868: THE INTERNATIONAL RELIGIOUS FREEDOM ACT OF 1998

=======================================================================

                                HEARINGS

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                        MAY 12 AND JUNE 17, 1998

                               __________

       Printed for the use of the Committee on Foreign Relations


                               <snowflake>


 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate


                     U.S. GOVERNMENT PRINTING OFFICE
 48-618 CC                  WASHINGTON : 1998



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
CRAIG THOMAS, Wyoming                CHARLES S. ROBB, Virginia
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
JOHN ASHCROFT, Missouri              DIANNE FEINSTEIN, California
BILL FRIST, Tennessee                PAUL D. WELLSTONE, Minnesota
SAM BROWNBACK, Kansas
                     James W. Nance, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

                        Hearing of May 12, 1998

Lieberman, Hon. Joseph I., a U.S. Senator from the State of 
  Connecticut....................................................     4
Nickles, Hon. Don, a U.S. Senator from the State of Oklahoma.....     2
Shattuck, Hon. John, Assistant Secretary of State for Democracy, 
  Human Rights and Labor.........................................    11

                        Hearing of June 17, 1998

Akers, John, Chairman of the Board, East Gate Ministries 
  International..................................................    48
Gaer, Felice, Director, Jacob Blaustein Institute for the 
  Advancement of Human Rights, American Jewish Committee.........    44
Land, Dr. Richard, President, Ethics and Religious Liberty 
  Commission, Southern Baptist Convention........................    40
Mano, The Right Reverend Munawar Kenneth Rumalshah, Anglican 
  Bishop of Peshawar, Pakistan...................................    34
O'Brien, Dr. John, Director, The Global Center, Samford 
  University.....................................................    51

                                Appendix
                        Hearing of May 12, 1998

Responses to Additional Questions for the Record Submitted by the 
  Committee to Assistant Secretary John Shattuck.................    69
Prepared Statements of Members and Witnesses
    Prepared Statement of Chairman Helms.........................    81
    Prepared Statement of Senator Nickles........................    82
    Prepared Statement of Senator Lieberman......................    84
    Prepared Statement of Senator Dodd...........................    86
    Prepared Statement of Assistant Secretary Shattuck...........    87
    Prepared Statement of Senator Thomas.........................    94
    Prepared Statement of Senator Ashcroft.......................    95
    Prepared Statement of Senator Feingold.......................    96

                        Hearing of June 17, 1998

Prepared Statements of Members and Witnesses
    Prepared Statement of The Right Reverend Munawar Rurnalshah 
      (Bishop Mano)..............................................    97
    Prepared Statement of Felice Gaer............................   102
    Prepared Statement of Dr. Akers..............................   112
    Prepared Statement of Dr. O'Brien............................   113
    Prepared Statement of Senator Grams..........................   117

Additional Material Submitted to the Committee for the Hearing 
  Record
    Letter to Hon. Trent Lott, Majority Leader, U.S. Senate......   119
    Material Submitted by The Anti-Defamation League.............   119
    Material Submitted by The Office for Church in Society--
      United Church of Christ....................................   120
    Material Submitted by The Southern Baptist Convention........   131
    Material Submitted by The Episcopal Church--Office of 
      Government Relations.......................................   132
    Statement Submitted by Gerard F. Powers on Behalf of the U.S. 
      Catholic Bishops...........................................   132




        S. 1868: THE INTERNATIONAL RELIGIOUS FREEDOM ACT OF 1998

                              ----------                              


                         TUESDAY, MAY 12, 1998

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:15 p.m. in room 
SD-419, Dirksen Senate Office Building, Hon. Jesse Helms 
[chairman of the committee], presiding.
    Present: Senators Helms (presiding), Hagel, Thomas, Grams, 
Ashcroft, Frist, Brownback, Biden, Dodd, Robb, Feingold, 
Feinstein, and Wellstone.
    The Chairman. The committee will come to order.
    At the outset, let the Chair express his apologies for the 
tardiness in starting the hearing. Both parties have their 
respective policy luncheons on a Tuesday, scheduled to be over 
at 2, but I walked out on mine and the fuss had just begun. I 
do not know how it was on the other side, but everybody was 
calling each other names, and proving it, about half of them. 
No, seriously, the debate was orderly, but it was very lengthy.
    Today's hearing is to assess the incredible and senseless 
injustice of religious persecution abroad and to focus on 
legislation designed to end this injustice. Specifically, of 
course, we will be discussing S. 1868, the International 
Religious Freedom Act of 1998, sponsored by Senators Nickles, 
Lieberman, and others. The committee is honored to have already 
here the distinguished Senator from Connecticut, Senator 
Lieberman, and Senator Nickles is involved in the meeting that 
I just left. In just a moment we are going to ask Senator 
Lieberman to testify on behalf of the proposal by him and 
Senator Nickles.
    I am a co-sponsor of that bill and of course I am hopeful 
that it will receive broad bipartisan support from this 
committee and from the Senate as a whole.
    Now, the committee will also hear today the 
administration's perspective on the state of religious freedom 
abroad, as well as what steps have been taken to address this 
persistent human rights problem. The committee has led several 
historic steps taken by the Senate in recent days to advance 
U.S. foreign policy interests, including passage of a far-
reaching State Department reorganization, a U.N. reform 
package, and the NATO expansion treaty.
    In the interest of time, I am going to ask unanimous 
consent that the balance of my statement appear in the record 
as if read.
    [The prepared statement of Senator Helms appears in the 
Appendix.]
    The Chairman. I see that Senator Nickles has joined us, and 
we will hear from the distinguished Assistant Majority Leader 
of the Senate first and then Senator Lieberman. You may 
proceed, gentlemen.

STATEMENT OF HON. DON NICKLES, A U.S. SENATOR FROM THE STATE OF 
                            OKLAHOMA

    Senator Nickles. Mr. Chairman, thank you very much, and I 
apologize I was a few minutes late. You know how it is to get 
out of our conference. We are swamped by press, and it is hard 
to get out.
    But thank you very much for allowing me to testify, and I 
appreciate Senator Lieberman's appearance before your committee 
as well, and I am happy to co-sponsor with Senator Lieberman 
and other Senators the International Religious Freedom Act. I 
would also like to compliment Senator Specter and Congressman 
Wolf for the work that they have done. We have a little 
different approach, but they have also been very, very active 
in highlighting the problems of religious persecution.
    Mr. Chairman, I have a statement I will ask for your 
permission to enter as read. But just looking at the last two 
days, in the New York Times there is an article, in yesterday's 
paper: ``Pakistani Catholic Cleric Buried; Muslims Burn 
Christian Homes.'' The Catholic bishop committed suicide to 
protest religious discrimination, to protest religious 
persecution. That happened in Pakistan. It happened just a few 
days ago. There were riots and houses being burned, 
demonstrations by thousands.
    Religious persecution happens today, in 1998, and it is 
costing lives. It is serious; it is real. It needs to be 
addressed.
    There was an article in the Washington Post two days ago: 
``China Frees Elderly Catholic Bishop,'' to end his 3-year 
sentence to re-education through labor. This bishop is 78 years 
old. So when he was 75 years old he was sentenced to three 
years of labor for re-education. Why? Because he is a Catholic 
bishop, and he has allegiance to the Vatican instead of to the 
communist organization. That is happening today in China.
    I am pleased they released him. I compliment the Chinese 
government for releasing him. But they still are detaining 
other leading bishops, including--I cannot pronounce the names 
very well--Bishop Zu Zemin and An Shuzin. They remain in 
detention. Those are bishops. No telling how many other people 
are held in detention, in prison, for re-education through 
labor. Why? Because they are trying to express their right to 
worship. Why? Because they have a home church or because they 
meet with fellow believers.
    Again, this was two days ago. This is happening in 
countries like Pakistan and China. It is happening in Egypt. It 
is happening in many, many countries all across the world.
    Well, what do we do about it? two years ago the Senate 
passed a resolution. I was pleased to sponsor it. Many others 
co-sponsored it. It passed unanimously in the Senate. This 
resolution said we should do something; Mr. President, do 
something. Have an official in the State Department monitor 
this, pay attention to it, call attention to the offending 
countries, make sure that they are aware, when there is 
religious persecution, that it is wrong and that this 
government is not going to sit idly by and just do nothing.
    Well, we passed that resolution unanimously. It was a sense 
of the Senate resolution. It did not have the force and impact 
of law. Frankly, this administration has not paid very much 
attention to it.
    Mr. Chairman, I think we need to do more, and that is why 
Senator Lieberman and I have introduced this bill. This bill 
has a little different approach. It says we have religious 
persecution in any number of ways and avenues by different 
countries in different degrees, and that those countries need a 
different response; and so possibly we should give the 
administration some flexibility on what the response should be, 
but there should be a response. We should have a monitoring of 
religious persecution and we should have a report. We should 
know exactly what countries are persecuting and what they are 
doing.
    So they will have to report. We will have an individual 
both in the State Department and also the National Security 
Advisers, top level officials, to monitor and to report, and 
also to come up with a menu of options, what can be done, 
instead of saying: Well, wait a minute; if you are guilty of 
persecution in one degree, well, we will have a total economic 
embargo or we will have a total cutoff of military aid, as some 
have proposed. I do not think that is necessarily the right 
solution.
    As a matter of fact, I do not like sanctions. Senator Grams 
and I mentioned this before: I am not an advocate of sanctions 
every time. But I think you need some leverage. So instead of 
having one of the options be a 100 percent cutoff of any 
economic aid, the administration would have the flexibility to 
do partial restriction of economic assistance.
    Take for example in Egypt. There is significant persecution 
of the Coptics in Egypt. So is the solution an economic embargo 
of Egypt and a cutoff of 100 percent of economic aid to Egypt? 
Probably not. Most people would say that that is too stiff of a 
penalty and it would have repercussions that go far beyond what 
we would want to do, both that is in our interest and in 
Egypt's interest and in the interest of the Middle East.
    Well, should we not give the administration the flexibility 
to come up with a partial reduction of foreign assistance in 
lieu of leverage to try and make change? Our intention with 
this bill is results, not to punish countries, not to come up 
with a hammer over their head. But our intention with the bill 
is to make improvements to lessen religious persecution. That 
is our objective.
    We want people everywhere, all across the world, to be able 
to practice their faith without their governments prosecuting 
them in the process. We want our government to be involved in 
monitoring it, to work to lessen religious persecution and 
prosecution all across the world. That is the essence of our 
bill.
    Again, I want to thank Senator Lieberman for co-sponsoring 
it, and other colleagues who have joined us as well. We think 
it is a big improvement over other legislative proposals that 
have been bandied about. Although the objectives are probably 
somewhat similar, I think this is a better approach.
    So Mr. Chairman, I appreciate very much your willingness to 
have a hearing on this bill and I look forward to working with 
you and other members of the committee to see if we cannot make 
a real, not just a statement, but a real positive act to 
improve religious freedom throughout the world.
    [The prepared statement of Senator Nickles appears in the 
Appendix.]
    The Chairman. Thank you, Senator. Senator Lieberman.

STATEMENT OF HON. JOSEPH I. LIEBERMAN, A U.S. SENATOR FROM THE 
                      STATE OF CONNECTICUT

    Senator Lieberman. Thanks very much, Mr. Chairman. I am 
honored to be here. I appreciate very much the opportunity to 
work with Senator Nickles and yourself and others on behalf of 
this legislation.
    I must say that I regard this occasion with mixed emotions. 
It is in one sense solemn, because our presence here today is 
prompted by an outrage, and I do not know any other word for 
it, of the fact that around the world as we gather here in all 
the freedom that we enjoy here in the United States of America, 
millions of religious believers are living under the 
unrelenting fear of imprisonment, torture, abuse, or even death 
simply because they choose to express their faith in God.
    Yet this occasion is also hopeful, because I believe that 
the legislation before the committee today, S. 1868, the 
International Religious Freedom Act, has the potential to 
galvanize our government to take responsible and effective 
action against such oppression of the faithful.
    Mr. Chairman, as you know, there are those within our 
country and certainly those outside who would say that we not 
only do not have an obligation to be involved in this area, we 
do not have a right to take a stand against religious 
persecution in foreign countries, because they are foreign 
countries and it is none of our business, that our foreign 
policy ought to be based on strategic or economic interests.
    I disagree, and I know that most of my colleagues here in 
the Senate do. I begin, if I may, with the words of the Prophet 
Isaiah: ``Seek justice. Encourage the oppressed. Learn to do 
right.''
    It seems to me that for Americans particularly, silence in 
disinterest on matters of religious freedom are not acceptable 
options. We in this great country bear a special obligation in 
this regard historically because our Nation, after all, was 
founded by men and women seeking refuge from oppression for 
their religious faith.
    Remember the opening words of the Declaration of 
Independence, which are words of faith: ``That all people are 
endowed with inalienable rights,'' not by any committee of 
humans or by any committee of legislators, but by our creator. 
Remember, the Bill of Rights enshrines religious freedom as the 
first freedom.
    That promise has been made real for succeeding generations 
of Americans. I was thinking as I was walking over here, if you 
will allow me, Mr. Chairman, a personal digression, of my 
grandmother, who I have often said to people was--let me put it 
this way: I have never met a person who loved America more. 
Why? Because she spent a good part of her life in another 
country where she was denied basic freedoms, and most dear to 
her was the freedom to worship God as she chose to, without 
fear of harassment or worse.
    So when we embrace--whether we embrace this principle 
enthusiastically or admit it reluctantly, the fact remains that 
much of the rest of the world looks to our Nation for moral 
leadership. Paul Wolfowitz said a while ago that the 
fundamental goal of America's foreign policy in the twenty 
first century is to make sure that that century is not a repeat 
of the twentieth century. Two world wars, a cold war, and the 
brutal slaughter and repression of millions of people by 
totalitarian regimes have made this last 100 years probably the 
bloodiest in the history of mankind.
    An enormous number of those victims were perversely singled 
out because of their faith. This cannot be allowed to continue. 
But if we choose to ignore the oppression, who then will be 
responsible for the results?
    Mr. Chairman, as Senator Nickles has said, this problem is 
real and urgent, and it is not limited to any particular faith 
nor any particular religion. I cite just a few areas of 
concern.
    Russia. Last summer Russia passed one of the most 
restrictive laws since the Soviet era, effectively shutting 
down a number of independent Christian churches and religious 
organizations and severely restricting the religious freedom of 
its citizens.
    Pakistan. Senator Nickles mentioned these blasphemy laws, 
which make any derogatory remark about the Prophet Mohammed a 
capital offense. They have been used to terrorize Pakistan's 
minority faiths, particularly Christians. Just two weeks ago a 
Pakistani Christian named Ayub Masih received a death sentence 
under this law on suspicious and unproven charges leading to 
the sudden and tragic death of Catholic Bishop John Joseph.
    China, the Nation with the world's largest total 
population, also has the unfortunate distinction of having, as 
far as I know, the world's largest population of people 
imprisoned for their religious faith. Catholics, Protestants, 
Muslims in the north and Tibetan Buddhists all suffer under 
China's controls on religion.
    Vietnam. Unfortunately, the recent market reforms in this 
communist nation have not been accompanied by sufficient 
reforms in personal freedoms. Buddhist monks, Catholic priests, 
Evangelical pastors, and lay believers of several faiths suffer 
under the constant threat of arrests, beatings, and 
imprisonment.
    Finally I mention Egypt. Besides severely restrictive 
policies against church construction and repair, Egypt has been 
home in recent years to serious violence against Coptic 
Christians.
    Mr. Chairman, the International Religious Freedom Act 
offers real solutions to these real problems of discrimination 
and persecution based on religion. It is balanced and 
comprehensive. It guarantees that our government will take the 
most effective action against religious oppression and stand up 
for the rights of the faithful and therefore be true to our 
unique founding ideals by putting the pursuit and protection of 
religious freedom at the heart of our foreign policy, where it 
belongs.
    The act begins with a clear and comprehensive definition of 
religious persecution, encompassing any violations of the 
internationally recognized norms of religious freedom. That 
includes both acts of overt violence as well as onerous policy 
restrictions on the faithful. It might be called discrimination 
instead of persecution. In other words, we are talking about 
basic human rights standards.
    Paul Marshall's seminal work, ``Their Blood Cries Out,'' 
which has served as a manifesto for the recent movement against 
religious persecution, defines religious persecution as ``in 
general, the denial of any of the rights of religious 
freedom.''
    Mr. Chairman, here I want to note that this broad 
definition of religious persecution is premised on the hard 
lessons of history. Violent reigns of terror have usually begun 
with less violent, but nonetheless insidious, acts of 
oppression. The fact is that the seeds of Hitler's genocidal 
death camps in the late 1930's and 40's were planted in the 
early 30's, when Nazi policies restricted and stigmatized 
Jewish people and other people.
    We must not wait until it is too late. We must attempt to 
excise the roots of religious persecution before they have a 
chance to spread.
    Mr. Chairman, the first and in many ways the most difficult 
task in combating this problem is to report the facts. Here is 
where this legislation I think will do very well. The light of 
truth-telling must expose these dark deeds. Only when we know 
can we then act.
    Over and over again, as many voices have been raised to 
draw attention to religious persecution, the response we have 
heard from an awakened public has not been ``I do not care,'' 
but rather ``I did not know.'' When the facts of religious 
persecution are told, they speak for themselves and action will 
follow.
    Mr. Chairman, in this regard I want to join Senator Nickles 
in paying tribute to the band of believers and battlers who 
have in recent years brought this problem to the forefront of 
our attention--Michael Horowitz, Nina Shea, the host of leaders 
in the religious communities, and our colleagues here in 
Congress, Senator Specter and Congressman Wolf, many others who 
have worked tirelessly, first to inform the rest of us and then 
to lead the fight against the scourge of religious persecution.
    The Wolf-Specter legislation is a pioneer in this historic 
awakening of a common cause that we share. Senator Nickles and 
I have offered slightly different legislation, which in balance 
I think is more comprehensive and ultimately will be more 
effective.
    I hope in the end, if the House goes ahead this week, as it 
appears they will, and adopts a form of the Wolf-Specter 
proposal, that we in the Senate under this committee's 
leadership will adopt a form of the legislation before you 
today, and that in conference we can blend these two proposals 
to produce legislation which the President can and will sign.
    In summary, Mr. Chairman, the International Religious 
Freedom Act provides tools to every arm of U.S. foreign policy 
apparatus to ensure that combating religious persecution is a 
top priority. In a larger sense, I believe that this bill and 
the movement that sparked it may herald a renewed vision and 
purpose for our foreign policy. So much has been said about the 
lack of focus in our foreign policy following the end of the 
cold war. That debate will not be ended by this legislation, 
but it is my strong conviction that our international interests 
must include this great moral purpose. None is greater or more 
American than protecting the freedom of religious believers.
    In standing for the rights of the faithful around the 
world, we will still for the right, and when America stands for 
the right we are at our strongest.
    I thank you, Mr. Chairman.
    [The prepared statement of Senator Lieberman appears in the 
Appendix.]
    The Chairman. Thank you very much to both of you for two 
excellent statements.
    I know both of you have other appointments you have got to 
keep, but before you depart let me raise a question or two. It 
occurs to me that since the key State Department and White 
House officials are present to testify and/or respond to 
questions. It might be useful for you to describe what you are 
hearing about this issue in churches and synagogues in Oklahoma 
and Connecticut and elsewhere in the country. Would you do that 
for me, Don?
    Senator Nickles. Mr. Chairman, I will be happy to. I tell 
you, my first response was thinking of a trip that I had in 
China and speaking to ministers of the home churches that were 
being persecuted. There was kind of a cyclical persecution. At 
times the government might be a little more flexible and let 
them out. Evidently they let this one bishop out prior to the 
President's visit, and I compliment them for doing that, but 
they are still detaining many, many others. It would be nice to 
have a report saying how bad it is, how many people are being 
detained.
    So that is one of the purposes of our legislation, to 
really have a good accurate account. Our legislation says this 
information will be put on the Internet. We will find out. We 
can let the world know.
    Senator Lieberman made a good example. That is one of the 
first cures of this problem, is to expose it when it happens. 
So I think that will be helpful.
    But I have had from those contacts maybe a real interest. 
When I have met with some of the leaders of home churches 
there, I also met with government officials, and basically they 
denied most any impact and certainly in ``persecuting'' the 
Catholics who had an affiliation with the Vatican. But 
obviously, by releasing this one person, they have been 
persecuting some people from the Catholic church that had some 
connection with the Vatican.
    So I think this is all positive in maybe eliminating the 
problem in trying to find a resolution to it. How many people 
from Oklahoma? Yes, I have had constituents in Oklahoma, 
members of church groups, who have been active. We had one, 
actually an Oklahoman who has been very active with me, who is 
imprisoned in Nepal, and is from Stillwater, Oklahoma. Our 
office intervened. We were successful after some period in 
time, meeting with the Ambassador and so on, in getting this 
individual out of jail.
    But it is a problem that unfortunately is worldwide and 
affects all of us. I think if we are aware of the magnitude of 
the problem I do not think we can sit back and do nothing. I 
think we have to try and figure out how can we do something 
that will not do more harm than good.
    Everybody who has voiced themselves on this issue I think 
has very good intentions. It is a question of can we come up 
with the right combination of diplomacy, sanctions, et al., to 
make sure we maximize the improvement, and the improvement 
being in the free exercise of religion worldwide.
    The Chairman. Thank you.
    Senator Lieberman.
    Senator Lieberman. Mr. Chairman, it is a very important 
question. I must say as I talk to people in all religions at 
home in Connecticut this problem has gained greater visibility 
I find that people are surprised. This has been an untold story 
in world events, and people are not only surprised, they are 
agitated and they want us to do something about it because of 
the value that all Americans give to religious freedom.
    The other point to make is that this problem is not a 
problem that is focused on any one religion around the world. 
The truth is that you can find places where people of almost 
any religion in the world are being persecuted today. It 
happens--and this is probably why it took a while for this 
particular problem to receive the attention it deserved in our 
country, where the majority of the population is Christian. It 
happens that most of the victims of religious persecution 
around the world today are Christian. Perhaps because of the 
tremendous freedom that we all enjoy here, it was hard for 
people to understand that or appreciate it, until of course 
they were informed of it.
    I find in the end that--and you will see this I think in 
the broad array of religious groups that are supporting some 
legislative response to this problem--that ultimately the 
response has been very unifying, because I think we do 
understand the words of Pastor Niemuhler during the Nazi time, 
that when one person's religious freedom is compromised 
ultimately we are all going to be victims of it.
    So I think there is a rising chorus of appeal and support 
for this kind of legislation.
    The Chairman. One other question, then I will let you go. I 
would like you to stay around, but I know you are otherwise 
occupied.
    We are going to hear from a representative of the 
administration in a few minutes. I am interested in your view 
of the administration's position on this bill, S. 1868. What do 
you think? Do you have any opinion about that?
    Senator Lieberman. Well, I should leave that to Mr. 
Shattuck. I gather that the administration is not supportive of 
this legislation, in general, but would like to work with the 
committee on this particular legislation. I do not honestly 
know the details of the position, but I do want to stress, 
Senator Nickles talked about the details of this bill. It is 
fact-based. It creates quite an ascending array of options of 
responses for our government.
    It does not just say, here is a two by four, any time you 
see any problem here, hit somebody over the head with it. It 
begins with notification, disclosure. It can involve a 
diplomatic demarche and then leads on ultimately to the 
possible suspension of aid and the rest.
    So I hope that--this administration has heard the rising 
chorus of concern about this problem and has spoken to it and 
put out a very impressive report on this problem, which will be 
formalized if this legislation before you is adopted. But we 
think that it demands--that the problem is serious enough to 
demand the kind of, well, legal institutionalization, 
permanentization, if there is such a word, of the approach 
embodied in the values and the programmatic response endorsed 
by this legislation.
    Senator Nickles. I am hopeful, Mr. Chairman, that the 
administration will support this. If they have any particular 
problems with it, we have never said it was perfect. We would 
be happy to consider anything that they have.
    I do think that we are trying to emphasize this more than a 
sense of the Senate resolution. We have done that, we have been 
there, and yet we still see things happening like in China, in 
Russia, in Egypt and Pakistan. We do not think that a total 
cutoff of aid and total economic sanctions are the right 
solution. So we have given them a whole menu of options, trying 
to give the administration and succeeding administrations more 
tools in their arsenal, I guess, in negotiating with other 
countries so we can make real improvements.
    Again, I do not like sanctions. I think usually they hurt 
ourselves more than they hurt other countries. So maybe this 
will lessen the likelihood of real economic sanctions by giving 
a menu of options that will bring about some results that will 
be able to stop problems before they become too big, help 
create a climate for religious freedom. That is our real 
objective.
    So I am hopeful that the administration will be supportive. 
I have heard their objections to the other bill that is working 
its way through the House. I happen to think, in studying this 
issue, I think this is the preferred alternative. Maybe I am 
prejudiced to it, but I am certainly open for suggestions.
    If our goal is to increase religious freedom and to 
eliminate religious persecution and prosecution around the 
world, if somebody has a better idea I am happy to listen to 
them and see what we can come out.
    I would agree with Senator Lieberman, I want to compliment 
Senator Specter and Congressman Wolf for their initiative, for 
their bringing this issue to the forefront, for increasing the 
observances of religious persecution. I think that is 
important. I think this is a better legislative alternative, 
but I will be happy to work with them as well and to try and 
come up with a package that hopefully the administration will 
agree is in the best interests of our country as well.
    The Chairman. I think we ought to give somebody on this 
side a chance.
    Senator Dodd. Thank you, Mr. Chairman.
    I want to commend my colleagues and, Senator Nickles will 
appreciate, a special commendation to my colleague from 
Connecticut, who has worked a lot of these issues very, very 
well and brings this once again I think very important set of 
issues.
    One of the things I--and I will ask unanimous consent to 
have a statement that I have prepared to be included in the 
record.
    The Chairman. Without objection.
    Senator Dodd. I think we take it so much for granted in our 
own country. We have such a wonderful diversity in this Nation. 
I think there are more mosques, synagogues in this country per 
capita than any other nation in the world. It is a great 
tribute to our Nation that we welcome people from all over the 
globe, many of whom have come to our shores because of 
religious persecution historically; that we raise this issue 
and make it very much a part of the fabric of our foreign 
policy.
    I must say, I think what Senator Nickles and Senator 
Lieberman have offered us here--and I say this, as they have, 
with all due respect to the alternatives that have been 
raised--what they are proposing here allows for the kind of 
flexibility that I think all of us would like to see in this 
area. Certainly freedom of expression, freedom from the kind of 
abuse that we are seeing in certain parts of the world today, 
are all very important rights as well that we want to enshrine 
and protect along with the right of the freedom of expression, 
religious expression.
    This bill they are proposing gives us in my view that level 
of flexibility which our President and Secretary of State are 
the ones ultimately going to be charged with the responsibility 
of carrying out what we are including here, what they are 
suggesting here. It is not something we can legislate in every 
detail. We have really got to rely on the executive branch to 
become the administrators and the ones who prosecute, if you 
will, the goals contained in the legislation.
    So I think this is a very, very sound initiative. I am 
anxious to hear what Mr. Shattuck has to say. Others may have 
some suggestions here, but I commend our colleagues for 
bringing this to our attention.
    As my colleague has said, this is an issue we hear more and 
more and more about. I recall years ago, Mr. Chairman, just 
anecdotally, being in China and wanting to go to mass on 
Sunday, and there was a mass. I was told there was a mass. I 
went to this mass and in fact went to communion at this mass, 
and only then found out afterwards that in fact it was sort of 
a--it was not the recognized Catholic Church. It was one that 
was sort of put up, a kind of a phoney mass in a sense, where 
you are not allowed to--Catholics were not allowed to practice 
their religion.
    Today I know things are changing in China, but there are 
still serious problems of persecution. But that goes on all 
over the world.
    So I thank our colleagues. This is very, very helpful.
    [The prepared statement of Senator Dodd appears in the 
Appendix.]
    The Chairman. Thank you, Senator.
    Well, thank you, gentlemen----
    Senator Nickles. Thank you, Mr. Chairman.
    The Chairman [continuing]. for being with us. Some Senators 
may have questions to file with you in writing and I know you 
will respond to them. But thank you very much.
    Senator Lieberman. Thank you, Mr. Chairman.
    The Chairman. The second panel consists of the gentleman 
who has been referred to several times already today, John 
Shattuck, Assistant Secretary of State for Democracy, Human 
Rights, and Labor. If you will come forward, sir.
    You may proceed. We welcome you here and appreciate your 
coming to discuss it with us and perhaps answer some questions.

 STATEMENT OF HON. JOHN SHATTUCK, ASSISTANT SECRETARY OF STATE 
             FOR DEMOCRACY, HUMAN RIGHTS AND LABOR

    Mr. Shattuck. Thank you very much, Mr. Chairman.
    I do have a lengthy statement which I will submit for the 
record and summarize orally in a shorter period of time. I also 
have two other documents I would like to submit for the record. 
The first is a report that was done in July of last year, 
``U.S. Policies in Support of Religious Freedom: Focus on 
Christians.'' The second is an interim report of the 
Secretary's Advisory Committee on Religious Freedom Abroad, if 
you would allow me to submit those.
    The Chairman. Without objection, both will be included and 
printed in the record. \1\
---------------------------------------------------------------------------
    \1\ The reports submitted by Mr. Shattuck, ``U.S. Policies in 
Support of Religious Freedom: Focus on Christians,'' and ``Advisory 
Committee on Religious Freedom Abroad, Interim Report to the Secretary 
of State,'' have been retained in committee files and may be viewed 
upon request. Both reports are also available on the Internet at the 
following Web Sites:

    http:www.state.gov/www/global/human__rights/
970722__relig__rpt__christian.html
    http:www.state.gov/www/global/human__rights/
980123__acrfa__interim.html
---------------------------------------------------------------------------
    You may proceed.
    Mr. Shattuck. Thank you very much, Mr. Chairman.
    Mr. Chairman, I really would like to thank you for the 
opportunity to appear before you on what is clearly a momentous 
matter. As both Senator Lieberman and Senator Nickles have 
indicated in their testimony, this is a subject of profound 
importance to our country, to our administration, and I know to 
the Congress.
    The administration has been privileged to work closely with 
the members of this committee to address a wide variety of 
human rights issues, and we applaud your efforts on human 
rights and religious freedom. We look forward to working with 
you on this particular matter of crafting appropriate responses 
to the crisis of religious freedom abroad.
    Mr. Chairman, the President and the Secretary of State have 
demonstrated to our friends and foes alike that advancing 
religious freedom is a matter of the highest concern in our 
foreign policy. Religious freedom is a basic right, a concept 
basic to every one of the world's major belief systems. It is 
an internationally recognized human right. The Universal 
Declaration of Human Rights and the International Covenant on 
Civil and Political Rights recognize that all citizens have the 
right to freedom of thought, conscience, and religion. This 
right is inherent in the dignity of every human being. No 
government can legitimately deny it, no matter what the 
justification, for it is universal, inalienable, and endowed by 
virtue of a person's birth.
    Unfortunately, there are some in the world today who refuse 
to recognize the right to religious freedom. Whether Christian, 
Muslim, Buddhist, Jew, Hindu, Baha'i, or of another creed, 
believers around the world continue to suffer for their faith.
    Take, for example, the case of Ayub Masih, a Christian from 
the village of Arifwala, Pakistan, who has been sentenced to 
death for blasphemy. His crime? A Muslim neighbor had accused 
him of making derogatory statements against Islam. In spite of 
his denials of the charge, Masih is now sentenced to die.
    Last Friday Karl Inderfurth, the Assistant Secretary for 
South Asian Affairs, and I met with Pakistan's Ambassador to 
deplore and condemn the imposition of a death sentence on any 
individual for the peaceful expression of his beliefs and to 
call upon the government of Pakistan to repeal their blasphemy 
law.
    We also expressed our sorrow at the tragic death of Bishop 
John Joseph, who dedicated his life to defending the rights of 
all religious minorities to worship freely, and we expressed 
deep concern over reports that Pakistani troops had fired tear 
gas at mourners during the bishop's funeral procession.
    Mr. Chairman, suppression of the right to religious freedom 
not only is an intolerable invasion of an individual's basic 
human rights, it also can lead to grave consequences for 
political and economic stability. If people lack the freedom to 
practice their faith, it is likely that other human rights will 
be restricted, that intolerance and violence will be more 
prevalent, and that liberty and justice will be impeded.
    In Sudan, a bloody civil war fueled by an extremist 
regime's intolerance of Animists, Christians, and some Muslims 
has continued unabated. Iran's religious minorities continue to 
experience discrimination and persecution, particularly 
Evangelical Christians and Bahai's. In the aftermath of the 
Pope's visit to Cuba, Mr. Chairman, the government still 
maintains extensive restrictions on religious activities. The 
church has little or no access to the media and cannot publish 
religious material, sponsor social events, or establish 
schools.
    In Russia, a new restrictive and potentially discriminatory 
religion law could affect minority religions, including some 
offshoot Orthodox groups. The President has repeatedly raised 
our concerns about this new law with President Yeltsin and will 
submit a report to Congress on this issue later this month.
    In China, unofficial religious groups, including 
Protestants and Catholics, have experienced varying degrees of 
oppression. In some areas house and unofficial churches worship 
without interference, while in other areas religious believers 
have been subjected to tight restrictions and harassment. In 
Xinjiang and Tibet, tight controls on religion have continued 
and in some cases intensified.
    Mr. Chairman, these are just a few examples of the 
violations of religious freedom that we see in many parts of 
the world today. This administration is committed to 
confronting these violations, has done a great deal to address 
them no matter where they occur. I would like to outline some 
of the steps we have taken to implement the commitment that has 
been made by both the President and the Secretary of State.
    First, we have significantly increased our diplomatic work, 
starting when Secretary Albright took office and immediately 
directed all U.S. Ambassadors to make religious freedom a top 
priority. Let me give you a few examples.
    During our trip 10 days ago to China, Secretary Albright 
and I raised the issue of religious freedom at the highest 
levels, including with President Jiang Zemin. Last Saturday we 
received word that two of the individuals whose cases we 
raised, Bishop Zeng Jingmu and Father Lu Gengyu, have been 
released from prison. This is a positive development, but we 
are concerned by reports that Bishop Zeng has been placed under 
house arrest. Furthermore, these cases are only two among many. 
We have called upon the government of China to respect the 
rights of its citizens to express their faith freely and to 
release all those held for peaceful expression of their 
religious or political beliefs.
    In Turkey last year, the Governor of the province of Mardin 
suspended permission for the Syriac Orthodox Church to provide 
religion and language classes to the local population. This 
decision came after a dispute over the renovation of the 
church's fourth century monastery, leading to a police order to 
halt work. In February, on my most recent trip to Turkey, I met 
first with the Governor and then with Metropolitan Aktas and 
brought them together. I secured from the Governor a promise to 
extend written authorization for religion and language classes 
to resume and to permit church officials to move forward with 
their renovation of badly deteriorating religious buildings.
    In Saudi Arabia, freedom of religion does not exist, as the 
government prohibits the public practice of religions other 
than Islam. Secretary Albright and Ambassador Wyche Fowler have 
encouraged the Saudi government to make progress on religious 
freedom. We note as a positive development that Defense 
Minister Sultan stated publicly last fall that the Saudi 
government now does not prohibit non-Muslim worship in the 
home.
    In Vietnam, Ambassador Pete Peterson has been forceful in 
challenging the government's restriction of religious practices 
and control of organized religious activity. The Ambassador 
instructed his staff to establish broad contacts with Catholic, 
Protestant, and Buddhist groups and to visit churches and 
temples in Hanoi and the countryside. In addition, Ambassador 
Peterson has intervened on behalf of American citizens 
penalized for importing religious materials and Vietnamese 
citizens under arrest for the peaceful expression of religious 
beliefs.
    There are many other examples. Let me just give you a few 
more. In Austria, the embassy, the U.S. embassy, engaged the 
foreign ministry on behalf of non-recognized religious groups 
that had problems obtaining resident permits for foreign 
religious workers. In response, the Austrian government adopted 
administrative procedures that helped alleviate the problem.
    In Greece, the embassy staff traveled to Crete to 
investigate problems of a charismatic Christian group that the 
government had not allowed to proselytize. The visit resulted 
in the government entering into a dialog with the group.
    In Laos, Ambassador Chamberlin intervened to secure the 
release of a number of American and Lao Christians detained for 
the peaceful expression of their religious beliefs. She 
emphasized the importance to the United States of upholding 
international standards on human rights, including religious 
freedom.
    Along with this type of intensive diplomatic activity, 
which I should say, Mr. Chairman, is now an order from the 
Secretary to occur virtually worldwide, the State Department 
has significantly expanded its public reporting on limitations 
to religious freedom in our annual country reports on human 
rights practices which provide information on 194 countries and 
territories with new and expanded consideration and treatment 
of religious freedom.
    The United States also employs targeted restrictions on 
countries, including economic sanctions, trade limitations, and 
visa restrictions. After Deputy Assistant Secretary of State 
Gare Smith traveled to Sudan last summer to gather information 
on religious persecution, slavery, and prospects for a peaceful 
end to the civil war, President Clinton imposed sweeping new 
economic sanctions against the government of Sudan based on 
those findings.
    The Secretary has also taken action to institutionalize the 
U.S. Government's commitment to religious freedom abroad. One 
demonstration of this approach is her interaction with her 
Advisory Committee on Religious Freedom and her move to 
implement its recommendations, which I have submitted for the 
record.
    The advisory committee's 20 members are U.S. religious 
leaders who represent millions of Americans of all major faiths 
and denominations. The committee's interim report of January 
1998 provides many practical recommendations on how U.S. policy 
can more comprehensively integrate protection and promotion of 
religious freedom abroad.
    The Secretary accepted the advisory committee 
recommendation to establish a senior level position and office 
in the Department of State to coordinate, integrate, and 
implement policies that institutionalize the promotion of 
religious freedom in our foreign policy. This will be a major 
position at the level of deputy assistant secretary. We 
anticipate being able to announce the Secretary's selection for 
this position in the very near future and will consult with 
you, Mr. Chairman, and other Members of Congress on this 
important decision.
    The administration has also been a leader in religious 
reconciliation and interfaith cooperation in countries torn by 
religious and ethnic conflict. Consistent U.S. leadership has 
been critical to the peace processes in the former Yugoslavia, 
in Northern Ireland, and in the Middle East, where the work is 
so difficult.
    Our work to promote human rights, justice, and the rule of 
law also facilitates religious reconciliation. For example, the 
United States was the leader in creating the International 
Commission on Missing Persons in Bosnia. The commission is 
chaired by former Senator Bob Dole, who is doing an outstanding 
job of applying pressure to the regional parties throughout 
former Yugoslavia to expedite resolution of missing persons 
cases, providing assistance to the families of the missing, and 
supporting the exhumation process and identification of remains 
where possible.
    At the heart of the conflict in the former Yugoslavia was, 
of course, the terrible attacks on people based upon their 
religion, and the Dole commission is at the heart of our 
efforts to promote religious and ethnic reconciliation of the 
region.
    We are also working to strengthen our commitment to 
religious liberty through our role in the asylum process. We 
have stepped up our support for INS asylum officers and 
immigration judges by providing them with expert advice on 
religious freedom conditions and recent political developments 
overseas. We have in the past year been reporting additional 
information to the INS on conditions of religious freedom in 
countries around the world, so that they can take much more 
active involvement in providing access to asylum.
    Mr. Chairman, I think this summarizes briefly the 
administration's actions and efforts and views on the 
importance of promoting religious freedom in our foreign policy 
and the problems and crises of religious freedom around the 
world.
    With that important background, let me now turn to the work 
before this committee, S. 1868, the International Religious 
Freedom Act. We commend the bill's sponsors and certainly 
support the objectives of eliminating religious persecution and 
promoting religious freedom. We appreciate the efforts of 
Senator Nickles and you, Mr. Chairman, and other sponsors, 
including Senator Lieberman and other Senators on the 
committee, to craft a bill that reflects our shared focus on 
these issues. We recognize that this Congress, like this 
administration, has focused far greater attention on this issue 
than any of our predecessors.
    With this in mind, we remain committed to engaging with you 
on this matter. We seek to work with you to advance religious 
freedom through a variety of means. Such efforts will send a 
strong message that both the administration and the Congress 
stand united in support of religious freedom around the world.
    As I have outlined, Mr. Chairman, we are actively engaged 
in this struggle. Considering further initiatives, we believe 
that legislation best serves our mutual goal of promoting and 
upholding religious freedom when it consolidates and 
strengthens existing mechanisms, rather than creating new ones 
in their stead.
    With that in mind, let me summarize our position on the 
legislation. I am pleased that your staff is working with us to 
discuss these issues in greater detail so that we might best 
address concerns that we have in the bill. We want to work with 
you so that, as Senator Nickles said, we can strengthen our 
efforts to respond to religious persecution in a way that does 
not do more harm than good.
    We have specific concerns about the bill's sanctions and 
reporting mechanisms, its definition of religious persecution, 
its waiver provisions, its mandating of new reports without 
providing additional resources, its creation of overlapping new 
institutions, and its establishment of a hierarchy of human 
rights which appear to treat religious persecution as more 
serious than other types of human rights abuses.
    Our first major concern is the bill's requirement that the 
President impose one or more of 16 executive actions and 
economic sanctions on any country publicly identified in a 
report as engaging in or tolerating religious persecution. We 
are concerned that the bill's annual public designation of 
sanctionable countries does not leave room for incentives and 
dialog in promoting religious freedom of the kind that I have 
been talking about encouraging further improvements in some 
countries.
    As I have discussed, positive results can be achieved by 
stepped up and carefully planned diplomacy. We also believe the 
sanctions provisions could be counterproductive. In particular, 
while imposition of sanctions is likely to have little direct 
impact on many governments except to cutoff our diplomatic 
channels, it could at the same time run the risk of 
strengthening the hands of those governments and extremists who 
seek to incite religious intolerance.
    We fear that sanctions could result in greater pressures in 
some countries and even reprisals against minority religious 
communities. We also believe that sanctions could have adverse 
impact on our diplomacy in places like the Middle East and 
South Asia, undercutting administration efforts to promote the 
very regional peace and reconciliation that can foster 
religious tolerance and understanding.
    Our second major concern is the bill's definition of 
religious persecution: ``Any limitation on the right to 
religious freedom,'' without specifying a threshold of severity 
to make a country sanctionable. We agree that all violations of 
the right to religious freedom are important and must be 
addressed. They should not, however, all be categorized as 
religious persecution, which has a particular meaning in 
domestic and international law.
    With so broad a definition, the term ``religious 
persecution'' would lose its meaning and power, thus making it 
difficult for the United States to address serious or 
widespread violations and secure positive change. In fact, a 
majority of the countries in the world, many with overall good 
practices on religious freedom, could under the definition in 
the bill be categorized as engaging in some form of religious 
persecution.
    In Austria, for example, religious groups that qualify for 
registration and recognition are granted certain benefits and 
subsidies, but that is not available to other groups, and 
registration at the same time is not in fact required nor is 
freedom to worship restricted. The bill thus could designate an 
entire country as a persecutor without necessarily looking at 
the distinctions about what is being done.
    Our third major concern is the nature of the bill's waiver 
mechanism. Under the bill the President could waive sanctions 
for reasons unrelated to religious freedom if he determines 
that such a waiver would be in the national security interest 
of the United States. We believe, Mr. Chairman, that national 
security is too high a standard and could unduly limit the 
President's ability to protect a wide range of important, 
potentially vital national interests unrelated specifically to 
security.
    A change in the waiver standard from national security to 
national interest would ensure that all the interests of the 
American people are protected by the bill.
    Our fourth concern is that the bill would create 
significant new reporting, training, and other requirements 
without providing for additional resources. As our recent 
practice so clearly indicates, we understand and appreciate the 
desire of Members of Congress for expanded monitoring and 
reporting on religious freedom issues, and we are prepared to 
work with you to explore efforts to broaden our already very 
significant reporting activities. But we fear the current 
provisions of the bill are not workable.
    According to the bill's provisions, five separate reports 
would have to be prepared each year. First, the annual country 
reports on human rights practices, which would be released on 
January 31st; second, the annual report on religious 
persecution, which would be due on May 1st; third, the 
Presidential determination and intended action, to be concluded 
by June 1st, 30 days after the submission of the annual report; 
fourth, the report of the new Commission on International 
Religious Persecution would be due on August 1st; and finally, 
the President's report to Congress on his determination and 
intended action would then follow a month later on September 
1st.
    These reports, certainly all important, are very time and 
staff-intensive. The preparation of the country reports alone 
involves embassy personnel, officers from all over the world, 
and approximately half of the staff in my bureau, who work on 
the reports throughout the year, but particularly intensively 
for three months.
    We estimate that the additional reporting requirements of 
the bill could more than triple the workload and decrease the 
ability of staff to respond to other urgent human rights 
concerns, including on violations of religious freedom. The new 
reporting requirements also could obligate the Secretary to 
identify other human rights programs to be cut or eliminated in 
order to implement these unfunded mandates.
    Our fifth and final concern, Mr. Chairman, is the bill's 
creation of new institutions that overlap existing ones. The 
bill would establish an ambassador at large and an office on 
religious persecution in the Department of State, with the 
advice and consent of the Senate. The Ambassador would chair a 
new commission on international religious persecution.
    We believe that any legislation should consolidate and 
strengthen existing mechanisms rather than create new ones. The 
Ambassador at large position frankly largely duplicates that of 
the soon to be designated senior coordinator for religious 
freedom, and the commission in large part replicates the work 
of the Secretary's advisory committee. We are sure that these 
issues could be resolved.
    In conclusion, Mr. Chairman, we look forward very much to 
working with the committee, as I have said throughout my 
testimony, to strengthen our mutual commitment to promote 
religious freedom, including in this legislative area. The 
President and the Secretary of State have by word and deed 
demonstrated that the promotion and protection of religious 
freedom is a top priority. This committee under your leadership 
has also played a leading role. In our efforts, we are joined 
by many courageous men and women around the world, for whom 
this is not merely a matter of principle, but a matter of great 
courage and faith, and we must not let them down.
    Acting alone, neither the administration nor the Congress 
can hope to accomplish this important task.
    I commend the authors and sponsors of the bill for their 
efforts and for their contributions to the debate about 
religious intolerance and discrimination and U.S. policies to 
address this important concern. We welcome the initiatives and 
look forward to working with you to develop means to meet our 
shared goals. Only then will we be able to stop those what 
would oppress religious freedom and to help those who would 
promote it.
    I thank you, Mr. Chairman, for bearing with me through what 
I am sure was a lengthy statement for this committee. Thank you 
very much.
    [The prepared statement of Mr. Shattuck appears in the 
Appendix.]
    The Chairman. To the contrary, it is a very excellent 
statement of your views, and there does not seem to be an 
obstacle to getting this job done. If we work together, and you 
have indicated you are willing to work with us, and I hope that 
has been a mutual feeling, then we can get this thing done.
    Incidentally, we are going to take five minutes per 
Senator.
    On Monday, April 27th, I believe it was, the President 
dropped in on a meeting involving Sandy Berger and a group of 
church leaders from the National Association of Evangelicals. 
It so happens I met with the same group the next day. The 
President said, and I quote from the April 28 New York Times, 
this is the President speaking: ``What always happens if you 
have automatic sanctions legislation is it puts enormous 
pressure on whoever is in the executive branch to fudge an 
evaluation of the facts of what is going on, and that is not 
what you want. What you want,'' the President said, continuing, 
``is to leave the President some flexibility, including the 
ability to impose sanctions, some flexibility with a range of 
appropriate reactions.''
    Now, when I read that I thought to myself: Good Lord, how 
often does this sort of thing happen? Ironically--track with me 
if you will, sir--does not S. 1868 provide the President with 
precisely what he is asking for, as he puts it, ``some 
flexibility, including the ability to impose sanctions, some 
flexibility with a range of appropriate reactions''?
    Even the bill that we have to work on together at least 
does that. Yet that is the only criticism the President stated, 
and I think confusingly so.
    What is your reaction to what he said in connection with 
this bill?
    Mr. Shattuck. Well, Mr. Chairman, I think the President 
rightly was indicating the difficulty of making precise 
decisions on when sanctions or other measures might be imposed. 
And those are difficult decisions. That said, I stand very 
strongly behind the accuracy of our Country Report. The 
President himself has made this point again and again regarding 
the accuracy of the human rights reporting that has been done 
by this administration. The Country Reports that you receive 
every year are carefully compiled from sources all over the 
world. We basically spare no pains to state facts, no matter 
how painful they may be to close allies as well as to countries 
with whom we have significant and even deep differences. Human 
rights and nongovernmental organizations have repeatedly 
praised the quality of the reporting on these human rights 
issues as they have come in, including the religious freedom 
questions.
    So I think the accuracy of the reporting is very, very 
clear, as is the large amount of information that we have 
compiled. There is no one size fits all approach toward any 
country in terms of what a response could be. Every country has 
to be addressed in a different way, and I think that indeed is 
the point that the President was making underneath his 
statement.
    The Chairman. Well, I just do not want to enter into an 
arrangement by which there is fault-finding in the beginning to 
forbid or prevent any progress on this thing. Now, if the 
President is not interested in doing this I wish he would tell 
me right now, instead of letting me hang fire and this 
committee hang fire.
    Let me go to another question. This past weekend their was 
reported that the Catholic bishop of Shanghai was released from 
prison and our former colleague Jim Sasser stated at the time 
that ``his release serves as further evidence that the 
President's policy of constructive engagement is bearing 
fruit.''
    In today's papers, however, it is reported that Bishop Zeng 
is not really free. In fact, he is under house arrest, and you 
confirmed that in your written statement. The bishop was jailed 
in 1995 for holding unauthorized services in a private home. He 
has spent the last 23 years of his life in jail because of his 
allegiance to God and the Vatican instead of the official 
state-controlled Chinese church.
    Now, what does this tell you about the President's policy? 
Is it not a failure at the outset? And that is precisely the 
reason I think, is it not, why S. 1868 is necessary?
    Mr. Shattuck. Well, Mr. Chairman, let me just make clear 
for the record what we know and what we do not know about the 
circumstances surrounding Bishop Zeng following his release. It 
has been, as I said in my statement, reported that he is under 
house arrest. We have not been able to verify that as of the 
moment that this hearing got under way. We are asking the 
embassy to find out whether that is in fact the case, but we do 
not have any confirmation that that is the case.
    The fact that he was released, of course, that is to say 
that his sentence was commuted and that he was released from 
prison, and he was not asked to leave the country is a positive 
development. There was another Catholic prelate who was 
released at the same time.
     Let me be very clear--we are not inflating these issues 
nor are we inflating this progress. There are plenty of others 
who remain in prison, whose cases we are very actively 
pursuing. When I was in China with Secretary Albright, at the 
Secretary's direction I met with the director of the bureau of 
religious affairs and raised many cases of religious figures 
who are in prison, both in China and Tibet.
    The Chairman. We could mess around with that a little bit, 
but I just do not want to play against a stacked deck on this 
thing. I want all of us, both him and us, to put up or shut up 
on this business. We are willing to put up, and I do not want 
any contrived reason for doing this or not doing this. Senator 
Robb.
    Senator Robb. Thank you, Mr. Chairman. Thank you, Secretary 
Shattuck, for what I would certainly agree with the chairman 
was a very thorough response to the legislation that has been 
proposed.
    First let me--and I will be very brief because I know 
others would like to ask questions and we are supposed to have 
a vote here on the floor in just a minute or two. You made 
reference to the Wolf-Specter legislation and what have you. I 
assume from your comments that you have less concern about this 
legislation than that legislation. I do not like to generalize, 
but I would assume that if we were to start or if the 
administration were to assume a starting point for trying to 
actually enact legislation, as the chairman suggests, that you 
would prefer to work from this particular bill rather than that 
bill as the starting point for full consideration and 
suggestion of amendment. Is that correct?
    Mr. Shattuck. Well, there is certainly a fundamental 
difference between the two bills in the immediacy and 
automaticity of the sanctions provisions in the Wolf-Specter 
legislation, where the sanctions immediately follow from a 
finding of persecution by an office which is not connected 
directly to the Secretary of State or the President's National 
security Adviser in a formal way. That automatic triggering of 
sanctions is a very, very serious concern. It would do far more 
harm than good, we believe, in promoting religious freedom.
    This bill takes a different approach. It does provide for 
somewhat more flexibility. But as I have outlined, we are 
frankly concerned about the scope of the definition of 
religious persecution. It is very, very broad. We are concerned 
by the fact that many countries--many, many more probably than 
Wolf-Specter--would very possibly fall into the scope of public 
reporting and sanctionability. That is, a country would be 
identified as sanctionable based on a finding of a single act 
or occurrence of persecution, broadly defined as any denial of 
religious freedom.
    While that is a different approach, it nonetheless raises 
still some very fundamental questions, because it involves 
publicly branding a large number of countries at the outset on 
an annual basis through this reporting process as sanctionable.
    We would like to work with the committee to try to address 
that issue. But it is certainly true that there is more 
flexibility in terms of the range of responses that are 
available to the President and the Secretary of State under 
this legislation.
    Senator Robb. Many of us have difficulty with any provision 
in legislation that has an automatic trigger for sanctions or 
sanctionable actions, whatever the case may be. But with 
respect to this legislation, are there sanctions provisions 
that you believe that could be worked out that would be 
entirely acceptable to the administration? You mentioned the 
definition of religious persecution and what have you is a 
problem, and definitions are always a bit of a problem. But 
with respect to sanctions, is it possible to come up with 
language that the administration would support in this area?
    Mr. Shattuck. Well, it is both the definition of religious 
persecution, Senator Robb, and the annual requirement that 
countries that are sanctionable in the terms of that definition 
be publicly identified. Those are really at the heart of the 
scheme of the bill, the structure of the bill that sets up the 
response process.
    We agree with the menu in the sense that every one of the 
items listed in the menu of responses is an available and 
appropriate response for the administration to make in some 
circumstances where religious freedom is being denied. In 
really egregious cases, after exhausting all other approaches, 
sanctions may be appropriate, as in the case of Sudan, for 
example, as I mentioned in my testimony.
    But if there is an automatic requirement that a sanction be 
chosen following this public identification of a country as 
sanctionable, that undercuts our ability to be able to have the 
kind of dialog that I was talking about that so many of our 
Ambassadors are engaged in. And frankly, in the event that 
action is taken by this kind of strong measure on the outside, 
it could also deeply affect religious minorities in countries 
such as Egypt, let us say, where repeated reporting has 
indicated that there are real threats to particularly the 
Coptic Christian minority.
    So we are concerned about the automatic requirements. There 
are some more flexible provisions in here, to be sure.
    Senator Robb. My time has expired. I have an additional 
question that I will put to you perhaps in writing, with 
respect to the definitions and the differentiation between 
political and religious beliefs and persecution.
    Mr. Chairman, I thank you. I thank you, Mr. Shattuck. 
Senator Grams.
    Senator Grams. Thank you very much, Mr. Chairman.
    I think it is great that the committee is holding this 
hearing today to look at some of the problems that this bill is 
aimed at, the International Religious Freedom Act. I think, as 
other members on this committee are, we are all concerned about 
human rights abuses of all kinds, including religious 
persecution, and we all hope to find ways to speak out against 
these injustices, to try to find some way to have some 
influence.
    Yet, as I have said many, many times, I do not believe that 
a club-over-the-head approach is the best way to accomplish the 
intended purpose. I know this bill provides some options and 
waivers and Senator Nickles and Senator Lieberman did a great 
job pointing out the serious problems of abuses around the 
world in many different countries that this bill aims to 
expose.
    But my concerns are that we may be using the wrong weapons 
in confronting these abuses documented in many of these 
countries, and I humbly believe that they will not work. I 
think it would probably only slow down any progress that we 
have made.
    I know that Senator Nickles said that if anybody has any 
better ideas that he would like to hear them. Well, I do not 
have a good idea right now to add to this, but I think that is 
a good reason why we should maybe expand the hearings and at 
least take a longer period of time to examine some of the 
options that this committee has before we go ahead and rush 
into something that would be counterproductive.
    Having said that, I would like to know how you define 
``gross violators'' under this act, and where do you draw the 
line between the gross violators that are to be sanctioned and 
subject to Congressional disapproval and the rest of the 
countries, which can receive lesser sanctions against them? Who 
will determine that?
    Mr. Shattuck. Well, Senator Grams, current law actually 
provides strong authority for our whole human rights work in 
this field. Section 502(b) of the Foreign Assistance Act at the 
moment gives us strong authority to make decisions to withhold 
U.S. assistance from countries that are engaged in large-scale 
human rights abuses.
    We do not feel that it serves any useful purpose to have a 
list that is put out on an annual basis. In fact, that, 
frankly, I think would make us less likely to withhold 
assistance in a broader number of cases where we should be 
withholding assistance, because then you would only do it in 
that relatively narrow group.
    We think current law is perfectly adequate to assure that 
the taxpayer dollars of the United States, in the form of 
direct financial assistance other than for purely humanitarian 
purposes, are not going to go to countries which are engaged in 
widespread patterns of abuse.
    The legislation, frankly, goes way beyond the existing law 
in that it mandates an annual report, not only on countries 
that engage in broadly defined religious persecution, but also 
on a narrow category of countries that are engaged in gross 
violations. Again, we think that would significantly set back 
the process of advancing religious freedom in these countries. 
It could target those religious minorities that are going to be 
accused of fomenting U.S. actions against countries. It also 
would limit our ability to engage in the kind of aggressive 
diplomatic engagement that we have shown in so many countries 
that I went over, including Vietnam, Laos, China, and other 
countries which are particularly important subjects of our 
concern about religious freedom.
    Senator Grams. I know we have heard from missionary groups 
around the world that have told us that a lot of these type of 
sanctions are counterproductive and, as you have mentioned, it 
has reversed progress that has been made.
    But withholding foreign aid is one thing to penalize 
somebody, but to put sanctions on trade opportunities is quite 
another, because we know that this is a global market and if we 
put sanctions on our companies' ability to trade it just opens 
the door for other countries and then we lose our ability to 
have influence. I think as we have influence and people are 
exposed to our freedoms--and this is the quiet diplomacy that I 
think works well--that people demand more from within their 
countries than what we can throw stones or from outside.
    But one other question just quickly before my time runs 
out. What would you envision to be gross violations, or what 
countries would be determined to be gross violators? And is 
this going to put pressure not only on this administration, but 
others, to fudge the decision a little bit, as I think the 
chairman said, so some countries are not determined gross 
violators. Does this help our efforts to combat religious 
persecution?
    Mr. Shattuck. Well, if you have a list it gets very 
difficult, as you are suggesting by your question, to make that 
yearly determination. Is a country on or is a country off? That 
is not a question of fudging. It is a question honestly of the 
difficulty of making that kind of very fine distinction.
    So the approach that we take, and I think it is the right 
approach, is to in fact be very broad in our view of what 
constitutes a violation and find an appropriate tool to 
respond, including in some instances sanctions, there is no 
question about it. And we all know the countries that are under 
sanctions right now. The Congress and the administration have 
worked very closely together on that.
    Senator Grams. They should be a last resort, though?
    Mr. Shattuck. As a last resort, right.
    Senator Grams. The sanctions.
    Mr. Shattuck. Right.
    Senator Grams. I did not mean to interrupt you, but I know 
we do have some sanctions, so we are not ruling out sanctions 
altogether. But they should not be one of the first tools out 
of the box, to combat religious persecution.
    Mr. Shattuck. Right. But I do think that the annual 
requirement of identifying countries as sanctionable is itself 
going to impede the ability to address the persecution that we 
are talking about here. It will put all of our energy into 
making that kind of a determination, and then will limit our 
ability to engage with the countries to try to get the kinds of 
changes that we want. And in some cases it will have a severe 
negative impact on religious minorities inside the country.
    Senator Grams. Thank you very much, Mr. Chairman. I will 
have additional questions in writing.
    Thank you very much.
    Senator Hagel. Without objection. Senator Wellstone.
    Senator Wellstone. Thank you, Mr. Chairman.
    I am not going to being able to come back, Secretary 
Shattuck, so I thought, first of all, one quick comment and one 
quick question before running to vote.
    I think it was unfortunate the President mentioned, talked 
about fudging, because I think the assumption some could make 
would be, well, if these reports will be what triggers 
sanctions, how much faith can we put in the reports? And I was 
glad to hear your response on this question.
    I have a somewhat different framework. Putting aside the 
whole issue of trigger, and you've talked about why you are 
opposed to that, what about the whole question of creating a 
kind of a hierarchy of human rights? In other words, to focus 
on religious persecution, but then there are other human rights 
violations that are terribly important--the right of 
association, freedom of the press.
    Do you have some concern about ways in which this piece of 
legislation creates that hierarchy? I mean, from my own, let me 
just simply say, I do. I think persecution is persecution, and 
we also have some universal declarations dealing with human 
rights. I am interested in having a broader, more encompassing 
approach.
    Could you respond briefly?
    Mr. Shattuck. I agree, Senator Wellstone, and I mentioned 
in my opening statement that the issue of distinguishing 
between one human rights and another in terms of the way in 
which it is going to be treated and the way in which our 
country is going to respond to its denial is a serious concern, 
and it would be I think a tragic mistake for us to send a 
signal around the world that we are going to take more 
seriously one particular human rights than we are torture, 
extra judicial executions, denials of free speech, genocide, or 
anything else.
    Senator Wellstone. Mr. Chairman, there are some 70 
countries that today use torture, systematically torture their 
citizens. It would seem to me that we ought to make sure that--
I mean, I am absolutely opposed to religious persecution. That 
does not even need to be said. But I think we should also look 
at these other human rights issues.
    If anything, I would like for the administration to be much 
stronger on these questions, much stronger.
    Mr. Shattuck. We think it is best to address the range of 
human rights abuses that occurs in so many countries in a 
consistent way, so that they are all treated as equally 
important to the extent that they are equally severe. By 
contrast, we think the framework of the legislation, that is 
establishing on an annual basis, a group of countries who are 
sanctionable, would not be the right framework to pursue even 
if the hierarchy were eliminated. That is to say, let us say, 
all human rights were included within this approach.
    Senator Wellstone. I understand. We may disagree on that.
    Mr. Shattuck. Right.
    Senator Wellstone. I just wondered.
    We have to vote? You are not voting?
    Senator Hagel. Yes, I am voting. But I have the prerogative 
of the chair, Senator, so they will hold it open, I think.
    Senator Wellstone. Thank you.
    Senator Hagel. Thanks, Senator.
    Mr. Secretary, it is just you and me. Thank you again for 
coming up here.
    Obviously, I am going to be interrupted during my 
questions, but I would like to get at two specific things that 
are in this bill, and then when I get back maybe we can close 
it.
    You I believe did not mention in your testimony or 
reference the International Criminal Court that is in this 
bill. That is a concern for a lot of reasons, I think, to many 
of us. Would you care to reference that? Is that good, bad? 
What are your thoughts?
    Mr. Shattuck. Senator, you are catching me a little by 
surprise. I could certainly talk a bit about the International 
Criminal Court. Its inclusion specifically in this bill I am 
afraid is something that I missed. I am being very candid with 
you here.
    I think the issue of an International Criminal Court is an 
important one, one we want to work closely with the Congress 
on. I do not believe we have any problem with the provision in 
the bill relating to the International Criminal Court as such. 
I do not think the administration is going to address any 
concern about the bill's approach to this.
    Senator Hagel. The other area is the cultural and 
educational exchange cutoff, which you may or may not be 
familiar with. I would be interested in your thoughts on that.
    Mr. Shattuck. Well, you know, except in countries to which 
we have applied severe sanctions and which we are trying to 
isolate, cultural and educational exchanges are generally very 
valuable in terms of developing means by which we can influence 
the broader civil society. Such exchanges can be valuable even 
in countries which may be engaged in some kinds of religious 
persecution as defined by the bill.
    So we feel those kinds of exchanges are extremely important 
and need to be protected.
    Senator Hagel. So does that mean that you would be for or 
against the way this is written in this bill?
    Mr. Shattuck. Well, I think to the extent that the bill 
mandates or calls upon us to cutoff those kinds of exchanges, 
except as a last resort where we have decided to isolate a 
country, I think we would be against cutting off those kinds of 
things.
    Senator Hagel. It is my understanding in a recent briefing 
by the State Department to some of the staff people here that 
you had referenced that in fact this bill as it is written 
could take in as many as 120 nations in the world where 
religious discrimination takes place. Is that accurate? Is that 
right?
    Mr. Shattuck. I think it is, Senator. I looked at this very 
closely last summer when we were doing our report on relating 
persecution worldwide, and we used a fairly narrow definition, 
narrower, frankly, than the bill before us uses. Even under 
those circumstances, we found it important to cover 86 
countries.
    Now, when you have a definition that is as broad as the one 
in this bill, which is basically any act in violation of 
religious freedom, it could be read to include, I think, 
discriminatory actions on behalf of one religion versus 
another. I mentioned the example of Austria which actually does 
provide some benefits to one religion and not to some others, 
even though nobody is required to register and people are 
allowed to continue to exercise their religion.
    It could reach that kind of situation. I think quite a 
number of countries which have very good human rights records 
by and large would be sanctionable in the context of the 
definition of the bill.
    Senator Hagel. How would you handle Germany, for example, 
regarding the Scientologists?
    Mr. Shattuck. Well, I think Germany is another example of a 
country which could be affected by this legislation. How to 
handle it in the context of the Scientologists and handle it in 
the context of its restrictive approach toward what it broadly 
defines as religious sects--and sometimes that can include 
religious minorities, many others other than Scientologists.
    We are engaged very aggressively with Germany in a dialog 
on this subject. We have some disagreements. That does not 
prevent is from being allies, very important allies, to promote 
religious freedom in other parts of the world where there are 
more severe violations.
    I think were we to identify Germany as a sanctionable 
country, which we would have to do under the provisions of this 
bill, it would be far more difficult to work with Germany, say 
in Bosnia or in some other country. We would really end up with 
a pretty irritating relationship as a result of that 
sanctionable designation.
    Senator Hagel. I have always been concerned with these kind 
of bills, as well intentioned as they are, and obviously we all 
agree with the objective here. But one of the concerns I have 
is that this would, I think, tend to isolate the United States 
even more when we look at sanctions and we look at a blueprint 
for the rest of the world, our blueprint, at a time when there 
is a rather significant rate of diffusion of geopolitical, 
economic power in the world.
    I get to a point where I ask myself about this bill, is 
this even relevant to what we would hope to achieve. That, 
after all, should be always the objective of these things, not 
just a good headline for somebody or a feel-good resolution and 
then we build more infrastructure and more bureaucracy at the 
State Department and we have more paper and more reports, and 
really in the end are we doing much?
    Would you care to give me your thought on what I just said?
    Mr. Shattuck. Well, Senator, I think you stated a lot of 
truths in there. I do think that the most effective means of 
combating what we all agree is a serious problem of religious 
freedom in the world is to use different approaches for every 
country depending on what kind of leverage there is, what other 
countries are willing to work with us, what kind of dialog we 
can establish with those countries, how much engagement we 
have, what our economic interests are that allow us to in fact 
engage even more aggressively.
    I think there is a lot that we are doing. I think the 
Congress has had a very significant role, the American people 
had a very significant role, in engaging the executive branch 
in this administration to make the issue of religious freedom a 
very high priority.
    But I think if we try to do it in more of a one size fits 
all approach, there is a danger that we will be, A, isolated in 
the world, B, cause more harm than good in terms of religious 
minorities in countries that we are trying to help, and C, all 
of the various bureaucratic growth factors that you have 
mentioned in your statement.
    Senator Hagel. Mr. Secretary, that was quite eloquent.
    I am going to exercise the prerogative of the chair, 
because I do not think they will keep that vote open for me 
until 6 or 7 tonight. So I am, at the risk of suffering the 
Chairman's wrath, I am going to gavel a short recess to the 
committee hearing, and the Chairman I am sure will be back 
soon. So if you can just relax, and we appreciate your allowing 
democracy to go forward, Mr. Secretary.
    Mr. Shattuck. Thank you, Senator.
    (Recess, from 3:43 p.m. To 3:50 p.m.)
    The Chairman You are not going to believe this, but I got 
caught in the elevator. Did you ever have a stopped elevator 
with seven Senators in it? It gets pretty close.
    Senator Frist is on his way here and he will have some 
questions as I understand it.
    Now, I believe that you and Senator Wellstone may have 
touched on this in my absence. My question is--by the way, 
Secretary Albright is going to be in what we call the aluminum 
room about 5 o'clock testifying about the you know what in 
India and Pakistan.
    Some State Department officials are criticizing S. 1868 
because they claim that it promotes one type of human rights, 
the right to freedom of religious belief, at the expense of 
some other basic human rights. Now, I just do not understand 
that analysis of it. Therefore I cannot agree with it. But I 
think Secretary Albright disagrees as well. I think she and I 
agree on that, because she has made the U.N. Convention on the 
Elimination of All Forms of Discrimination Against Women one of 
her top priorities, as you know.
    Now, the point is this, sir. Are not the people smart 
enough to understand that concern about the abuse of one human 
right does not mean the other fundamental rights are less 
important? I think that is the question that is raised here. I 
would like to hear you explore that with me.
    Mr. Shattuck. Well, Mr. Chairman, the issue of whether this 
legislation focuses on one human right at the expense of others 
I know is a topic that has been debated. Senator Wellstone and 
I did have an exchange about that.
    To the extent that there is a special kind of sanctions 
approach or a special kind of response for the violation of one 
type of human right and not the same kind of response for 
others, then there would be a problem. It is the position of 
the administration that any violation of human rights in any 
country, to the extent that it is equally egregious, should be 
treated the same way. That is generally the approach that is 
taken.
    So if we were to be called upon to decide that a certain 
kind of measure was going to be taken especially for religious 
persecution as defined in the bill and not, say, for torture or 
extra judicial executions or some other kind of human rights 
violation in that country, then there would be a problem of 
hierarchy. We think we could certainly work with you and the 
committee to assure that there is a kind of common approach so 
long as the structure of the bill does not require an annual 
determination that countries are sanctionable and then 
something actually has to happen because they have been 
publicly identified as sanctionable. We think that is one of 
the problems in the bill.
    The Chairman. I think you are telling me, I hope, that 
there is not really a problem except perhaps in the drafting of 
one small part of this. Is that what you are saying?
    Mr. Shattuck. Well, I think so. The problem is more 
elsewhere. As I said, our main concern with the legislation is 
that on an annual basis, with a very broad definition of 
religious persecution, which is any act denying some form of 
religious freedom, annually all countries are going to have to 
be reviewed to see whether they are sanctionable or not 
sanctionable, and then they will be publicly identified as 
sanctionable.
    Once that public identification of sanction ability occurs, 
then it is much harder to do some of the other things that we 
would like to be able to do, that we think we have effectively 
been able to do. That is our main concern.
    The Chairman. I see. Well, I believe that I will look 
askance at any drafting that does not take care of that.
    With that, I am going to yield back the balance of my time 
to Senator Biden.
    Senator Biden. Mr. Chairman, I apologize. I had intended to 
be here for the whole hearing and I got tied up on another 
matter.
    John, it is good to see you.
    Mr. Shattuck. Good to see you, Senator.
    Senator Biden. I think this has been covered. Just tell me 
if it has and I will confer with staff. Most of us say ``I will 
read the record.'' I will not probably read the record, but I 
will confer with staff to find out whether this is correct.
    What you were just referring to, was that the low threshold 
here that constitutes what is to engage in or tolerate? I mean, 
is there a distinction made between a single act and a pattern 
of violation? Is that any part of what you are talking about?
    Mr. Shattuck. Well, there are two types of determinations 
that the bill requires the administration to make. One is 
annually. I think the date is the end of May. We would be 
required annually to review all countries of the world to see 
whether they have engaged in acts of religious persecution, 
which is any denial of religious freedom. It is broader than 
the current definition of religious persecution in the 
International Covenant of Civil and Political Rights and other 
forms.
    So that is a problem. So annually you would have to look at 
the very broad definition and, frankly, we think a very large 
number of countries would have to be identified and publicly 
branded at that point as sanctionable under U.S. law for 
religious persecution.
    Then there would be another finding to determine whether 
they are engaged in gross violations, and then there would be a 
narrower group of countries that would have to be identified as 
gross violators, again on an annual basis. Every year you would 
have to make that decision. Is a country in or is a country 
out?
    That basic structure, that main point of the bill, is 
really at the heart of what our concern is.
    Senator Biden. It seems to me you are mentioning two main 
points: One, the annual requirement; and the other is the 
breadth of the definition of what constitutes a violation of 
the legislation. I am confused about the annual. Is the annual 
requirement, assuming you have got the right language from your 
perspective, more narrow in scope as to what constitutes 
religious persecution, a higher threshold, if you will, or a 
clearer threshold--would you still have a problem with the 
annual aspect of it?
    Mr. Shattuck. We would have problems of annually making a 
list and publishing or letting it be known that a country is on 
or off a list on an annual basis, particularly when events are 
changing in countries so dramatically. Then we are going to get 
locked into our annual calendar, and at that time you then have 
to----
    Senator Biden. What is the alternative? Because if I am not 
mistaken, the only thing I have ever found you do not want to 
do with the Chairman is confuse whether or not you are agreeing 
with him when in fact you may not be agreeing with him. I mean 
that sincerely. I think it is real important that--at least 
maybe he understands what you said. I am not sure I understand.
    It sounds to me like you are further apart than your 
response would indicate, and that is not only--you can probably 
fix the breadth of the definition so you do not have 100 
countries or 10 countries or 30 countries or whatever, this 
broad number, falling within the first sweep. That probably can 
be done; is that correct?
    Mr. Shattuck. That is correct. But then there is the 
additional problem of publicly branding countries as 
sanctionable. We have a problem with that.
    Senator Biden. I assume that is a non-starter for the 
Chairman and the supporters, but I do not know. I may be 
mistaken.
    Again, I am not in any way attempting to speak for you, Mr. 
Chairman. I just do not want us to get in the position where--
because I have concerns about the breadth of the definition and 
who it would grab in the net, really countries that we really 
did not intend to grab in this net, because we in fact--they do 
not fit what the average person in America would think to be 
religious persecution.
    And yet, I am agnostic on the issue at this point of 
whether it is annual or what the alternative to annual is.
    Mr. Shattuck. Frankly, even if it were biannual, 
nonetheless, if it were a public list of countries, two types 
of countries, ones that engage in religious persecution defined 
generally and then others engaged in egregious violations, we 
would oppose that kind of public branding. We frankly think 
that is in danger of doing more harm than good out in the 
countries where religious minorities are struggling, in some 
cases under very severe conditions. If they end up getting 
accused of fomenting U.S. actions against the countries in 
which they are living--I mean, we have heard about cases in 
Egypt.
    Senator Biden. As a practical matter--my time is up and I 
will not take any more time after this, Mr. Chairman. As a 
practical matter, the way that the Foreign Assistance Act now 
works is that section 116 says: ``No assistance may be provided 
under this part to the government of any country which engages 
in a consistent pattern of gross violations of internationally 
recognized human rights, including torture or cruel, inhumane, 
or degrading treatment or punishment, prolonged detention,'' et 
cetera.
    Now, the way a country gets up on the radar screen on this 
is somebody calls it to the State Department's attention. 
Somebody says: Hey, by the way, country X is engaged--and then 
you go take a look. Or you, the Ambassador or someone in the 
State Department or the administration, raises it. But it is 
not a requirement that you look at country X every year.
    So is what you are suggesting is the way you would like to 
see this legislation function relative to required review would 
be to have the standard in the law, but it would only be 
brought up based upon essentially it being called to one's 
attention, recognizing whether it is called to the attention by 
the Congress or by the administration or by a human rights 
group or whatever? Is that what you are saying?
    Mr. Shattuck. Well, the standard of course is in the law 
under section 502(b) of the Foreign Assistance Act right now.
    Senator Biden. Right.
    Mr. Shattuck. And based on that standard, we make decisions 
every year in a general sense broader than that standard, which 
is gross violator, to make sure that countries are not 
receiving taxpayer dollars if they are engaged in significant 
human rights abuse. But we feel that it is counterproductive to 
list countries on an annual basis either as gross violators or 
as persecutors in a broader definition, as under section 401 of 
the bill would do.
    There are really two provisions of the bill, sections 401 
and 402. 401 involves countries that engage in or tolerate 
broadly defined religious persecution; and section 402 are 
governments which engage in a consistent pattern of gross 
violations.
    I would suggest, Mr. Chairman, without wanting to curtail 
what I hope is a very constructive discussion of this, that we 
have staff consultations on this subject, because I think 
working it through in a hearing context may not be the most 
efficient way to do it. I think we have some significant, very 
significant, concerns. I do not want to mislead you at all.
    But I think they are best spelled out at the staff level 
and let's see whether they can be worked out.
    The Chairman. I want to sit in on that negotiation, because 
I have some views on it myself. I know that if we enter into it 
in good faith and you do the same, the probability is that we 
can work out something. Of course, what I do not like is the 
occasional stonewalling by one side or another that, hell, I 
ain't going to have that, just because I do not like the way 
you comb your hair or something like that. I think we can work 
it out.
    Senator Biden. Thank you, Mr. Chairman.
    Mr. Shattuck. Thank you. The Chairman. Dr. Frist.
    Senator Frist. Thank you, Mr. Chairman. I want to thank you 
and our witnesses for coming today, especially for bringing 
this issue and discussion of this legislation to a hearing.
    Secretary Shattuck, I enjoyed your presentation, both 
written and oral. This issue does have some personal importance 
to me. In January of this year I had the opportunity to spend 
two weeks in southern Sudan as part of a medical mission group 
as a surgeon, not as a U.S. Senator at the time, but did take 
the opportunity to use it as a factfinding mission as well.
    While I was there part of the medical mission work was to 
operate and work in a hospital, work in the clinics in southern 
Sudan. There I spent time with patients who had suffered under 
this brutal and sustained and clearly religiously motivated 
persecution that is ongoing in Sudan.
    As a physician, it was very easy to feel that I was playing 
some small role as I operated on somebody who had stepped on a 
land mine and took care of the acute problem, the immediate 
problem. Then it also made me think that I can play a role as 
an individual in supporting the ongoing international relief 
efforts there.
    Then I came back to Washington and here we are, and as a 
Senator, unlike being a physician, and as a participant in 
discussions like today, it leads me to ask what is at our 
disposal. Can the International Religious Freedom Act or any 
other proposed legislation enhance or in some way increase the 
contribution of the United States toward the resolution of that 
specific situation which you mentioned in your testimony and 
which I interacted with on a very personal basis operating on 
these patients?
    I asked myself, could any of these proposals really 
unnecessarily or unintentionally limit or in some way restrict 
to options that are at our disposal today. I am struggling with 
that. You touched upon it in your testimony. But even after 
hearing the discussions, it is unclear to me.
    It is clear that we cannot simply create a template to 
address all issues of religious persecution worldwide. But the 
question of either furthering our current efforts or more 
clearly defining our goals in the international arena is one 
that is extremely important to a public, as you pointed out in 
your statement, that so values religious freedoms here at home.
    I know you mentioned Egypt and Germany, but if such a bill 
as we are talking about today does become law are there parts 
of it that would affect or call into question our current 
policy toward a specific country or our bilateral relationship 
as defined today? I guess I am looking for specific examples in 
that regard.
    Mr. Shattuck. Well, Senator Frist, I think there are quite 
a number of examples that I could give of the dangers in terms 
of curtailment of our ability to influence a country and to see 
that it continues to provide some progress, even if too slowly 
for most people's point of view.
    It is always, frankly, dangerous to get into too much 
speculation because you do not want it to become a self-
fulfilling prophecy. But I would just say that in countries 
where Americans in very good faith, in exercise of their faith, 
have been proceeding overseas either in a missionary capacity 
or to establish churches or work within churches, whether it be 
in Russia or in China or other parts of the world, it would be 
very difficult for that kind of activity to continue were we to 
identify those countries as sanctionable and, even worse, if we 
were to proceed to actually sanction those countries.
    I am sure you know the case of the Reverend Pollard in 
Russia. Many of us worked very hard to assure that he could 
return to his ministry in a remote part of Russia, and we 
worked very closely with the Russian foreign ministry and 
others to make that come about. Were we to identify Russia 
under this legislation as sanctionable and then indeed to 
propose sanctions, I think it would be very hard for Americans 
like Reverend Pollard to work in Russia. I think you could use 
many other countries in a similar vein.
    Senator Frist. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. That seems to be it. The hearing record will 
be kept open, sir, for the Senators who were here and did not 
get to ask all the questions they desire and the Senators who 
had other committee responsibilities. But in any case, I 
appreciate your coming and your patience with the votes, the 
roll call votes going on. I expect you are going to receive a 
number of questions, and if you would reply to those as quickly 
as may be possible I would appreciate it.
    [The prepared statements of Senators Thomas, Ashcroft, and 
Feingold appear in the Appendix.]
    The Chairman. There being no further business to come 
before the committee, we stand in recess. Thank you very much.
    [Whereupon, at 4:07 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]




        S. 1868 THE INTERNATIONAL RELIGIOUS FREEDOM ACT OF 1998

                              ----------                              


                        WEDNESDAY, JUNE 17, 1998

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.

                            Morning Session

    The committee met, pursuant to notice, at 11:38 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Jesse Helms, 
Chairman, presiding.
    Present: Senators Helms, Grams, Robb, and Brownback.
    The Chairman. The chair would offer his apologies for 
something that is going on all over the Senate this morning. No 
committee has been able to meet until this one. We are the 
first to meet. The problem is that the entire work of the 
Senate has been held up for weeks because of a piece of 
legislation that never had a potential for passage in the first 
place, and it has none now, and one way or another we are 
trying to get rid of it so we can get around to the Senate's 
real business. We do not even have a budget agreement, a budget 
resolution.
    So let me say this to you. I want to have a full hearing of 
this subject, because it is near and dear to my heart 
personally. Now, we will go as far as we can before the meeting 
of the Steering Committee, which begins about 12:30; and then 
we will come back this afternoon if necessary and continue and 
do the best we can. I thank you for being tolerant of the 
situation.
    Now then, back on May the 12th, John Shattuck, Assistant 
Secretary for Human Rights, set forth for this committee the 
administration's views on the bill bringing you here today, S. 
1868, the title of which is the International Religious Freedom 
Act. Today's panel of distinguished religious leaders will 
discuss the merits of S. 1868 and other proposals to combat 
religious persecution and promote religious liberty abroad.
    Now, our witnesses have come a long way to be with us, from 
New York City, from North Carolina, Tennessee, Alabama. But the 
committee is especially grateful to Bishop Mano, the Anglican 
Bishop of Peshawar in Pakistan--did I pronounce that right?
    Bishop Mano. That is right.
    The Chairman. So far, so good.
    He has traveled all the way to be with us. I should note 
that the Episcopal and/or Anglican Church is represented by 70 
million members in 165 countries.
    Now, sadly, Pakistan has taken center stage with respect to 
persecution of Christians with Pakistan's infamous blasphemy 
law. I personally look forward to your perspective about the 
hardships of living as a Christian under a regime so hostile to 
Christianity and how the legislation the committee is 
considering today could improve your situation and the lives of 
religious minorities elsewhere.
    Bishop Mano, you are in our thoughts and prayers and we 
will keep in touch with you after you return to your homeland.
    Bishop Mano. Thank you.
    The Chairman. Now, the committee also welcomes Dr. Richard 
Land, a good friend, who since his election in 1988 has been 
President of the Ethics and Religious Liberty Commission of the 
Southern Baptist Convention's Agency for Applied Christianity. 
Dr. Land knows a thing or two about our subject today as 
Southern Baptists--and by the way, I am one of them--have 
approximately 5,000 missionaries in 147 countries and their 
1998 budget for international missions is $210 million. I know 
you are eager to see Congress act on legislation addressing 
this issue and we welcome your views.
    Also supporting legislation on this issue is Felice Gaer, 
Director of the Jacob Blaustein Institute for the Advancement 
of Human Rights of the American Jewish Committee. Ms. Gaer is 
also a member of the International Human Rights Council at the 
Carter Center and is associated with the Human Rights Watch. I 
understand that you are no stranger when it comes to testifying 
before Congress, and certainly we look forward to hearing your 
views.
    Dr. John Akers, we welcome you, sir. Dr. Akers is Chairman 
of the Board for East Gates Ministries International and 
Special Assistant to Billy Graham.
    Last but certainly not least, we welcome yet another 
Southern Baptist leader, but with a different point of view. 
Dr. O'Brien is Director of the Global Center of Beeson Divinity 
School at Samford University. He was a missionary in Indonesia 
from 1962 to 1971, and I understand that Mrs. O'Brien is the 
Executive Director of the Southern Baptist Women's Missionary 
Union. We welcome you, and I will tell my wife when I get home 
tonight that I met the husband of the lady who is in charge of 
an organization that Dot belongs to.
    Senator Biden has not yet arrived. Everybody is in a state 
of flux this morning. But I have a policy of not starting 
unless the minority party is represented or I am told by a 
representative of Senator Biden that we should proceed without 
him.
    Now, Bishop Mano, we want to start with you.
    Bishop Mano. Thank you.
    The Chairman. If you will help us control the time, I would 
appreciate that. There will be ample time for questioning and 
so forth. But we welcome all of you, four gentlemen and lady, 
and God bless you for coming. Bishop.

   STATEMENT OF THE RIGHT REVEREND MUNAWAR KENNETH RUMALSHAH 
         (MANO), ANGLICAN BISHOP OF PESHAWAR, PAKISTAN

    Bishop Mano. Good morning, Mr. Chairman and other 
distinguished Senators and friends. Thank you for this 
opportunity to tell my story and share some of the experiences 
of being a Christian in Pakistan.
    I would like to open my remarks with a few words of a 
martyr and a dear friend of mine what gave his life for the 
cause of freedom to be a Christian in Pakistan:

          The Christians of Pakistan are being held in a death 
        sentence blackmail by the blasphemy law, under which 
        their small businesses are being taken over, their 
        property seized, and the situation is such that their 
        women are not safe. Therefore, in protest against 295-C 
        [that is the penal code] and other black laws, in the 
        name of my oppressed Christian people, secularism and 
        democracy, I am taking my life.

    These were the last recorded words of John Joseph, Roman 
Catholic Bishop in Pakistan, who lay down his life on May 6, 
1998, to protest the death sentence imposed on a fellow 
Christian under Pakistan's blasphemy law.
    The death of Bishop Joseph created shock waves throughout 
Pakistan and has utterly devastated my already marginalized 
community. This event has triggered a chain reaction where the 
majority Muslim community--and that is about 96 percent--is 
tightening the noose on Christians in the most public fashion, 
by physical harassment and creating an atmosphere of fear and 
insecurity.
    My hope in being here today is to pay tribute to the 
sacrificial act of Bishop Joseph, to make sure that all this 
has not been in vain, and in doing so to focus the attention of 
my government and indeed the world on the plight of the 
Christian community in Pakistan. My concern also includes the 
issues of religious discrimination and persecution against 
fellow Christians and people of other faiths across the world 
who suffer dehumanization and torture simply because they want 
to have the freedom to practice the faith of their choice.
    I am the Bishop of the Church of Pakistan, which is a part 
of the Worldwide Anglican Communion. Anglicans, of course, are 
known as Episcopalians in this country. The Church of Pakistan 
is the largest Christian denomination in our country today, 
formed in 1970 by the amalgamation of Anglicans, Lutherans, 
Scottish Presbyterians, and the Methodists. There is also a 
strong Roman Catholic presence, along with other Protestant 
denominations.
    We Christians make up about three percent of the population 
of Pakistan. We are privileged to be part of the country of 
Pakistan, which we serve with all our passion and dedication, 
knowing that it is ours. Our ancestry on that soil goes back 
thousands of years. Yet it is a country which, in proclaiming 
the faith of the majority community, that is the faith of 
Islam, seems to be, wittingly or unwittingly, excluding us 
Christians and other religious minorities from its shared 
organic life.
    Pakistan was perhaps the first state in modern history 
created exclusively on the basis of religious identity. The 
events of the past 50 years have shown that, in spite of having 
good intentions, such states are bound to evolve toward 
religious exclusivism.
    Now, allow me to share with you how the rights and freedoms 
of religious minorities have been eroded in Pakistan's 50-year 
history because of the majority community's view that this land 
is for the Muslims, to which many would add ``for Muslims 
only.'' Here are several examples, some of which I use.
    Take a simple word like ``freely.'' In the original 
constitution of Pakistan Christians and other religious 
minorities were allowed to practice their faith ``freely.'' 
This word was removed from the constitution more than 10 years 
ago as it was deemed to be threatening the Islamic fabric of 
Pakistan. It appeared to the religious minorities to be quite 
an innocuous amendment at the time, but we are now reaping its 
ugly consequences.
    It is becoming increasingly difficult to build, for 
example, our places of worship. Pakistan also is now practicing 
an apartheid electoral system. As a member of a minority, I am 
barred from standing for election as a member of parliament 
representing the majority community or even from voting in the 
main election for Muslim members of parliament. Instead, I am 
restricted to voting for one of a handful of minority members 
of parliament, with no influence on who runs my country. Non-
Muslims have indeed become politically voiceless people.
    As a religious minority, we live under a constant feeling 
of socio-economic strangulation. There is massive employment 
discrimination, both in the public and private sector. Usually 
only the most menial jobs are available to Christians, who 
remove human excrement from the streets. We are being socially 
ostracized and economically paralyzed simply for the sin of 
being Christians. We are no longer a church serving the poor, 
but we are the church of the poor.
    Over the years Pakistan has been trying to introduce 
Shariah--that is the Islamic law--and its related ordinances as 
part of a program of Islamization. Perhaps the worst aspect of 
it in recent times has been the use of the dreaded blasphemy 
law. This has been part of the legal statute for a couple of 
centuries, but has been resurrected over a decade ago as part 
of the Pakistan penal code. It is section 295-C, which reads:

          Whoever by words, either spoken or written or by 
        visual representation, or by imputation, innuendo, or 
        insinuation directly or indirectly defiles the sacred 
        name of the Holy Prophet Mohammed will be punished with 
        death or imprisoned for life, and shall also be liable 
        to fine.

    The intent behind this law seems perfectly reasonable, 
because we should respect the great leaders of all religions. 
Such a law is there simply to counter any disrespect to such 
persons. Unfortunately, great problems arise when these laws 
get exploited and abused.
    In Pakistan, for us Christians and other religious 
minorities the misuse of this law by members of the majority 
community has achieved draconian proportions. It has often been 
used by private citizens to settle old scores and take up 
vendettas. There have been some frightening incidents related 
to it.
    In fact, the ultimate despair of the late Bishop John 
Joseph was that he could not find a competent lawyer to appeal 
the death sentence of his parishioner, Ayub Masih. All such 
lawyers feared for their lives. A judge who acquitted one of 
the few Christians who escaped from such a sentence was 
murdered in broad daylight two years after his judgment. I 
offer here some of the examples just to show how our small 
community is being brutalized and victimized in the name of 
religion under this law.
    Tahir Iqbal, a young Christian bound to a wheelchair 
through illness, was a convert from Islam. He was brutally 
murdered by a frenzied mob because he was said to have, at 
least inadvertently, insulted the Prophet of Islam due to his 
conversion.
    Another, a 14 year old girl Carol Shakeel, was accused of 
blasphemy at school. In order to save her life, she became a 
Muslim with the consent of her family because 225 local 
mullahs--that is the religious leaders--signed an oath to kill 
her.
    I have here, sir, before me a catalogue of these cases of 
these cases which have been properly documented and can 
withstand the test of credibility. You may wish to examine them 
at your convenience.
    I think it is incumbent upon me to speak on the suffering 
of religious minorities in other parts of the world as well. I 
am in constant contact with some of the acute situations within 
the Worldwide Anglican Communion, which is composed of nearly 
70 million members, as, sir, you have already referred to. 
Perhaps the situation which concerns us most at this moment is 
the plight of our fellow Christians in Sudan. The Christians of 
Sudan have become targets of persecution, facing daily gross 
violations of human rights. The situation has driven thousands 
of them to leave their homes and escape to refugee camps.
    Our brother Bishop, Nathaniel Garang by name, bolsters the 
Dinka people with words of conviction and hope by describing 
their seemingly intolerable situation: ``We are very hungry in 
this time, but we are feeding on God,'' he said.
    I would also like to speak of the situation in Myanmar, or 
Burma as it used to be called, but I am afraid time is short 
and I will simply refer you to my statement submitted for your 
records.
    Now I would like to share my views on the specific pieces 
of legislation that your committee is considering. Let me paint 
a picture, in broad strokes, of what I believe can be helpful 
from the United States. As you know, I am here because I 
believe in the cause of religious liberty in Pakistan and 
around the world. Believe me, it would have been easier to stay 
at home. But for me, and for many of my Christian brothers and 
sisters in Pakistan, silence is not an option any longer.
    I do not believe the U.S. can remain silent either. Since 
the Pilgrims first set sail in 1607 in search of a place to 
practice their religious beliefs, religious freedom has been a 
cornerstone of your country's history and culture. No, the 
United States should not stand by today in silence in the face 
of religious persecution worldwide. You need to hear the cry of 
people around the world who suffer for their faith, who are 
denied the basic right to believe, which you so naturally take 
for granted.
    The central question is how the U.S. can respond most 
effectively to the cry of the persecuted faithful. I understand 
the legislation passed in the House would mandate severe 
economic sanctions against countries that engage in religious 
persecution. This approach might have positive effects in 
certain circumstances, perhaps in Sudan, but I fear that in 
other circumstances severe sanctions could trigger reprisals 
against the religious minority for having caused the sanctions 
and also cause suffering and misery to the poor of the country.
    It is my experience that this approach is less helpful and 
in some cases can even do more harm than good. But clearly 
there are many choices than just imposing heavy-handed 
sanctions or doing nothing. There is an entire array of foreign 
policy options which can positively affect human rights 
conditions in other countries.
    The legislation we are here to discuss today, the Nickles 
bill, gives your government a range of options, from a private 
diplomatic reprimand all the way through economic sanctions. 
This flexibility is crucial to effective action.
    In Pakistan, I believe the most helpful response from the 
U.S. is one that says: ``We do not like what we see and hear.'' 
The international community's recognition of religious 
persecution in Pakistan has a subtle and yet profoundly 
positive effect on the plight of the Christian community.
    There is the need to have a constant dialog between the 
U.S. and our country on this and other human rights issues. The 
diplomatic hot line must be in action all the time.
    Of course, all this may only apply to Pakistan. I do not 
know the best approach for other people who suffer for their 
faith around the world, let us say in China or Sudan or parts 
of the Middle East. These are all very different situations 
which need different approaches. This case by case approach is 
the heart of the Nickles bill.
    I support the Nickles bill's use of the broad, 
internationally accepted definition of ``religious 
persecution.'' It recognizes both gross violations of human 
rights and the more subtle and prevalent forms of religious 
persecution experienced worldwide, such as church burnings, job 
discrimination, the stifling of religious expression, and the 
inability to hold services. A severe limitation of the House 
bill is that it only responds to the most extreme cases of 
religious persecution.
    Finally, the Nickles bill requires the U.S. Government to 
consult with nongovernmental organizations, including churches, 
concerning the state of human rights and religious persecution. 
This provision is crucial if you are to find the most effective 
ways of fighting persecution while at the same time protecting 
the religious minority in offending countries. It is obvious to 
me that with this hearing you are conducting today that the 
Senate is committed to consulting the religious minority 
communities.
    In this fiftieth anniversary year of the Universal 
Declaration of Human Rights, I call on this Congress, which has 
focused attention on the important problem of religious 
persecution, to push for an international bill of rights to 
protect religious minorities everywhere. I am not calling for a 
hierarchy of human rights. I am calling for religion to have 
finally an equal seat at the human rights table.
    Sir, as I conclude my statement, one factor seems to be 
overwhelmingly evident. There are situations in our world where 
your religious identity can be your death warrant. This happens 
in Pakistan and other parts of South Asia. Although my personal 
experiences are those of a minority Christian in a majority 
Islamic land, it could equally be the experience of Muslims in 
the Philippines or Bosnia, of Buddhists in Tibet, of Hindus in 
Sri Lanka, and so on.
    I am also aware that these conflict situations are not 
exclusively based on religious identity. Other factors such as 
race and ethnicity are also major components of these 
situations. The difference is that we are born with our race 
and ethnicity and bear its consequences, both good and bad, for 
the rest of our lives. But, sir, religion is a person's free 
choice. I believe each and every human soul on this planet 
Earth must be given complete freedom to choose and practice his 
or her own faith. Creed should never be mixed with race, 
culture, or status in life. It is indeed a sacred choice. No 
one should be allowed to mutilate and desecrate this God-given 
privilege.
    You, my American friends, uphold this principle dearly; and 
I am sure you understand our predicament. I hope the American 
people will continue to offer themselves as an instrument of 
peace, hope, and justice for human situations where this 
fundamental of all human rights is being denied.
    Thank you, sir, for being patient.
    [The prepared statement of Bishop Mano appears in the 
Appendix.]
    The Chairman. Thank you, Bishop Mano.
    I followed you as you read your manuscript, the text of 
your remarks, and I am sure my reaction is going to be the same 
to the other four of you.
    I am sorry and I apologize that more Senators cannot be 
here today, and I am going to try to do something about that. 
For openers--and the staff may as well take this as a 
directive--I want the remarks of all five of these people, four 
gentlemen and lady, printed separately in a bound volume, which 
I want to mail to every religious editor, every religious 
commentator whose name we have, so that they know the enormity 
of what is going on in this world. Now, I knew in a vague sort 
of way--and I think I am pretty much like other Senators.
    But let me give you an example of what he left out. The 
blasphemy law has often been used by private citizens to settle 
old scores and take up vendettas. The worst aspect is that 90 
percent of such cases never reach a court of law. The courts 
increasingly tend to lean toward the Muslim accuser, whose 
single testimony is enough proof of the crime, and of course 
the witness of a Christian is not even admissible.
    Now, regardless of whether we are Baptists, Methodists, or 
Jewish, Catholic, whatever, this is unthinkable, and I think 
the people of America need to understand what you have 
testified to today. I will not go further.
    Dr. Land, we would be delighted to hear from you and I am 
looking forward to your remarks.
    Dr. Land. Thank you, Senator.
    The Chairman. I want to make clear that all of your remarks 
this morning will be in one little package that we will 
circulate. We have pretty good mailing lists available to us.

STATEMENT OF DR. RICHARD LAND, PRESIDENT, ETHICS AND RELIGIOUS 
        LIBERTY COMMISSION, SOUTHERN BAPTIST CONVENTION

    Dr. Land. Thank you, Senator.
    All of us owe a great debt of gratitude to all of those who 
have struggled to keep the flickering flame of concern for 
victims of religious persecution alive in our midst, where so 
many in our society have seemed intent on remaining unaware or 
even willfully ignorant of the extent to which basic human 
rights have been denied around the world, specifically often in 
the form of religious persecution of Christians.
    Until recently the persecution of Christians in various 
parts of the world has not been a high profile item on 
America's agenda. There are several possible reasons for this 
oversight. First, too often people in the West, peering through 
the selective prism of Christian history in the West, 
reflexively think of Christians as persecutors rather than the 
persecuted.
    Second, an increasingly secularized West and its leadership 
elites tend to be indifferent and often uncomprehending of a 
spiritual world view which endures persecution and death for 
the sake of belief.
    Third, the silence of the various Christian communities in 
the West which could influence this situation in a significant 
way has also contributed to the tragic silence and neglect of 
this issue.
    I am both delighted and grateful to say that this tragic 
neglect has ended. The Conference on Global Persecution of 
Christians sponsored by the Puebla Program on Religious Freedom 
and held January 23, 1996, here in Washington was a long-needed 
wakeup call for many in the American faith community. Many of 
us had our eyes opened in a new and life-changing way to both 
the savagery and the extent of the persecution of fellow 
Christian believers in various parts of the world, most 
significantly in Islamic countries, such as the Sudan, Saudi 
Arabia, and communist regimes, such as Cuba, China, and 
Vietnam.
    There was virtual unanimity of support from the conference 
participants for the statement of conscience of the National 
Association of Evangelicals concerning worldwide religious 
persecution. The NAE, which represents tens of millions of 
evangelical Christians, has produced a statement of conscience 
which outlines the facts of such persecution, states the 
principles of opposition against such persecution, and issues a 
call for actions which would directly address such 
persecutions.
    I want to compliment Steven Rosenfeld of the Washington 
Post, ``Human Rights For Christians, Too,'' in the Washington 
Post, for lending his influential forum and powerful voice to 
this issue. Mr. Rosenfeld is absolutely right when he writes 
that: ``Politically as citizens and objectively in terms of the 
pain of foreign brothers, the Christian community has right and 
reason to be heard. The effort will save lives.''
    On the same day that Mr. Rosenfeld's eloquent analysis was 
printed in the Washington Post, the Executive Council of the 
General Convention of the Episcopal Church joined the group 
chorus of resolve on this issue by expressing its support in 
principle of the statement of conscience concerning worldwide 
religious persecution and in support of religious liberty.
    The 15.9 million member Southern Baptist Convention, 
reflecting a growing concern on this issue, has passed 
overwhelmingly three separate resolutions on this issue at its 
1995, 1996, and 1997 annual conventions. The 1995 resolution 
expresses support for all peoples suffering denial of religious 
liberty, but especially for those who are of the household of 
faith and even more particularly for those who share Baptist 
convictions and commitments.
    The resolution further calls upon my agency, as well as 
others, to seek ways to represent even more effectively the 
concerns of this convention to various government, diplomatic, 
and religious leaders at home and abroad. This testimony is at 
least partly an attempt to respond to that challenge issued by 
the Southern Baptist Convention.
    In addition, Pope John Paul II has spoken out yet again 
against the persecution of Christians in his address to the 
Vatican diplomatic corps on January 13, 1996. In that speech 
the Pope raised the issue of religious persecution in some 
Islamic countries, as well as China and Vietnam, as places 
where persecution of Christians is presently being perpetrated.
    He decried such abuses as ``an intolerable and 
unjustifiable violation, not only of all the norms of current 
international law, but of the most fundamental human freedom, 
that of practicing one's faith openly, which for human beings 
is their reason for living.''
    When Episcopalians, Evangelicals, Southern Baptists, and 
Roman Catholics are all voicing grave concerns over the 
persecution of Christians in other countries, critical mass has 
been reached. I believe we are witnessing the mere beginnings 
of a broad-based movement which will insist with increasing 
intensity that the Government of the United States of America 
take serious and important steps to use its influence to insist 
that the offending foreign governments stop these atrocities.
    Let me be clear that we are not insisting that the U.S. 
Government seek to hold the entire world to the pristine 
standard of the U.S. Constitution's First Amendment religious 
liberty rights and guarantees, as desirable and as beneficial 
to humankind as we believe that would be. We are insisting that 
basic human rights be recognized.
    These persecutions of Christians are clear and unacceptable 
violations of the United Nations 1948 Universal Declaration of 
Human Rights. The international family of nations has agreed 
that all human beings have the inherent right to freedom of 
thought, conscience, and religion. The persecutions are real 
and they are widespread.
    As our Southern Baptist Convention resolution notes, 
countries as diverse and far flung as Bulgaria, Russia, Mexico, 
Saudi Arabia, Pakistan, Iran, Sudan, Yemen, Cuba, Romania, 
India, and China have well documented and systemic patterns of 
persecuting Christians. A focused campaign against these 
persecutions, supported by a committed domestic constituency, 
such as sensitized and informed American Christians, can and we 
believe will have tremendous and far-reaching results. The 
inspiring paradigm of the plight of Soviet Jewry and the 
tremendous impact that the American Jewish community was able 
to achieve by galvanizing the will and determination of the 
American people is the best argument both for the ability to 
make a life-changing difference and for the fact that efforts 
achieved can be far-reaching.
    The American campaign on behalf of Soviet Jews helped to 
seal the fate of Soviet repression in its far flung empire. We 
believe a campaign to use American governmental influence to 
stop the persecution of Christians may have similar dramatic 
results. Evangelicals and Catholics are being persecuted in 
many of these countries by those who are seeking to hold back 
the twenty first century by using the repressive methods which 
have made the twentieth century's history the bloodiest in 
terms of human beings slaughtered.
    Christians are threats to the anti-democratic forces which 
oppose modernity, and if the western secular elites do not 
understand this, make no mistake, the Chinese, Vietnamese, and 
Cuban commissars and the Islamic ayatollahs do.
    Further, if the U.S. Government makes the price for 
persecuting Christians, usually the most vulnerable people in 
these societies, unacceptable, it strengthens the moderate 
Islamic elements in these societies in their attempts to resist 
the thuggery and persecution perpetrated by Islamic radicals in 
their midst.
    Clearly, the United States has been woefully negligent in 
dealing with the issue of the persecution of Christians around 
the world. This issue has not occupied a significant place in 
American foreign policy. It has not even been on the State 
Department's radar screen. That must change.
    We believe strong and effective legislation is necessary to 
rectify the current situation regarding the U.S. Government and 
the widespread persecution of Christians and others of faith 
around the world. We strongly support legislation which 
provides to the greatest extent possible:
    One, objective and independent factfinding. We believe 
effective legislation must include a Senate-confirmed 
Ambassador-director to undertake the task of factfinding on 
this issue. We also believe that there should be a Senate-
confirmed commission and regular Congressional review of the 
findings and recommendations of this office and commission.
    Two, accountability from the executive branch of 
government. This would include, but not be limited to, public 
reports of the President's response to the Ambassador-director 
and commission's findings, reports and recommendations; 
mandatory actions subject to reasonable Presidential waivers 
which must be explained publicly to the American people; and 
Congressional review of the President's responses to the 
commission's reports and recommendations.
    Third, effective relief of religious persecution around the 
world. Legislation which would make a legitimate distinction 
between what would be defined in the United States as 
discrimination against religion. Once again, we are not arguing 
for America's First Amendment standard as the world's 
requirement, as much as they would all benefit from adopting 
that standard, as opposed to real religious persecution.
    The legislation should not so narrowly define religious 
persecution as to limit the legislation's application only to 
the most extreme forms of persecution which seem aimed at the 
elimination of particular religious minorities in a society.
    Traditionally, the role of our embassies in foreign lands 
has not been only to represent the American Government, but to 
symbolize American values. It seems that, at least in regard to 
persecution of Christians, often the State Department has been 
in the posture of abject surrender to the most repressive of 
regimes which have denied fundamental American values of 
freedom from religious persecution. That must change.
    We are told that the twenty first century will be the 
Pacific century. What kind of century will it be? America has 
great power and influence. Such power contains responsibilities 
as well as privilege. We must do all we can to influence the 
Asian powers of the future to recognize the basic human rights 
of their citizens, including Christians.
    Experience tells us that governments, like children, often 
do not what you expect, but what you are prepared to inspect. 
We expect our government to insist that nations who want to be 
in good relation with us cease and desist from persecuting 
Christians. We will be inspecting whether they do so.
    China's leaders have been quoted as dismissing America as a 
moneybags democracy which is only interested in trade benefits 
and the financial bottom line. I reject that analysis of our 
nation. I believe a majority of Americans reject it. We want a 
U.S. Government human rights policy on religious persecution 
that is as good and decent as our people, our ideals, and our 
heritage demand. A foreign policy that denies our basic values 
and seeks only to meet the requirements of commerce and 
business is and will always remain totally unacceptable.
    The Chairman. Thank you, sir.
    Let me ask you a question. I am delighted to sit here and 
have my conscience hurt by what I am not doing myself. Now, I 
know Paige Patterson pretty well. Do you know him?
    Dr. Land. Yes, sir.
    The Chairman. I am from North Carolina. He is the new head 
of the State Baptist--no, the Southern Baptist Convention.
    You have a good radio-television department down in 
Louisville, do you not?
    Dr. Land. In Atlanta, yes, sir.
    The Chairman. In Atlanta.
    Dr. Land. And Fort Worth.
    The Chairman. Would you be willing to take the lead to get 
some material that the public would listen to and not flip a 
dial? It can be done. This story needs to be told. I do not 
think the American people know it, and I have known it probably 
more than some in the Senate because I have been interested in 
it. But if you will take the lead in examining the 
possibilities of a production of television material, a program 
or two programs and maybe some spot announcements, I will be 
glad to see what I can do to get a reasonable endowment from 
people who are interested in this to finance it, because I know 
it will cost. If you will do that, I will do that.
    Dr. Land. Well, I appreciate that interest, Senator, and I 
will certainly take up the matter as soon as it is possible for 
me to do so with Dr. Patterson, who is, as you mentioned, the 
new President of our Convention, as well as Dr. Reccord, who is 
in charge of the North American Mission Board's communications 
department, as well as Dr. Rankin with the International 
Mission Board in Richmond.
    The Chairman. Very good. Ms. Gaer, we welcome you. You may 
proceed.

 STATEMENT OF FELICE GAER, DIRECTOR, JACOB BLAUSTEIN INSTITUTE 
 FOR THE ADVANCEMENT OF HUMAN RIGHTS, AMERICAN JEWISH COMMITTEE

    Ms. Gaer. Thank you, Mr. Chair.
    Few issues have been as central to the work of the American 
Jewish Committee as speaking out to protect minority religions 
from prejudice, discrimination, bigotry, and violent attack. We 
thank you for your invitation to our committee to address this 
committee today. These are core issues before us, religious 
persecution and religious freedom--core issues not only for our 
organization, but I believe for all Americans: men and women, 
Jews, Christians, Muslims, Buddhists, Hindus, Bahais, and 
others.
    We believe that ending religious persecution abroad merits 
a high profile in U.S. foreign policy. The legislative efforts 
in the Congress on this matter over the past year have rightly 
focused popular attention on the topic, on ways the U.S. could 
and should adjust its foreign policy to address such matters 
most effectively.
    We are convinced that prevention of religious persecution 
at home and abroad requires sustained, sophisticated legal and 
political tools. The proposed legislation, the International 
Religious Freedom Act, promises to provide that sophistication 
and sustained effort. With attention to a number of our 
concerns, including the importance of integrating this issue 
into the machinery the Congress has already created to protect 
international human rights globally, the American Jewish 
Committee believes this bill will be an important addition to 
American diplomacy.
    Our written testimony begins with an overview of religious 
repression, which we believe has been amply documented by 
private, religious, secular, government, and international 
organizations. Those who persecute others for their religious 
beliefs and practices, for being different, display a perverse 
inventiveness in their inhumanity. The variety of actions 
perpetrated against religious believers range from physical 
attacks to weaving a web of so-called legal measures--they are, 
in-fact, illegal measures--that so severely inhibit religious 
communities and their members that they violate most of the 
norms of freedom of religion. Some of the most common kinds of 
violations are outlined in our written statement.
    A word about antisemitism and religious repression. The 
annual World Report on Antisemitism, published by the Institute 
for Jewish Policy Research in Great Britain and the American 
Jewish Committee here, reveals the complexity of the causes and 
the diversity of the manifestations of this age-old form of 
hatred, which as we know has led to genocide in our own time.
    Among the trends identified in the last World Report are 
the salience of antisemitism for far right, neo-Nazi, and 
extremist groups, many of whom work through the ballot box to 
legitimize and spread hatred. It demonstrates that most 
militant antisemites are young unemployed males in North 
America and Europe, Australia, and the Middle East, that 
antisemitism--both religious and political antisemitism--is 
widespread in the former Soviet Union, and that the authorities 
in Russia and many of the other former Soviet Union states do 
not take action against those who commit various acts directed 
against Jews.
    The World Report demonstrates that numbers tell only part 
of the story. Overall, violent incidents have declined, but in 
some places they are up. They are up in France, but down in 
Germany. Countries as distant as South Africa, Indonesia, and 
Argentina have seen the reappearance of antisemitic violence in 
the last year alone. There has been an upsurge in antisemitic 
graffiti, threats, and attacks on property.
    We also speak in our written statement about extreme 
measures directed against women. In many countries and in many 
religions, extremists, sometimes governments as well, have 
established measures to enforce subordination and obedience 
from women that deny them their rights to equality and liberty, 
including religious freedom. For example, in Afghanistan 
Taliban authorities have sanctioned beatings on the streets or 
at home as a means of enforcing submission from women. Such 
measures constitute a form of religious persecution and the 
Jacob Blaustein Institute for the Advancement of Human Rights 
has addressed these issues in a recent conference on religious 
fundamentalisms and the human rights of women.
    Mr. Chairman, the causes of antisemitism and other forms of 
religious persecution are many. No single germ theory can 
account for it. Perhaps a stress theory might be more 
appropriate. The pathology of these persecutions becomes 
visible only if the accepted societal balance breaks down. When 
societies begin to stress economically, socially, politically, 
and are near breakdown, that is when there is greater 
manifestation of antisemitism and scapegoating of those who are 
different.
    This leads us, Mr. Chair, to a major conclusion of every 
expert who has examined this subject: Repression of religious 
freedom and acts of religious intolerance, including violence, 
are commonly manifested in combination with other human rights 
abuses. We believe it is therefore essential for the members of 
this committee and all others engaged in shaping U.S. policy on 
religious persecution to bear this in mind.
    It is also true that governments are not always the 
perpetrators. Communities of believers may instigate actions 
against other communities. In such instances the root causes 
may be complex, but the obligations of governments to stop such 
violence and discrimination are clear. In our written statement 
we briefly identify some of the causes of religious 
persecution.
    We turn next, Mr. Chairman, to the challenging question of 
making sanctions an effective tool of policy. The complex 
causes of religious persecution, as well as the close 
interrelationship of curtailment of religious freedom with 
other human rights repression, suggests that a broad and 
flexible strategy is needed for effective response. We have 
previously identified a ten-point plan for preventing 
persecution of religion abroad and have appended it to my 
statement, with your permission. With our recommendations on 
the elements of such a strategy, we hope to inform this debate.
    As the plan reflects, sanctions are a key tool of U.S. 
policy, but they should not be the sole substitute for a 
broader and focused policy response. U.S. sanctions should be 
designed to fit the specific policy objectives of specific 
cases.
    Many support sanctions because the imposition of sanctions 
registers disapproval and disassociates the U.S. from atrocious 
acts. Sanctions demonstrate the credibility of the 
international norms that have been breached, backing up 
rhetoric with action. Sanctions punish abuser countries, but, 
properly conceived and used early enough, they can also prevent 
the deterioration of a situation into violence or warfare.
    It is therefore advisable for us all to think of sanctions 
less as punishment than as a nonviolent deterrent which can 
serve as an alternative to the use of military force. Some 
sanctions, especially individual financial sanctions, can be 
fine-tuned and targeted at the perpetrators themselves. Thus, 
one of the most important values of sanctions is that they 
place the responsibility for improvement directly on the 
perpetrators.
    Mr. Chairman, there are numerous critics of sanctions who 
question their effectiveness and the process by which they are 
established. You know the arguments: they are long term, they 
are blunt instruments, we use them too early, they hurt 
Americans, and they are hard to implement and even harder to 
remove.
    Our organization does not take such a dim view of the 
efficacy of sanctions, but neither is it the case that they are 
always the most appropriate measure. The impact of sanctions 
often varies with the specific situation and key factors 
include the dependence between the countries involved, whether 
they are unilateral or multilateral, targeted to governments or 
private businesses, whether retaliation is likely, and, 
frankly, whether alternatives to sanctions are available and 
have been tried or not.
    In this connection, we reiterate that automatic sanctions 
applicable to every country in the world do not in the case of 
religious persecution offer the best approach for rewarding 
compliance by individual governments with the norms we are 
seeking to uphold. As indicated earlier, the complex and many 
causes of religious intolerance and repression suggest that our 
capacity to address these problems should be no less 
sophisticated and multi-layered than the problem itself.
    In the view of the American Jewish Committee, the 
International Religious Freedom Act offers the promise of 
genuine efficacy in combating religious persecution and it 
meets the conditions we have set out for sanctions. It promotes 
a flexible approach to sanctions, it allows for policy 
responses that are country specific and that are situation 
specific. We have argued for some time that a menu of 
calibrated and discretionary sanctions, instead of the 
automatic sanctions provided in Wolf-Specter, is what is 
needed. This stems from our analysis of the causes as just 
described.
    Mr. Chairman, we commend the Nickles-Mack bill's 
incorporation of a definition of acts of religious persecution 
that follows the definitions of freedom of religion and belief 
currently found in both international and U.S. law. Broad 
definitions of religious persecution and gross violations of 
religious freedom in Nickles-Mack are more likely to include 
the kind of repression that actually affects religious 
communities worldwide and we believe it is important that the 
definition not weaken the international standard on religious 
freedom which the U.S. Government and nongovernmental 
organizations have worked so hard to establish and maintain and 
have done so despite the most severe opposition.
    At the least, the definition should not exclude practices 
and acts perpetrated against Jews and other communities of 
faith that have been understood to constitute persecution, 
whether those are preventing people from forming congregations 
or worshipping together, denying employment, social services, 
health care, access to education, or ownership of property. All 
these have been abused in the name of religion.
    Similarly, forbidding the right to leave, to marry, to 
inherit, or even educate one's own children. Such practices 
have led to violent conflicts and even genocide and they are 
often the first harbingers of persecution of communities of 
faith. If we are serious about combating religious persecution 
and about preventing even worse atrocities, these practices and 
acts should be addressed by the bill.
    Mr. Chairman, we do, however, have a number of concerns 
with respect to three issues: the definitions in the bill, the 
requirements of duplicative reporting, and the creation of a 
more elaborate bureaucracy that is not linked to or aimed at 
strengthening existing human rights machinery in our 
government.
    We welcome the determination signaled by the numerous 
governmental offices and high level posts proposed by the 
Nickles-Mack bill. But we are concerned that the new 
bureaucracy to be created could duplicate rather than 
strengthen existing policy bodies, particularly those in the 
human rights field, and could end up isolating the religious 
persecution monitoring programs from the information-gathering 
and diplomatic apparatus of the State Department.
    As to the two-tiered definitions in the bill, they 
commendably encompass more forms of religious intolerance than 
Wolf-Specter. However, the Nickles-Mack bill uses the term 
``gross violations'' to refer to egregious acts, which we 
understand would normally be termed persecution. It uses the 
term ``persecution'' to refer to ``any'' act or violation.
    In our judgment, the terminology is reversed. 
``Persecution'' normally refers to widespread and ongoing 
patterns of activity, while ``violations'' usually refer to 
separate acts. The term ``persecution'' is widely used to 
trigger asylum provisions for would-be refugees and it would 
undoubtedly complicate our asylum policies to refer to 
individual acts.
    We would encourage a technical review of the use of the 
definitions describing particular repressive acts relating to 
religious freedom, and we would encourage consideration of 
whether there could be a threshold established for the 
requirement that one or more of the flexible menu of sanctions 
must be applied to individual incidents.
    The Chairman. I am sorry.
    Ms. Gaer. I did not know what the buzzer was for.
    The Chairman. That is not a fire drill. That is the least 
innocuous thing that we do around here. That is a quorum call.
    I am sorry. Proceed, please.
    Ms. Gaer. Mr. Chairman, a word for women. Section 2(a)(3) 
of the Nickles-Mack draft outlines the elements of religious 
freedom cited in article 18 of the International Covenant on 
Civil and Political Rights, to which the U.S. is a party. It 
states that: ``Religious freedom is a fundamental right of 
every individual, regardless of race, country, creed, or 
nationality.''
    But both the Covenant and the Universal Declaration, like 
the U.N. Charter and other instruments, also identify sex as 
one of the factors which must not be disregarded in ensuring 
that everyone shall have the freedom cited. It would be helpful 
to correct this error by adding sex to the list cited in 
section 2(a)(3). We believe it is important to signal that 
everyone means everyone: Every individual in every country in 
the world has the right to practice his or her religion, alone 
or in a community of others, in public or in private, and to 
manifest it.
    The foregoing comments should not be viewed as mitigating 
from our view that the Nickles-Mack bill is the preferred form 
of legislation in the area of religious freedom. Because of the 
sophisticated menu of choices offered, clearly linking and 
integrating the pursuit of an end to religious persecution to 
overall U.S. policy, it is well constructed and calculated to 
achieve the goals of helping oppressed communities abroad.
    Thank you very much.
    [The prepared statement of Ms. Gaer appears in the 
Appendix.]
    Senator Grams (presiding). Thank you very much.
    We are going to take a break right now and come back at 
2:15 to allow you to have an opportunity to have a lunch break. 
The chairman is also going to be gone for a little while. So we 
are going to recess this hearing until 2:15. Thank you very 
much.
    [Whereupon, at 12:33 p.m., the committee was recessed, to 
reconvene the same day at 2:15 p.m.]

    [Recess]

                           Afternoon Session

    Senator Grams. This hearing will now come to order again. I 
want to thank you very much for your patience and I hope you 
all had a chance to get some lunch.
    We would like to finish the opening statements from our 
witnesses today. Dr. Akers and Dr. O'Brien, I would like to 
begin with your opening statements. Dr. Akers, please go ahead.

 STATEMENT OF DR. JOHN AKERS, CHAIRMAN OF THE BOARD, EAST GATE 
                    MINISTRIES INTERNATIONAL

    Dr. Akers. Thank you, Mr. Chairman and ladies and 
gentlemen. Thank you very much for the opportunity to appear 
before you today in connection with the proposed International 
Religious Freedom Act of 1998.
    American organizations which are involved in religious and 
humanitarian service in other countries have an enormous stake 
in this issue, and I am grateful you have invited some of us 
who represent denominations and mission agencies to participate 
in this hearing. Currently over 170,000 Americans, representing 
over 800 denominational and nondenominational agencies, are 
involved in some type of religious work overseas. Their work 
runs the gamut from evangelism and church planning to schools, 
hospitals, disaster relief, agricultural and other development 
projects, and other kinds of humanitarian aid.
    Let me be clear about our perspective. Religious 
persecution is abhorrent to all of us and any country which 
consistently practices it cannot expect to be accepted within 
the circle of civilized nations today. Many mission agencies 
face this problem almost daily in their work. Yet for far too 
long religious persecution has been overlooked in discussions 
about human rights. We therefore welcome the recent attention 
which has been given to the problem of religious persecution 
and we thank you for your concern. I am sure that we also were 
all very moved by the testimony of our friend from Pakistan 
today.
    Like other mission agencies, the organization I represent 
today, East Gates Ministries International, of which I am 
Chairman of the Board, is a nonprofit, nonpolitical religious 
agency. It is not my intention, therefore, to speak about the 
possible political or economic repercussions of this bill. Nor, 
frankly, am I equipped to give a point by point analysis of 
this proposed bill. I am sure you will be studying carefully 
the thoughtful suggestions that others have made and will be 
making.
    Instead, today I would like to bring to your attention two 
concerns that I have, what I might call two benchmarks against 
which I believe any final version of this bill should be 
measured. I hope you will keep these two concerns before you as 
the bill continues to be debated.
    First, I believe the final version of any bill on religious 
persecution must take into account its potential impact on the 
work of American mission organizations that are working 
overseas. Many American mission agencies work in what are 
frankly very difficult circumstances, including societies where 
there may be discrimination or even persecution against 
religious minorities. Often they are able to continue their 
work only because they have learned to stay clear of political 
involvements and to demonstrate that they are attempting to 
work for the betterment of that society and its people.
    If, however, the United States, for example, were to impose 
automatic harsh sanctions without exception against every 
society judged to practice religious discrimination, almost 
certainly some governments, not all but some governments, would 
react with immediate reprisals against American mission 
organizations. In extreme cases, they would be banned from 
continuing their work and their personnel might be in serious 
danger. I trust you will always keep this in mind as the debate 
continues.
    Second, we believe any final version of any bill on 
religious persecution must take into account its probable 
impact on the religious believers it seeks to help. The old 
adage of Hippocrates applies here as well: First, do thy 
patient no harm. The point is this: In some societies, not all, 
but in some societies, stringent and thoughtless measures by 
the United States could actually make the situation worse for 
believers rather than better.
    Religious persecution is usually a far more complex issue 
than we are willing to admit. As a church leader from one Asian 
country said to me: If my government concludes we Christians 
are the cause of bad relations between our two countries, they 
will only make life more difficult for us. The bottom line is 
this: As you consider this bill, please remember that each case 
of persecution is different. In our view, a one size fits all 
approach is dangerous and will end up hurting religious 
minorities in some countries, not helping them. Any bill must 
avoid inadvertently hurting those it seeks to help.
    In asking you to remember the potential impact of a 
religious persecution bill on both American mission agencies 
and on foreign believers, I do not mean to imply that I am 
opposed to the specific bill that is before this committee. 
That is not the case. This bill's measured approach to the 
subject and its wide range of responses to instances of 
religious discrimination are, I believe, significant 
contributions to the legislative debate about this issue.
    However, in light of the two concerns I have outlined, let 
me respectfully suggest four possible additions to the present 
bill for your consideration.
    First, I urge that the bill explicitly require multilateral 
consultations and actions wherever possible. I realize that 
this can be very difficult at times, but I feel that is 
important to underline. Aside from the obvious advantage of 
bringing the moral weight of the international community to 
bear against gross acts of religious persecution, a 
multilateral approach could also help minimize the impact on 
American mission organizations which might otherwise be singled 
out for reprisals.
    Second, we suggest that consideration be given to placing a 
time limit on the act. Let me be honest. Many of us who are 
involved in foreign missionary activity admittedly become very 
nervous whenever any governments become involved in religious 
matters that affect us. We know that this can lead to 
unforeseen problems, whether it is anyone's intention or not. 
Requiring the act to be renewed periodically would give all of 
us a better opportunity to spot any problems it might be 
inadvertently causing, including problems for mission agencies 
or indigenous believers.
    Third, we urge that the bill explicitly require those 
involved in its implementation to take into account not only 
the immediate religious situation in a specific country, but 
also the overall trend. This can work in both ways. Some 
countries may be making a good faith effort to reverse their 
past policies of religious discrimination and this 
discrimination should be rewarded and taken into account. 
Others may be taking the first steps toward a more onerous 
policy. This also needs to be spotted and acted upon. Again, we 
would hope that the trend in a specific country would be taken 
into account.
    Finally, we urge the committee to write into the bill as 
many safeguards as possible to avoid politicizing this issue. I 
do not pretend to know the exact formula for accomplishing 
this. Some have suggested the strengthening of the role of the 
Department of State, that this might help. Other suggestions I 
am sure have been made a well. I would not pretend to know what 
the answer is.
    But I do know, however, that an annual squabble between the 
President and the Congress over specific instances of religious 
persecution will hurt those of us who seek to serve in other 
countries. I believe it will also hurt the cause of religious 
freedom in some countries. I hope you will do everything you 
can to keep this politicization from happening.
    Again, I thank you for your concern for this subject and 
your kind attention to our comments today.
    [The prepared statement of Dr. Akers appears in the 
Appendix.]
    Senator Grams. Thank you very much, Mr. Akers. Dr. O'Brien.

  STATEMENT OF DR. JOHN O'BRIEN, DIRECTOR, THE GLOBAL CENTER, 
                       SAMFORD UNIVERSITY

    Dr. O'Brien. Thank you, Mr. Chairman and members of the 
committee, like others, for this opportunity to appear.
    I am coming from a little bit different perspective. The 
lens through which I am looking at this largely is as both an 
expatriate who has lived in the international scene within 
societies differing from ours religiously, politically, and 
from about 30 years of international work both through the 
Foreign Mission Board of the Southern Baptist Convention, where 
I served in administration in Richmond, Virginia, for many 
years and now subsequently through International Urban 
Associates, part of the Pacific Rim Think Tank, through the 
Plowshares Institute that deals with empowering for 
reconciliation with justice, from that kind of background.
    The reality of religious persecution we have all confessed 
to. Everybody at this table today is in full agreement it is 
here, and for that reason we are grateful for the initiatives 
of Senator Nickles and Lieberman and others here in the Senate, 
whose efforts both serve to ratchet up our concern while 
attempting to provide legislative measures through which we 
can, in partnership with other concerned states, influence 
change in those areas of proven violation of religious liberty 
and human rights.
    However, the complexity of defining religious persecution 
is extremely challenging. In attempting to define it so that 
the perpetrators can be exposed and dealt with, we discover a 
multi-complex braid of culture, ethnicity, economics, politics, 
and religion. Any legislation that calls for concrete and-or 
pejorative steps must be wisely crafted in order to avoid 
deeper problems on the ground where the conflict exists as well 
as a negative boomerang effect on the United States.
    My family and I lived and worked in Indonesia between the 
years 1963 and 1971. In those years we experienced runaway 
inflation, an attempted coup d'etat in 1965, a bloody massacre 
over a 6-month period following the coup, and the initiation of 
the New Order under the newly installed President Suharto at 
that time.
    During the 6-month cleanup operation which was carried out 
in the name of crushing the communist party, there were 
instances of torture and killings between Javanese and Chinese, 
between Muslims and Christians, neighbor against neighbor. The 
umbrella motive for the operation was politician cleansing and 
stabilizing of nationhood. Meanwhile, religious and ethnic 
factors played a role, taking advantage of the larger movement 
in order to carry out vendettas on other levels.
    The same is true when harassment, torture, and persecution 
on religious grounds is carried out. It is often difficult to 
ferret out if this is purely religious persecution or are there 
socioeconomic, cultural, and-or ethnic motivations mixed in?
    For instance, some of the church burnings in Indonesia 
during the years 1996-'97 were not all purely based on 
religious bias. There is a perception that Christians are more 
affluent. Because the ethnic Chinese of Indonesia comprise no 
more than four percent of the population and control about 75 
percent of the wealth and because many Chinese are Christians, 
a general image of Christians often carries with it a false 
perception of affluence that simply is not true.
    Among the churches burned over the past three years, many 
if not most were comprised of very poor congregations. But the 
clouded picture of who Christians are and any advantage they 
may have economically confuses the whole issue. That is not to 
say there were no burnings based on pure religious conviction, 
but sometimes the picture is too hazy to make categorical 
declarations.
    On the other hand, in the current scene today in Indonesia 
there are small radical groups who wreak havoc because of 
encouragement from sermons in the mosques. Rich or poor is not 
the motivation, and the religious harassment now taking place 
is carried out in a quasi-political vacuum during the tense 
transition of leadership from Mr. Suharto to President Habibie.
    While the Indonesian armed forces have traditionally stood 
together in support of the Pancacilin, which is the 
foundational document of the nation, and opposed any attempt to 
turn Indonesia into an Islamic state, observant Indonesians are 
noticing a more divided military now where many seem to be 
turning green while others are still strong supporters of the 
red and white. Given the current political climate in 
Indonesia, the more radical elements of Islam, who from 1945 
have pushed for the adoption of the Jakarta Charter as the 
basis of law in Indonesia, are once again pushing for an 
Islamic state.
    The next 6 to 12 months hold awesome implications for 
Indonesia as a nation and therefore for the region and the 
world. Depending on the political decisions made, which in 
Indonesia are inextricably intertwined with religion, the 
potential for the exacerbation of religious persecution 
targeting minority Christian groups is very sobering. Add to 
that the willingness of some persons who embrace a radical form 
of Islam to sacrifice any existing economic framework if that 
is what it takes to create an Islamic state further complicates 
the balancing of the national equation.
    The reason I focused on this is because Indonesia 
symbolizes the complexity of the religion question in most non-
western societies. For instance, in the Middle East there have 
been recent allegations of systemic persecution of Christians 
by the Palestinian Authority. A recent factfinding trip by 
scholars and journalists sponsored by Evangelicals for Middle 
East Understanding could not substantiate any of the 
allegations. While there are isolated instances and tensions 
that mark any culture with majority and minority populations, 
there was no proof of a rising tide of anti-Christian 
sentiment. The Executive Director of that movement in a press 
release in Jerusalem said: ``We found disturbing indications of 
political motivations behind recent publicity about Christian 
persecution. We deplore efforts of anyone to pit people of one 
faith against those of another religion in order to strengthen 
a political position.''
    From China, the West receives very mixed signals about the 
Three-Self Patriotic Movement and the China Christian Council. 
Naysayers give the impression that the China Christian Council 
is led by either members of the communist party or they are at 
least collaborationists under the control of the government. 
Therefore, the ``underground'' church is the only true church 
comprised of members who are uncompromised. Those who know 
personally the leadership of China Christian Council, who have 
worshipped in what is referred to as ``open churches,'' and who 
have observed the theological training centers have a very 
different impression.
    In 1979 the Chinese government recognized five religious 
entities: Buddhists, Taoists, Muslims, Protestants, and 
Catholics. They did not recognize such indigenous movements as 
Watchman Nee's Little Flock, Seventh Day Adventists, and 
others. The government views them as cults and outside the 
freedom of religion policy.
    However, when some of their leaders were jailed, the leader 
of the China Christian Council and his associate traveled to 
Beijing to protest on their behalf. The government leaders 
responded by saying to them: Well, we do not understand the 
difference between true Christians and cults. They were open to 
be taught the difference.
    About 1980, China Christian Council was formed to work both 
inside and outside of China. The Three-Self Patriotic Movement, 
formed in 1955, only works inside China.
    During my tenure at the Foreign Mission Board, we worked 
with the China Christian Council and helping to fund the 
beginning of the Amity Foundation Press in Nanjing. Since its 
inception in the mid-eighties, the Amity Press has printed and 
distributed within China 20 million Bibles. One can even find 
Bibles for purchase at the Tass News Agency bookstores. Pastors 
of unregistered churches come to the registered churches to get 
their Bibles and hymn books.
    You know, my experience has been that almost anything you 
read about in China is true, it is happening somewhere. There 
may be leaders in one province who are harassing and 
imprisoning members of unregistered churches, while in the 
adjacent province there may be a Christian revival breaking 
out. Pastors of unregistered churches invite pastors of 
registered churches to come and preach, and they do. No pastor 
of a registered church would go uninvited to an unregistered 
church lest the members there think that they were spies.
    One pastor in Guangzhou boasts about being pastor of the 
largest ``underground'' or unregistered church in China. The 
church meets on the second floor of a building immediately 
above the police station. Everything they do is quite open and 
known by everyone.
    What am I saying? All of this is to say that there are 
complexities in all these situations that demand a very studied 
approach to any applied action. How can we then influence 
change through the kind of legislation that you are crafting? 
My assumption in coming is that there is going to be some 
legislation.
    My hope is that we can influence change in all of these 
countries, like Pakistan, Sudan, Indonesia, wherever it is 
happening, China. So let us build on the strengths already 
present in S. 1898 and further craft a highly effective 
instrument for achieving the aims of the bills, and let me just 
allude to a few of these.
    First, build into the mechanism the mandate for the 
assigned person or group in the State Department to engage in 
multilateral, multinational dialog with religious and political 
leaders in all the appropriate nations that can provide 
collaborative insights needed for any recommendations to the 
President. While this is in the bill at the moment, I would 
plead that it be built in much earlier, so that multilateral, 
multinational dialog does not happen in regards to sanctions, 
but that it happens in regard to defusing the issue before we 
ever have to get that far along.
    Second, sources identified for garnering information on 
religious persecution must be chosen with utmost care. I would 
plead for the cross-referencing of sources and data. It is so 
important to reduce the potential for reports being crafted 
from either incomplete or biased data. Furthermore, gathering 
data must be done in such a way so as not to jeopardize the 
presence and work of expatriate mission groups and 
missionaries.
    While in Indonesia, I was accused of being an agent of the 
CIA during those very troubling times leading up to the coup in 
the early 1960's. Such connections in the minds of local people 
undermine the very honest work one is there to do. We were 
approached by agents as missionaries.
    Information-gathering and reporting on religious 
persecution must be done in a way that protects it from being 
suspect as a tool of any intelligence service. In highly 
volatile areas such as Indonesia, China, the Middle East, to 
mention a few, examples of reporting through the emotional 
lenses of the source may produce slants that should be measured 
against other reports that may or may not have their own 
slants. The bill can require the new commission or whatever 
appropriate entity at State to carefully design reporting 
processes that include all of these entities.
    Third, as regards to any possible sanctions, the bill must 
include steps that guarantee the United States, in 
collaboration with all appropriate parties, will not take any 
action that would produce unintended consequences for the very 
victims we are trying to help. Sanctions and discontinuance of 
aid, especially if done unilaterally, may well evoke reactions 
from authoritarian regimes that are aimed at the persecuted.
    In fact, the whole issue of sanctions, while needing to be 
there, should be a last ditch approach if used at all. I would 
hope that the President would have the freedom as well as the 
motivation to call for findings that prove sanctions would be 
useful and serve their purposes, while not hurting the people 
we are wanting to help.
    It seems to me it would greatly strengthen the President's 
hand and give him or her much greater flexibility in dealing 
with those nations engaged in continuing patterns of gross 
violations of religious and human rights if most of the work 
was done in State, within a new commission and-or any other 
appropriate apparatus until the need arises for the United 
States to prove its will and commitment through Presidential 
action.
    Fourth, I would say that, given the fact of religious 
persecution in some form happening in so many nations, the bill 
must be careful not to paint all of them alike with broad-brush 
strokes. Not all persecution is state-sponsored or endorsed. 
Not all persecution is carried out by groups while a regime 
either looks on approvingly or turns its head. Sadly, some 
persecution is Christian against Christian, Hutus versus Tutsi 
in Rwanda for instance. Some Christians might evoke the label 
of being persecuted when in fact they just happen to have been 
arrested because they broke the law. That even happens in our 
country.
    Mechanisms to provide case by case analysis should be built 
in so as to deal most appropriately with each situation.
    To wrap up, let me just say I am encouraged by the will of 
this Congress to lift to high visibility to reality of severe 
and gross persecution of Christians and persons of other 
religions at the hands of their perpetrators. I encourage all 
of you to take a strong stand through the forging of 
legislation that is worthy of being related to the same cause 
that calls for the commitment unto death from believers who 
understand the cost attached to their faith.
    As much as lie it within you, guard this effort from any 
appearance of politicization. Martyrs deserve better.
    Thank you very much.
    [The prepared statement of Dr. O'Brien appears in the 
Appendix.]
    Senator Grams. Thank you very much, Dr. O'Brien. I want to 
thank all of our witnesses for great statements and a lot of 
good information.
    We have been joined by Senator Robb of Virginia. Senator 
Robb, do you have any statements or comments you would like to 
make?
    Senator Robb. Mr. Chairman, I do not. I regret that I was 
unable to join the panel this morning. I have collected all of 
their statements. I would like to join in thanking our 
distinguished witnesses for their testimony and witness. I will 
look forward to reviewing those, and I thank you for holding 
this hearing. Unfortunately, I am not going to be able to 
remain for the questioning because we have a compartmentalized 
hearing over in Intelligence to which I have to repair at this 
particular moment. But I thank you very much.
    The only testimony that I heard live in its entirety was 
that by Dr. O'Brien, but it is refreshing to have such balanced 
views that reflect pros and cons. We frequently get someone who 
is very committed to one side or another, one view or another, 
and it is always refreshing to have that kind of candor.
    I look forward to reviewing all the views that have been 
expressed, and I thank you, Mr. Chairman.
    Senator Grams. Thank you very much.
    I do have a quick opening statement myself that I would 
like to read to get into the record, which shows some of my 
concerns as well before we begin questioning. Hopefully, 
Senator Helms will be joining us, and others, before too long.
    But I want to start out by thanking the chairman for 
holding the hearings today, which allows us to hear testimony 
from religious leaders on the Nickles International Religious 
Freedom Act. I believe this bill is more reasonable than the 
Wolf-Specter bill, but I still have some serious concerns and 
hope that we can work to achieve what I believe are some needed 
improvements in the legislation.
    I am concerned about human rights abuses of all kinds, I 
oppose all abuses, including religious persecution, and believe 
we should seek ways to address these types of injustices. But I 
also strongly believe legislation that imposes sanctions or 
threatens sanctions, especially unilaterally, can be 
counterproductive. Such legislation could lead to harm of 
believers in other countries, and I believe this legislation 
could do that. So do many religious leaders in this country and 
others who have served as missionaries abroad. They have 
accomplished so much to bring more religious freedom to the 
world. So much more progress is needed.
    But should we be the ones to tell them how to accomplish 
that? I think they are wise and many of them object to this 
government-directed approach. Many other countries will see the 
U.S. as attempting to force our values, our religious beliefs, 
on them.
    I also believe efforts to force progress through sanctions 
can be counterproductive. Persecution would not necessarily 
stop, and again believers could be placed in harm's way. The 
affected country will turn to other nations which have not 
sanctioned them, so not only have we not accomplished our 
purpose, but we may have harmed U.S. economic interests as 
well.
    Now, I have been blamed for looking at this solely for the 
impact that this legislation would have on trade. But that is 
my secondary concern. My chief concern, and one that has 
repeatedly been brought to my attention by religious leaders, 
is how effective would legislation like this be? Would it work? 
Would it help us combat religious persecution and promote 
religious freedom?
    Quiet diplomacy has been doing that. So will the work of 
those here before us today. So will the efforts of those who 
have been reached abroad by religious leaders of all faiths in 
the past. As I often say, the most productive changes can come 
from inside a country, from an awakened people, and not from 
outside threats.
    I was also struck by a comment by one of the drafters of 
this legislation, that there will be few, if any, gross 
violators subjected to sanctions. Now, if that is so, why are 
we even considering legislation? Would it appear that we are 
promoting a solution that is not achievable?
    Again, I wanted to thank the chairman for inviting all the 
witnesses here today. I just want to note that we had many 
requests from numerous other religious leaders who also sought 
to be here to testify against this legislation, but I 
understand how limited our time is. But I do have some comments 
from those that I would like to enter into the record as if 
read. I also have some statements that they have mailed to us 
which I will also put into the record as well.
    I want to work with this committee. I want to work with the 
chairman and also with Senators Nickles and Lieberman, to try 
to improve this legislation. There are some things that I think 
could be improved, such as the list of countries could be 
classified, for one thing; that there could be more flexibility 
in the determination of sanctions and more effort placed on 
multilateral approaches. The waiver authority needs to be 
broadened and the Congressional disapproval authority needs to 
be narrowed or at least defined more in its scope.
    So if we are to pass legislation in this area, these are 
some essential changes that I think will help win more support, 
as well as protect believers in countries that are labeled as 
gross violators. I intend to pursue these changes both in the 
committee and on the floor.
    I also want to agree with one of our witnesses who said 
earlier this morning that silence is not an option. I believe 
that. I think that we very seriously have to look at these 
concerns. But I also believe that if we pass legislation we 
should have some confidence that it is going to accomplish our 
goals. As for the Hippocratic Oath, I think as Dr. Akers 
mentioned: First, do no harm. I say this in reference to those 
who might endure even more religious persecution because of 
actions that we take here.
    With those comments, I see the chairman has rejoined us. 
Chairman Helms, I would like to return the hearing to you for 
your first question.
    [The prepared statement of Senator Grams appears in the 
Appendix.]
    Mr. Grams. I ask unanimous consent that a letter from the 
National Council of Churches opposing S. 1868 and a letter from 
James C. Dobson, Focus on the Family, Chuch Colson, Prison 
Fellowship, Gary L. Bauer, Family Research Council, and Randy 
Tate, Christian Coalition, be inserted into the record.
    [The information referred to appears in the Appendix.]
    The Chairman. I think the committee is in good hands. You 
stay right where you are.
    Once again, I would apologize for pushing you around today, 
but this has been one of those days. Maybe you have those days 
in your shop as well. You do not?
    Dr. Akers. Never.
    Senator Grams. Never.
    The Chairman. Anyway, I thank you for your patience, and I 
hope you have enjoyed lunch a little bit, and I appreciate your 
coming.
    Let me ask a few questions just for the record. Bishop 
Mano, you mentioned in your statement--and I want to make sure 
that the record is clear and my mind understands it, because 
you may have to live with the outcome of this. You stated that 
you do not support the bill which recently passed the House of 
Representatives, Representative Wolf's bill or the Wolf-Specter 
bill.
    Given the choice between Wolf and Nickles-Lieberman, which 
is this bill by this Senate, and doing nothing, which choice 
would you advise us to take?
    Bishop Mano. The reason for saying that, I think it has 
been already said enough by the panel, and that is that the 
House bill is a bit high-handed. At least that is how it comes 
to us. The option of straight sanctions is not a way forward, 
at least in my situation and perhaps in most situations.
    This bill as we hear and read about it gives the breadth, 
the diversity, the multipurpose options through which I think 
more than one approach can be used to rectify very intricate 
and very difficult situations. As I think one of my fellow 
speakers have already said, the whole issue of religious 
discrimination is an extremely complex issue and we can play it 
in many different ways, both the perpetrators and the 
persecutors.
    I think this bill gives you that option to choose a course, 
a calibrated course which can be adapted to each situation and 
then respond in that way.
    Particularly one or two things which really appeal to me, 
for example the whole notion of an ambassador at large thing. I 
think here is a roving Ambassador who can, through his 
contacts, begin to detect these human situations.
    The other thing which I feel could be part of it which I 
have been advocating, that during the whole South African 
situation, if you recall, sir, the U.N. used to send the group 
of eminent people. The former Prime Minister of Canada was one 
member of such a group. These were the kind of things where I 
feel perhaps people from different religions could be used to 
intervene in those situations and bring hope and rectification, 
rather than just sort of have a shot at each other.
    So there are different avenues of this bill I believe which 
are appealing as a multipurpose approach, rather than one of 
just a bang-bang approach.
    The Chairman. Very good.
    Dr. Land, would you address the same question?
    Dr. Land. Yes, sir. We supported the Wolf-Specter bill in 
the House because we feel that we want the best bill that can 
be gotten out of this Congress. We believe that something is 
necessary. That was the vehicle in the House.
    We have testified here today that, in generic terms, that 
we want the best bill that accomplishes the objectives that we 
laid out. I think that the Nickles bill certainly addresses our 
concerns substantially in the Senate. Our position is we want 
the best bill that can be passed in this Congress by both 
houses of the Congress and sent to the President for his 
signature. We believe that this is--that it is important that 
there be an effective mechanism to have our government make 
this a high profile issue with other governments around the 
world and the people in those societies.
    The Chairman. Do you have an opinion? I think I know what 
yours would be.
    Ms. Gaer. I think I indicated that this is a preferred--
that the Nickles-Mack strikes us as a preferred approach and 
that no approach would be a mistake, and that this is 
calibrated, flexible, situation specific, country specific. It 
offers the possibility of being effective. That is what we 
would like to see, greater effectiveness in combating religious 
persecution everywhere.
    The Chairman. Dr. Akers.
    Dr. Akers. Senator Helms, I hope you will appreciate the 
fact that Billy Graham is always very reluctant to have any 
statement made that might be interpreted as a political 
statement. So with that preface, however, I would concur that 
there are many features of the Nickles bill that I believe will 
address the concerns that we would have concerning the 
complexity of religious persecution in various parts of the 
world.
    Many of us on this panel have made some suggestions that I 
am sure you will be considering, that I hope would sharpen the 
bill. With those considerations taken into account, I believe 
that this could be a useful bill. I do feel that it needs 
periodic review so that we are sure that actions that are taken 
are not counterproductive, even if they are unintended.
    The Chairman. Parenthetically, are you familiar with the 
effort to build a fund for Ruth Graham's International Care for 
Children?
    Dr. Akers. I thank you for your part in that. Ruth was up 
here the other day, with your kind encouragement, and we thank 
you for your part, your personal part, in helping express her 
concern and Dr. Graham's concern for children's health.
    The Chairman. Well, they are a great couple.
    Dr. Akers. I send you their regards.
    The Chairman. I have known Billy for the majority of my 
life now. I hate to say that.
    How about you, Dr. O'Brien?
    Dr. O'Brien. Thank you. I certainly feel that the Nickles 
bill is much further down the road than the House bill and 
would be much preferable. I look at it as a work in progress. 
With all of the suggestions that have been here, I would hope 
it is further crafted, with this caveat: With the demise of 
Marxist ideology and the U.S. considered a lone superpower, in 
reality what happened when that ideology crumbled, we moved 
into a world of multipolar powers, a multipolar reality.
    H.G. Welles in 1933 brought a radio address in which he was 
decrying the fact that we did not have many professors of 
foresight. If we could build into this the kind of foresight 
that is being instructed by current realities--when the wall 
came down in both Moscow and then literally in Berlin, we were 
so euphoric we did not see the other walls that had been draped 
with political ideology trappings for all those years, the 
walls of ethnicity and tribalism.
    Of the 30-some odd wars raging today, there is not a single 
one of them across a geopolitical boundary. We are coming into 
an era in which those who feel a sense of loss of something are 
taking hold of that which they feel they can control. We are 
facing, I think, some of the greatest trials in the future of 
this very issue and others.
    My plea with all that is that the committee and the Senate 
will further craft an instrument that has a great deal of 
foresight built into it and not simply be dealing with the 
tyranny of the urgent, whether it be from any constituent 
pressure or the realization that we are onto something that has 
to be brought to the forefront for this Nation as well as other 
nations.
    So yes, I applaud this work in progress and would assume 
very optimistically that there is still some work to be done 
that will reflect foresight.
    The Chairman. I see that we have been joined by the 
gentleman from Kansas. We are just speaking informally and 
asking questions.
    Senator Brownback. Thank you very much, Mr. Chairman. I 
appreciate very much the panel. I have been in and out and I 
apologize for not having heard more of your statements. I have 
held, though, two hearings, three hearings, in the subcommittee 
that I chair on the issue of religious persecution and 
religious freedom. So I have grown somewhat familiar with it, 
and delighted with the chairman's leadership on this topic that 
we are now considering and moving forward on, something I 
consider a foundational human rights as religious freedom, that 
it is the basis on which so many others of our freedoms are 
built.
    I would just like to state, Mr. Chairman, if I could and 
for the record, that I commend the people who have proposed the 
legislation, the International Religious Freedom Act, or S. 
1868. I admire this bill for many reasons, strongly support it, 
and I appeal for its support today. I think this is a noble and 
a significant effort to empower advocacy for those who suffer 
insidious institutionalized religious abuse worldwide in 
contravention of basic human rights, in contravention of those 
basic human rights, and, I might add, in contravention of the 
principles on which this land was founded by people seeking 
religious freedom.
    This legislation addresses the problem of state-sponsored 
persecution of peaceful religious groups. It recognizes the 
intricacies of and responds accordingly. It constitutes a 
multifaceted platform for advocacy. Most importantly, it 
eloquently, I think, articulates our governmental commitments 
to defend religious freedom as a fundamental human right 
protected by international law.
    I am going to talk very frankly about this. If we do not 
defend religious liberty, who is? If the United States does not 
defend religious liberty, who will? And if we do not do it now, 
then when?
    In my foreign travels, I am continually humbled by the 
esteem that people have for America. Why this uniquely elevated 
position for this country? I think the answer really is pretty 
simple: We are great because we have been good, a good people; 
and we are good because we still fight for things like freedom 
and for those who suffer for its sake.
    The most insidious form of religious persecution is state-
sponsored, which this bill acknowledges. How do sincere people 
stand against the crushing onslaught of a hostile national 
government? I have talked with a number of people who have 
tried to stand against that, and they cannot do it. They are 
powerless to do it and to get it done. Yet they continue to try 
to stand, because their faith calls them to do it, whatever 
that faith might be.
    How does an individual or a small faith community stand 
against the national security forces? Imagine countries where 
entire divisions of national police are dedicated to stalking 
peaceful people of faith. At the extreme, countries indulge in 
violent attacks involving unbridled cruelty.
    As I am speaking, thousands and probably tends of thousands 
are sitting in jails because they dared to peacefully share 
their religious convictions. Their numbers are unknown as well 
as their names. Yet they are the type of democracy dissidents, 
like Sakharov and Solzhenitsyn.
    I just would close with two questions that I think are 
posed by this debate. One is should we advocate for the 
religiously persecuted? I believe the answer is strongly and 
unequivocably yes. The religious persecuted are as worthy as 
are democracy dissidents and represent the same principles.
    The second question: What is the best approach? The one 
which recognizes the intricacies of mistreatment and offers a 
nuanced response is the one that I believe is the best 
approach, one which facilitates advocacy for those who are 
struggling to practice this simple yet profound freedom.
    Bluntly put, instead of waiting for the ravage the 
Holocaust wrought, we should have more protested the infamous 
start of it, the night in 1938 when the Nazis shattered the 
windows of Jewish businesses throughout Germany and Austria. 
That is when we should have started. This bill is crafted to 
timely challenge such institutionalized brutality against 
minority faith communities.
    Bottom line, any individual who dares to stand alone 
against a hostile national government for this fundamental 
right deserves the advocacy that this bill empowers. So I 
strongly support it. I am delighted this panel has been here to 
testify, and I will be looking to more of your input as we go 
along on this debate.
    Thank you for the time, Mr. Chairman.
    Senator Grams. Thank you very much.
    I only have a couple of questions and then I will turn it 
back over to Sam for some questions and the chairman as well.
    Bishop Mano, I appreciate your testimony and the 
persecution you have faced, and I understand that you are 
representing the Episcopal Church, which has been so helpful 
drafting the Nickles-Lieberman legislation as an alternative to 
the Wolf-Specter approach. However, I am intrigued by the 
position of the church on one hand and a statement that you 
made back on April 24 of 1988 which does not recommend the 
Wolf-Specter-Nickles approach at all, but instead the more 
positive actions that I believe have helped us pursue religious 
freedoms in other nations.
    You recommended dialog with the majority community based on 
mutual trust and respect, progress to help minority 
communities, multilateral efforts, efforts by a group of 
prominent religious leaders to help address conflicts. I 
appreciate your good work and many of the challenges that you 
have faced, but I believe the Nickles bill, which persecutes 
the persecutors, would probably conflict with those statements 
you made in April.
    Your comments on that?
    Bishop Mano. Thank you. That was, with respect, I think 
April 1998, not 1988. I did not speak on the bill at all. It 
was at a different conference hosted by the Episcopal Church 
here.
    Of course, I think, being human and living in a situation 
as we do, dialog is at the heart of our relationship. Until my 
grave I will advocate dialog at all levels, with my enemy, with 
my friend, with my well-wisher, with my persecutor. Absolutely, 
that is not in question at all.
    But I personally do not understand the nuances of the 
comparisons of which is a better bill. The way I read it, the 
way I have heard, the way I understand, I do not think this 
bill is to persecute the persecutors. This bill is there to 
rectify the situation, which is a deplorable situation. I think 
you were here when I made my presentation. This is the only 
sacred God-given choice which I have.
    If I may just give you an example. I lived in Britain for 
many years. I was a black person there. If anybody called me 
``black'' there, it hurt me. It felt like a worm. But in 
Pakistan I could be one of the top five percent of the 
community there, but I have chosen to be counted amongst the 
bottom five for my faith. That must be honored. It is not for 
sale. It is not easily dispensable. It is precious to me, and I 
have made that choice.
    My sort of contention is that the choice must be respected, 
and in order to do that I think human society must create that 
freedom. I am struck by the other Senator's remarks. We should 
have woken before the Holocaust happened. It is a very real 
situation of our time. It is not too much in the past. We must 
wake up to the religious persecution wherever they may be, 
before it is too late. We have had it in our times already. I 
do not think it is persecuting the persecutors, not that I see 
it.
    Senator Grams. Thank you very much, Bishop.
    Dr. Land, all of us want to address the problems of 
religious persecution. The question is how do we do this. I 
think we all have the same goals in mind, but struggling for 
ways to find some answers or to find some ways to solve these 
problems. But certainly there are many ways our government can 
help pursue those problems with other governments. We can do 
more to organize more multilateral efforts, as I think has been 
mentioned earlier. Even sanctions applied multilaterally would 
be better than a unilateral type of approach.
    But I have been perplexed after hearing from so many who 
have served in ministries abroad of how this kind of 
legislation could be counterproductive and again, as we talked 
about, that some of those that are being persecuted could even 
face more persecution as a reprisal possibly for some of the 
actions that might be taken. Also, should the government decide 
what religious persecution is or even what religion is and who 
gets on the list. The government would decide who the gross 
violators are, who gets sanctions and who gets a slap on the 
wrist. The government would decide who gets off the hook due to 
foreign policy or maybe other concerns.
    Then, to make matters worse, the whole business is further 
politicized by allowing the Congress to disapprove of some of 
the sanctions possibly because they want even tougher 
sanctions.
    How this club over the head approach, if we could call it 
that, would ever work is of great concern to me, because I 
believe it in some ways could be counterproductive.
    Do you have any disagreement or thoughts about that?
    Dr. Land. I do have both some thoughts and disagreements. I 
first of all do not think it is a club over the head approach. 
It seems to me to be a well-stocked arsenal with numerous 
nuanced approaches, depending on the particular situations and 
trying to give flexibility, and bringing the people's 
representatives more directly involved in a matter of such 
close personal interest to the people and not leaving it just 
to the State Department and just to the executive branch, but 
making Congress more in partnership with them.
    I will say to you that I did before I came to give 
testimony today consult with Dr. Gerry Rankin, who is the 
President of the International Mission Board in Richmond, and 
with the Executive Vice President there, Dr. Don Kammerdeiner, 
and they both agreed that legislation was necessary, that 
religious persecution around the world is outrageous, and that 
something effective needs to be done. They both told me that 
they believe that legislation was both beneficial and 
necessary.
    Of course, they want the right kind of legislation, as I 
think we all do. I think the worst thing we can do is to do 
nothing. We have done nothing for far too long. To put it 
charitably, the United States State Department under both 
Republicans and Democrats has had a remarkably tin ear to this 
particular kind of persecution. I do not believe that is going 
to stop without some kind of effective legislation from the 
Congress.
    Senator Grams. Ms. Gaer, do you think this legislation 
could be perceived as pro-Christian legislation in the Middle 
East?
    Ms. Gaer. This legislation is drafted with a clear base in 
universal standards. The definitions, the articulation of what 
constitutes relating persecution or gross violations--the terms 
are a little mixed up--fall squarely within those international 
definitions. If the legislation is applied with the same degree 
of sophistication with which it was drafted, this legislation 
will be perceived as pro-religion, pro-freedom, and not anti-
anyone or any particular religion.
    Senator Grams. Could a country be deemed a gross violator, 
Ms. Gaer, subject to sanctions, but still be moving toward of 
religious freedom?
    Ms. Gaer. The way the legislation is drafted, a gross 
violator would be a country that has a particular pattern and 
hits a fairly high standard. If I understand the question, you 
are asking can there be inconsistencies in policy in terms of 
addressing that country and in categorizing it?
    Senator Grams. If it still has not attained a certain 
level, but is moving in that direction, could it still be or 
would it still be labeled as a gross violator, which could have 
a negative effect on further progress?
    Ms. Gaer. Well, that of course depends on the skill of 
those who are gathering the information and analyzing it and 
assessing the overall situation. That is why this is being 
handed over to, ideally, to a group of experts and special 
appointees who have to come back in some cases and get the 
advice and consent of this body. So that there is that kind of 
expertise in making those assessments.
    I think that there are cases where acts taken place that 
are focused on religious violations that are inconsistent with 
what goes on otherwise in the country. But the overwhelming 
evidence of those who engage in persistent abuse of religious 
norms is that they are themselves also engaged in gross 
violations of other human rights norms. So you do not normally 
see religious persecution as an aberration. You see it in a 
complex web of other forms of violations.
    Senator Grams. Dr. Akers, I believe that you and Dr. Ned 
Graham's work with the house churches in China has been very 
positive. China believes that many of those house churches have 
more internal politics than religion in mind. What are you 
doing with the Chinese to convince them that these are true 
religious communities?
    Dr. Akers. I think there are several things that might be 
said about that. First of all, we have found in recent years at 
least that some of the strongest advocates in defending the 
rights of the house church have been those in the leadership of 
the official church. That may strike you as strange, but we 
know that there are many instances where instances of abuse to 
the house church have been brought to the attention of the 
leadership of the official church and they in turn have 
defended before the government those people and often with 
success.
    Another thing that I would say is that one of the goals of 
the Reverend Ned Graham's work has been to work not only with 
the churches and to work legally, but in the course of working 
legally we have established close relationships with some of 
the government agencies that oversee religious life in the 
People's Republic of China. We say to them quite frankly that 
we know that they have problems and we are concerned about 
those problems.
    In fact, Senator, from time to time when we are presented 
with lists of prisoners of conscience that come from various 
organizations in the West, we forward those on to our contacts 
within the government of the PRC and ask them to investigate 
and, because they trust us, they often carry through on that. I 
do not claim that everything gets solved, but nevertheless 
there is an openness now that we find helpful.
    I think, Senator Helms, you know that Dr. Graham's 
perspective across the years has been engagement wherever 
possible. Even in the old years of the Soviet Union, there were 
many that had questions about him going to the various 
countries in Eastern Europe and the Soviet Union. I suppose 
even now that could be debated. But nevertheless he felt that 
the opportunities that he had, that no one else really had, to 
visit those countries, to preach, to talk openly with high 
level leadership, that those were significant and that those 
would help in the long term the cause of religious freedom. 
That is a perspective that we continue in our work in the 
People's Republic of China.
    Senator Grams. I know some have suggested that Chinese 
officials have demanded that you oppose this type of 
legislation to avoid any setbacks in your relationship with 
them. Have you ever felt threatened by the Chinese leaders in 
this regard?
    Dr. Akers. No, absolutely not. None have ever suggested 
that to us. We have sought to maintain our independence, both 
from them and from interests in this country on one side or 
another, whether they are economic interests or whatever. We 
seek to maintain our independence.
    I think that they know that that would be counterproductive 
in the long term were they to try and pressure us in any way. 
One of our strengths as an organization, Senator, is that we 
have been able to establish contacts not only with the official 
church, but with the so-called house church in China. We have 
staff in Hong Kong and in Shanghai that travel extensively, 
Chinese staff, that travel extensively throughout the PRC, 
mainly making contacts with the house church.
    We know many of the problems that there are. We know many 
of the opportunities that they have as well. I would just say 
that with this we find that even those who are in the house 
church who are very suspicious of their own government at the 
same time welcome the interest that we show in them and our 
ability to talk with their government in a reasonable way about 
their situation.
    Senator Grams. One quick question for Dr. O'Brien. Is the 
Southern Baptist Church split at all on this issue?
    Dr. O'Brien. I do not know. There are almost 40,000 
churches. All of them are autonomous.
    Senator Grams. So that is a yes?
    Dr. O'Brien. You could get 41,000 opinions from the 40,000.
    Frankly, sad to say, I am sure there are a lot of our 
people in churches who are unaware, and some of it may be their 
own fault for not being more proactive in getting information. 
But a lot of it is the fault of the institutions of our Nation, 
including the media and other things that have taken precedence 
over this kind of reality. So I think with this kind of action 
it is certainly coming to the fore.
    It takes about five years to say hello to Southern 
Baptists. So it will be a while before it gets into the total 
grassroots.
    Senator Grams. Thank you.
    Mr. Chairman.
    The Chairman. Better not get us Southern Baptists talking 
about each other. One of my favorite stories, sir, if you will 
forgive me for intruding with a personal note: A country church 
in North Carolina grew and prospered. It got so many members 
that some of them felt that they were being neglected by the 
pastor--you know how that goes. So they split off and they 
bought a lot across the road and set up another church.
    There were two rather large Baptist churches right across 
the road from each other, and they had a little battle about 
everything, including the billboard or whatever you call the 
bulletin board that appears out in front of the churches, at 
least in North Carolina. The preacher in the number one church, 
he put his sermon topic on the board for the following Sunday, 
and the subject was going to be ``What is Hell?''
    The preacher on the other side looked at that, went back 
in, got his letters, and he said: ``Come Early and Hear Their 
Choir.''
    The Chairman. But let me tell you something. This business 
of trying to play politics with religion, even the politics of 
trying to do good sincerely, it is a tough thing, because 
chances are you are going to be misunderstood.
    Let me tell you a personal enlightenment that I had. I 
first ran for the Senate and was elected in 1972. I would not 
have run if I thought I was going to be elected, but when I 
found out I was elected it was too late to back out. But during 
that campaign somebody sent me a copy of Alexander 
Solzhenitsyn's Gulag Archipelago. I do not know if any of you 
or all of you have read it or not. It was one of those books 
that you had to read every page three times to make sure you 
understood what he was saying, because it was a little stuffy.
    But along the campaign, I read and read and read and read, 
and I perceived finally the message that I think somebody 
upstairs wanted me to see, and that this man was a religious, 
Christian man.
    So after I came to the Senate I got his address. He was in, 
for 20 years, I think, in the Gulag, and there are so many 
tales he has told me and others, several when he came to my 
home. We finally got him over here one time.
    But he was to me a strange man, but a good man, and I was 
surprised to realize how deeply religious he was. I think that 
is the way with a lot of people who do not wear it on their 
shoulders. I try not to put it on my shoulders ever, but I do 
want to do what is right about this thing, but I do not want to 
do it for a political reason. That is the reason I want all of 
you to sort of help and guide me in the position that I am 
going to take with respect to whatever we do if we do it.
    Now, I wish I had a magic wand, and I am sure everybody 
feels that way. I see the little children with bloated bellies 
on television, I find myself praying, I say: Lord, is there 
anything I can do about this? And I do not get a very clear 
answer. I have even said I would be glad to quit the Senate and 
go over. Ted Kennedy would appreciate that if I went.
    But it is not an easy thing to do, rather than object to 
the suggestions, that we change it and improve it. I 
particularly appreciate all that you have said and done about 
that, and I think all Senators will, particularly the principal 
sponsors of the bill.
    So I thank you for coming. This has been an enlightening 
experience for me and I know it has been sort of a disconnect 
for you, with us going and coming and having meetings and so 
forth. I hope the next time we get together we will not take up 
so much of your time.
    I would suggest, Mr. Chairman, that you let me suggest to 
them: I have never made a speech in my life that on the way 
home I did not say, why did I not say so-and-so? Ever done 
that? Why did I not think of saying that? So before you start 
on the way home, if you have got anything further to add, a 
suggestion to make, I wish you would do it, because all of this 
is being taken down and it will be helpful to us.
    Instead of making you last, let us make you first, Dr. 
O'Brien.
    Dr. O'Brien. I think that is fine for today. I appreciate 
the openness to continue to communicate while this is being 
crafted.
    The Chairman. Let us do that.
    Dr. Akers. I feel the same way.
    You feel the same way?
    The Chairman. Ms. Gaer?
    Ms. Gaer. I quite agree. I also want to add that the very 
consideration of both kinds of legislation has moved the 
administration very far in significant ways, and that that is 
also to be commended. They have established all kinds of new 
bodies, new attention, new directives. The Secretary personally 
has told people they have got to get trained and be sensitive 
to these issues. I think that that is a real value that we do 
not see yet, but it has happened, and that is a change from a 
year ago. They may not be satisfied with the idea of this 
legislation just yet, but I think you will make a big 
difference on the way the bureaucracy, the State Department 
officials in all areas, begin to think about these issues.
    So thank you.
    The Chairman. Well, let me say parenthetically, I intend to 
have a personal chat with a lady friend named Madeleine 
Albright, who is by all odds the most attentive Secretary of 
State we have ever had. We do not agree on everything, but one 
thing about that lady, she will tell it like it is and she will 
not try and deceive you. There have been some others who may 
not have been exactly like that.
    Dr. Land.
    Dr. Land. Well, I want to say how much I appreciate this 
committee giving its attention and the attention that comes 
with this committee's attention to this issue.
    No Southern Baptist would ever seek to speak for all 
Southern Baptists. If there are 15.9 million Southern Baptists, 
there are probably at least 20 million opinions, which I am not 
sure what that says about the mental health of Southern 
Baptists. But I will go out on a limb and say that if there is 
near unanimity on any issue among Southern Baptists, it is on 
the issue of religious freedom being the fundamental human 
rights.
    The First Amendment to our Constitution and its freedoms of 
religion are there primarily because of the witness of our 
Baptist forebears against colonial persecutors who did not give 
in 9 of the original 13 States the kind of religious freedom 
that was granted at the Federal level in the First Amendment.
    Now, there certainly is not unanimity on the best way to 
deal with the problem, but the fact that we expect our 
government to deal with the problem and that everyone should 
have freedom to worship their God--as Roger Williams said: ``A 
man's relationship with his God is so sacred that no other 
human being has a right to interfere with it.''
    The Chairman. The last word, Bishop.
    Bishop Mano. Just to say that for some of us it is indeed a 
unique occasion, a dream come true, that a body like yours have 
taken the trouble to deliberate on this very vital human issue. 
I do not think I can pick up your suggestion that we start 
continue writing little chits to say that this is what I forgot 
and this is the new one. I am maybe too far for that purpose, 
but nevertheless grateful for the offer.
    I just want to say that I hope it will not get drowned in 
the political versus the spiritual syndrome. I think that has 
gone on for too long. Spiritual or religion is holistic and I 
think it, at least in our case and I am sure for other people, 
it concerns the totality of our life existence. Sadly, over the 
years I think in the Christian world we have tried to create an 
artificial division as to, this is the political or this is the 
normal life and this is the spiritual life. It has not served 
us well.
    We do not want to create religious monsters, either here or 
anywhere else. But we do want the flow of religious generosity, 
graciousness, peace, care, embrace, to go around the world, 
because I believe if there is one God and we are his followers 
and believers, then how on Earth we can continue to kill each 
other and one another in his honor? We have had a terrible 
record for 500 years, the longest war in history, over 
religion. You dig out behind many of the human conflict issues, 
this surfaces. This must stop in order to honor our God and I 
think for the good of humanity.
    We thank you for finally taking up this issue for all of 
us.
    The Chairman. Thank you very much, and with that fine 
assertion I suppose the chairman is going to put us in recess. 
But this has been a great day for me and I hope it has been a 
good one for you. Next time we will do it all in one piece. Go 
in peace. God bless you. Thank you.
    Senator Grams. Thank you very much. The hearing is 
concluded.
    [Whereupon, at 3:27 p.m., the committee was adjourned, to 
reconvene subject to the call of the Chair.]




                            A P P E N D I X

                              ----------                              


                        Hearing of May 12, 1998

   Responses to Additional Questions for the Record Submitted by the 
             Committee to Assistant Secretary John Shattuck

                  Question Submitted by Senator Helms

    Question. The Presbyterian Church of the United States (PCUSA) has 
been negotiating for some time with the Pakistani government for the 
return of schools that were nationalized in 1972. An agreement with 
Pakistan was reached in 1997 but, despite positive statements by 
Pakistani officials, it has yet to be implemented. What is the status 
of efforts to bring this matter to a just resolution?
    Answer. US officials at the State Department and at our posts in 
Pakistan have been working closely with PCUSA to resolve the long-
standing property dispute. During the most recent US meetings with 
officials of the Pakistani provincial government in Punjab, where the 
PCUSA properties are located, we received assurances that the official 
notification of the denationalization of the school properties would be 
announced shortly. As with previous assurances of this nature, we plan 
to continue our consultations with PCUSA to see that the governmental 
authorities follow through.
    Both PCUSA and the Pakistani governmental authorities have 
consistently treated the dispute as a property issue. The parties are 
also concerned with the need to improve educational conditions and 
opportunities in Pakistan. They have not treated the property dispute 
as a case relating to freedom of religion.

                  Questions Submitted by Senator Grams

    Question.  Your statement appears to acknowledge there may be 
legislation passed on this issue. Do you believe we need legislation? 
Do you believe it is productive?
    Answer. We believe that the Administration currently has the 
necessary tools and legislative mandate to pursue international 
advancement in religious freedom and other human rights. Legislation 
best serves our mutual goal of promoting and upholding religious 
freedom when it consolidates and strengthens existing mechanisms rather 
than creating new ones and when it represents a united approach by the 
Administration and the Congress to send a clear message about the 
importance of this issue.
    Question. By supporting amendments to the legislation, you send the 
message it is satisfactory if the amendments are approved. Is there any 
way to amend the basic, flawed premise of this legislation?
    Answer. The Clinton Administration already has done more than any 
previous Administration to address and highlight the issue of religious 
freedom. We believe that the Administration already has the necessary 
tools and legislative mandate to promote freedom of religion and oppose 
violations of this right throughout the world.
    Currently, the Nickles bill could create problems that would be 
counterproductive in our efforts to pursue religious freedom globally. 
We have serious concerns about the bill's reporting requirements which 
would require that countries be identified as violators or gross 
violators and would automatically trigger executive or economic 
sanctions. Other specific problems with the bill are discussed in 
detail in my testimony at the hearing on May 12.
    Legislation best serves our mutual goal of promoting and upholding 
religious freedom when it consolidates and strengthens existing 
mechanisms rather than creating new ones and if it represents a united 
approach by the Administration and the Congress to send a clear message 
about the importance of this issue.
    Question. How would you define ``gross violators?'' Where to you 
draw the line between the gross violators that are sanctioned and 
subject to congressional disapproval and the rest of the countries 
which can receive lesser sanctions against them? When I asked this 
question during the hearing, you responded generally on the entire list 
of countries in the annual report subject to some kind of action. 
Again, I would just like some idea of the what would go into the 
decision making process the President must address that separates out 
the ``gross violators'' which actually receive the sanctions, which, 
again, prompts the Congressional disapproval process.
    Answer. The Administration would determine that a government is a 
``gross violator'' when it engages in a consistent pattern of human 
rights violations of the type contained in the bill or in Section 116 
of the Foreign Assistance Act as amended. In making this determination, 
we might look at a number of factors, including the severity of the 
abuses, and whether they are widespread, for example.
    Determining which countries engage in or tolerate persecution as 
defined by the bill might be difficult, and drawing the line between 
those and the countries which engage in a consistent pattern of gross 
violations would be even tougher. The definition of ``gross 
violations'' in the bill appears consistent with international and U.S. 
standards. It is similar to the standard that we use, for example, at 
the UN Human Rights Commission. However, in international fora, 
countries accused of gross violations sometimes respond to the 
accusations made against them, and provide additional information about 
their laws or practices that help us to make a clearer judgment. We do 
not expect most countries would be willing to cooperate in this manner 
with the U.S. in examining determinations to be made under this bill. 
This is one factor that will make it especially difficult to come up 
with consistent and reliable determinations.
    Question. What countries would you envision are ``gross 
violators?'' Do you see a lot of pressure on the President to label 
certain countries gross violators?
    Answer. Since the bill requires the President to make the 
determination, it would be inappropriate for me to prejudge what will 
be his decision. Any determination would take into account the kind of 
information in our annual Human Rights Reports, which is an impartial, 
and often sobering, record of human rights practices worldwide.
    Question. Should religious persecution be separated from other 
human rights concerns? Is religious persecution reported on the human 
rights report and country reports?
    Answer. Religious liberty also means free speech, and freedom of 
assembly and association. If people lack the freedom to practice their 
faith, it is likely that other human rights will be restricted and that 
intolerance and violence will be more prevalent. Lack of these rights 
also impedes efforts to establish societies that promote liberty and 
justice.
    The Universal Declaration of Human Rights and the International 
Covenant on Civil and Political Rights recognize that all citizens have 
the rights to freedom of thought, conscience and religion. This right 
includes freedom to change one's religion or belief, and freedom--
either alone or in community with others, and either in public or 
private--to manifest one's religion or belief in teaching, practice, 
worship, and observance. No government can legitimately deny it, no 
matter what the justification, for it is universal, inalienable, and 
endowed by virtue of birth.
    Freedom of religion is also a bedrock issue for the American people 
and their government. The United States is committed to confronting 
violations of religious freedom, including religious intolerance and 
discrimination, no matter where they may occur around the world.
    The actions of governments that violate these rights and persecute 
persons because of their religion or belief, are detailed in the 
Department of State's Annual Country Reports on Human Rights Practices, 
which provide a description of the situation regarding religious 
freedom of over 190 countries. Widely viewed as an objective, thorough, 
and credible summary of human rights practices worldwide, the Country 
Reports address the question of whether or not a country's constitution 
or other basic law provides for the right to practice the religion of 
one's choice, and if so, whether the government respects and enforces 
that right in practice. The Country Reports note the existence of an 
official state religion, or an otherwise dominant religion, and whether 
or not that adversely affects religious freedom for others.
    In order to determine whether religious persecution exists, the 
country reports analyze myriad factors in each country. For example, 
the Department of State considers the existence of various types of 
restrictions on religious freedom, such as whether a government bans or 
discourages specific religions or religious factions. The Country 
Reports distinguish between the treatment of different subgroups within 
particular religions, e.g., members of Christian or Muslim subgroups 
who face discrimination or persecution, whereas other members of these 
religions do not.
    The country reports also describe the many ways in which 
governments restrict religious freedom. For example, whether a 
government restricts organized religions in establishing places of 
worship and training numbers of clergy adequate to serve believers; 
whether a government requires religious instruction in public schools 
(and if so, whether it is limited to instruction in a state or 
otherwise dominant religion); whether a government requires that 
religious groups be licensed, and if so, what controls it imposes; 
whether a government restricts religious publishing (including 
publications in languages such as Latin, Hebrew, and Arabic, which have 
religious significance); and whether a government prohibits links with 
coreligionists in other countries, or with a supranational hierarchy 
(such as the Vatican). The Country Reports also examine whether a 
government prohibits religious travel, such as the Hajj; whether a 
government designates religion on passports or national identity 
documents; whether a government prohibits or discourages conversion to 
minority religions; whether a government persecutes converts to 
minority religions; and whether a government forbids missionaries from 
entering the country or restricts their activities (e.g., 
proselytizing).
    The Country Reports also cover problems of societal discrimination 
and violence against members of religious minorities. The reports cover 
religiously motivated violence by sects, private groups, or 
individuals, and sectarian rioting and/or violence. They include 
instances of discrimination/harassment by members of one sect of a 
religion against those who belong to another sect. The reports also 
cover societal or governmental discrimination against members of 
religious minorities with respect to employment, education, housing, 
and health services, etc.
    Department of State officers, both in Washington and overseas, 
monitor religious persecution on a year-round basis. They maintain 
contacts with government officials, nongovernmental organizations, and 
leaders and members of numerous religious denominations. In 1993 the 
Secretary of State instructed all embassies to establish inter-agency 
committees on human rights. In recent years the Department of State has 
made additional efforts to aggressively pursue issues of religious 
freedom in the field. In December 1996, the Department alerted all U.S. 
diplomatic missions to the establishment of the Secretary of State's 
Advisory Committee on Religious Freedom Abroad, underscored the 
importance of religious freedom as one of our worldwide human rights 
objectives, and urged increased reporting on problems in the area of 
religious freedom. Posts were asked to give special attention in their 
reporting to specifying the religions or denominations that are targets 
of discrimination and persecution. In 1997 U.S. missions abroad were 
again instructed to give careful attention to issues of religious 
freedom, to increase their reporting, and to focus also on treatment of 
non-traditional religions and sects. As a result of these instructions 
there has been an increase in the reporting from posts on issues of 
religious freedom and religious persecution.
    In the last few years we have increased our efforts to cover 
religious persecution in even greater detail than before in the annual 
reports, and we do not believe that an additional reporting requirement 
is really necessary.
    Question. Should the report focus on religious freedom, not 
religious persecution? Shouldn't this report be one that indicates 
where a country is on religious freedom rather than an accusatory 
document citing incidences of religious persecution that may not be 
government approved?
    Answer. The goal of the legislation should be to facilitate U.S. 
Government efforts to promote religious freedom and oppose violations 
of this right. It should serve to reinforce our message to other 
governments about the importance of the universal right to freedom of 
religion. We would urge that the terms in the legislation reflect this 
goal and refer to religious freedom. Furthermore, religious persecution 
generally covers only limited acts of violations of religious freedom.
    Legislation focusing on ``religious freedom,'' rather than on 
``religious persecution,'' would facilitate more extensive reporting 
and discussion about country conditions, giving credit where credit is 
due and clearly highlighting problems and violations where they exist.
    Question. How many countries would be on the report each year? I 
understand that Belgium would be on the list?
    Answer. It is difficult to give an exact number, but we would make 
a good faith effort to comply with the legislation. The definition of 
``religious persecution'' in the Nickles bill would likely require us 
to report on a majority of the countries in the world. As a result of 
the current definitions in the Nickles bill, many countries with 
overall good practices on religious freedom could be categorized and 
cited as engaging in one or more acts of ``religious persecution'' as 
defined in the bill.
    The example provided in my testimony was Austria, which grants 
certain education benefits and subsidies to groups that qualify for 
registration and recognition but does not in fact require registration 
or restrict groups' freedom to worship.
    Question. If this report is one that labels and threatens, isn't 
this just another counterproductive jab at a country that threatens 
their sovereignty? Doesn't this turn into an elevated political debate 
rather than a focused, behind-the-scenes effort to combat religious 
intolerance?
    Answer. We need to remain focused on the important goal of ensuring 
that believers of whatever faith are permitted to exercise their right 
to religious freedom. We need to have a full range of options for 
addressing this issue. Sometimes public condemnation is the best way to 
press a country to change. Sometimes quiet, personal efforts by 
diplomats, other officials, or even private citizens, can be the best 
way to bring about change. We need to pick the best approach for each 
problem.
    Question. Does the U.S. have incidences of religious persecution? 
Yet, certainly, we can claim to have religious freedom?
    Answer. While there is religious intolerance among certain groups 
in the United States, there is no state-sponsored religious 
persecution. In fact, our Constitution and legal system were written to 
ensure freedom of religion. Privately held intolerant opinions 
occasionally lead to criminal acts, which are vigorously prosecuted by 
the authorities. Examples would include attacks on Muslims and mosques 
following the Oklahoma City bombing, anti-Semitic attacks by racist 
groups and the deliberate burning of predominantly Black churches. The 
U.S. Government established a special task force to investigate church 
arson and provided funds to rebuild the church structures. In our 
foreign policy we can and do distinguish between religious persecution 
carried out or sanctioned by public authorities and criminal acts 
perpetrated by individuals without any government connivance.
    We are indeed able to proclaim in international fora that the U.S. 
Government safeguards religious freedom. For example, the Department of 
State reported to the U.N. Human Rights Committee on Civil and 
Political Rights (July, 1994) that ``people in the United States have 
broad freedom to practice their religions. Government restrictions on 
the exercise of religion have been permitted only to the extent that 
those restrictions are embodied in neutral laws designed to protect 
public health and welfare, or where religious practices otherwise pose 
a substantial threat to public safety.''
    Question.  How would being listed in the report affect a country 
that is moving toward religious freedom?
    Answer. A report that is focused on ``violator'' countries--whether 
or not the government is responsible--and that deems that all countries 
included in the report are worthy of punitive action sends a strong, 
public, negative message. In some cases, this may be an appropriate and 
effective message to convey. In other cases, it may in fact be 
counterproductive and impede our human rights diplomacy and cause 
further persecution of religious minorities.
    The bill's Annual Report on Religious Persecution would include 
countries where the government is responsible for the acts of 
persecution, as well as those where it is not. Inclusion in a report 
that labels a country as a violator, regardless of the government's 
ability to control the violations, could play into the hands of 
extremists seeking instability and further weakening of the government.
    Question. Shouldn't we attempt to take truly gross violators of 
religious freedom, as we do human rights, to the UN or, on our own, 
pursue multilateral sanctions rather than unilateral sanctions which 
don't work?
    Answer. We are already spotlighting gross violations of human 
rights in multilateral fora, including violations of the fundamental 
rights to religious freedom and freedom of conscience. The U.S. 
Government, for example, opposes most types of lending by international 
financial institutions to China, Iran and Sudan in part because of 
these countries' policies of religious persecution. At the UN Human 
Rights Commission, countries that do not respect the freedom of 
conscience of their citizens are frequently censured by the 
international community.

                Questions Submitted by Senator Ashcroft

    Question. Reports indicate that the President will begin his visit 
to China with an appearance at Tiananmen Square. If the President is 
going to Tiananmen Square in June, why not visit the site on June 4, 
the anniversary of the Tiananmen massacre?
    Answer. During warm weather months, it is Chinese practice to hold 
arrival ceremonies for heads of state in front of the Great Hall of the 
People adjacent to Tiananmen Square. The arrival ceremonies for other 
heads of government who have visited China since 1989, including the 
U.K., Russia, Japan, France and Israel, have been held there.
    The President's strong views about what happened in Tiananmen in 
1989 are well-known and a matter of public record. He made clear in his 
public statement carried live over Chinese television to an estimated 
300 million viewers that the use of force to break-up the 
demonstrations, and the consequent killing of many innocent civilians, 
was wrong and a grave mistake by the Chinese leaders.
    Question.  What will the President say in Tiananmen Square? Will he 
honor the students that were killed there in 1989?
    Answer. In his public statement immediately after the Tianamen 
Square arrival ceremony, President Clinton emphatically declared that 
the use of force to break up the 1989 demonstrations, and the 
consequent loss of life of many innocent civilians, was wrong and a 
grave mistake by the Chinese leaders. The statement was broadcast over 
live television to an estimated 300 million viewers in China.
    Question. The Chinese government has engaged in a systematic and 
massive campaign to repress religious minorities, and has implemented a 
general repression of political dissent in China. Therefore, why did 
the Administration not introduce and support a resolution to condemn 
China's human rights atrocities at this year's meeting of the U.N. 
Human Rights Commission?
    Answer. The United States decided not to sponsor a resolution on 
China at the U.N. Human Rights Commission in Geneva this year because 
of steps taken by china and in anticipation of further progress.
    Among those steps China has taken are: (1) its decision to sign the 
International Covenant on Civil and Political Rights, which codifies 
the principles of the universal declaration on human rights; (2) its 
signature of the International Covenant on Economic Social and Cultural 
Rights in the fall of 1997; (3) the release of a number of prominent 
political prisoners whose cases we have highlighted to the Chinese 
government; (4) its invitation to the U.N. Arbitrary Detention Working 
Group which visited Chinese prisons, and its agreement in principle to 
an exchange of U.S. and Chinese prison officials; (5) its agreement to 
create a U.S.-China forum for discussion of human rights issues.
    Our decision does not mean we accept that China's human rights 
record is satisfactory; it is not. We will speak out publicly about 
that record and advocate forcefully for human rights progress through 
diplomatic channels as well.
    Question. Was there a deal struck with the Chinese government that 
the United States would not introduce the resolution in exchange for 
the release of a select few political prisoners?
    Answer. The U.S. decided not to sponsor a resolution for the 
reasons noted above, i.e. because of steps China has taken and further 
steps which we expect to be taken.
    Question.  The 1996 State Department Report on Human Rights 
practices stated that ``No dissidents were known to be active at year's 
end'' in China. In this country of over 1 billion people, would you say 
that is still an accurate assessment of the level of political dissent 
in China?
    Answer. No. The State Department's 1997 China Human Rights Report 
noted that a number of dissidents, academics, and former officials 
issued public statements, letters or petitions challenging the 
government's policies or advocating political reform. Generally 
speaking, the government's response to dissent over the past year has 
been somewhat more tolerant than in recent years.
    Question. If the Administration has reservations about the Nickles 
bill and the Wolf-Specter legislation on religious persecution, what 
kind of legislation would you propose to deal with this problem?
    Answer. The goal of any legislation addressing religious freedom 
issues should be to facilitate U.S. Government efforts to promote 
religious freedom and oppose violations of this right. It should serve 
to reinforce our message to other governments about the importance of 
the universal right to freedom of religion.
    As currently drafted, the Nickles bill would be counterproductive 
to our efforts to pursue religious freedom globally. By forcing the 
Administration to identify, label, and sanction violators and gross 
violators of religious freedom, the bill could undermine or even halt 
our bilateral and multilateral human rights diplomacy.
    We would like to work with the Congress to craft legislation that 
would strengthen existing mechanisms to deal with the problem of 
violations of religious freedom. We should avoid creating new or 
parallel structures which could produce fragmented or ineffective 
policy on this issue.
    Question.  What did the President mean when, in discussing a 
religious persecution bill now pending before Congress, he stated such 
legislation would place ``enormous pressure on whoever is in the 
executive branch to fudge an evaluation of the facts of what is going 
on?''
    Answer. I would not presume to speak for President Clinton. That 
said, I would be glad to point out some of our serious concerns with 
the Wolf-Specter legislation.
    The Wolf-Specter bill mandates a wide variety of automatic 
sanctions against governments that either engage in religious 
persecution or fail to combat societal persecution. The mechanics 
appear designed to make sanctions more likely to be imposed, cumbersome 
to waive and difficult to terminate. The stringent ``national 
security'' standard of the waiver would appear to shut the door on any 
considerations of US policy interests that do not rise to the level of 
a direct threat to our national security (e.g. regional peacemaking and 
stability, environmental protection, etc.).
    The bill provides no flexibility to tailor our religious freedom 
policies to differing circumstances in different countries. Influencing 
policy would be sharply limited as a consequence. Affording the 
President such limited discretion in the area of foreign affairs is 
contrary to the national interest and constitutionally suspect.
    In addition, the imposition of automatic sanctions would have 
little effect on government-sponsored religious persecution in most 
countries, but would make a productive human rights dialogue with 
sanctioned governments far more difficult or even impossible. It runs 
the risk of strengthening the hands of governments and extremists who 
seek to incite religious intolerance. We fear reprisals by repressive 
governments against religious persecution victims. The bill also runs 
the risk of harming vital bilateral relations with key allies and 
regional powers.
    President Clinton and Secretary Albright have made it crystal clear 
that the issue of religious freedom is a foreign policy priority. We 
are committed to working in the most effective way to combat the 
persecution now victimizing many people of faith around the world.
    Question. Have you, or to your knowledge, the President, ever 
misrepresented information to Congress concerning human rights 
practices of other countries, either in a formal certification process 
or in general testimony?
    Answer. No. The Country Reports on Human Rights Practices has a 
widespread and well deserved reputation for thoroughness, accuracy, 
objectivity, and credibility. The descriptions of the human rights 
situations in various countries that we provide in the Country 
Reports--including the accounts of the practices of some of our closest 
friends and allies--are comprehensive and hard hitting. My bureau, the 
Bureau of Democracy, Human Rights and Labor, spends thousands of 
person-hours every year closely reviewing and actively editing the 
draft Country Reports submitted by our embassies, to correct any 
inaccuracies or omissions and to ensure consistent compliance with our 
standards. There is an increasing consensus as to the high quality and 
thoroughness of the Country Reports.

                  Questions Submitted by Senator Biden

    Question. Please comment on the definition of ``religious 
persecution'' set forth in Section 3(9) of S. 1868. How does it compare 
with law on the right to religious freedom?
    Answer. Although international human rights law does not define 
religious persecution per se, perhaps the closest term would be 
``intolerance and discrimination based on religion or belief,'' which 
is defined in the Declaration on the Elimination of All Forms of 
Intolerance and of Discrimination Based on Religion or Belief, as: 
``any distinction, exclusion, restriction or preference based on 
religion or belief and having as its purpose or as its effect 
nullification or impairment of the recognition, enjoyment or exercise 
of human rights and fundamental freedoms on an equal basis.''
    The Nickles' bill definition of religious persecution as any 
violation of the right to freedom of religion appears to be far 
broader. While it is important to oppose any violation of this 
universal human right, all such violations do not necessarily fall 
within the definition above or constitute persecution of individuals 
based on religion.
    Violations of religious freedom generally refer to violations of 
the right to freedom of religion as defined and protected in several 
international instruments. The Charter of the United Nations calls on 
the organization and its Member States to ``promote universal respect 
for, and observance of, human rights and fundamental freedoms for all 
without distinction as to race, sex, language, or religion.''
    The Universal Declaration of Human Rights, adopted by the United 
Nations General Assembly on December 10, 1948, recognizes in Article 
18, that ``everyone has the right to freedom of thought, conscience and 
religion'' as a right stemming from the inherent dignity and equality 
of every person. It also provides the individual with the ``freedom to 
change his religion or belief'' and the ``freedom, either alone or in 
community with others and in public or private, to manifest his 
religion or belief in teachings, practice, worship, and observance.''
    A number of widely adopted human rights treaties clearly obligate 
States Parties to respect freedom of religion. The most widely 
supported treaty protective of religious freedom is the International 
Covenant on Civil and Political Rights (ICCPR), ratified by a majority 
of United Nations Member States, including the United States. The ICCPR 
provides a detailed summary of the most basic guarantees for freedom of 
religion in Article 18, which states:

          (1) Everyone shall have the right to freedom of thought, 
        conscience, and religion. This right shall include freedom to 
        have or to adopt a religion or belief of his choice, and 
        freedom, either individually or in community with others and in 
        public or private, to manifest his religion or belief in 
        worship, observance, practice, and teaching.
          (2) No one shall be subject to coercion which would impair 
        his freedom to have or to adopt a religion or belief of his 
        choice.
          (3) Freedom to manifest one's religion or belief may be 
        subject only to such limitations as are prescribed by law and 
        are necessary to protect public safety, order, health, morals 
        or the fundamental rights and freedoms of others.
          (4) The States Parties to the present Covenant undertake to 
        have respect for the liberty of parents and, when applicable, 
        legal guardians to ensure the religious and moral education of 
        their children in conformity with their own convictions.

    The U.N. General Assembly's Declaration on the Elimination of All 
Forms of Intolerance and of Discrimination Based on Religion or Belief, 
adopted by consensus in 1981 provides the most extensive description of 
religious freedom in an international instrument. The Declaration is 
not binding on States, but provides important guidelines that were 
accepted by consensus and that reflect established principles of 
customary international law. This declaration makes clear that 
religious freedom includes: the right of each individual, alone and in 
community with others, to worship and assemble; maintain religious 
institutions; make, acquire and use necessary articles and materials; 
write, issue and disseminate relevant publications; teach in suitable 
places; solicit and receive voluntary contributions; train, appoint, 
elect or designate leaders; observe days of rest and celebration; and 
establish and maintain communications with others.
    Question.  It has been argued by some that the procedure 
established in this bill may complicate US efforts to promote religious 
freedom, instead of furthering those efforts. In your position, you 
have had the opportunity to hear from some of the communities that 
would be most affected by this legislation. What has been the reaction 
of religious communities overseas to the legislative proposals now 
before Congress? Do you believe this legislation adequately protects 
those it seeks to help? Has the Advisory Committee on Religious Freedom 
Abroad, or any of its members, taken a position on this legislation?
    Answer. If we are to identify, label and sanction a country for its 
treatment of a particular religious group, it could place that 
religious group in greater jeopardy by extremists who would wrongly 
cite them as the reason for punitive policies by the United States. 
Inclusion in a report that labels a country as a violator, regardless 
of the government's ability to control the violations, could play into 
the hands of extremists seeking instability.
    In addition, if we were to identify countries as sanctionable or to 
actually sanction countries it would become difficult for Americans to 
exercise their faith by proceeding overseas as missionaries to 
establish churches in such countries.
    The Advisory Committee on Religious Freedom Abroad has not taken a 
position on the legislation. I would refer you to individual members of 
the committee for either their personal views or those of the 
organizations they represent.
    Question.  The definition for religious persecution used in the 
bill appears to establish an indiscriminate standard for determining 
whether a country ``engages in or tolerates'' religious persecution. It 
would appear to set an extremely low threshold, such that dozens of 
nations may be labeled as religious persecutors. I realize that you 
cannot predict the outcome with certainty, but how many nations, in 
your estimation, would be ``identified'' as a government which 
``engages in or tolerates acts of religious persecution'' under Section 
102(b)(1)(A)(I) of S. 1868?
    Answer. When you have a definition that is a broad as the one in 
this bill, which is basically any act in violation of religious 
freedom, it could be read to include, for example, discriminatory 
actions on behalf of one religion versus another. In my testimony I 
mentioned the example of Austria, which actually does provide some 
benefits to one religion and not to some others, even though nobody is 
required to register and people are allowed to continue to exercise 
their religion. It would involve publicly branding a large number of 
countries as sanctionable through an annual reporting process.
    Question. You testified that the bill mandates new reporting, 
training, and other requirements without providing for additional 
resources. Please provide a cost estimate of the new requirements in 
the bill. How many additional staff positions, if any, would be 
required to fulfill these requirements?
    Answer. We are very concerned about the burden that additional 
reporting requirements would place on the department, in a time of 
diminishing resources. Speaking for my own bureau, I can tell you that 
additional unfunded mandates require diversions of resources from what 
we are doing in other areas to promote human rights.
    To complete the reports required in this legislation would require 
a dedicated full-time reporting staff. We believe it would take twelve 
well-trained officers and two secretaries, plus new equipment. My 
bureau estimates the cost in excess of a million dollars.
    Question. In your experience as head of the Bureau of Democracy, 
Human Rights and Labor, what methods have you found to be the most 
effective in promoting respect for human rights standards?
    Answer. It's difficult to answer this question simply, since the 
circumstances in each country are different.
    In most cases, the first and most effective step to promoting 
greater respect for human rights in a country is to have objective 
reliable information about the true situation in that country. I 
believe that our Country Reports on Human Rights practices is an 
important tool in that respect.
    Technical assistance can also play an important role. In countries 
that have embarked on the difficult process of political reform, this 
can be one of the most effective methods. By supporting the efforts of 
NGO's or other organizations that provide guidance on election issues, 
training for judges and defenders, or assistance to indigenous human 
rights groups, we can have a significant impact. Even in countries in 
which the government is opposed to change, the assistance that the US 
government and international organizations provide to support civil 
society programs--for example, groups to protect the interests of women 
or children in the workplace or to promote environmental issues--can 
lay the foundation for the development of more transparent and 
accountable government, which can be a first step toward greater 
respect for human rights.
    We also have an array of bilateral and multilateral diplomatic 
measures to use. We rely first on the ability of our Embassies to 
influence the views and decisions of host country governments. 
Sometimes that is best done in quiet approaches to officials, and 
sometimes in a more direct and open manner, through press statements or 
formal demarches. In some cases, we may find it effective to warn a 
country that bilateral assistance decisions will be affected by its 
human rights record. While the situation differs from country to 
country, some regimes are willing to forego US foreign assistance in 
order to repress political movements that could endanger their 
supremacy. This is especially true if other donors do not join with us 
in reducing or ending assistance.
    Finally, I would address the issue of sanctions. Sanctions should 
remain in our arsenal of potential measures. We have used bilateral 
sanctions recently, for example, in the case of Burma and of Sudan, in 
response to human rights abuses in both countries. In Nigeria, we have 
applied a visa ban which prevents travel to the US of Nigerian 
officials. We should be aware, however, that economic sanctions are 
most effective when they are multilateral, rather than bilateral.

                Questions Submitted by Senator Feingold

    Question. For many years, the State Department has produced an 
annual report on the state of human rights around the world, with 
detailed profiles on each country. These reports include a discussion 
of religious persecution. How does the State Department define 
religious persecution? What type of information is included in the 
report? How does the State Department monitor religious freedom during 
the year? Can you make any generalizations about the state of religious 
freedom around the world? Do you think the current level of reporting 
on religious freedom is sufficient? Why or why not? In what ways might 
it be improved?
    Answer. The Universal Declaration of Human Rights provides for the 
right of all persons to freedom of thought, conscience, and religion. 
This right includes freedom to change one's religion or belief, and 
freedom--either alone or in community with others, and either in public 
or private--to manifest one's religion or belief in teaching, practice, 
worship, and observance. The actions of governments that violate these 
rights and persecute persons because of their religion or belief, are 
detailed in the Department of State's Annual Country Reports on Human 
Rights Practices, which provide a description of the situation 
regarding religious freedom in each country covered. The country 
reports address the question of whether or not a country's constitution 
or other basic law provides for the right to practice the religion of 
one's choice, and if so, whether the government respects and enforces 
that right in practice. The country reports note the existence of an 
official state religion, or an otherwise dominant religion, and whether 
or not that adversely affects religious freedom for others.
    In order to determine whether religious persecution exists, the 
country reports analyze myriad factors in each country. For example, 
the department of state considers the existence of various types of 
restrictions on religious freedom such as whether a government bans or 
discourages specific religions or religious factions. The country 
reports distinguish between the treatment of different subgroups within 
particular religions, e.g., members of Christian or Muslim subgroups 
who face discrimination or persecution, whereas other members of these 
religions do not.
    The Country Reports also describe the many ways in which 
governments restrict religious freedom. For example, whether a 
government restricts organized religions in establishing places of 
worship and training numbers of clergy adequate to serve believers; 
whether a government requires religious instruction in public schools 
(and if so, whether it is limited to instruction in a state or 
otherwise dominant religion); whether a government requires that 
religious groups be licensed, and if so, what controls it imposes; 
whether a government restricts religious publishing (including 
publications in languages such as Latin, Hebrew, and Arabic, which have 
religious significance); and whether a government prohibits links with 
co-religionists in other countries, or with a supranational hierarchy 
(such as the Vatican). The Country Reports also examine whether a 
government prohibits religious travel, such as the Hajj; whether a 
government designates religion on passports or national identity 
documents; whether a government prohibits or discourages conversion to 
minority religions; whether a government persecutes converts to 
minority religions; and whether a government forbids missionaries from 
entering the country or restricts their activities (e.g., 
proselytizing).
    The Country Reports also cover problems of societal discrimination 
and violence against members of religious minorities. The reports cover 
religiously motivated violence by sects, private groups, or 
individuals, and sectarian rioting and/or violence. They include 
instances of discrimination/harassment by members of one sect of a 
religion against those who belong to another sect. The reports also 
cover societal or governmental discrimination against members of 
religious minorities with respect to employment, education, housing, 
and health services, etc.
    Department of State officers, both in Washington and overseas, 
monitor religious persecution on a year-round basis. They maintain 
contacts with government officials, nongovernmental organizations, and 
leaders and members of numerous religious denominations. In 1993 the 
secretary of state instructed all embassies to establish inter-agency 
committees on human rights. In recent years the department of state has 
made additional efforts to aggressively pursue issues of religious 
freedom in the field. In December 1996, the Department alerted all U.S. 
diplomatic missions to the establishment of the Secretary of State's 
Advisory Committee on Religious Freedom Abroad, underscored the 
importance of religious freedom as one of our worldwide human rights 
objectives, and urged increased reporting on problems in the area of 
religious freedom posts were asked to give special attention in their 
reporting to specifying the religions or denominations that are targets 
of discrimination and persecution. In 1997 U.S. missions abroad were 
again instructed to give careful attention to issues of religious 
freedom, to increase their reporting, and to focus also on treatment of 
nontraditional religions and sects. As a result of these instructions 
there has been an increase in the reporting from posts on issues of 
religious freedom and religious persecution.
    In general, the state of religious freedom around the world is 
decidedly mixed. As I noted in my statement before the committee, there 
are numerous instances of violations of religious freedom, including 
discrimination, persecution, and legislative restrictions.
    I believe that the current level of reporting on religious freedom 
is both extensive and sufficient. The Annual Country Reports on Human 
Rights Practices is widely viewed as an objective, thorough, and 
credible summary of the human rights practices of over 190 countries. 
In the last few years we have increased our efforts to cover religious 
persecution in even greater detail than before in the annual reports, 
and we do not believe that an additional reporting requirement is 
really necessary. Preparation of the Country Reports requires the 
efforts of hundreds of department officers, both in Washington and at 
our embassies and consulates overseas. We are very concerned about the 
burden that additional reporting requirements would place on the 
Department, in a time of diminishing resources.
    Question. The Nickles bill would establish a US Commission on 
Religious Freedom. What, in your view, would be the difference in 
mandate of such a commission and the already-established Advisory 
Committee on Religious Freedom Abroad? Can you briefly explain the pros 
and cons of each, from your perspective?
    Answer. In December 1996, the Clinton Administration established 
the Secretary's Advisory Committee on Religious Freedom (AC) as a 
demonstration of commitment to address issues of religious tolerance 
through new and creative means. The Advisory Committee convenes large 
public meetings where they receive statements from experts and other 
members of the public, and it holds small working group sessions to 
elaborate a public report for the Secretary of State and the President. 
Their work involves discussions with a broad range of interested 
parties: religious communities, congressional offices, academic 
institutions, human rights organizations, business corporations, and 
labor groups, as well as various sectors of the US Government, such as 
State, DOD, INS, NFATC, USIA, USAID, and Commerce. Their primary 
function is to advise the U.S. Government on ways of enhancing U.S. 
foreign policy to oppose violations of religious freedom--including 
persecution, to facilitate conflict resolution and reconciliation, and 
to promote religious freedom.
    There are several differences between the current Advisory 
Committee and the Commission on International Religious Persecution 
proposed in the Nickles bill. The Nickles Commission would consist of 
an extremely limited membership and would risk being unrepresentative, 
unlike the membership of the Advisory Committee. The current Advisory 
Committee consists of twenty persons who are religious leaders 
representing millions of Americans of different faiths and scholars who 
have dedicated their professional lives to focus on religion and human 
rights. The diversity conveys a strong message around the world that, 
despite theological differences, individuals of every faith can stand 
united in pursuit of freedom of religion for all.
    The participation of a broad variety of leaders from among the rich 
diversity of faiths in America and worldwide has also been extremely 
helpful in addressing sensitive incidents of religious persecution 
around the world. When the Russian Duma moved to restrict religious 
practice in Russia, for example, Father Leonid Kishkovsky, an Advisory 
Committee member, was extremely helpful in facilitating dialogue with 
the leadership of the Russian Orthodox Church. Members of our Advisory 
Committee representing different branches of Islam also helped 
reinforce our communications with the Saudi Government regarding the 
importance of religious freedom. And several members of our Advisory 
Committee representing Evangelical, other Protestant, and Catholic 
communities, have been instrumental in establishing dialogue with 
vulnerable communities of faith in various countries. Advisory 
Committee members of different faiths have intervened directly on 
behalf of victims of persecution and led important inter-faith 
initiatives for conflict resolution.
    We are also concerned by an imbalance in the process for appointing 
members to the Commission. Under the Nickles bill, the Congress would 
select twice as many members as those selected by the Administration. 
We believe that Congress should select half the membership and that the 
Administration select the other half. There should also be a process 
for coordinating the selection of members to help ensure that the final 
make-up of the Commission be fair and balanced, representative of the 
many religious traditions in America.
    The goal of the Commission should be to facilitate U.S. Government 
efforts to promote religious freedom and oppose violations of this 
right. It should serve to reinforce our message to other governments 
about the importance of the universal right to freedom of religion. We 
would urge that the Commission's name reflect this goal and be the 
Commission on International Religious Freedom.
    The Advisory Committee on Religious Freedom Abroad delivered an 
Interim Report to the Secretary of State and the President in January 
1998. The Secretary of State has already moved to implement appropriate 
recommendations and the President has distributed the report to all 
U.S. Government agencies and urged careful consideration and 
implementation of the recommendations as appropriate. The Nickles bill 
should also clarify the role of the Commission as advisory. The 
responsibility for determining and implementing U.S. foreign policy 
properly lies with the Administration and the Congress.
    Question. The issue of religious freedom is addressed in several 
important treaties. These include: the Universal Declaration of Human 
Rights, adopted by the UN General Assembly on December 10, 1948; the 
International Covenant on Civil and Political Rights (ICCPR); and the 
UN General Assembly's Declaration on the Elimination of All Forms of 
Intolerance and of Discrimination Based on Religion and Belief. With 
respect to these treaties, I was struck by a section in the January 23, 
1998 Interim Report of the Advisory Committee on Religious Freedom 
Abroad, which you chair. The section reads:

          The global nature of this issue is illustrated by the very 
        fact that religious freedom is dealt with in a number of 
        international treaties and covenants. As such, members of the 
        international community cannot dismiss valid criticism of 
        actions and policies that contravene these international 
        instruments as `interference in a country's internal affairs.' 
        The universal nature of the issue and the manner in which it 
        has been addressed by the international community essentially 
        define violations of religious freedom and other human rights 
        as concerns of the world community as a whole. The denial of 
        religious freedom to anyone is, therefore, a matter of concern 
        for all and an issue that should be raised in international 
        fora and in the course of normal diplomatic contact . . .

    Can you elaborate on the assertion that states essentially have a 
``right'' to raise issues concerning religious freedom with other 
states? From this perspective, is there a difference between the 
treatment of religious freedom and that of other human rights?
    Answer. There is no question that states have a right to raise the 
issue of human rights, including religious freedom, both bilaterally 
and in international fora. This right flows directly from the 
international treaties and covenants that protect human rights and 
religious freedom. Religious freedom is not only an American value, it 
is also a universally recognized human right. By adhering to 
international human rights instruments, such as the Universal 
Declaration and the ICCPR, states have assumed the obligation to 
protect all human rights. Therefore there should be no difference 
between treatment of religious freedom and other human rights. In that 
regard, the President and Secretary Albright have made it clear that 
advancing religious freedom is a foreign policy priority of the United 
States. All U.S. diplomatic posts have been instructed to place greater 
emphasis to religious freedom both in reporting and in advocacy with 
foreign governments. In addition, the U.S. has worked to promote 
religious freedom in multilateral fora, such as the UN Human Rights 
Commission.
    Question. To what extent is the issue of religious freedom 
discussed in the context of the UN Commission on Human Rights? What has 
been the US position in this regard?
    Answer. Religious freedom is a core concern of the UN Commission on 
Human Rights, which addresses the issue in a variety of ways. In 1986, 
for example, the Commission, with strong backing by the U.S., created 
the position of Special Rapporteur on Religious Intolerance, whose 
mandate is to examine incidents and governmental actions in all parts 
of the world that are inconsistent with the Declaration on the 
Elimination of all Forms of Intolerance Based on Religion or Belief 
(adopted by the UN General Assembly in 1981), and to recommend remedial 
measures. The current rapporteur has visited numerous countries, 
including China, Iran, Pakistan, Greece and the Sudan. He visited the 
U.S. earlier this year.
    The Commission also addresses religious freedom through a series of 
thematic resolutions. In 1998 these included resolutions on 
Implementation of the Declaration on the Elimination of All Forms of 
Intolerance and of Discrimination Based on Religion and Belief; on 
Freedom of Expression and Opinion; on Tolerance and Pluralism as 
Indivisible Elements in the Promotion and Protection of Human Rights; 
and on Rights of Persons Belonging to National or Ethnic Religious and 
Linguistic Minorities. The U.S. took a leading role in negotiating the 
texts and co-sponsored these resolutions, all of which were adopted by 
consensus at the Commission. Furthermore, we joined consensus on an 
omnibus resolution on racism, which, among other things, urged 
governments to cooperate with the Special Rapporteur on Contemporary 
Forms of Racism, Racial Discrimination, Xenophobia and Related 
Intolerance, whose mandate allows him to investigate discrimination and 
intolerance worldwide, including anti-Semitism.
    In addition, country-specific resolutions, as appropriate, condemn 
religious intolerance. For instance, at this year's Commission the U.S. 
once again introduced a resolution on the Sudan, which condemned that 
country for a number of serious human rights abuses, including denial 
of the freedom of religion. The resolution passed by a wide margin. We 
also supported resolutions condemning human rights abuses, including 
religious persecution, in other countries, such as Iran, Iraq, Burma 
and Afghanistan.
    Question. Are there examples of countries in which persecution 
based on religious belief is more prevalent or egregious than 
persecution based on the denial of other human rights? If so, where? 
Are there places where the opposite is true, i.e., where freedom of 
religion is accepted or tolerated, while other civil liberties are not?
    Answer. In general, countries that have constitutional safeguards 
for the civil liberties of their citizens, and an independent 
judiciary, do a good job of defending the religious freedom of their 
citizens as well. There are some countries which have an array of human 
rights problems but do not, on the whole, have problems with religious 
freedom. Cambodia is one example; Peru is another. This situation most 
often arises when most of the population share the same faith. In 
Cambodia, for instance, there are ethnic tensions between native Khmers 
and Vietnamese residents, and political differences between parties and 
factions, but almost all citizens of the country are Buddhist, and 
there have not been reports of interference with the religious 
practices of the few non-Buddhists there. In a number of countries, 
there are problems suffered by certain religious minorities despite a 
generally acceptable record of respect for human rights. For example, 
Johovah's Witnesses face restrictions in many countries, including 
several in Europe.
    Question. In an effort to integrate policies that promote religious 
freedom, the January 23 Advisory Commission Interim Report recommends 
that the Secretary of State should create a high-level position and 
possibly a new office to focus on religious freedom. Do you think this 
is necessary? How would such a person contribute to the existing work 
that is already conducted by your bureau on this topic? Do you support 
the provision in the Nickles bill that would establish an Office of 
International Religious Freedom to be headed by an Ambassador-at-Large 
who would be subject to Senate confirmation? Why or why not?
    Answer. In June 1998, the President announced the appointment of a 
new Senior Advisor for International Religious Freedom, Dr. Robert 
Seiple. Secretary Albright created the position which will be located 
in the Bureau of Democracy, Human Rights and Labor. The Senior Advisor 
will be responsible for developing policies that promote religious 
freedom and facilitate conflict resolution around the world by 
coordinating an interagency approach to integrate religious freedom 
fully in U.S. foreign policy. He will also facilitate the work of the 
Advisory Committee on Religious Freedom Abroad.
    The title of Ambassador-at-Large is generally used for permanent 
temporary assignments and would be inappropriate for this position.
    Question. The Advisory Commission Interim Report makes several 
other recommendations regarding State Department action. With the 
acknowledgment that this report was released just a few months ago, 
please comment on the extent to which the following recommendations 
have fed into State Department processes and/or whether plans are being 
considered to implement them:

  <bullet> religious freedom concerns should be incorporated into all 
        appropriate high-level meetings and visits;
  <bullet> embassies should raise routinely cases of imprisoned 
        religious believers and other individual cases where religious 
        freedom is violated;
  <bullet> the State Department and other government agencies should 
        pay special attention to the status of religious freedom when 
        considering arms sales or military assistance, or economic aid;
  <bullet> foreign affairs officers should receive special human rights 
        training.

To what extent, if at all, would such action imply that the issue of 
religious freedom is being given greater emphasis than other civil 
liberties in terms of Department activities?
    Answer. The Clinton Administration has placed unprecedented 
emphasis on supporting religious freedom worldwide and has worked to 
make this concern a central element of U.S. foreign policy. The 
President and the Secretary of State have raised this issue with 
leaders from China to the Middle East and have made it clear to U.S. 
Government officers serving in every corner of the world that religious 
freedom is a foreign policy priority. In addition, this message was 
emphasized by the establishment of the Advisory Committee on Religious 
Freedom Abroad and through its activities, which have included the 
participation of a full range of U.S. Government officials, ranging 
from the President to desk officers.
    In the last two years, Secretary Albright has sent a series of 
cables to U.S. posts throughout the world instructing our embassies to 
step-up their advocacy and reporting on this issue. The recommendations 
in the Advisory Committee's Interim Report reinforced this message and 
offered suggestions for enhancing these actions.
    The issue of religious freedom is squarely on the U.S. agenda with 
foreign leaders throughout the world. During his recent trip to China, 
for example, the President raised the issue in his private and public 
meetings, and I had a separate meeting with the Director of the Chinese 
Bureau of Religious Affairs. Our Ambassadors are intervening more 
frequently with host government around the world to raise the issue and 
seek the resolution of cases of religious persecution. Reporting on 
this issue has become more routine and detailed.
    The Administration has made it clear that the promotion of human 
rights, and specifically religious freedom, is a central part of U.S. 
foreign policy--whether it involves economic, military, or other types 
of assistance. The State Department and other government agencies 
currently evaluate the impact of arms sales or military assistance on 
human rights, which includes religious freedom. We are working with 
U.S. corporations to promote the Model Business Principles established 
by this Administration as a voluntary code of conduct to help companies 
uphold and promote universal human rights standards, including 
religious freedom. Whether State Department officers are responsible 
for political, consular, trade, or military affairs, the National 
Foreign Affairs Training Center provides them with basic training which 
includes information on human rights. The Advisory Committee 
recommendations are helpful, nonetheless, in identifying areas 
involving religious freedom that can be further strengthened or 
improved.
    This year, we are facilitating meetings between Advisory Committee 
members and additional U.S. agencies, including the National Security 
Council, the Department of Defense, the National Foreign Affairs 
Training Center, as well as nongovernmental and religious groups 
focused on promoting U.S. policy to advance religious freedom and other 
human rights.
    Religious freedom is a cherished human right for Americans. U.S. 
policies are designed and intended to promote freedom of religion and 
other human rights in Universal Declaration of Human Rights. We are 
highlighting and pursuing the issue using the range of foreign policy 
tools currently available to us.
                               __________

                        Hearing of May 12, 1998

         Prepared Statements of Committee Members and Witnesses

                  Prepared Statement of Chairman Helms

    Today's hearing is to assess the incredible, senseless injustice of 
religious persecution abroad and to focus on legislation designed to 
end this injustice.
    Specifically, we will discuss S. 1868, the International Religious 
Freedom Act of 1998, sponsored by Senators Nickles, Lieberman and 
others. The Committee is honored to have the senior Senator from 
Oklahoma, Senator Nickles and the junior Senator from Connecticut, 
Senator Lieberman here to testify on behalf of their proposal.
    I am a co-sponsor of this bill, and I am hopeful that it will 
receive broad bipartisan support from this Committee and the Senate as 
a whole.
    The Committee will also hear today the Administration's perspective 
on the state of religious freedom abroad, as well as what steps have 
been taken to address this persistent human rights problem. Secretary 
Shattuck, Assistant Secretary for Democracy, Human Rights and Labor, 
will discuss with us the Administration's position on the International 
Religious Freedom Act.
    This Committee has led several historic steps taken by the Senate 
in recent days to advance U.S. foreign policy interests--including 
passage of a far-reaching State Department reorganization and U.N. 
reform package and the NATO Expansion Treaty.
    Nevertheless, I believe it is obvious that neither initiative has 
stirred the hearts and souls of the folks back home in churches and 
synagogues to the same degree as learning about the growing persistent 
torture and abuse of Christians, Jews and other religious minorities at 
the hands of intolerant foreign governments.
    Americans are eager to learn what their government is doing to ease 
the suffering of their brothers and sisters overseas. They are not at 
all satisfied with the answers they are getting. I am sure these 
people--who are the backbone of this nation--have no quarrel with 
establishing special committees, or issuing reports, or having high 
level meetings with church groups. But Americans are looking for 
concrete action from the State Department and the White House--and 
certainly, people persecuted because of their faith in foreign lands 
deserve more than kind words and gestures.
    It is important to emphasize that this issue, and the growing 
concern of Americans, have not fallen on deaf ears among Senators on 
this Committee. I especially want to thank Senators Brownback and 
Ashcroft for using their subcommittees to focus attention on this 
issue.
    Senator Brownback chaired two hearings to examine several of the 
most egregious examples of religious persecution in the Near East. 
Senator Ashcroft held a moving hearing on the tragic plight of 
Christians in southern Sudan. (These innocent people have been brutally 
tortured, sold into slavery and, in some instances, literally crucified 
by the radical Islamic government simply because of their faith in 
Christ.)
    Senator Gordon Smith offered an amendment to the foreign aid bill 
in response to a Russian law restricting religious freedom. Many other 
Senators have also actively promoted the cause of religious freedom and 
tolerance abroad.
    The point is this: an increasing number of Members of Congress are 
coming to the conclusion that we, as a people and a government, must do 
more to advance the cause of religious freedom across the globe. That 
is why the International Religious Freedom Act and other proposals are 
moving through Congress.
    This is not a partisan issue, and S. 1868 is not a partisan bill. 
Furthermore, the bill does not favor one faith over another. Democrats 
and Republicans, conservatives and liberals, are deeply concerned 
regardless of whether the U.S. Government is the leader--in word and in 
deed--in promoting religious tolerance abroad.
    It is often pointed out--and I believe it with all my heart--that 
no matter what laws are enacted, religious intolerance will never be 
erased from the earth. I also believe that the prayers of millions of 
Americans and other believers around the world will accomplish more 
than any Act of Congress.
    That does not mean we should not try. I hope the Administration 
will join with us as we attempt to strengthen U.S. leadership in this 
area.

                 Prepared Statement of Senator Nickles

    Mr. Chairman, Members of the Committee, I greatly appreciate the 
opportunity to speak to you today on the issue of religious persecution 
and religious freedom. This is an issue that has troubled me for some 
time. I greatly value the right I have to worship as I please. In fact, 
I consider it to be one of the most precious rights I have. 
Unfortunately, in far too many countries around the world religious 
persecution is common place and in still more countries state laws and 
policies restrict religious freedom.
    For many years I have worked with my colleagues, Senator Helms, 
Senator Lugar and Senator Nunn to help win the freedom of those around 
the world who have suffered because of their religious beliefs. While 
we have been successful on many occasions, sadly in some cases we have 
not been successful. Most of this work was done quietly and behind the 
scenes.
    I should also mention, Mr. President, that in 1996,1 was honored to 
sponsor a Senate resolution on religious persecution, which passed by 
unanimous consent. In that resolution, the Senate made the strong 
recommendation ``that the President expand and invigorate the United 
States' international advocacy on behalf of persecuted Christians, and 
initiate a thorough examination of all United States' policies that 
affect persecuted Christians.''
    Congressman Frank Wolf and Senator Arlen Specter have done 
marvelous work during the past year in bringing this issue to the 
attention of the public. Were it not for their work, I am certain that 
we would not be having this hearing to discuss this issue. Therefore, I 
want to publicly thank my friend in the House, Congressman Frank Wolf 
for his marvelous efforts and of course our colleague and my friend in 
the Senate Arlen Specter for his outstanding efforts as well.
    Mr. Chairman, we are here to discuss the tragic reality that 
literally millions of religious believers around the world live with 
the terrifying prospect of persecution--of being tortured, arrested, 
imprisoned, or even killed simply for their faith. Millions more around 
the world are denied, by government policy, the ability to practice 
their religion. I believe some hope can be found in the bill that 
Senator Lieberman and I introduced, the International Religious Freedom 
Act.
    The International Religious Freedom Act will establish a process to 
ensure that on an ongoing basis, the United States closely monitors 
religious persecution worldwide. I want to briefly touch upon some of 
the aspects of the International Religious Freedom Act that I believe 
are important.
The Nickles bill is more comprehensive
    International Religious Freedom Act uses a broad definition of 
religious persecution. This definition ranges in scope from the most 
egregious form of religious persecution imprisonment, torture or 
death--to the most common--the inability of one to speak freely about 
one's religion, or to change religion.
    This is an important aspect of the bill. If the definition of 
religious persecution were limited to only torture, imprisonment or 
death, the International Religious Freedom Act would only cover about a 
dozen countries, and would not include 90 to 95 percent of the 
religious persecution that takes place in the world--the ability to 
practice one's religion.
    An example of the importance of this distinction is the recently 
passed law in Russia that would put restrictions on the activities of 
churches in Russia that have not been there for 15 years or more. 
Despite the fact that more than 90 Senators voted to take action 
against the Russian government for passing this law, Russia would 
escape any action if we limited it to only the most sever type of 
persecution. Clearly under our bill Russia would be held accountable 
for its actions.
The Nickles bill is more effective and flexible
    Under the provisions of the International Religious Freedom Act, 
the President is required to take action against those countries that 
engage in religious persecution, although the President is given the 
discretion to calibrate that action in response to each country's 
particular situation. This is an important feature of the bill. Instead 
of a bill that states if X happens then the government must do Y, the 
bill allows the President to decide what is the appropriate action to 
take for that country.
    In essence, this allows the President to weigh a variety of factors 
such as strategic importance, the historical relationship between the 
United States and that country and the severity of the religious 
persecution in that country when determining an action, instead of a 
one sanction fits all countries approach.
    Let me explain why I believe this is important. Under the one 
sanction fits all countries approach, if a country like Egypt were 
cited as a country that engages in religious persecution, the President 
would be required to take action. If the President is given only the 
choice of cutting off all foreign aid or waiving that action, I think 
we all know that the current President and probably any future 
President would most likely choose to waive the sanctions rather than 
cut off aid because of the nature of our relationship with Egypt.
    But what kind of a message would this send to the world? A country 
like Egypt would know that if it has a sensitive relationship with the 
United States it can persecute people of faith with impunity because 
the U.S. will waive the sanctions. On the other hand, those countries 
that don't have a close relationship with the Untied States will see 
the hypocrisy in our policy as it becomes the whipping boy for the 
United States.
    As I said, our bill allows the President to weigh a variety of 
factors such as strategic importance, the historical relationship 
between the United States and that country and the severity of the 
religious persecution in that country when determining an action. In 
the case of country like Egypt, instead of cutting off all foreign aid, 
or waiving any action, the President can choose to limit a portion of 
the U.S. assistance provided to Egypt. He can choose to withhold a 
certain percentage of that assistance until the situation improves, and 
if it doesn't more aid will be withheld next year.
    I believe this flexibility also makes the International Religious 
Freedom Act more effective. In our bill sensitive countries like Egypt 
know that there is the possibility that it will loose some of its U.S. 
assistance if it does not improve its track record, and so it probably 
will. This contrasts greatly to a country that knows that because of 
its close relationship with the United States the President will 
probably waive any action. Thus, making a change in that country's 
behavior less likely because nothing is at stake and so there is little 
incentive to change its behavior.
    This is also why I believe our approach is extremely effective. We 
provide the President with a menu of options that makes it less likely 
that he will waive action and more likely that he will take action.
    We need to keep our eye on the goal. The goal of our bill is NOT to 
punish countries, but to change behavior, and if it is more likely that 
the President will take an action then it is more likely that behavior 
will change. And that, Mr. Chairman, in my opinion should be the goal 
of any legislation dealing with religious persecution--changing 
behavior in other countries.
The Nickles bill provides for Congressional oversight
    A feature of our bill that I really think is important is that our 
bill allows for Congressional review on any action that the President 
takes. Under our bill, if the President uses a waiver, or imposes a 
sanction or a diplomatic measure that the Congress does not agree with, 
then the Congress can pass a resolution of disapproval overturning the 
President's action.
    I think this is important because even if the Congress fails to 
pass a resolution of disapproval there will be a public debate in the 
Congress on the climate of religious freedom in the country upon which 
the Congress is attempting to change the President's action. This 
Congressional review also prevents the President from taking an action 
and the book being closed until next year.
The Nickles bill seeks to promote religious freedom
    The International Religious Freedom Act, also seeks to promote 
religious freedom. The bill insists that U.S. foreign assistance should 
place a priority on developing legal protections and respect for 
religious freedom, by promoting exchanges and visits of religious 
leaders in the U.S. and abroad, and by making one of the priorities of 
our international broadcast programs the promotion of and respect for 
religious freedom.
The bill is still a work in progress
    I appreciate this opportunity to speak briefly about the bill. I do 
want to say that it would be very presumptuous of Senator Lieberman and 
I to think we have crafted a perfect bill. And in fact, the offices of 
several Senators and several organizations that monitor what we do up 
here on Capitol Hill have contacted my office to let us know that we 
haven't. These offices, both on and off the Hill have suggested changes 
and improvements. I can assure you all that we are seriously 
considering the merits of the issues that have been raised and how to 
best resolve those issues. In other words, the bill is still being 
worked on, and, I believe, improved.
    Having said that, I believe we have crafted a bill that has many 
positive characteristics that deserve consideration before the Foreign 
Relations Committee and the Senate as a whole. I firmly believe that 
this bill can be an effective tool that the United States can use to 
bring about a change in the world when it comes to religious freedom.
    In short, Mr. President, this bill seeks to ensure that the United 
States Government aggressively monitors religious oppression around the 
world and takes decisive action against those regimes engaged in 
persecution, all while maintaining the integrity and credibility of the 
United States' foreign policy system.
    Mr. Chairman, what was a mere resolution in 1996, I hope to see 
become a reality in 1998. While we acted then with words, I hope we can 
act now with deeds with the International Religious Freedom Act.

                               __________

                Prepared Statement of Senator Lieberman

    Mr. Chairman, Members of the Committee, it is a great honor to 
speak before you today. I regard this occasion with mixed emotions. It 
is solemn, because our presence here today is prompted by the horror--
there is no other word for it--of the fact that around the world, as we 
speak, millions of religious believers are living under the unrelenting 
fear of imprisonment, torture, abuse, or even death, simply for their 
faith in God. Yet this occasion is hopeful, because I believe the 
legislation before you today--the International Religious Freedom Act--
has the potential to substantially galvanize our government to take 
responsible, effective action against such oppression.
    There are those who would say that we have no obligation, even no 
right to take a stand against religious persecution in foreign 
countries. I disagree. We read in the prophet Isaiah: ``Stop doing 
wrong, learn to do right! Seek justice, encourage the oppressed.'' 
Silence and disinterest are not acceptable options. We in America bear 
a special obligation in this regard because our nation was founded by 
men and women seeking refuge from oppression for their religious faith. 
Let us not forget the opening words of faith in our own Declaration of 
Independence that all men are endowed by their Creator with inalienable 
rights. Let us not overlook the fact that our Bill of Rights enshrines 
religious freedom as the First Freedom.
    Whether we embrace it enthusiastically or admit it reluctantly, the 
fact remains that much of the rest of the world looks to our nation for 
moral leadership. Paul Wolfowitz has said that the fundamental goal of 
American foreign policy today is to make sure that the 21st century is 
not a repeat of the 20th Century. Two world wars, a cold war, and the 
brutal slaughter and repression of millions of people by totalitarian 
regimes, have made the last 100 years the bloodiest in the history of 
mankind. A frightening number of those victims have been perversely 
singled out because of their faith. This cannot be allowed to continue, 
but if we choose to ignore the oppression, who will be responsible for 
the results?
    Mr. Chairman, this problem is real and urgent and it is not limited 
to any particular faith nor any particular region. Allow me to cite 
some of the areas of concern.

  <bullet> Russia: Last summer Russia passed one of the most 
        restrictive laws since the Soviet era, effectively shutting 
        down a tremendous number of independent churches and religious 
        organizations, and severely restricting the religious freedoms 
        of its citizens.
  <bullet> Pakistan: The ``blasphemy laws,'' which make any derogatory 
        remark about the prophet Mohammed a capital offense, have been 
        used to terrorize Pakistan's minority faiths, particularly 
        Christians. Just two weeks ago, a Pakistani Christian named 
        Ayub Masih received a death sentence under this law on 
        suspicious, and unproven, charges, leading to the subsequent 
        and tragic death last week of Bishop John Joseph.
  <bullet> China: The nation with the world's largest total population 
        also has the dishonorable distinction of having the world's 
        largest population of persons imprisoned for their religious 
        faith. Catholics, Protestants, Muslims in the north, and 
        Tibetan Buddhists all suffer under China's totalitarian 
        controls on religion.
  <bullet> Vietnam: Unfortunately, the recent market reforms in this 
        communist nation have not been accompanied by reforms in 
        personal freedoms. Buddhist monks, Catholic priests, 
        Evangelical pastors, and lay believers of several faiths suffer 
        under the constant threat of arrest, beatings, and 
        imprisonment.
  <bullet> Egypt: Besides severely restrictive policies against church 
        construction and repair, Egypt has been home in recent years to 
        serious violence against Christians. Islamic militants have 
        murdered Coptic Christians. According to State Department 
        reports, Government security forces have been charged with 
        arresting and torturing Egyptian citizens who made the decision 
        to convert from Islam to Christianity.

    Mr. Chairman, the International Religious Freedom Act offers real 
solutions to the real problem of discrimination and persecution based 
on religion. Its balanced, comprehensive approach guarantees that our 
government will take the most effective action against religious 
oppression and stand up for the rights of the faithful, and, therefore, 
be true to our unique founding ideals.
    The Act begins with a clear and comprehensive definition of 
religious persecution, encompassing any violations of the 
internationally recognized norms of religious freedom. This includes 
both acts of overt violence as well as onerous policy restrictions on 
the faithful. In other words, we are talking about basic, fundamental 
human rights standards. Paul Marshall's seminal work Their Blood Cries 
Out, which has served as a manifesto for the recent movement against 
religious persecution, defines ``religious persecution'' as ``in 
general, the denial of any of the rights of religious freedom'' (p. 
248). I should note, Mr. Chairman, that this broad definition of 
religious persecution is premised on the hard lessons of history. 
Violent reigns of terror have usually begun with less violent but 
nonetheless insidious oppression. The seeds of Hitler's genocidal death 
camps in the late 1930s and 40s were planted in the early 1930s, when 
Nazi policies restricted and stigmatized the Jewish people. We must not 
wait until it is too late. We must excise the roots of religious 
persecution before they have a chance to spread.
    The first, and in many ways most difficult task in combating 
religious persecution is to report the facts. The light of truth-
telling must expose these dark deeds. Only when we know can we then 
act. Over and over again, as many voices have been raised to draw 
attention to religious persecution, the response we have heard from an 
awakened public has not been ``I don't care,'' but rather, ``I didn't 
know.'' When the facts of religious persecution are told, they speak 
for themselves, and action will follow.
    The International Religious Freedom Act contains many provisions to 
ensure that these facts come to light. U.S. Embassies are tasked with 
maintaining communication with religious communities and NGOs in order 
to make sure that their stories are heard. The Act sets consistent, 
high reporting standards for the ``freedom of religion'' sections in 
the State Department Country Human Rights Reports. More importantly, 
this bill establishes an Annual State Department Report on Religious 
Persecution, which will highlight and describe those countries where 
persecution is of particular concern. Finally, it tasks the particular 
country desks with maintaining lists of persons known to be imprisoned 
for their faith and publicizing policies that restrict religious 
freedom. These prisoner lists and issue briefs are to be made available 
to Executive branch or Congressional leaders who will be meeting with 
foreign dignitaries, to ensure that particular religious persecution 
concerns are effectively and consistently communicated.
    Mere reporting, however, is not enough. The International Religious 
Freedom Act establishes an annual mechanism to guarantee that the 
United States takes effective, responsible action against every country 
cited in the Annual Report on Religious Persecution. By offering the 
President a creative ``menu'' of options, including an array of both 
diplomatic and economic measures, this bill provides for the most 
effective response possible. Accordingly, this bill does not constrain 
our foreign policy to a ``one size fits all'' remedy, but rather 
presents a sophisticated, balanced, and comprehensive set of options.
    Allow me to note here my personal appreciation for the hard work 
put in on this important problem by my esteemed colleague Senator Arlen 
Specter, Congressman Frank Wolf, Mr. Michael Horowitz and many others 
who have worked tirelessly, first to inform the rest of us and then to 
lead the fight against the scourge of religious persecution. The Wolf/
Specter legislation is a pioneer in this historic awakening of a common 
cause that we share.
    The nature of religious persecution varies tremendously from 
country to country. Likewise, the status of the relationships between 
these countries and the United States varies tremendously. By requiring 
action but allowing significant latitude in choosing the response, The 
International Religious Freedom Act gives the President the mandate he 
needs and the options he now lacks as the Chief Executive to lead the 
battle against the wide array of religious persecution and 
discrimination.
    Consistent with its balanced approach, The Act provides 
accountability and an independent voice. It establishes a Commission on 
International Religious Liberty, to be comprised of experts in the 
fields of religion, human rights, and international relations. The 
Commission will enable our government to benefit from the collective 
expertise of persons whose lives are dedicated to religious liberty. 
The Commission's independence will also provide a safeguard against the 
temptation to politicize what should be a non-political, moral crusade.
    Mr. Chairman, the imposition of sanctions is not an end in itself. 
Regimes which engage in religious persecution must be held accountable 
and The Act contains strong measures in this regard. But we must not 
overlook the possibilities of preventing oppression by the promotion of 
religious freedom, and The Act contains several provisions to that end. 
For example, USAID is instructed to include funding to encourage and 
assist legal protections for religious freedom in restrictive 
countries, and the international broadcasting and foreign exchange 
programs funded by the United States will include attention to 
religious freedom.
    In summary, Mr. Chairman, The International Religious Freedom Act 
provides tools to every arm of the United States foreign policy 
apparatus to ensure that combating religious persecution is a top 
priority. In a larger sense, I believe that this bill, and the movement 
that sparked it, may herald a renewed vision and purpose for United 
States foreign policy. Much has been said about the lack of focus in 
our foreign policy following the end of the Cold War. That debate will 
continue, as well it should. But it is my strong conviction that our 
national interest includes a moral purpose. None is greater or more 
American than protecting the freedom of the faithful. In standing for 
the rights of believers around the world, we stand for the right, and 
when America stands for the right, we are at our strongest!

                                 ______
                                 

                   Prepared Statement of Senator Dodd

    Mr. Chairman, I want to commend you for holding this hearing today 
on international religious persecution. I think that this is a very 
important subject and one that deserves the attention of the Senate and 
the Executive Branch.
    For those of us in the United States who are blessed with religious 
freedom, we take it for granted that we can worship according to our 
own personal religious beliefs--and that we can do so openly and 
without fear of punishment or sanction by our government.
    Unfortunately, for far too many people in other parts of the world 
this is not the case. Many individuals face discrimination, prison and 
even physical abuse for simply wanting to worship God in the way they 
believe best. This clearly should not happen. The United States and 
other governments who have enshrined religious freedom as an important 
and protected right must take steps to work to ensure that peoples 
throughout the world are also accorded such a cherished right.
    I know that a number of bills have been introduced in the House and 
Senate on the subject of international religious persecution. Among 
other things these bills seek to establish U.S. policy and procedures 
for further religious freedom. They also provide for the imposition of 
sanctions against those governments which continue to practice 
religious persecution or tolerate such practice by others. I too would 
like to see every government around the globe promote and protect the 
internationally recognized human rights of its citizens, including the 
right to religious freedom. I believe U.S. policy should have that as 
its objective. However, I also believe that ultimately the Secretary of 
State and the President are responsible for carrying out this policy 
and they can only do so if we give them some measure of flexibility. It 
isn't possible or practical for the Congress to legislate every detail 
of how the administration should proceed in order to further respect 
for human rights, including religious freedom. Moreover, I don't think 
we want to suggest that other internationally recognized human rights 
such as freedom of expression, freedom from torture, freedom from 
sexual abuse, etc., are any less important or deserve less protection 
than does freedom of religion.
    Senators Nickles and Lieberman have introduced a bill that provides 
some flexibility to the Executive Branch in carrying out the policies 
articulated in the bill. I believe their approach is a step in the 
right direction and I would hope we could work together with the 
administration to further fine tune the legislation so that it can make 
a useful contribution in furthering respect for religious freedom 
throughout the world.
    Mr. Chairman, I look forward to hearing from our witnesses this 
afternoon both about the Nickles/Lieberman bill, as well as about the 
subject of religious persecution generally and U.S. policy initiatives 
designed to address it.

                               __________

           Prepared Statement of Assistant Secretary Shattuck

    Mr. Chairman and Members of the Committee, I would like to thank 
you for the opportunity to appear before you today to discuss the work 
being done by the State Department to promote religious freedom around 
the world and to present our perspective on S.1868, the ``International 
Religious Freedom Act Of 1998.'' Mr. Chairman, under your leadership, 
this Committee has worked diligently on human rights, including 
religious freedom. The Administration has been privileged to work 
closely with the Members of this Committee to address a wide variety of 
concerns. We applaud your efforts. I look forward to working with you, 
your colleagues on the Committee, and your staff in regard to the 
legislation at hand.
    Mr. Chairman, the promotion of religious freedom, both at home and 
abroad,remains a high priority for this Administration. In their words 
and actions, the president and the Secretary of State have demonstrated 
to our friends and foes alike that advancing religious freedom is a 
matter of the highest concern in our foreign policy. Throughout the 
world, the United States upholds human rights, including the principle 
that freedom of religion, conscience and belief is a universally-
recognized human right and fundamental freedom. As President Clinton 
declared on Religious Freedom Day, January 16, 1998, ``We must continue 
to proclaim the fundamental right of all peoples to believe and worship 
according to their own conscience, to affirm their beliefs openly and 
freely, and to practice their faith without fear of intimidation.''
    Freedom of religion is a bedrock issue for the American people and 
its government. Indeed, the United States in large part was founded by 
people who fled religious persecution and intolerance. Their desire for 
religious freedom prompted the establishment of many of the colonies, 
where they wrote the principle into their laws and charters. As the 
poet James Russell Lowell wrote, religious freedom was the seed that 
produced democracy.
    Our country's founders recognized the importance of religious 
freedom.Thomas Jefferson called it ``the creed of our political faith 
[and] the text of our civil instruction.'' He recognized the inherent 
link between religious freedom and freedom of speech, assembly, and 
association. That is why he and the other Founding Fathers insisted on 
the prominent placement of freedom of religion in the Bill of Rights, 
as the First Amendment to the Constitution.
    Mr. Chairman, it would be a mistake to regard religious freedom as 
a uniquely American value. It is a concept basic to every one of the 
world's major belief systems. It also is an internationally-recognized 
human right. The Universal Declaration of Human Rights and the 
International Covenant on Civil and political Rights recognize that all 
citizens have the right to freedom of thought, conscience and religion. 
This right is inherent in the dignity of every human being. No 
government can legitimately deny it, no matter what the justification, 
for it is universal, inalienable, and endowed by virtue of birth.
    Unfortunately, however, there are some in the world today who 
refuse to recognize this fundamental right and who discriminate 
against, restrict, or even persecute those of other faiths. Whether 
Christian, Muslim, Buddhist,Jew, Hindu, Baha'i, or of another creed, 
believers around the world continue to suffer for their faith. Take, 
for example Ayub Masih, a Christian from the village of Arifwala, 
Pakistan. On April 27, Masih was sentenced to death for blasphemy. His 
crime? A Muslim neighbor had accused him of making derogatory 
statements against Islam. In spite of his denials, Masih is now 
sentenced to die. Last Friday, both Karl Inderfurth, the Assistant 
Secretary for South Asian Affairs, and I met with Pakistan's Ambassador 
to deplore and condemn the imposition of a sentence of death on any 
individual for the peaceful expression of his beliefs and to call upon 
that Government to repeal their blasphemy law. We also expressed our 
sorrow at the tragic death of Bishop John Joseph, who dedicated his 
life to defending the rights of all religious minorities to worship 
freely, and expressed deep concern over reports that Pakistani troops 
had fired tear gas at mourners during the bishop's funeral procession.
    Mr. Chairman, suppression of the right to religious freedom not 
only is an intolerable invasion of an individual's human rights, it 
also can lead to grave consequences for political and economic 
stability. If people lack the freedom to practice their faith, it is 
likely that other human rights will be restricted and that intolerance 
and violence will be more prevalent. Lack of these rights also impedes 
efforts to establish societies that promote liberty and 
justice.Pakistan is not the only country where the United States has 
concerns.
    In Sudan, a bloody civil war fueled by a extremist regime's 
intolerance of animists, Christians, and some Muslims has continued 
unabated. Iran's religious minorities continue to experience 
discrimination and persecution, particularly evangelical Christians and 
Baha'is. Burma's persecution of the Rohingya Muslim minority resulted 
in refugees fleeing to Bangladesh. In the aftermath of the Pope's visit 
to Cuba, the government has relaxed the harshest aspects of its 
mistreatment of the Catholic Church, but it still maintains extensive 
restrictions on religious activities. The Church has little or no 
access to the media, and cannot publish religious materials, sponsor 
social events, or establish schools.
    In China unofficial religious groups, including Protestant and 
Catholic groups,have experienced varying degrees of repression. In some 
areas, house and unofficial churches worship without official 
interference. In other areas,religious believers have been subjected to 
tight restrictions and harassment.Citizens worshipping in officially 
sanctioned churches, mosques, and temples report little or no day-to-
day interference by the government. In Xinjiang and Tibet, tight 
controls on religion have continued and, in some cases, intensified.
    Evidence of fear and suspicion of minority religions has grown in 
Europe, in both former Communist countries and those with long 
traditions of democracy and tolerance. Motivated in part by fear of 
deadly movements such as Solar Temple and Aum Shinri-kyo, some European 
countries have sought to restrict freedoms for a disparate group of 
minority faiths, lumping them all together as ``cults,'' and compiling 
lists for closer observation.
    This trend also has been particularly strong in countries where the 
Orthodox Church has lobbied the government to restrict minority 
religions. In Russia, for example, a new restrictive and potentially 
discriminatory religion law could affect minority religions, including 
some offshoot Orthodox groups. Some Religious communities may be forced 
to wait up to fifteen years before attaining full legal status, which 
is a requirement for owning property,publishing literature, inviting 
foreign guests, operating schools, and conducting charitable 
activities. The law also erects barriers against foreign 
missionaries.Already, however, some local officials have used the new 
law on numerous occasions to pressure unpopular religions in their 
districts. The President has raised our concerns about this new law 
with President Yeltsin, and will submit a report to Congress on the 
issue later this month.
    Mr. Chairman, this Administration is committed to confronting 
violations of religious freedom, including religious intolerance and 
discrimination, no matter where they may occur around the world. I 
would like to outline some of the steps we have taken to implement this 
commitment.
    President Clinton and Secretary Albright have made it clear to all 
United States agencies and embassies to treat this issue as a priority 
and have insisted that it be integrated into the core of our foreign 
policy. President Clinton, Vice President Gore, and Secretary Albright 
have met with eminent religious leaders such as the Dalai Lama and Pope 
John Paul II. U.S.Government officials at every level have raised 
specific cases of violations religious freedom in countless meetings 
with foreign leaders and their representatives.
    During our recent trip to China, Secretary Albright raised the 
issue of religious freedom. I met with Ye Xiaowen, director of the 
Chinese Religious Affairs Bureau, to raise a number of concerns. Just 
this last Saturday, we received word that two of the individuals whose 
cases we raised, Bishop Zeng Jingmu and Father Lu Gengyou, have been 
released from jail. This is an important step, but we are concerned 
that Bishop Zeng has been placed under house arrest and that these 
cases are only two among many. We expect the government of China to 
respect the rights of its citizens to express their faith freely and to 
release all those held for the peaceful expression of their religious 
or political beliefs.
    Permit me to relate another example. Most of you know I have 
traveled to turkey on a number of occasions in my capacity as Assistant 
Secretary. On Several of those trips, I visited southeastern Turkey and 
met with metropolitan Samuel Aktas of the Syriac Orthodox Church. 
Before my February trip, I learned that the Governor of Mardin recently 
had suspended permission for the Church to provide religion and 
language classes. This Decision came on the heels of a dispute over the 
renovation of the Church's fourth-century Dayrul Umar Monastery, 
leading to a police order to halt work.
    I met first with the Governor and then the Metropolitan, and 
brought the two of them together. In my meeting with the Governor, I 
secured from him a promise to extend written authorization for religion 
and language classes to resume at Church facilities. The Governor also 
committed himself to forging a solution to the problem of church 
renovations. I am happy to report that the governor has kept his word, 
authorizing religion and language classes to resume. In addition, 
Turkish authorities have agreed to permit Church officials to use their 
own architect to prepare the required renovation plan. We are hopeful 
the actual renovation work will begin shortly.
    Although the challenges faced by religious groups in other 
countries are more complex and not so readily addressed, I believe this 
case is a useful example of how this Administration has used diplomacy 
to accomplish the objectives we share with regard to religious freedom.
    Our diplomatic efforts have not been limited to personal diplomacy, 
however.In a series of unprecedented worldwide cables, Secretary 
Albright has instructed all U.S. diplomatic posts to give greater 
attention to religious freedom both in their reporting and in their 
advocacy. The Secretary of State Has signaled to State Department 
employees and foreign governments alike that the promotion and 
protection of religious freedom is a key component of our human rights 
policy. As a result, our embassies and diplomats all over the world 
have intervened more aggressively on behalf of religious freedom.
    In Saudi Arabia, for example, freedom of religion does not exist, 
as the government prohibits the public practice of religions other than 
Islam. The Secretary of State, Ambassador Wyche Fowler, and other 
United States Officials have encouraged the Saudi Government at the 
highest levels to make further progress on religious freedom. We note 
as a positive development that defense Minister Sultan stated publicly 
last fall that the Saudi Government Does not prohibit non-Muslim 
worship in the home.
    In Vietnam, Ambassador Pete Peterson, has been forceful in raising 
religious freedom issues. Although religious observance is increasing 
in Vietnam, the government continues to restrict severely some 
religious practices, and to control organized religious activity. In 
response, Ambassador Peterson has instructed his staff to establish 
broad contacts with Catholic, Protestant and Buddhist groups throughout 
society. Embassy officers have attended religious ceremonies and 
visited churches and temples in Hanoi and the countryside. In Addition, 
Ambassador Peterson has intervened on behalf of American citizens 
penalized for importing religious materials and Vietnamese citizens 
under arrest for the peaceful expression of their religious beliefs.
    There are other examples as well. In Austria, the Embassy engaged 
the foreign ministry on behalf of non-recognized religious groups that 
had problems obtaining resident permits for foreign religious workers. 
In response, the Austrian government adopted administrative procedures 
that helped alleviate the problem. In Greece, Embassy staff traveled to 
Crete to look into problems of a charismatic Christian group that the 
government had not allowed to proselytize. The officer's visit resulted 
in the government entering into a dialogue with the group. In Laos, 
Ambassador Wendy Chamberlin intervened with high-level officials when a 
group of Americans and Lao were arrested for holding a Bible-study 
meeting in January. She emphasized the importance to the US of 
upholding international standards on human rights, including 
protections regarding religious freedom. All of the Americans and most 
of the Lao were released. However, since several of the Lao will face 
prison terms,the Embassy continues to push for their release.
    The State Department also reports publicly on limitations to the 
internationally-recognized right to religious freedom in our annual 
Country Reports on Human Rights Practices, which provides information 
on 194countries and territories. The Country Reports contain specific 
sections on religious freedom, which have been expanded significantly 
by this administration to include greater detail on religious 
intolerance and discrimination. We do not hesitate to use the Reports 
to shine the light on violations of the right to religious freedom, no 
matter where they occur. Our Reports state the facts clearly and 
unequivocally, outlining U.S. concerns. Last year, we also issued a 
report on ``U.S. Policies in Support of Religious Freedom: Focus on 
Christians,'' which details recent U.S. Government actions taken on 
behalf of persecuted Christians and followers of other faiths around 
the world.I am submitting a copy of that report for the record.
    The United States also employs targeted restrictions on countries, 
including economic sanctions, trade limitations, and visa restrictions. 
After Deputy Assistant Secretary Gare Smith traveled to Sudan last 
summer to gather information on religious persecution, slavery, and 
prospects for a peaceful end to the civil war, the President imposed 
sweeping new economic sanctions against the Government of Sudan. The 
sanctions deprive the Khartoum regime of the financial and material 
benefits of U.S. trade and investment, including investment in Sudan's 
petroleum sector.
    The Secretary also has taken action to institutionalize our 
commitment to religious freedom. One demonstration of this approach is 
the Secretary's participation in the Advisory Committee on Religious 
Freedom Abroad and her move to implement its recommendations. The 
Advisory Committee, which was established in December 1996, is a 
distinguished panel consisting of twenty religious leaders who 
represent millions of Americans of all major faiths and denominations, 
and scholars who have dedicated their professional lives to the study 
of religious liberty and other human rights. The Committee, which I 
chair and for which my staff provides support, is responsible for 
advising the secretary of State and the President on the ways and means 
of more comprehensively integrating the protection and promotion of 
religious freedom abroad into our foreign policy.
    In its first fourteen months, the Advisory Committee has heard the 
testimony of experts, government officials and victims of religious 
intolerance and discrimination. Committee members have discussed 
concerns, presented diverse viewpoints, and learned much from one 
another. They paid considerable attention to such issues as the 
adequacy of existing refugee and asylum procedures; the training of 
State Department and other U.S. personnel; the use of U.S. resources 
devoted to social and cultural exchange, rule of law, and the promotion 
of tolerance, civil society and respect for human rights; and 
initiatives to support peace and reconciliation in areas of conflict.
    On January 23, the Committee submitted its Interim Report and 
recommendations to Secretary Albright and President Clinton, a copy of 
which I am submitting for the record. This report is of great 
significance. It Supports the expansion of our work as a government in 
promoting and defending religious freedom. It recognizes the important 
and considerable efforts we have undertaken and provides specific 
recommendations for additional government action. It represents the 
consensus of a wide array of religious groups from American society on 
how best to promote religious freedom. As we go forward in formulating 
strategies to address the many foreign policy and human rights 
challenges involving religious freedom, the Committee's report and its 
forthcoming work should play an important role in helping us understand 
the religious dimension of these problems and in engaging religious 
communities and leaders to address them.
    The Advisory Committee's report made a wide variety of practical 
recommendations on U.S. policy. Committee members focused on reviewing 
current U.S. Government efforts and finding ways to make them more 
effective. They also sought to identify new approaches through which 
the united States can advance religious freedom.
    The Secretary has accepted the Advisory Committee's recommendation 
to establish a senior-level position in the Department of State to 
coordinate,integrate and implement policies that institutionalize the 
promotion of religious freedom into the U.S. Government's foreign 
policy apparatus. This Official, who will report to me, will be 
responsible for developing an integrated,interagency strategy. This 
will be a senior position at the level of a Deputy Assistant Secretary. 
We anticipate being able to announce the Secretary's choice for this 
position in the very near future, and will consult with you and other 
Members of Congress on this positive decision.
    In the meantime, the Advisory Committee is continuing its work, 
with the assistance of my staff, with the purpose of offering more 
detailed recommendations at the end of the year. Their focus this year 
is on integration of religious freedom concerns into U.S. assistance 
and training programs; the use of specific foreign policy tools to 
promote religious freedom; refugee and asylum procedures; and dialogue 
with religious NGOs, businesses and other communities.
    We also have used multilateral fora to speak forcefully and shape 
international policy in support of religious freedom and in opposition 
to violations. At Conferences of the Organization on Security and 
Cooperation in Europe, we have stepped up our advocacy for religious 
freedom, delivering public statements that challenge governments in the 
Newly Independent States of the former Soviet Union to uphold 
international standards and confronting them on cases of concern. At 
the United Nations Commission on Human Rights,the United States led the 
successful effort to create a Special Rapporteur on religious 
Intolerance. We also raised awareness of religious freedom and 
spotlighted religious intolerance and discrimination in a number of 
countries.
    Through our programs, the U.S. Government is sponsoring and funding 
programs to promote religious liberty and tolerance. For example, the 
United States Information Agency has established a special 
International Visitors Program to bring clerics, journalists, 
politicians and academics to the United States for discussions on 
``Religion in America.'' Participants meet with American Christian, 
Muslim, Jewish and ecumenical groups to discuss the idea of religious 
tolerance and its importance in American life.
    We also broadcast our message of religious freedom throughout the 
world. Editorials and news features on Radio Free Asia, Radio Free 
Europe, Radio Liberty, Radio Marti and the Voice of America regularly 
identify and report on religious freedom issues and discuss efforts by 
the United States to address its concerns, both bilaterally and 
multilaterally.
    The Administration also strongly supports religious reconciliation 
in countries torn by religious and ethnic conflict. Consistent United 
States leadership has been critical to the peace processes in the 
former Yugoslavia, Northern Ireland, and the Middle East. Our work to 
promote human rights, justice and the rule of law also facilitates 
religious reconciliation. For example, the United States provides 
assistance to the Annex Six Human Rights Commission, the human rights 
arm of the Dayton peace process. Our aid permits an internationally-
appointed Human Rights Ombudsperson to investigate cases of human 
rights violations, and a Human Rights Chamber composed of eight 
international and six Bosnian judges to adjudicate the cases and offer 
legally-binding judgments. These efforts help to promote religious as 
well as ethnic reconciliation.
    Another example from Bosnia is U.S. support for the International 
Commission On Missing Persons. A major U.S. initiative to support the 
peace and reconciliation process in the former Yugoslavia, the ICMP 
currently is chaired by Senator Bob Dole. It applies pressure to the 
regional parties in the former Yugoslavia to expedite resolution of 
missing persons cases; provides assistance to families of the missing; 
and supports the exhumation process and identification of remains where 
possible. Its reconciliation work helps, literally on a case-by-case 
basis, to promote religious and ethnic reconciliation in the region.
    We also recognize and support the important role of the private 
sector in promoting religious freedom. Through the Model Business 
Principles, the administration emphasizes that freedom of expression 
and association(including religious expression and association), non-
discrimination based on religious belief, and recognition of ethical 
conduct in business complement and support sustainable economic 
development. Last year, we gave the first annual best Global Practices 
Award to John Kamm, president of Asia Pacific Resources, for his 
efforts to obtain the release of individuals detained and imprisoned by 
Chinese authorities for the non-violent expression of their political 
and religious beliefs. We plan to continue to make this award to 
companies that make significant contributions in human rights, 
including religious freedom.
    And of course, we recognize and applaud the critical efforts of the 
many non-governmental religious and human rights groups that spotlight 
abuses wherever and whenever they occur. They are invaluable partners 
in our effort to focus world attention on the issue of religious 
freedom. We work regularly with them to raise religious freedom at 
international fora. In addition, we facilitate direct dialogue between 
foreign governments and U.S.-based religious and human rights groups.
    One such effort was the product of last October's Summit between 
President Clinton and President Jiang Zemin of China. Summit 
discussions of religious issues prompted President Jiang to invite a 
delegation of distinguished American religious leaders to visit China, 
including Tibet, to observe religious practice there. A private 
delegation, led by the Reverend Dr. Don Argue,President of the National 
Association of Evangelicals, Archbishop Theodore McCarrick of the Roman 
Catholic Archdiocese of Newark, and Rabbi Arthur Schneier, President of 
the Appeal of Conscience Foundation, visited China Between February 9th 
and March 1st.
    These three leaders have a distinguished record of advocacy on 
behalf of religious freedom throughout the world. Reverend Argue and 
Archbishop McCarrick are members of the Secretary's Advisory Committee 
on Religious Freedom Abroad, where they serve as coordinators for 
subcommittees on religious persecution and conflict resolution. Both 
have extensive experience monitoring violations of religious freedom 
worldwide. Rabbi Schneier has worked on inter-faith initiatives to 
advance human rights globally and has experience in China. The 
delegation's mission underscored previous messages conveyed by 
President Clinton on the importance of human rights, especially 
religious freedom, and stressed the need for improvement in the climate 
of religious freedom in China.
    The delegation's trip was significant for two reasons. First, it 
underscored the importance the U.S. government and the American people 
attach to religious freedom. Second, it opened the door for increasing 
dialogue among Chinese and American religious communities.
    The delegation met with President Jiang, national and local 
government officials, and members of registered and unregistered 
churches. They spoke with Protestants, including evangelicals, 
Catholics, Muslims, Jews, Buddhists and Taoists. They traveled to 
Beijing, Nanjing, Shanghai, Lhasa, and Hong Kong.They pressed hard for 
the release of religious prisoners, for decreased official supervision 
of religious sites and practices, and for an the preservation of 
Tibet's unique cultural and religious heritage. Their subsequent report 
provides a candid assessment of religious life in China and details 
their efforts to initiate dialogue with the Chinese.
    We also work to strengthen our commitment to religious liberty 
through our role in the asylum process. We support INS Asylum Officers 
and Immigration Judges by providing them with expert advice on human 
rights conditions and recent political developments overseas. For the 
past year we emphasized improving the quality of this information, 
particularly by strengthening our ``Profiles of Asylum Claims and 
Country Conditions Reports'' and by paying increased attention to 
issues of religious persecution. In the coming year, we plan, for the 
first time, to create a full-time permanent staff that will have 
responsibility for both commenting on asylum applications and preparing 
the annual Country Reports on Human Rights Practices. We believe having 
the same professional staff work year-round on these issues will 
strengthen both our advice to asylum adjudicators and our annual 
Country Reports.
    In sum, this Administration views religious freedom as a foreign 
policy priority.As Secretary Albright has noted, ``Our commitment to 
religious freedom is more than the expression of American ideals. It is 
a fundamental source of our strength in the world. We simply could not 
lead without it. We would be naive to think that we could advance our 
interests without it.'' The Administration Has responded to Americans 
of every faith and belief and to Congress. We are taking concrete 
action to oppose religious discrimination, end religious intolerance, 
and promote religious freedom around the world.
    With that important background, let me now turn to S.1868, the 
``International Religious Freedom Act of 1998.'' The Administration 
strongly supports the bill's objectives of combating religious 
persecution and promoting religious freedom. We appreciate the efforts 
of Senator Nickles and his co-sponsors to try to craft a bill that 
reflects our shared focus on these issues. We recognize that this 
Congress, like this Administration, has focused greater attention on 
this issue than any predecessor. With this in mind, we remain committed 
to engaging with you in a dialogue on this matter. We seek to work with 
you to advance religious freedom through a variety of means. Such 
efforts will send a strong message abroad that the Administration and 
the Congress stand united in support of religious freedom around the 
world.
    As I have mentioned, this Administration is actively engaged in the 
struggle for religious freedom. Regarding further initiatives, we 
believe that legislation best serves our mutual goal of promoting and 
upholding religious freedom when it consolidates and strengthens 
existing mechanisms rather than creating new ones in their stead. With 
that in mind, let me summarize our major concerns. I invite your staff 
to work with us in the days ahead to discuss these in greater detail so 
we might best promote our shared goals. We have specific concerns about 
the bill's sanctions and reporting mechanisms; its definition of 
religious persecution; its waiver provisions; its mandating of new 
reports without providing for additional resources; and its creation of 
new institutions.
    Our first major concern is the bill's requirement that the 
President impose one (or more) of sixteen executive actions and 
economic sanctions on any country identified as engaging in or 
tolerating religious persecution. We are concerned that the bill's 
sanctions-oriented approach fails to recognize the value of incentives 
and dialogue in promoting religious freedom and encouraging further 
improvements in some countries. As I discussed above, many of our more 
notable work on behalf of religious freedom has come thanks to the pro-
active approach of our diplomats in Laos, Turkey, Austria, and 
elsewhere.
    We also believe that the sanctions provisions will be 
counterproductive. In particular, while the imposition of sanctions is 
likely to have little direct impact on most governments engaged in 
abuses, it runs the risk of strengthening the hand of those governments 
and extremists who seek to incite religious intolerance. We fear that 
the sanctions could result in greater pressures--and even reprisals--
against minority religious communities. This Is a message we are 
receiving from both missionary groups and overseas religious figures, 
who point out that minority religious communities risk being accused of 
complicity in this American effort.
    We also believe that sanctions could have an adverse impact on our 
diplomacy in places like the Middle East and South Asia, undercutting 
Administration Efforts to promote the very regional peace and 
reconciliation that can foster religious tolerance and respect for 
other human rights.
    We do understand that the legislation contains waiver provisions. 
However,those provisions would not eliminate the annual, automatic 
condemnations required by the legislation, which are our principal 
source of concern. To be sure, public condemnation--and even 
sanctions--may be appropriate in many instances, but not in all cases. 
As I have suggested, if the United States does not have the flexibility 
to determine when and how to condemn violators, we could endanger the 
well-being of those we are all trying to help. This would limit U.S. 
efforts to work collectively with other nations to promote religious 
freedom, reconciliation, and peace, not to mention other critical 
national security objectives.
    Our second concern is the bill's definition of religious 
persecution as any limitation on the right to religious freedom without 
specifying a threshold of severity to merit this categorization. We 
agree that all violations of the right to religious freedom are 
important and deserve to be addressed. They should not, however, all be 
categorized as religious persecution, which has a particular meaning in 
domestic and international law. With so broad a definition, the term 
would lose its meaning and power, thus making it difficult for the 
United States to address serious or widespread violations and secure 
positive change.
    In fact, a majority of the countries in the world--many with 
overall good practices on religious freedom--could, under such a 
definition, be categorized as engaging in religious persecution. As a 
result, countries with generally good records on human rights, 
including religious freedom, could be cited as religious persecutors. 
For example, Austria, which grants certain education benefits and 
subsidies to groups that qualify for registration and recognition but 
does not in fact require registration or restrict groups' freedom to 
worship,nonetheless could find itself cited under the bill's current 
terms. The bill thus could designate entire regions as persecutors 
without making even the most basic distinctions among individual 
countries.
    In addition, the bill defines the term ``persecution'' in a manner 
that is inconsistent with international and U.S. law and that could 
undermine our asylum and refugee policies. By defining persecution as 
it does, the bill runs counter to long-standing U.S. and international 
policy, which has sought to protect those facing persecution from legal 
definitions that could be construed narrowly to deny them protection. 
Furthermore, we believe that any bill should focus on government action 
or inaction with respect to any limitation on the internationally 
recognized right to freedom of religion and not on the concept of 
religious persecution, which can include actions that do not involve 
governments. We believe that the goals of the sponsors could be 
achieved by focusing on limitations to religious freedom rather than 
using the term ``persecution.''
    Our third concern is the nature of the bill's waiver mechanism. 
Under the bill,the President could waive sanctions for reasons 
unrelated to religious freedom if he determines that such a waiver 
would be in the national security interests of the United States. We 
believe that national security is too high a standard and could unduly 
limit the President's ability to protect a wide range of important and 
potentially vital national interests unrelated to our security 
concerns. A change in the waiver standard from national security to 
national interest would ensure that all the interests of the American 
people are protected.
    Our fourth concern is that the bill would create significant new 
reporting,training and other requirements without providing for 
additional resources. As our work to promote religious freedom 
indicates, we understand and appreciate the desire of Members of 
Congress for expanded monitoring and reporting on religious freedom 
issues. We are prepared to work with you in exploring ways to broaden 
our efforts. But we fear the current provisions are not workable. The 
bill would require the following reports each year:

  <bullet> On September 1st, preparation of the annual Country Reports 
        on Human Rights Practices begins. The bill would require that 
        the existing sections on religious freedom be expanded--an 
        initiative this Administration has already undertaken and is 
        committed to continuing. The Reports are released by January 
        31st.
  <bullet> Preparation of the Annual Report on Religious Persecution 
        would then begin. It is due May 1st.
  <bullet> The Presidential determination of gross violators and 
        intended action is due June 1st, thirty days after submission 
        of the Annual Report.
  <bullet> The report from the Commission created by the bill is due 
        August 1st.
  <bullet> The report to Congress on the President's Determination of 
        Gross Violators and Intended Action is due September 1st. It 
        then would be necessary to begin work on the next year's 
        Country Reports.
    These reports are time- and staff-intensive. If I may speak on a 
personal note, I have great respect for the work done by the people in 
my Bureau, who to a person are exceptionally dedicated to the cause of 
human rights. Many Already work very long days and on weekends, and 
give up much of their holiday season to prepare the annual Country 
Reports on Human Rights Practices. The Preparation of the Country 
Reports involves embassy personnel, officers in our regional bureaus, 
and approximately half of the staff in my bureau, who work on the 
reports throughout the year but particularly intensively for about 
three months. Yet I estimate that the additional reporting requirements 
in this bill could more than triple their workload and decrease their 
availability to respond to other urgent human rights concerns.
    The new reporting requirements also could obligate the Secretary to 
identify other human rights programs to cut back or eliminate in order 
to implement these unfunded mandates. The ultimate effect could be the 
reduction of staff available to work on other important human rights 
initiatives, including those that promote religious freedom.
    Our fifth concern is the bill's creation of new institutions. The 
bill would establish an Ambassador-at-Large and an Office on Religious 
Persecution at the Department of State, with the advice and consent of 
the Senate. The Ambassador would chair a new Commission on 
International Religious Persecution. Our concerns regarding these new 
institutions are threefold. First, as I noted earlier, we believe that 
any legislation instead should consolidate and strengthen existing 
mechanisms rather than create new ones.The Ambassador-at-Large position 
largely duplicates that of the soon-to-be-designated senior 
coordinator, and the Commission in large part replicates the work of 
the Secretary's Advisory Committee. Second, we believe that the bill 
limits the Secretary's discretion to ensure that human rights and 
religious freedom receive priority attention in the Department of 
state. Third, the bill's structure and wording may in some cases 
actually limit the goals of its sponsors. For example, the title of 
``Ambassador at Large'' recently was redefined within the Department of 
State as a temporary position and is rarely used.
    In conclusion, Mr. Chairman, we look forward to working with this 
Committee to strengthen our mutual commitment to promote religious 
freedom. The President and the Secretary of State have by word and by 
deed demonstrated that the promotion and protection of religious 
freedom is a foreign policy priority. This Committee, under your 
leadership, also has played a leading role.In our efforts, we are 
joined by many courageous men and women around the world for whom this 
is not merely a matter of principle, but a matter of faith. We must not 
let them down.
    Acting alone, neither the Administration nor Congress can hope to 
accomplish this important task. I commend the authors and sponsors of 
the bill for their efforts and for their contributions to the debate 
about religious freedom and US policies to address this important human 
rights concern. We must work together to develop the most effective 
policies and programs possible. We welcome these initiatives and look 
forward to developing means to meet our shared goals. Only then will we 
be able to stop those who would oppress religious freedom and help 
those who would promote it.
    Thank you very much.

                               __________

                  Prepared Statement of Senator Thomas

    Mr. Chairman, the freedom of religion--to believe or worship as one 
chooses, to change those beliefs, or even to have no beliefs at all--is 
one of the most basic and fundamental of human rights. That right is 
enshrined in the U.N. Charter, the Universal Declaration of Human 
Rights, and the International Covenant on Civil and Political Rights; 
it transcends ethnicity, race, culture, and political background.
    But as we know, the persecution of people based solely on their 
religion is an unfortunate reality of today's world. It occurs in 
several countries within the jurisdiction of my subcommittee: Laos, 
Vietnam, the People's Republic of China, and North Korea to name a few. 
The common denominator, in almost all cases, is an authoritarian 
regime--in these cases communist regimes--which in order to control its 
citizens also feels a need to control their minds
    Of course, because we ourselves are Christians the instances of 
religious intolerance that hit closest to home for us involve the 
persecution of Christians abroad. We can empathize with their plight, 
not simply because they are our coreligionists, but because of our 
history; our own country was founded by men and women who fled England 
because they were persecuted for their Christian religious beliefs. But 
Mr. Chairman, our revulsion at this type of human rights abuse is not--
and should not--be any different than when the subject of the 
persecution is not a Christian but a Buddhist, or Muslim, or Daoist. A 
central tenant of our philosophy as Americans is that each individual 
should be free to follow his or her religion, Christian or otherwise, 
without interference or fear.
    In recent years, our government has intensified its support of 
religious freedom abroad. For example, Secretary of State Albright has 
stated that advancing religious liberty is a foreign policy priority; 
she has instructed our embassies to give greater attention to religious 
liberty, report more actively on the issue, and provide suggestions on 
how the government might most effectively address questions of 
religious intolerance. The State Department's annual human rights 
reports give more attention to religious persecution and procedures for 
reviewing asylum requests have been modified to make reviewers more 
sensitive to religious persecution. And on January 23, 1998, the 
Secretary of State announced that she would appoint a new, senior-level 
coordinator 'within the Bureau of Democracy, Human Rights and Labor to 
ensure that U.S. actions to advance religious freedom are fully 
integrated into U.S. foreign policy.
    Congress, too, has done its part to address the problem. Congress 
has pursued its concerns about a number of religious intolerance issues 
in hearings especially in this Committee that have highlighted 
restrictions on religious liberty in many parts of the world, and has 
passed legislation relating to specific countries. This bill is another 
laudable step in that effort, and one aimed at addressing religious 
persecution on an international level.
    While I strongly support the goals of S. 1868, and many of its 
provisions, I am concerned by the sanctions portion of the bill. My 
colleagues know that I generally do not believe that unilateral trade 
sanctions, imposed for whatever reason, are effective tools of U.S. 
foreign policy. They rarely, if ever, work because they are--by 
definition--unilateral. In the case of economic sanctions, for 
instance, there are few if any goods in today's global economy which 
are produced solely in the United States. Once a unilateral sanction is 
in place, there is nothing to prevent the target country from simply 
acquiring the goods somewhere else--China and its purchases of Airbus 
Industrie airplanes over Boeings comes most readily to mind. And our 
``allies'' are often more than happy to circumvent us and fill the gap 
we've left, as we've seen in the case of Iran. All we end up doing, 
then, is the economic equivalent of cutting off our nose to spite our 
face.
    I realize that often that leaves us in the unenviable position of 
doing nothing and watching the human rights abuses continue unabated, 
or imposing sanctions and shooting ourselves in the foot. And I believe 
that S. 1868 is a very good attempt at reconciling those two seemingly 
mutually exclusive positions. So I look forward to the testimony today, 
and to working with the bill's authors after today to help craft a bill 
that addresses the problems without causing others.

                               __________

                 Prepared Statement of Senator Ashcroft

    Mr. Chairman, I want to thank you for holding this hearing on S. 
1868, the International Religious Freedom Act of 1998. This bill 
represents an important effort to raise awareness of religious 
persecution overseas. In our own history as a nation and in the 
histories of countries around the world, religious freedom has been at 
the center of movements for broader civil liberty. Thus, efforts to 
restrict religious freedom strike at the heart of liberty itself.
    If the Administration had been more aggressive in confronting 
religious persecution abroad, such legislation might not be necessary. 
In fact, at a White House meeting to discuss one of the major bills on 
religious persecution, President Clinton told religious leaders that 
legislation which actually required him to confront persecution abroad 
would put ``enormous pressure on whoever is in the executive branch to 
fudge an evaluation of the facts of what is going on.''
    That is a startling statement by the President of the United 
States, which not only calls us to question this Administration's 
commitment to fight religious persecution, but the reliability of other 
presidential certifications on issues such as Chinese missile and 
nuclear proliferation. Such statements by Administration officials make 
it clear why legislation to address religious persecution is needed.
Sudan
    Religious persecution is a tragic fact of life in many countries, 
from Latin America to Asia to Africa. Religious persecution in Sudan 
and China has been of particular concern to me. As Chairman of the 
Africa Subcommittee, I held a hearing on religious persecution in Sudan 
in September of last year.
    Religious persecution has become enmeshed in a brutal Sudanese 
civil war that has taken more than 1.5 million civilians since 1983, 
with over 4 million more being displaced by the fighting. An estimated 
430,000 refugees have fled Sudan to seek safety in neighboring 
countries.
    Human rights organizations working in Sudan have testified before 
Congress that the government uses ``aerial bombardment and burning of 
villages, arbitrary arrests, torture, chattel slavery especially child 
slavery--hostage taking, summary executions, inciting deadly tribal 
conflict, the abduction and brainwashing of children, the arrest of 
Christian pastors and lay church workers, and the imprisonment of 
moderate Muslim religious leaders'' to suppress dissent and form a 
radical Islamic state. Such barbarous atrocities, along with Sudan's 
support for international terrorism, has led me to introduce 
legislation to cut off financial transactions with the Sudanese 
government.
China
    The viciousness of religious persecution in Sudan should not 
callous us to the very real and brutal oppression taking place in other 
countries. As Nina Shea notes in The Lion's Den, China has more 
Christians in prison because of religious activities than any other 
nation. The State Department's first comprehensive review of 
persecution against Christians, issued in July 1997 and entitled ``U.S. 
Policy in Support of Religious Freedom,'' says, ``The Government of 
China has sought to restrict all actual religious practice to 
government-subsidized religious organizations and registered places of 
worship.''
    China's efforts to restrict religious freedom are driven by 
oppressive policies which seek to make all religion subservient to the 
state's secular objectives. In the book China: State Control of 
religion, Human Rights Watch states that ``the Chinese government 
believes that religion breeds disloyalty, separatism, and subversion.'' 
The book goes on to note: ``Chinese authorities are keenly aware of the 
role that the church played in Eastern Europe during the disintegration 
of the Soviet empire.''
    Rather than embrace and encourage the free expression of faith, the 
Chinese government is engaged in a massive, ongoing, and brutal effort 
to repress non-sanctioned religious activity. Ministers or lay people 
who seek to practice their faith free from bureaucratic interference 
and oppression are subjected to imprisonment, torture, and worse. The 
Far Eastern Economic Review noted that 15,000 religious sites were 
destroyed by government police in the first five months of 1996 alone. 
Paul Marshall and Nina Shea note that ``China's underground Christians 
are the target of what they themselves describe as the most brutal 
repression since the early 1 980s when China was just emerging from the 
terror of the Cultural Revolution.''
    And yet, in spite of such repression by the Chinese Communist 
government, this Administration declined even to sponsor a resolution 
at the U.N. Commission on Human Rights condemning China's human rights 
record. Apparently, some type of back door deal was made with the 
Chinese government in which a few prisoners would be released and we 
would turn our head and close our ears to the thousands that remain in 
Chinese prisons and labor camps.
    Mr. Chairman, I submit that it is time for the Senate of the United 
States to take a stand on this issue of religious persecution. It is 
also time for the Executive Branch to take a stand on this issue. 
Rather than look at how we might ``fudge'' legislative requirements to 
avoid confronting oppression abroad, let us have the courage of our 
convictions.
    The President will be going to China next month, and his first stop 
will be at Tianamnen Square, the site of so much bloodshed just nine 
years ago. If the President will not use that forum to pay homage to 
the students who died there, then he should skip that part of the trip. 
Better yet, he should skip the summit altogether.
    The liberties for which those students fought and died are the 
liberties which this and other bills on religious persecution seek to 
advance. The Chinese people one day will realize their freedom and 
seize their liberty. When they do, Mr. Chairman, it is my hope that the 
democratic government of China will view the United States as a friend 
who stood for freedom during this last twilight struggle with communist 
oppression.

                               __________

                 Prepared Statement of Senator Feingold

    Thank you Mr. Chairman for holding this hearing on S. 1868, the 
International Religious Freedom Act, introduced in the Senate by my 
distinguished colleague from Oklahoma, Senator Nickles.
    Mr. Chairman, I am still reviewing this important piece of 
legislation, as I am sure are the rest of the members of this 
Committee. So I appreciate the opportunity today to delve into some of 
the policy issues raised by this bill with our distinguished witnesses.
    As you well know, the issue of religious freedom is clearly an 
important one for this Committee, and indeed, for our country. Freedom 
of religion is one of the bedrock principles of American democracy. Our 
founders, who came to America in part to flee religious intolerance, 
championed freedom of religion as a universal right, and, made it an 
integral part of the Constitution through the Bill of Rights.
    Throughout our history, immigrants from every comer of the globe 
have arrived on our shores seeking a community where they could 
practice their religion openly and without fear of persecution. Today, 
we value the separation of church and state as one of our guiding 
principles.
    But, we are all well aware that such liberties are not fully 
enjoyed everywhere, and there are millions of people who daily face 
persecution or intolerance because of their religious beliefs. Worse 
yet, the exploitation of religious and ethnic differences for political 
ends has become all too common in the post-Cold War era.
    These trends have been around for centuries but have been getting 
serious press attention in the last several years. They mirror the 
myriad other abuses that are conducted or at least tolerated by non-
democratic regimes around the world. Examples of restrictions on basic 
freedoms--of expression, of association, of the press--abound, and 
those who dare violate such restrictions face imprisonment, repression 
or even death. As we meet here this afternoon, it is likely that 
somewhere, a political prisoner is being beaten by the police or armed 
forces, or some paramilitary group whose members might include police 
officers or soldiers. It is likely that a union organizer is being 
detained or harassed by authorities, that a woman is being raped by 
government thugs, that a newspaper is being shut down, or that a 
prisoner has ``disappeared.''
    The question for us today is what is the appropriate U.S. policy 
response to religiously motivated acts of oppression by other nations?
    I firmly believe that the defense of human rights around the world 
relates directly to our ``national interests'' and, as such, demands 
leadership from the United States, a nation founded on respect for 
individual rights and liberties.
    We are bound by the documents that created this country to promote 
and defend certain principles: that we are all created equal, that we 
are born with certain inalienable rights, that government is legitimate 
only with the consent of the people, and that government should exist 
to promote the general welfare and to secure the blessings of liberty 
for all. Our other national interests--security and economic 
opportunity--have the best chance for advancement in a climate of 
freedom and respect for individual rights, and are undermined by the 
absence of that climate.
    I have tried never to shy away from supporting the use of every 
economic, diplomatic or rhetorical tool to advance our human rights 
agenda. It is through the vigorous use of these tools that the United 
States can exercise the type of leadership such fundamental violations 
of justice demand. To a certain extent, this is the approach implicit 
in the bill we are considering today, which would impose selected 
sanctions on countries that ``engage in or tolerate religious 
persecution.''
    But, with all due respect to my colleague from Oklahoma, I am 
somewhat concerned about the basic premise of the bill, which would 
appear to subordinate other fundamental rights to the right to 
religious freedom. As we defend the freedom of religion, should we not 
just as vigorously defend the rule of law, basic human rights and the 
exercise of political rights? How would we react if, tomorrow, Sudan's 
ruling National Islamic Front suddenly lifted its Shar'ia law and 
allowed Christians to worship freely? Would we then tolerate the forced 
conscription of children, the lack of press freedom and the 
manipulation of humanitarian assistance that also takes place in the 
Sudan?
    I also have some concerns about the possible duplication of 
existing government resources favored by the bill, as well as the lack 
of sanctions on arms sales and military transfers.
    Nevertheless, I commend Senator Nickles for his efforts and I look 
forward to learning more about these issues from him and from Assistant 
Secretary Shattuck.

                               __________

                        Hearing of June 17, 1998

         Prepared Statements of Committee Members and Witnesses

      Prepared Statement of The Right Reverend Munawar Rurnalshah

Introduction
    Good morning, Mr. Chairman and other distinguished Senators. Thank 
you for this opportunity to tell my story and share some of the 
experience of being a Christian in Pakistan.
    I would like to open my remarks with a few words of a martyr and a 
dear friend of mine who gave his life for the cause of freedom to be a 
Christian in Pakistan.

          The Christians of Pakistan are being held in a death-sentence 
        blackmail by the Blasphemy Law, under which their small 
        businesses are being taken over, their property seized and the 
        situation is such that their women are not safe. Therefore. in 
        protest against 295-C and other black laws and in the name of 
        my oppressed Christian people, secularism and democracy, I am 
        taking my life.

    These were the last recorded words of John Joseph, Roman Catholic 
Bishop in Pakistan, who laid down his life on May 6 1998 to protest the 
death sentence imposed on a fellow Christian under Pakistan's blasphemy 
law. The death of Bishop Joseph created shock waves throughout Pakistan 
and has utterly devastated my already marginalized community. This 
event has triggered a chain reaction where the majority Muslim 
community (about 96%) seems to have started a process of tightening the 
noose on the Christians in the most public fashion--by physical 
harassment and creating an atmosphere of fear and insecurity. My hope 
in being here today is to pay tribute to this sacrificial act of Bishop 
Joseph. To make sure that all this has not been in vain and in doing so 
to focus the attention of my government and indeed the world on the 
plight of the Christian community in Pakistan. My concern also includes 
the issues of religious discrimination and persecution against fellow 
Christians and people of other faiths across the world who suffer 
ignominy and torture simply because they want to have the freedom to 
practice the faith of their choice.
Being a Christian in Pakistan
    I am an Anglican bishop in the Church of Pakistan. Anglicans, of 
course, are known as Episcopalians in this country. The Church of 
Pakistan is the largest Christian denomination in our Country today, 
formed in 1970 by the amalgamation of Anglicans, Lutherans, Scottish 
Presbyterians, and the Methodists. There is also a strong Roman 
Catholic presence, along with the other Protestant denominations. We 
Christians make up about 3% of the population of Pakistan.
    We are privileged to be part of the country of Pakistan, which we 
serve with all our passion and dedication, knowing that it is ours. Our 
ancestry on that soil goes back thousands of years. And yet it is a 
country which, in proclaiming the faith of the majority community, the 
faith of Islam, seems to be wittingly or unwittingly excluding us 
Christians and the other religious minorities from its shared organic 
life. As you will know already, Pakistan was created in 1947 to be a 
homeland for the Muslims of South Asia. The Founding fathers dreamt of 
a Pakistan for the Muslim, but where other religions could also feel 
part of it. Quaid Azam said, ``You are free, you are free to go to your 
temples, you are free to go to your Mosques or to go to any other place 
of worship in this state Pakistan. You may belong to any religion or 
caste . . . we are all citizens and equal citizens in this state.'' 
Perhaps that dream was too utopian. The creation of a religious state 
where all have equal status was bound to be wishful thinking, indeed a 
contradiction in terms. Pakistan was perhaps the first state in modern 
history created exclusively on the basis of religious identity. The 
events of the past fifty years have shown that in spite of having good 
intentions, such states are bound to evolve toward religious 
exclusivism.
    Now allow me to share with you how the rights and freedoms of 
religious minorities have been eroded in Pakistan's 50-year history 
because of the majority community's view that this land is for the 
Muslims, to which many would add ``for Muslims only.''
    Take a simple word like ``freely.'' In the original constitution of 
Pakistan, Christians and other religious minorities were allowed to 
``practice their faith freely.'' This word was removed from the 
constitution more than ten years ago as it was deemed to be threatening 
the Islamic fabric of Pakistan. It appeared quite innocuous at the time 
but we are now reaping its ugly consequences.

  <bullet> In Pakistan it is becoming increasingly difficult to build 
        our places of worship. We are being told often unofficially at 
        least, that no permission can be given for the building of 
        churches. Simply because it is a land for the Muslims.
  <bullet> Pakistan is now practicing an apartheid legal system. As a 
        member of a minority, I am barred from standing for election as 
        a Member of Parliament representing the majority community, or 
        even from voting in the main elections for members of 
        Parliament. Instead. I am restricted to voting for one of a 
        handful of Minority Members of Parliament. With no influence on 
        who runs my country. Non-Muslims have become politically 
        voiceless. This is an aberration and an antithesis of anything 
        called democracy. Our global family was in agony when apartheid 
        was being practiced in South Africa and yet seems to be quite 
        ignorant of the situation in Pakistan and perhaps other such 
        places;
  <bullet> As a religious minority, we live under a constant feeling of 
        socioeconomic strangulation. Jesus taught us to serve the poor 
        of society. In Pakistan, we bear the burden of actually being 
        the poor of society. In my own diocese in northwest Pakistan, 
        85% of my people are severely deprived. The only jobs available 
        to most of them is the removal of human excrement from the 
        streets. We are being socially ostracized and economically 
        paralyzed simply for the ``sin'' of being Christians. As an 
        example, the number of Christians in employment in the federal 
        government of Pakistan is 0.7%, and 87% of those are in the 
        lowest three categories. The reason? This is a land for 
        Muslims, and we are merely Christians.

    Over the years, Pakistan has been trying to introduce Shariah (the 
Islamic Law) and its related ordinances as part of a program of 
Islamization. The Shariah promises to govern and regulate the lives of 
people as an obedience to the sovereignty of God. On the face of it, it 
looks harmless, even desirable. After all, in the Christian Bible, we 
too acknowledge the sovereignty of God and seek his Kingdom. But with 
the imposition of Islamic law, citizens can only respond to this 
sovereignty through an Islamic way. This makes life extremely difficult 
for those who are not Muslims. It is even suggested that non-Muslims in 
Pakistan should be given the status of a Dhimmi under the Shariah Law. 
This means that we will be treated like conquered people and would be 
offered protection only after the payment of a special tax. How could 
we become ``conquered people'' in our own homeland? Currently, Shariah 
is being practiced selectively in Pakistan, but even then it has begun 
to affect our lives as Christians in serious ways.
    For example, at least once a month I am confronted with cases where 
a Christian has accepted Islam mainly to get divorced or remarried. The 
worst aspect of it is that the Christian spouse left behind is not 
accepted as legally divorced, whereas the one who has become Muslim is 
accepted by the law of the land as legally divorced or remarried.
    Take another example of this, if any adult Muslim converts to 
Christianity or any other faith, he is automatically denied of his 
inherited rights. I know of a case of a convert who has been 
incarcerated in jail for the last 17 years, even without any proper 
trial or verdict, simply for his so-called Apostasy.
    Perhaps the worst aspect of Islamization in recent times has been 
the use of the dreaded Blasphemy Law. This has been part of the legal 
statute for a couple of centuries, but has been resurrected over a 
decade ago as part of the Pakistan penal code. Its section 295-C says:

          Whoever by words, either spoken or written or by visible 
        representation, or by any imputation, innuendo. or insinuation, 
        directly or indirectly, defiles the sacred name of the Holy 
        Prophet Mohammed (PBUH) shall be punished with death. or 
        imprisonment for life, and shall also be liable to fine.

    The intent behind this law seems perfectly reasonable because we 
should respect the great leaders of all religions. Such a law is there 
simply to counter any disrespect to such people. Unfortunately, great 
problems arise when these laws get exploited and abused. In Pakistan. 
for us Christians and other religious minorities, the misuse of this 
law by members of the majority community has achieved draconian 
proportions. Its burgeoning and wide spread use since 1986 has caused 
panic in my community, as well as to other religious minorities. It is 
indeed like a Damocles sword hanging over our heads. It has often been 
used by private citizens to settle old scores and to take out 
vendettas. There have been some frightening incidents related to it. 
The worst aspect is that 90% of such cases never reach a court of law; 
the mobs resolve these cases in impromptu ``Kangaroo Courts.'' And even 
if they do reach court, the courts increasingly tend to lean toward the 
Muslim accuser, whose single testimony is enough proof of the crime 
and, of course, the witness of a Christian is not even admissible.
    In fact the ultimate despair of the late Bishop John Joseph was 
that he could not find a competent lawyer to appeal the death sentence 
of his parishioner, Ayub Masih. All such lawyers feared for their 
lives. A judge, who acquitted one of the few Christians to escape from 
such a sentence, was murdered in broad daylight--two years after his 
judgment. I offer here some of the examples just to show how our small 
community is being brutalized and victimized in the name of religion:

  <bullet> Tahir Iqbal, a young Christian bound to a wheelchair through 
        illness, was a convert from Islam. He was brutally murdered by 
        a frenzied mob because he was said to have at least 
        inadvertently insulted The Prophet of Islam due to his 
        conversion.
  <bullet> A teenage boy was accused of writing insulting remarks 
        against the Prophet on a Mosque wall. He, along with his Uncle, 
        was sentenced to death, but with the intervention of the 
        government at that time, was helped to leave the country. The 
        boy was eventually certified to be an illiterate.
  <bullet> A fourteen-year-old girl, Carol Shakeel, was accused of 
        blasphemy at school. In order to save her life she became a 
        Muslim with the consent of her family. At the same moment, 225 
        local Muslim religious leaders signed an oath to kill her.

    It is worth noting that until the introduction of section 295-C, 
hardly any cases under the Blasphemy Law surfaced during the previous 
40 years in the life of Pakistan. I have here with me a catalogue of 
these cases which have been properly documented and can withstand the 
test of credibility. You may wish to examine them at your convenience.
    I would like to end this section by narrating a personal 
experience. I quote, ``We dared not cry, we could not shout for help. 
We had to hold our breath as we huddled together under the bed, as some 
human vultures were seeking to devour us. They had already desecrated 
our beautiful church and had set alight our precious books and other 
meager possessions. They wanted to kill each one of us.'' This was the 
chilling narration of a seven-year-old boy who had assumed the role of 
spokesperson. With a matter-of-fact tone, he described the events of a 
day in February 1997 when a crowd of around 30,000 Muslims invaded 
Christian communities around Shantinagir, burning churches and creating 
havoc because it was rumored that a Christian had torn the pages of the 
holy Koran. ``Why would they want to kill you?'' we asked. A small 
voice came from one of his companions ``Because we are Christians.''
Suffering Around the World
    I think it is incumbent upon me to speak of the suffering of 
religious minorities in other parts of the world. I am in constant 
contact with some of the acute situations within the worldwide Anglican 
Communion, which is composed of nearly 70 million members in 165 
countries. Perhaps the situation which concerns us most at this moment 
is the plight of our fellow Christians in Sudan. I recently shared a 
platform in New York with one of my fellow bishops from that country. 
The Christians of Sudan have become targets of persecution, facing 
daily gross violations of human rights. They suffer torture, 
enslavement, and incessant fear of genocide. This situation has driven 
thousands of them to leave their homes and escape to refugee camps.
    The Sudanese government is attempting to force Christians to choose 
between renouncing their faith and renouncing food, education, jobs, 
and even life. The people living in the Nuba mountains are fleeing war 
zones in search of security, food, shelter, and medicine. The pride of 
their youth is trapped in refugee camps in the neighboring countries of 
Kenya and Uganda, desperate for education and freedom. All this has 
been happening for the last decade and over, and yet the human family 
seems to be either oblivious or impotent to bring an end to this 
tragedy. The fact that, in spite of all this, these people display an 
unshakable faith, is nothing short of miraculous. A brother bishop, 
Nathaniel Garang, bolsters the Dinka people with words of conviction 
and hope by describing their seemingly intolerable situation, ``We are 
very hungry in this time, but we are feeding on God.'' Please note that 
here too, it is the struggle for the supremacy of Islam and its Shariah 
in Sudan which has so completely decimated the lives of these 
communities.
    There is also the example of Myanmar (Burma) where Church 
properties are frequently confiscated for the building of municipal 
police stations and military barracks. In one war-torn area alone, a 
group of 16 churches has been reduced to two. In areas like these, it 
also happens that orphaned Christian children have been removed by the 
military and taken to orphanages in Buddhist pagodas where they are 
raised in the majority religion of Buddhism. Religious and secular 
publications are rigorously controlled. The import of Bibles translated 
into the indigenous languages is prohibited and it is difficult for 
non-Buddhist Faiths--Christians and Muslims--to obtain permission to 
build houses oF worship. The tragedy is that minority faiths in Myanmar 
bear the threat of extinction.
Legislation Before the U.S. Senate
    For a few moments, I would like to share my views on the specific 
pieces of legislation your Committee is considering. Let me paint a 
picture in broad terms of what I believe could be helpful from the 
United States. As you know, I am here because I believe in the cause of 
religious liberty, in Pakistan and around the world. Believe me, it 
would have been easier to stay at home. But for me, and for many of my 
Christian brothers and sisters in Pakistan, silence is not an option. 
We are called to proclaim the Good News of our faith, and to stand for 
our faith in the face of persecution. To stay silent about our 
experience as a religious minority in Pakistan would be prudent. But in 
the long run, it would do more harm to the cause of what we believe.
    I do not believe the United States can remain silent either. Since 
the Pilgrims first set sail in 1607 in search of a place to practice 
their religious beliefs, religious freedom has undergirded your 
country's history and culture. No, the United States should not stand 
by today in silence in the face of religious persecution worldwide. You 
need to hear the cry of people around the world who suffer for their 
faith, who are denied the basic right to believe, which you so 
naturally take for granted.
    The central question is how the United States can respond most 
effectively to the cry of persecuted faithful. I understand the 
legislation passed in the House of Representatives would mandate severe 
economic sanctions against countries that engage in persecution. This 
approach could have positive effects in certain circumstances--perhaps 
in Sudan. But I fear that in other circumstances, severe sanctions 
could trigger reprisals against the religious minority for having 
caused the sanctions, and also cause suffering and misery to the poor 
of that country. It is my experience that a heavy-handed approach is 
less helpful, and in some cases, can even do more harm than good.
    But, clearly, there are more choices than just imposing heavy-
handed sanctions or doing nothing. There is an entire array of foreign 
policy options which can positively affect human rights conditions in 
other countries. The legislation we are here to discuss today, the 
Nickles-Lieberman bill, gives your government a range of options--from 
a private diplomatic reprimand, all the way through economic 
sanctions--with which to respond to religious persecution. This 
flexibility is crucial to effective action. In circumstances of severe 
persecution, the bill allows for more severe sanctions, but again 
maintains the flexibility of calibrating those sanctions for the 
particular situation. I believe your current law already allows for 
this response to gross violators of human rights. Also, the bill allows 
the sanctions to be waived if the cause of religious liberty would be 
jeopardized.
    In Pakistan, I believe the most helpful response from the U.S. is 
one that says, ``We don't like what we see and hear.'' The 
international community's recognition of religious persecution in 
Pakistan has a subtle and yet profoundly positive effect on the plight 
of the Christian community. Yes, some extreme elements react with anger 
and defiance. But, overall, sunshine on the situation helps. There is 
the need to have a constant dialogue between the U.S. and our country 
on this and other issues of human rights. The diplomatic ``hotline'' 
must be in action all the time. Of course I say this from my experience 
as it relates to Pakistan. I do not know the best approach for all 
people who suffer for their faith around the world--in China, Sudan. 
parts of the Middle East. These are all very different situations which 
need different approaches. This case-by-case approach is the heart of 
the Nickles-Lieberman bill.
    This year, the international community is celebrating the 50th 
anniversary of the Universal Declaration of Human Rights, which reminds 
us ``to promote respect for these rights and freedoms and by 
progressive measures, national and international, to secure their 
universal and effective recognition and observance. One of the more 
important aspects of the Nickles-Lieberman bill, I believe, is that the 
bill uses the Declaration's broad, internationally accepted definition 
of religious persecution. This definition recognizes both gross 
violations of human rights, and the more subtle and prevalent forms of 
religious persecution experienced worldwide. such as church burnings, 
job discrimination. stifling religious expression, and the inability to 
hold services. A severe limitation of the House bill is that it only 
responds to the most extreme cases of religious persecution, ignoring 
the vast majority of restrictions on religious liberty that occur 
around the world.
    Finally, the bill includes another important provision, which 
requires the U.S. government to consult with nongovernmental 
organizations, including churches, concerning the state of human rights 
and religious persecution. This provision is crucial if you are to find 
the most effective ways of fighting persecution, while at the same 
time, protecting the religious minority in offending countries. It is 
obvious to me with this bill, and with this hearing you are conducting 
today, that the Senate is committed to consulting the religious 
community. Sadly, the House version would not do this.
    As I conclude my statement, one factor seems to be overwhelmingly 
evident, which is that there are situations in our world where your 
religious identity can be your death-warrant. This happens in Pakistan 
and other parts of South Asia. It happens in China, Sudan, the Middle 
East, and in many other parts. Although my personal experiences are 
those of a minority Christian in a majority Islamic land, it could 
equally be the experience of Muslims in the Philippines or Bosnia, of 
Buddhists in Tibet, of Hindus in Sri Lanka, and soon. I am also aware 
that these conflict situations are not exclusively based on religious 
identity. Other factors such as race and ethnicity are also major 
components of these situations. The difference is that we are born with 
our race and ethnicity and bear its consequences, both good and bad. 
for the rest of our lives. But religion is a person's free choice. I 
believe each and every human soul on this planet earth must be given 
complete freedom to choose and practice his own faith. Creed should 
never be mixed with race, culture, or status in life. It is indeed a 
sacred choice. No one should be allowed to mutilate and desecrate this 
God-given privilege. You, my American friends, uphold this principle 
dearly, and I am sure you understand our predicament. I hope the 
American people will continue to offer themselves as an instrument of 
peace, hope, and justice for human situations where this fundamental of 
all human rights is being denied.
    Thank you.

                               __________

                  Prepared Statement of Felice D. Gaer

    Few issues have been as central to the work of the American Jewish 
Committee, which was founded in 1906 in response to pogroms against 
Jews in Russia and eastern Europe, as speaking out to protect religious 
minorities from prejudice, discrimination, bigotry, and violent 
attacks. Through our Jacob Blaustein Institute for Human Rights and 
other programs, we have worked to establish international norms and 
standards to protect religious freedom, to devise policies and 
machinery to bring pressure to bear on governmental authorities 
worldwide to end religious intolerance and repression, and to see that 
the US has fair and generous asylum policies when victims of such 
repression come to our country.
    We thank you for your invitation to the American Jewish Committee 
to address this Committee about legislation addressing religious 
persecution and religious freedom issues abroad. These are core issues 
not only for our organization, but for all Americans, as the freedoms 
we seek to promote abroad are the same that have shaped our own nation: 
religious tolerance, pluralism, and a belief in fairness, equality, and 
liberty for all persons, including men and women, Jews, Christians, 
Moslems, Buddhists, Hindus, Bahais, and others.
    We believe that ending religious persecution abroad merits a high 
profile in US foreign policy. Further, the legislative efforts in the 
Congress on this matter over the past year have rightly focused popular 
attention on religious persecution abroad and ways the US should adjust 
its foreign policy to address such matters most effectively. We are 
also convinced that prevention of religious persecution at home and 
abroad requires sustained, sophisticated legal and political tools. The 
proposed legislation, the International Religious Freedom Act (with a 
number of adjustments that we will outline later in this testimony) 
promises to provide that sophistication and sustained attention to this 
key issue. With attention to a number of our concerns, including the 
importance of integrating this issue more centrally with the machinery 
the Congress has created to protect international human rights 
globally, we believe this will be an important addition to American 
diplomacy.

                 I. An Overview of Religious Repression

    Religious repression and intolerance worldwide has been documented 
by religious organizations, detailed in international human rights 
reports, cited in the Department of State's annual country reports on 
human rights, and chronicled year by year at the United Nations, where 
a Special Rapporteur on Religious Intolerance outlines cases that come 
to his attention and explores the issue in respect to various 
countries.
    Those who persecute others for their religious beliefs and 
practices--for being different--display a perverse inventiveness in 
their inhumanity. The devious devices they come up with as a cover for 
their actions seem unbounded. The variety of actions perpetrated 
against religious believers range from physical attacks to weaving a 
web of so-called legal measures that so severely inhibit religious 
communities and their members that they violate most of the norms of 
freedom of religion. Among the most common kinds of violations of 
religious freedom have been:

  <bullet> Physical attacks:

          Killings, attacks on individuals' physical security--
        including torture.Religious extremism can often lead to violent 
        acts and measures directed against individuals who do not 
        submit to the strictures of such a group; these are violations 
        of the right of each person to physical integrity, to be free 
        from torture and unjust killing.

  <bullet> Limits on proselytizing and possessing religious articles:

          These restrict the right to manifest one's belief.

  <bullet> Closing and destroying places of worship limiting religious 
        publications, controlling the right to elect one's own 
        religious leaders:

          These are limits on the right to believe.

  <bullet> Discrimination in employment, education, housing, the right 
        to own property, access to credit, etc.

          These measures are targeted to inhibit the ability of members 
        of a religious community to participate fully in society and 
        deny them equality and the ability to enjoy their human rights 
        in numerous areas. Such measures may or may not be prescribed 
        by law, and not all of them specifically affect the ability to 
        form religious organizations, or manifest belief, but they 
        commonly severely limit the rights of members of a particular 
        religious communities and in many instances amount to ongoing 
        harassment and persecution of entire communities. Measures like 
        these often have the intended side effect of creating an 
        inferior status of whole communities of believers and can 
        assure or perpetuate poverty and hence, powerlessness of such 
        groups.

  <bullet> Forced exile and local expulsions of religious believers:

          In addition to their other obvious implications, such actions 
        also deny freedom of movement.

  <bullet> Excessive limitations on freedom of expression and freedom 
        of assembly:

          These commonly accompany other violations and persecution of 
        minorities exercising freedom of religion or belief.

    Public officials are sometimes responsible for these abuses 
(particularly when there are legal or official limitations on religious 
freedom and related rights), but in many cases groups of private 
individuals may perpetrate the acts which harass or terrorize persons 
who belong to--or are perceived to belong to--communities that manifest 
other faiths than the officially favored or accepted ones.
    Harassment of different religious communities sometimes takes 
different forms: it is not always accompanied by violent actions 
against religious communities or their forced expulsion. On the 
contrary, the techniques of persecution are much more insidious, 
sometimes quiet, sometimes ``legal'', and often a mixture of methods.
Antisemitism and Religious Repression
    The annual World Report on Antisemitism, published by the Institute 
for Jewish Policy Research (UK) and the American Jewish Committee 
(USA), reveals the complexity of the causes and diversity of 
manifestations of this age-old form of hatred by outlining each 
country's political and economic setting, the general climate of racism 
and xenophobia, the historical legacy of past antisemitism, the nature 
and ideology of extremist political parties and movements, actions by 
governments and measures seen as ``pandering'' to racist sentiment, as 
well as the specific details of violent and other. manifestations of 
antisemitism ranging from arson to harassment and the promotion of hate 
against Jews. The most recent report, for example, cites upsurges in 
1996 in antisemitism in such diverse countries as Turkey, Egypt, 
Argentina, Spain, Germany (which, despite recent improvements, 
continues to be the site of the highest number of incidents), Russia, 
and Canada. It also reveals the extent to which the Internet has become 
a vehicle of choice for the spread of anti semitic hatred.

Among the trends identified in the last World Report are:

  <bullet> The salience of antisemitism for far right, neo-Nazi and 
        extremist groups, many of whom work through the ballot box to 
        legitimize and spread hatred.
  <bullet> Most militant antisemites are young, unemployed males in 
        North America and Europe, Australia, and the Middle East. The 
        report states: ``The main factors involved in the success of 
        the far right are unemployment, economic uncertainty, crime, 
        anti-immigrant feeling, and concern at the possible loss of 
        national identity as a result of globalization and European 
        integration. Antisemitism has been displaced by other forms of 
        racism in many of these settings . . .''
  <bullet> Antisemitism is widespread in the former Soviet Union 
        (``FSU''). Antisemitism is part of the ideology of the 
        political opposition, the so-called ``red'' (communist) and 
        ``brown'' (fascist) parties. There are two classic forms of 
        antisemitism in the former Soviet Union countries: (1) 
        antisemitism based on religious themes which incites hatred by 
        reviving outrageous ``blood libels''; and (2) political 
        antisemitism which continues the canards against Jews developed 
        and propagated from years of state-sponsored antisemitism in 
        the Soviet bloc states. Jews and Jewish communities report on 
        both ongoing incidents of repression and their very well-
        founded fear of further persecution. Commonly, the authorities 
        in Russia and many of the FSU states do not take action against 
        those who commit various acts directed against Jews.
  <bullet> Numbers tell only part of the story. Violent incidents of 
        antisemitism are recorded by groups in many of the countries. 
        Overall. they have declined from the high recorded in 1995 
        although the actual number of incidents recorded in 1996 
        increased. Such incidents are up in France, but down in Germany 
        and Austria. But countries as distant as South Africa, 
        Indonesia and Argentina have seen the reappearance of 
        antisemitic violence in the last year.
  <bullet> While there has been less physical violence or attacks on 
        persons, there has been an upsurge in antisemitic graffiti, 
        threats, and attacks on property.
Extreme Measures Directed Against Women
    In many countries and religions, extremist religious organizations 
and sometimes governments as well have established measures to enforce 
subordination and obedience from women that deny them their rights to 
equality and liberty. For example, in Afghanistan, Taliban authorities 
have denied women the right to maintain jobs outside the home and have 
sanctioned beatings--on the streets or at home--as a means of enforcing 
submission from women. Such measures constitute a form of religious 
persecution. The Jacob Blaustein Institute has paid special attention 
to the human rights of women in its work. Recently we co-sponsored with 
the George Washington School of Law, a conference examining the 
intersection of ``Religious Fundamentalisms and the Human Rights of 
Women,'' which examined the practices of fundamentalist movements in 
all of the major religions and identified the ways international human 
rights norms were relevant to their behavior.
The Complex Causes of These Abuses
    The causes of antisemitism and other forms of religious persecution 
are many: no single ``germ theory'' can account for it. To use another 
analogy, a stress theory might be more appropriate. The pathology of 
such persecution becomes visible only if the accepted societal balance 
breaks down. When societies begin to stress economically, socially, 
politically, and are near breakdown, there is greater manifestation of 
antisemitism and scapegoating of those who are different. Sometimes 
this takes the form of physical violence. In other situations, the 
persecution may be more pervasive and take other forms.
    This leads us to highlight a major conclusion of every expert who 
has examined this subject: repression of religious freedom and acts of 
religious intolerance, including violence, are commonly manifested in 
combination with other human rights abuses. We believe it is essential 
for the members of this committee, and all others engaged in shaping US 
policy on religious persecution abroad, to bear this in mind when 
formulating US policy. It is also true that the governments are not 
always the perpetrators:communities of believers may instigate actions 
against other communities. In such instances, the root causes may be 
complex, but the obligations of governments to stop such violence and 
discrimination remain clear.
    Sometimes the piety of one religious group or its leader is simply 
a mask for other prejudices which intrinsically have nothing to do with 
religion. Instead, historical, socio-cultural or physical factors may 
provoke the hostility. Often, the sacred teachings of religion are 
themselves twisted and construed to condone the prejudice.
    In sum, the causes of religious persecution are many and require 
extensive analysis. We briefly identify some of them here.

  (1) Ignorance and lack of understanding;
  (2) Conflicts and variations in public religious identification and 
manifestations. In some instances, if a religion legitimizes 
secularization, the religion itself may become a target of persecution 
by those advocating greater religiosity in public affairs;
  (3) Exploitation or abuse of religion or belief--particularly among 
so-called ``new'' religions--for questionable ends, such as criminal 
activity, use of narcotics, etc.
  (4) Historical legacy of the role and conflict of religions in the 
pursuit of power extending back to ancient, medieval or colonial times 
and the manipulation of this past for present-day political purposes.
  (5) Social tensions, particularly those associated with the arrival 
of immigrant groups with unfamiliar religions, which can contribute to 
a sense that the minority religion is challenging the state's or the 
dominant religion's control
  (6) Absence of dialogue between those espousing different religions 
or beliefs
  (7) The pursuit of power. As we have seen in so many post-cold-war 
conflicts, leaders often use or attack religion to justify their own 
effort to obtain power and wealth, and to repress others for reasons 
that have little to do with differences in religious belief

            II. Making Sanctions an Effective Tool of Policy

    The broad scope and complexity of the causes of religious 
persecution, as well as the close interrelationship of curtailment of 
religious freedoms with repression of other human rights, suggest that 
a broad and flexible strategy is needed for effective response. We have 
previously identified a ten-point plan for preventing persecution of 
religion abroad, appended to this statement, that incorporates our 
recommendations as to the elements of such a strategy. I submitted this 
plan to the State Department last year for consideration by the 
Secretary of State's Advisory Panel on Religious Freedom Abroad.
    As the plan reflects, sanctions are a key tool of US foreign 
policy, but they should not be the sole substitute for a broader and 
focused policy response. In the 1990s, sanctions have been employed 
with increasing frequency; one study reminds us that the US has 
employed sanctions more since 1993 than in all the prior years of this 
century. It is our view that US sanctions should be designed to fit the 
specific policy objectives of specific cases. They are most effective 
when they are part of a policy response, not an alternative to one.
    Many support sanctions because the imposition of sanctions 
registers disapproval and disassociates the US from atrocious acts. 
Sanctions also demonstrate the credibility of the international norms 
that have been breached, thereby backing up rhetoric with action. 
Imposing sanctions is aimed at punishing abuser countries. But this is 
not enough: properly conceived and devised, sanctions can also have a 
preventive function. If used early enough, they can prevent the 
deterioration of a situation into violence or warfare. It is therefore 
useful to think of sanctions less as punishment than as a non-violent 
deterrent which can serve as an alternative to the use of military 
force. They also offer the added value of being a policy response that 
the American public and Congress generally support (when they have been 
imposed, the congressional votes are usually overwhelming). Unilateral 
sanctions can be imposed relatively easily--by national governments 
acting alone, which is relatively easy to do particularly by comparison 
with multilateral sanctions. It is also true that some sanctions--
especially individual financial sanctions--can be fine-tuned and 
targeted at the perpetrators themselves. Not only do they embarrass 
perpetrators of human rights abuses, but they press for changes in the 
behavior of state authorities which may well limit their action 
immediately or in the future. Thus, one of the most important values of 
sanctions is that they place the responsibility for improvement 
directly on the perpetrators.
    But there are numerous critics of sanctions who question their 
effectiveness and the process by which they established. This subject 
has received considerable attention here in the Senate, as well as in 
the House of Representatives. Opponents of sanctions argue that they 
don't work, that they are a long term, not a short term, instrument. 
And while they may be aimed at perpetrators, it is argued, sanctions 
can be blunt instruments that harm innocent citizens instead of the 
perpetrators. Some say that sanctions are imposed too early, when other 
tools--like diplomatic representations, public criticism, and other 
measures--could still work. Because they are often punitive, and likely 
to be rejected by the target state, we often hear that sanctions can 
undermine US competitiveness and economic security, thereby harming our 
own nation. They can be costly not only in terms of lost business, it 
is said, but also costly if the legal and operational structures to 
impose sanctions quickly and effectively have to be established from 
scratch. At present, multilateral structures to enforce sanctions are 
weak or don't exist, and national ones need further improvement, too. 
Finally, sanctions are hard to remove. Some of the members of this body 
have been encouraging a process to ensure an independent assessment on 
the likely effectiveness of particular kinds of sanctions before they 
are imposed
    We do not take such a dim view of the efficacy of sanctions, but 
neither is it the case that they are always the most appropriate 
measure. The impact of sanctions often varies with the specific 
situation. Among the key factors are the degree of dependence between 
the countries involved, whether the sanctions are unilateral or 
multilateral, whether they are targeted on a government or private 
businesses within a country, whether retaliation is likely and whether 
alternatives to sanctions are available and have been tried or not. 
Sanctions are not a substitute for active diplomacy nor for policy; but 
when the abuses are egregious and when other aspects of policy fail to 
change this, sanctions must be an active part of American foreign 
policy that members of the legislative and executive branches should 
have the discretion to use when necessary.
    In this connection, we note that automatic sanctions applicable to 
every country in the world-deemed a ``one size fits all'' approach--do 
not, in the case of religious persecution, offer the best approach for 
rewarding compliance by individual governments with the norms we are 
often seeking to uphold in our diplomatic efforts. As indicated 
earlier, the causes of religious intolerance and repression are many 
and complex. Our capacity to address them should be no less 
sophisticated and multi-layered.

              III. The International Religious Freedom Act

    Over the past year, the Wolf-Specter bill (the Freedom from 
Religious Persecution Act, S. 772), introduced in June 1997 and passed 
by the House of Representatives last month, brought much-needed 
attention to and action on behalf of the plight of untold numbers of 
people around the globe who are suffering because of their religious 
beliefs. More recently, an alternative initiative directed to this 
crucial problem has been introduced, the Nickles-Mack-Lieberman bill, 
titled the International Religious Freedom Act (S. 1868). It is the 
latter bill that is the focus of my remarks today. We strongly support 
the policy objectives of the bill:

  <bullet> to condemn religious persecution and to promote and assist 
        other governments in advancing the right to religious freedom;
  <bullet> to channel US security and development assistance away from 
        governments that engage in violations of human rights, 
        including religious freedom, and towards those who respect it;
  <bullet> to be vigorous and flexible in an effort to reflect our 
        deeply held principles but to produce the most effective and 
        principled response, given the diversity of behavior, 
        violations. and the status of US relations with any country;
  <bullet> to advance multilateral norms and initiatives to combat 
        religious persecution abroad; and
  <bullet> to use and implement appropriate tools in the foreign policy 
        apparatus to this end--diplomatic, political, commercial, 
        charitable, educational, and cultural.

    In the view of the American Jewish Committee, the International 
Religious Freedom Act offers the promise of genuine efficacy in 
combating religious persecution, and meets the conditions we have set 
out above for sanctions: it promotes a flexible approach to sanctions 
and it allows for policy responses that are country-specific and 
situation-specific. We have argued for some time for a menu of 
calibrated and discretionary sanctions instead of the automatic 
sanctions provided in Wolf-Specter. This stems from our analysis both 
of the causes and practices of religious repression, and from our long-
standing experience with respect to efforts to correct such behavior.
    The Nickles-Mack bill provides for a sophisticated and calibrated 
menu of sanctions in response to findings that countries conduct 
religious persecution and/or gross violations of human rights. Sixteen 
different forms of executive action or economic sanction are offered 
for any country identified to be engaging in or tolerating religious 
persecution. The President is mandated to take the action or actions 
that most appropriately respond to the nature and severity of the 
religious persecution, and to seek to target action as narrowly as 
practicable with respect to the agency, foreign government or specific 
individuals responsible, and to make reasonable efforts to conclude 
agreements on ending such persecution. In addition, provision is made 
for presidential waivers, and a process of consultation and negotiation 
makes it less likely that a country will be designated as engaged in 
widespread and ongoing abusive practices in a situation where that 
finding is unwarranted. The bill allows for consultation with the 
community of believers most affected by the repression, and hence, the 
flexibility to utilize the means deemed most effective and least likely 
to provoke further harm to those who are already its victims.
    We also commend the Nickles-Mack bill's incorporation of a 
definition of acts of religious persecution that follows in important 
respects the definitions of freedom of religion and belief currently 
found in both international and US law. The broad definitions of 
religious persecution and gross violations of religious freedom in 
Nickles-Mack are more likely to include the kind of repression that 
affects religious communities worldwide. It is important that the 
definition adopted in this legislation not weaken the international 
standard on religious freedom which the US government and non-
governmental organizations have worked so hard to establish and 
maintain--despite severe opposition--in international instruments and 
forums. At the least, the definition should not exclude practices and 
acts perpetrated against Jews and other communities of faith that have 
in the past been understood to constitute persecution (e.g., preventing 
religious believers from forming congregations or worshipping together; 
denying employment, social services, health care or access to 
education, or ownership of property; forbidding the right to leave, to 
marry, to inherit or to educate one's children; perpetrating hate 
crimes and destruction of property, etc.). Such practices have led to 
violent conflicts and even genocide. They are often the first 
harbingers of persecution of communities of faith. If we are serious 
about combating religious persecution abroad, and about preventing even 
worse atrocities, these practices and acts should be addressed by this 
bill.
    However, we do have a number of concerns with respect to the 
definitions set forth in the bill, its requirements of duplicative 
reporting, and the creation of a more elaborate bureaucracy that is not 
linked to and aimed at strengthening existing human rights machinery in 
our government.
    Nickles-Mack would create new government offices and high level 
posts subject to Senate confirmation to monitor and report on religious 
persecution worldwide. It requires separate reports on countries, with 
sanctions required for countries that are determined to be engaged 
directly in religious persecution (which, as defined, can consist of 
single acts or violations) or for governments inactive in discouraging 
it. The bill also requires overall improvement in State Department 
reporting on religious persecution in the annual human rights country 
reports, changes in INS training and handling of religious asylum 
claims, and a wide array of other educational, training, and reporting 
measures.
    We welcome the determination these measures signal: to make the US 
government pay attention to egregious practices of religious 
intolerance. But we are concerned that the new bureaucracy to be 
created would duplicate rather than strengthen existing policy bodies, 
particularly those in the human rights field. Moreover, it could 
isolate the religious persecution monitoring programs from the 
information-gathering and diplomatic apparatus of the State Department. 
As indicated earlier, evidence shows that religious persecution 
commonly takes place when there are other human rights abuses. Better 
integration of the new apparatus into existing policy structures would 
do more to provide early warning and prevention of religious repression 
than its isolation.
    In addition, the International Religious Freedom Act would create 
new posts in both the Department of State (an ambassador-at-large 
requiring Senate confirmation) and the National Security Council, 
including a 2-year, 6-person Commission on International Religious 
Persecution, replacing or supplementing the current Advisory Committee. 
But the new positions in the State Department would not be formally 
connected to the Bureau of Democracy, Human Rights, and Labor. We 
believe that further attention should be given to linking them clearly 
so that this combined machinery would be more effective within the 
government. We remain concerned about creating an isolated and possibly 
competing mini-bureaucracy on religious freedom issues; it is our view 
that this must be linked to the machinery focused on protection of all 
human rights. We are concerned that the machinery proposed in Nickles-
Mack not only duplicates but also challenges (rather than reinforces or 
strengthens) human rights structures within State created 20 years ago 
and those in the White House/NSC. If the aim is to strengthen the 
consideration of human rights and religious freedom issues by the US 
government in its foreign policy, then this function should be 
incorporated within the existing structures which are already engaged 
in monitoring, reporting and other activities related to ending 
religious persecution worldwide. We have noted with regret that the 
Human Rights Bureau in State is now the smallest Bureau in the 
Department and is smaller even than the Protocol Office. If we want to 
be effective in stopping religious repression, that is simply wrong.
    The Nickles-Mack bill requires multiple reports and determinations 
of which countries are religious persecutors and/or gross violators by 
the new machinery, with the reference to gross violators suggesting a 
series on ongoing egregious forms of religious intolerance.
    The Nickles-Mack bill has a number of other provisions about which 
we have concerns. Most prominent among these are its two-tiered 
definitions. The definitions in the Nickles-Mack bill commendably 
encompass more forms of religious intolerance than Wolf-Specter. 
However, the Nickles-Mack bill uses the term ``gross violations'' to 
refer to egregious acts which we understand would normally be termed 
persecution, and the term ``persecution'' to refer to ``any'' act or 
violation. The terminology seems to be reversed: persecution normally 
refers to widespread and ongoing patterns of activity, while violations 
usually refer to separate acts. Moreover, the term ``persecution'' is 
widely used to trigger provision of asylum for would-be refugees and it 
would undoubtedly complicate our asylum policies to use it to refer to 
individual acts. \1\
---------------------------------------------------------------------------
    \1\ The reference to asylum policy brings to the fore another issue 
that should be mentioned in light of the commendable concern for 
victims of religious persecution that the Wolf-Specter and Nickles-
Mack-Lieberman initiatives reflect. A scant two years ago, the Congress 
enacted ``expedited exclusion'' provisions that will inevitably result 
(if they have not already done so) in this nation's returning persons 
with meritorious claims for asylum to nations of origin where they face 
death, torture or other grievous harm. That awful possibility 
confronts, of course, those who flee persecution of any type, not just 
victims of religious persecution. We urge the Congress to seek an early 
opportunity to provide for an across-the-board elimination, or at least 
substantial modification, of expedited exclusion.
---------------------------------------------------------------------------
    We commend the authors of the bill for making this definition broad 
enough so that it is not limited merely to government action. The bill 
recognizes (in Sec.102 (b)(1)(ii)) that other actors, including 
religious communities themselves, may carry out acts of violence or 
repression against other such communities which differ from them, and 
that government inaction in the face of such incidents is itself an 
egregious act. Whether it constitutes complicity is one of the issues 
that those compiling the reports will have to study. We know too well 
from our own history that silence in the face of such repressive acts 
is never acceptable.
    The implications, however, of the reversal of normal terminology 
regarding the definitions of ``violations'' and ``persecution'' in the 
Nickles-Mack bill raise some serious and real concerns, both in policy 
and administration. Section 401(b) requires that the President ``shall 
take one or more of the actions'' designated as sanctions in Sec. 
405(a) for each country identified in the mandated Annual Report on 
Religious Persecution as engaging or tolerating acts of religious 
``persecution.'' Yet nearly every country--including our own--may have 
some individual instances in which there are abuses of the right to 
freedom of religion or belief of one or more of its citizens, and these 
may be met with inaction by the government. Unless the definition of 
sanctionable cases is modified, the bill may well mandate US officials 
to make private demarches or public statements in a vast number of 
individual cases (which are termed ``persecution'' in Nickles-Mack). 
While this may be desirable in the abstract, it may so dominate the 
human resources available to the Department of State and other US 
officials as to become administratively unwieldy. Therefore, we would 
encourage a technical review of the use of the definitions and terms 
describing repressive acts related to religious freedom in the bill. 
This could include consideration of whether there should be a threshold 
established for the requirement that one or more of the flexible menu 
of sanctions must be applied for individual incidents. This would not, 
of course, preclude the possibility that the President and US 
diplomatic officials could still be encouraged to make private or 
public demarches and representations regarding individual incidents, 
but merely modify the requirement that they must do so in each 
instance. This reflects both matters of definition and of sheer volume 
of cases requiring independent action by US officials under this bill.
    In its initial list of findings, the Nickles-Mack bill begins with 
an appropriate series of references to and citations of the universal 
norms on freedom of religion in the UN Charter, the Universal 
Declaration of Human Rights, the International Covenants on Human 
Rights and various regional instruments. However, two technical details 
appear to have been omitted. First, the bill omits mentioning norms on 
religious freedom included in the regional human rights instruments of 
the Organization of African Unity and the Organization of American 
States, which should be referenced because they further demonstrate the 
universality of freedom of thought, religion, and belief. And Section 
2(a)(3), which outlines the elements of religious freedom cited in 
Article 18 of the International Covenant on Civil and Political Rights, 
to which the United States is a party, states that ``Religious freedom 
is a fundamental right of every individual, regardless of race, 
country, creed or nationality. . . .''
    Both the Covenant and the Universal Declaration (like the UN 
Charter and other instruments) also identify sex as one of the factors 
which must not be disregarded in ensuring that ``everyone'' shall have 
the freedoms cited. It would be helpful to correct this error by adding 
``sex'' to the list cited in Section 2(a)(3). We believe it is 
important to signal that ``everyone'' means everyone. Every individual, 
in every country in the world, has the right to practice his or her 
religion, alone or in the community of others, in public or in private, 
and to manifest it.
    Finally, on the positive side, the Nickles bill provides for 
consultation with the communities of believers under threat, so that 
the sanctions, if imposed, will not create more problems on the ground 
if those most directly affected by them are opposed to them. But it is 
ironic that it provides for this kind of consultation abroad, but does 
not appear to provide for it within the US government and the State 
Department in particular. Some of the lines of authority within the US 
government need to be clarified, beginning with the relationship of the 
Ambassadorial-level post to the human rights bureau.

             IV. Conclusion--Is This Bill Really Necessary?

    The foregoing comments should not be viewed as mitigating from our 
view that the Nickles-Mack bill is a preferred form of legislation in 
the area of religious freedom. Because of the sophisticated menu of 
choices offered, clearly linking and integrating the pursuit of an end 
to religious persecution to overall U.S. policy, it is well constructed 
and calculated to achieve the goals of helping repressed communities 
abroad.
    We believe the net result of the Nickles bill, with some of the 
changes outlined above, would be a better integration of concern about 
religious persecution as an aim in US foreign policy, and result in a 
better outcome in preventing and putting an end to religious repression 
in at least some instances.
    This Committee has already heard from Assistant Secretary of State 
for Democracy, Human Rights, and Labor John Shattuck on the bill and 
there are voices in the Administration (and in the Congress) that argue 
that neither Nickles-Mack nor Wolf-Specter is necessary, that the 
Administration already has the authority to do what is necessary. We 
note, and appreciate that, through the creation of an advisory 
committee on religious persecution, the issuing of specialized country 
reports, and the instructions issued to diplomatic posts and promises 
made in public by the Secretary of State to create an office on 
religious persecution, the Clinton Administration has treated the issue 
of promoting religious freedom abroad with more seriousness than its 
predecessors. No prior Administration, Democratic or Republican, has 
done as much to heighten attention to this issue overall.
    But we are not satisfied that the views and directives of the 
Administration leadership have changed the way the government 
bureaucracy--from the State Department to Commerce, from the National 
Security Council to the Department of Labor, from the Bureau of East 
Asian Affairs to the Bureau of African Affairs and elsewhere--addresses 
and takes action abroad to prevent and protect against religious 
intolerance and violent acts that stem from it. Our experience with the 
human rights legislation adopted by the Congress--over the objections 
of past Administrations--demonstrates that it is essential to make 
officials at the working level, at diplomatic posts abroad, as well as 
right here in Washington, aware of the problems posed by this kind of 
prejudice and bigotry, and the threat to stability, peace and security 
posed by such abuses. Our goal is to make American policy more 
effective. We believe the Nickles-Mack-Lieberman bill has the right 
approach. It is calibrated, can be situation-specific, offers 
flexibility in its application and imposition, but forces American 
policy makers and officials to ask questions, confront the facts, and 
explore realistic options available to them. A review of our experience 
with the Soviet Jewry movement reveals that US action on religious 
persecution can succeed when the efforts are integrated within existing 
structures and offer flexibility in its application. This offers 
lessons for our consideration of the International Religious Freedom 
Act today.
    In sum, Mr. Chairman, we are convinced it would be helpful to have 
legislation that focuses attention on this real area of need and that, 
with the changes we have recommended, has the potential to make a real 
difference. Americans should not be hesitant about speaking out in 
support of persecuted religious groups. Neither should we be reluctant 
to speak to other human rights abuses that affect those groups and 
societies every day. We believe America can and must lead--and that to 
do so it needs the support, infrastructure, commitment, and means to do 
so. We look to you and this Committee to achieve those ends.

                               Attachment

     The American Jewish Committee's Ten-Point Plan for Preventing 
                     Persecution of Religion Abroad

 presented to the secretary of state's advisory committee on religious 
                     persecution abroad, july, 1997
(1) Strengthen the universality of all human rights norms, including 
        those affirming religious freedom.
    Strengthening universality can give the United States a much more 
powerful bilateral tool with which to combat flouting of religious 
norms. The more the international community stresses the universality 
of human rights, particularly through the UN, regional organizations 
and through a wide variety of other governmental actions, the harder it 
becomes for violator governments to argue that their actions are 
justified or that they are being singled out for criticism. Often, the 
same countries whose present governments complain about the norms being 
``foreign'' were participants in the drafting and adoption of the norms 
and voted in favor of them.
    Strengthening universality requires, among other items:

  <bullet> affirmation that religious freedom applies to all and the 
        standards cannot be different for different religions or 
        different countries;
  <bullet> an expert presence at international human rights sessions at 
        the UN and the ability to use that presence effectively to 
        preserve and extend protections of the elements of freedom of 
        thought, conscience, religion and belief;
  <bullet> year-round attentiveness to monitoring human rights 
        violations worldwide that affect religious believers and 
        communities of believers;
  <bullet> stronger capacity within the State Department to monitor, 
        report on and make policy recommendations to advance religious 
        freedom for all worldwide.

    Strengthening universality also implies greater support for 
building up the capacity of human rights monitoring groups within 
countries themselves to hold governments accountable for their actions 
that abuse human rights, including religious freedoms. There is an 
opportunity to use the Agency for International Development (AID) and 
the National Endowment for Democracy (NED) more effectively to promote 
this capacity and to ensure that freedom of religion is something that 
is routinely monitored by these and other groups..
(2) Go country-specific and situation-specific
    Human rights organizations have demonstrated that initiatives that 
``name names'', and focus on (and embarrass and/or punish) specific 
countries are the most effective in changing a government's behavior 
when the government itself is in a position to turn on or turn off the 
repression. In situations where the government finds itself (or argues 
that it is) unable to do anything to stop the violence or repression, 
embarrassment and punishment alone may not work. In such cases, more 
carefully calibrated policies are needed to encourage officials to take 
active measures to stop or prosecute those responsible. The goal of 
trying to bring about effective change should always be at the 
forefront of such country-specific actions.

  <bullet> Enlist Congressional oversight powers to ensure that 
        existing US policy on human rights and religious freedom is 
        better implemented. Ask to see how the US government's policies 
        on ``human rights as a pillar of US foreign policy'' are 
        operationalized--region by region and country by country. Ask 
        for regional Assistant Secretaries to testify to the committee 
        on how their regions. It would be useful to form county task 
        forces to which other experts could be added and invited.
(3) Be there: Get the facts, analyze the situation and convey concern 
        over religious persecution when it exists
    The key to effective and credible human rights activism is the 
identification and verification of relevant information: in short, 
fact-finding.

  <bullet> Beef up the capacity of international bodies and specialists 
        to monitor and report on violations of religious freedom and 
        related human rights abuses.
  <bullet> Support the capacity of the UN Special Rapporteur on 
        Religious Intolerance and the High Commissioner to carry out 
        efforts to report fully and credibly and to take measures to 
        prevent religious persecution.
(4) At every US embassy abroad, beef up the ``field'' presence and 
        expertise in identifying early signs of religious persecution, 
        preventing it and promoting religious freedom
    There is a great need to improve the training of US diplomats, 
including political appointees such as ambassadors, on human rights 
including freedom of religion and belief with a special emphasis on 
improved fact-finding, reporting, consultations, and diplomatic 
activities while posted abroad. The Administration has begun to take 
steps in this direction. Early experiences with human rights monitoring 
by the US government have demonstrated the magnitude of the task of 
sensitizing US foreign service officials and other diplomats serving 
abroad on these matters. Efforts in recent years to improve monitoring 
and reporting on discrimination against women and abridgment of labor 
rights in the country reports should be emulated in the area of 
religious freedom.
(5) Strengthen existing Human Rights Institutions
    The UN's first Special Rapporteur on Religious Intolerance, Angelo 
d'Almedia Ribeiro (Portugal), concluded that religious freedom is so 
interrelated with other freedoms (e.g., freedom of association, 
assembly, speech, etc.) that the best guarantee of eradicating it is 
building effective institutions for democracy, rule of law and socio-
economic measures that remove inequalities. In this way, we can 
directly address the root causes of the inter-denominational conflicts 
at the same time as we build institutions that can hold those 
responsible to account.
            (A) Strengthen the Bureau of Human Rights, Democracy and 
                    Labor (DRL)
    The Bureau of Democracy, Human Rights and Labor in the Dept. of 
State is presently the smallest Bureau in the Department--smaller than 
the Protocol office. It is facing further cutbacks. Rather than bypass 
or weaken these key institutions, built up over the past two decades, 
those seeking to prevent and stop religious persecution should favor an 
increase in the number of personnel and expertise on religious freedom 
on the DRL Bureau's staff. For this reason, any senior official, such 
as the proposed Ambassador-at-Large for Religious Freedom, should be 
attached to the human rights bureau and report through its Assistant 
Secretary.
            (B) Strengthen development of means of accountability: 
                    finding ways to hold perpetrators of abuses 
                    accountable within their own societies, and if that 
                    does not work, ensure there is an appropriate 
                    international forum
    There are two promising ways to achieve this:
            (C) Strengthening national institutions
    If those responsible for perpetrating abuses of religious freedom 
are to be held to account, there must be national institutions capable 
of acting effectively, not standing idle. Government officials, police, 
and courts all need to be strengthened and made more effective and 
credible. Current foreign aid projects to build respect for the rule of 
law and ensure accountability within countries are inadequate and will 
need substantial strengthening.
            (D) Creating an International Criminal Court to hold 
                    perpetrators of genocide and related persecution 
                    accountable when national courts are ineffective or 
                    unavailable
    Such an entity would expand upon the UN tribunals created for 
former Yugoslavia and Rwanda. Discussions of the scope and nature of 
such a Court are under way at the UN. The Convention against Genocide 
(to which the US is a party) calls for a court to punish those 
responsible for genocide, which includes destruction (or intent to 
destroy) the members of a group in whole or in part. Persecution 
against religious groups may fit such a category
(6) Encourage inter religious contacts while maintaining stronger 
        contacts with communities of faith within a country
    International contacts as well as presence in countries of concern 
can serve as protection for those at risk of persecution and 
beleaguered communities. In addition, human rights advocates have found 
that it is essential to consult wherever possible with those in the 
country concerned who are leading efforts to defend freedoms there. 
Their views as to what helps and harms them should be given major 
consideration.
(7) Promote specialized education at home and abroad about human rights 
        and religious freedom
    Community organizations and the US government should use the 50th 
anniversary of the Universal Declaration of Human Rights this year as 
an opportunity to educate Americans and others about human rights, 
including religious freedom, and to raise the profile of these issues. 
We are pleased to point out that a community action guide, entitled 
``In Your Hands,'' prepared by our Jacob Blaustein Institute for use 
nationwide during the 50th anniversary, contains a substantial section 
on religious persecution with activities every American can take to 
learn about and work to end such behavior.
(8) Speak out and lead new initiatives wherever possible
    At summit meetings, and other high-level encounters, the US should 
expend greater effort should to put religious freedom and other human 
rights into a position of prominence. At ordinary sessions of the UN 
Commission on Human Rights, the General Assembly and other 
international bodies, it is important that the US always speak out 
against incitement to hatred. On such issues, the US is often the only 
country that will do so; its leadership is truly indispensable to 
bringing others to speak out as well.
    At summit meetings and diplomatic events, the US should speak out 
for the values of freedom and human rights, including religious 
freedom. Such speeches must not be limited to our shores, but repeated 
and affirmed abroad by our highest leaders. The US should make it clear 
that these are universal rights, not just American concerns.
(9) Work with new constituencies and build bridges
    One of the great lessons of the Soviet Jewry movement, as well as 
the human rights movement itself has been the importance of broadening 
support for ending human rights abuses, and working in coalition with 
other civic groups. Concern about religious persecution should not be 
the concern only of faith-based organizations. Among the constituencies 
that should be enlisted in these efforts are women's organizations, 
human rights groups, religious communities, business activists, and 
other local constituencies.
(10) Review and revise asylum procedures to make them more fair
    For instance, it would be important to fix the country profiles 
given to USINR interview officers and other personnel. Too often these 
emphasize possible grounds to deny asylum rather than to understand the 
problems faced by persecuted communities
    Steps should also be taken to end the summary exclusion 
proceeding--for all.

                               __________

            Prepared Statement of the Rev. Dr. John N. Akers

    Mr. Chairman, distinguished members of the Senate Foreign Relations 
Committee, and friends.
    Thank you very much for the opportunity to appear before you today 
in connection with the proposed ``International Religious Freedom Act 
of 1998.'' American organizations which are involved in religious and 
humanitarian service in other countries have an enormous stake in this 
issue, and I am grateful you have invited some of us who represent 
mission agencies to participate in this hearing.
    Currently over 170,000 Americans, representing over 800 
denominational and nondenominational agencies, are involved in some 
type of religious work overseas. Their work runs the gamut from 
evangelism and church planting, to schools, hospitals, disaster relief, 
agricultural and other development projects, and other kinds of 
humanitarian aid.
    Let me be clear: Religious persecution is abhorrent to all of us, 
and any country which consistently practices it cannot expect to be 
accepted within the circle of civilized nations. Many mission agencies 
face this problem almost daily, and yet for too long religious 
persecution has been overlooked in discussions about human rights. We 
therefore welcome the recent attention which has been given to the 
problem of religious persecution, and we thank you for your concern.
    Like other mission agencies, the organization I represent today--
East Gates Ministries International--is a nonprofit, non-political 
religious agency. It is not my intention, therefore, to speak about the 
possible political or economic repercussions of this bill. Nor am I 
equipped to give a point-by-point analysis of the proposed Bill. I am 
sure you will be studying carefully the thoughtful suggestions others 
have made.
    Instead, today I would like to bring to your attention two concerns 
we have--what I might call two benchmarks, against which I believe any 
final version of this bill should be measured. I hope you will keep 
these two concerns before you as the Bill is debated.
    First, we believe the final version of any bill on religious 
persecution must take into account its potential impact on the work of 
American mission organizations.
    Many American mission agencies work in what are frankly difficult 
circumstances, including societies where there may be discrimination or 
even persecution against religious minorities. Often they are able to 
continue their work only because they have learned to stay clear of 
political involvements, and to demonstrate that they are working for 
the betterment of that society and its people.
    If, however, the United States were to impose (for example) 
automatic, harsh sanctions without exception against every society 
judged to practice religious discrimination, almost certainly some 
governments would react with immediate reprisals against American 
mission organizations. In extreme cases they would be banned from 
continuing their work, and their personnel might be in serious danger. 
I trust you will always keep this concern in mind.
    Second, we believe the final version of any bill on religious 
persecution must take into account its probable impact on the religious 
believers it seeks to help. The old adage of Hippocrates applies here 
as well: First, do thy patient no harm.
    The point is this: In some societies, stringent and thoughtless 
measures by the United States could actually make the situation worse 
for believers, rather than better. Religious persecution is usually a 
far more complex issue than we are willing to admit. As a church leader 
from one Asian country said to me, ``If my government concludes we 
Christians are the cause of bad relations between our two countries, it 
will only make life more difficult for us.''
    Please permit me to add a word of background here. One question 
that is often overlooked is this: Why are people persecuted for their 
faith?
    There are many answers to that question, of course. At the root of 
most persecution, however, is the perception that a minority religious 
group is different, and that they are therefore a threat to the 
established social or political order.
    Anything which magnifies that perception of differentness, 
therefore, usually only makes things worse. This is precisely why it is 
so difficult for a foreign government (such as ours) to single out a 
particular religious group for attention. Doing so may actually 
heighten its perception of differentness by their surrounding society, 
thus making them the focal point of greater antagonism and 
discrimination.
    The bottom line is this: As you consider this bill, please remember 
that each country and each case of persecution is different. In our 
view, a ``one size fits all'' approach is dangerous, and will end up 
hurting religious minorities in some countries, not helping them. Any 
bill must avoid inadvertently hurting those it seeks to help.
    In asking you to remember the potential impact of a religious 
persecution bill on both American mission agencies and on foreign 
believers, I do not mean to imply that I am opposed to the specific 
bill that is before this Committee. That is not the case. This bill's 
measured approach to the subject, and its wide range of responses to 
instances of religious discrimination, are significant contributions to 
the legislative debate about this issue.
    However, in light of the two concerns I have outlined, let me 
respectfully suggest four possible additions to the present bill for 
your consideration.
    First, we urge that the bill explicitly require multilateral 
consultations and actions wherever possible. Aside from the obvious 
advantage of bringing the moral weight of the international community 
to bear against gross acts of religious persecution a multilateral 
approach could also help minimize the impact on American mission 
agencies, which might otherwise be singled out for reprisals.
    Second, we suggest that consideration be given to placing a time 
limit on the Act. Let me be honest: Many of us who are involved in 
foreign missionary activity admittedly become very nervous whenever any 
governments become involved in religious matters that affect us. We 
know that this can lead to unforeseen problems. Requiring the Act to be 
renewed periodically would give all of us a better opportunity to spot 
any problems it might be inadvertently causing, including problems for 
mission agencies or indigenous believers.
    Third, we urge that the Bill explicitly require those involved in 
its implementation to take into account not only the immediate 
religious situation in a specific country, but also the overall trend. 
This can work both ways. Some countries may be making a good faith 
effort to reverse their past policies of religious discrimination, and 
this should be rewarded. Others may be taking the first steps toward 
more onerous policies, and these need to be spotted and acted upon.
    Finally, we urge the Committee to write into the Bill as many 
safeguards as possible to avoid politicizing this issue. I do not 
pretend to know the exact formula for accomplishing this; I know some 
have suggested that strengthening the role of the Department of State 
might help. I do know, however, that an annual squabble between the 
President and the Congress over specific instances of religious 
persecution will hurt those of us who serve in other countries, and 
will also hurt the cause of religious freedom in some countries. I hope 
you will do everything you can to keep that from happening.
    Again, I thank you for your concern for this subject, and for your 
kind attention to these comments. \1\
---------------------------------------------------------------------------
    \1\ East Gates Ministries International (with offices in Seattle, 
Hong Kong and Shanghai) works openly with both the officially 
recognized and unofficial churches of the people's Republic of China, 
to assist them with legally-printed Bibles, literature, leadership 
training, and other resources. East Gates is headed by the Rev. Nelson 
Graham, son of Dr. and Mrs. Billy Graham.

---------------------------------------------------------------------------
                               __________

              Prepared Statement of Dr. William R. O'Brien

Introduction
    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before your committee today. I am William R. 
O'Brien, Director of the Global Center at Samford University in 
Birmingham, Alabama. I have been in this position since March 1991. 
Prior to that, I served in administrative staff positions from 1976 at 
the Foreign Mission Board, Southern Baptist Convention, including 
Executive Vice President from 1980 to 1989, and Director of Public 
Affairs and the Global Desk from 1989 to 1991. My family and I served 
as Southern Baptist missionaries in Indonesia from 1963 to 1971. 
Currently my wife, Dellanna, is Executive Director of Woman's 
Missionary Union, Auxiliary to the Southern Baptist Convention. WMU is 
the largest women and girls' organization in America, with 
approximately one million members.The organization stays abreast of 
domestic and international realities in order to provide solid missions 
education for local churches, and promotion of national offerings in 
support of Southern Baptist missions at home and abroad. In its 110 
year history, WMU has successfully raised about $2 billion dollars for 
world missions.
    In addition to almost twenty-seven years service through the 
Foreign Mission Board, I bring several years of international 
involvement through the Pacific Rim Think Tank of International Urban 
Associates, Plowshares Institute (a ministry wholly committed to 
conflict management and empowering for reconciliation with justice), 
Evangelicals for Middle East Understanding, the Russian/American Logos 
Group (founding body of a Christian Music Conservatory and Cultural 
Center in Moscow), and co-chair of a task-force serving the Birmingham 
Civil Rights Institute.
The Reality of Religious Persecution
    I am deeply grateful for the focus on religious persecution in both 
the House and the Senate of our United States Congress. The initiatives 
of Senators Nickles, Lieberman and others in the Senate, and 
Congressmen Wolf and Specter in the House serve to both ratchet up our 
concern while attempting to provide legislative measures through which 
we can, in partnership with other concerned states, influence change in 
those areas of proven violation of religious liberty and human rights. 
Such efforts help to overcome any malaise and apathy within our own 
press and other media that may contribute to both ignorance and 
insensitivity of the American people. While religious persecution per 
se in many parts of the world is a verifiable reality, persecution of 
Christians too often has not captured the attention of the media or 
politicos in proportion to the depth of the issue. In Their Blood Cries 
Out author Paul Marshall says the story about Christians ``is a story 
that is all but ignored and unknown in the world at large, and little 
better known in the Christian world.'' (Word Publishers, 1997, pg. 4)
    The reality of what has been happening for a long time cannot be 
denied. Documented instances of the persecution of Christians, as well 
as the persecution of adherents of other religions, are available to 
the public through print, Internet access, and contact with numerous 
advocacy groups. (See Appendix A in Their Blood Cries Out.)
The Complexity of Defining Religious Persecution
    Life in general is basically ``messy.'' In spite of attempts to 
neatly categorize our activities and relationships in order to control 
and protect our lives, it never works. For instance, ``sacred'' and 
``secular'' are Siamese twins; attempts to surgically separate them 
usually bring death to one, or both. In attempting to define religious 
persecution so that the perpetrators can be exposed and dealt with, we 
discover a multi-complex braid of culture, ethnicity, economics, 
politics, and religion. Any legislation that calls for concrete and 
pejorative steps must be wisely crafted in order to avoid deeper 
problems on the ground where the conflict exists, as well as a negative 
boomerang effect on the United States.
    My family lived and worked in Indonesia from 1963 until 1971. In 
those years we experienced run-away inflation, an attempted coup d'etat 
in 1965, a bloody massacre over a six-month period following the coup, 
and the initiation of the New Order under the newly installed President 
Suharto. During the six-month ``clean-up operation'' which was carried 
out in the name of crushing the Communist Party, there were instances 
of torture and killing between Javanese and Chinese, Muslims and 
Christians, and neighbor against neighbor. The umbrella motive for the 
operation was political cleansing and stabilizing a sense of 
nationhood. Meanwhile, religious and ethnic factors played a role, 
taking advantage of the larger movement in order to carry out vendettas 
on other levels.
    The same is true when harassment, torture, and persecution on 
religious grounds are carried out. It is often difficult to ferret out 
if this is purely religious persecution, or, are there socio-economic, 
cultural, and/or ethnic motivations mixed in? For instance, some of the 
church burnings in Indonesia in 1996/97 were not all purely based on a 
religious bias. There is a perception that Christians are more 
affluent. Because the ethnic Chinese of Indonesia comprise no more than 
4% of the population and control about 75% of the wealth, and because 
many Chinese are Christians, a general image of Christians often 
carries with it a false perception of affluence that simply is not 
true. Among the churches burned over the past three years, many, if not 
most, would be comprised of very poor congregations. But the clouded 
picture of who Christians are and any advantage they may have 
economically confuses the whole issue. That is not to say that there 
were no burnings based on pure religious conviction, but sometimes the 
picture is too hazy to make categorical declarations.
    Some of the Muslims involved in church burnings in East Java are 
members of the Nahd'atul Ulama Party, the largest Islamic party in the 
country comprised of over 30 million members. In 1996 I co-led a small 
group of theological professors to Indonesia in a saturation immersion 
in the culture. We spent two hours at the Nahd'atul Ulama Party 
headquarters with Mr. Abdurrahman Wahid, chairman of the party, and one 
of the most influential Muslim leaders in Indonesia. Mr. Wahid is a 
religious and political moderate. He related stories about traveling to 
east Java to meet with communities and Christian leaders to explain the 
burnings were not party policy, were not part of the teachings of the 
Koran, and made every attempt to build bridges of understanding for the 
good of the community. These instances reflect the reality of 
uncontrollable persons or groups who act out of their own radicality 
and not based on any state or political policy or backing.
    On the other hand, in the current scene there are small radical 
groups who wreak havoc because of encouragement from sermons in the 
Mosques; rich or poor is not the motivation. And the religious 
harassment now taking place is carried out in a quasi-political vacuum 
during the tense transition of leadership from Mr. Suharto to President 
Habibie. While ABRI (the Indonesian armed forces) have traditionally 
stood together in support of the Pancacila (the foundational document 
of the nation), and opposed any attempt to turn Indonesia into an 
Islamic state, observant Indonesians are noticing a more divided 
military now where many seem to be turning ``Green'' while others are 
still strong supporters of the ``Red and White.'' Given the current 
political climate in Indonesia, the more radical elements of Islam, who 
from 1945 have pushed for the adoption of the Jakarta Charter as the 
basis of law in Indonesia, are once again pushing for an Islamic state. 
The next six to twelve months hold awesome implications for Indonesia 
as a nation, and, therefore, for the region and the world. Depending on 
the political decisions made, which in Indonesia are inextricably 
intertwined with religion, the potential for the exacerbation of 
religious persecution targeting minority Christian groups is very 
sobering. The willingness of some Muslims to sacrifice any existing 
economic framework if that is what it takes to create an Islamic state 
further complicates balancing the national equation.
    The reason I have focused on the Indonesian scene vis-a-vis the 
International Religious Freedom Act of 1998 is not simply because I 
happen to know Indonesia. Indonesia symbolizes the complexity of the 
religion question in most of the non-western societies.
    For instance, in the Middle East there have been recent allegations 
of systemic persecution of Christians by the Palestinian Authority. A 
recent fact-finding trip by scholars and journalists sponsored by 
Evangelicals for Middle East Understanding could not substantiate any 
of the allegations. While there are isolated incidents and tensions 
that mark any culture with majority and minority populations, there was 
no proof of a rising tide of anti-Christian sentiment. Dr. Donald 
Wagner, Executive Director of EMEU, stated in a press release from 
Jerusalem on May 22, 1998 and reissued in Chicago on June 8, 1998, that 
``we found disturbing indications of political motivations behind 
recent publicity about Christian persecution. We deplore efforts by 
anyone to pit people of one faith against those of another religion in 
order to strengthen a political position.''
    From China the West receives very mixed signals about the Three-
Self Patriotic Movement and the China Christian Council (CCC). 
Naysayers give the impression that the CCC is led by either members of 
the Communist Party or they are at least collaborationist and under the 
control of the government. Therefore, the ``underground'' church is the 
only true church comprised of members who are uncompromising. Those who 
know personally the CCC leadership, who have worshiped in many open 
churches, and who have observed the theological training centers have a 
very different impression.
    Background and definitions at this point may be helpful. The Three-
Self Patriotic Movement was formed in 1955 by seven pastors who 
realized crucial changes were taking place in China, and if the church 
was to survive some new initiatives were needed. The movement was 
concerned only about work inside China. During the most critical days 
pastors and believers worshiped in what Westerners would call 
``underground'' churches. The Chinese pastors refer to worshiping only 
with the family or with one or two sets of neighbors. This would occur 
in homes.
    In 1979 the Chinese government recognized five religious entities: 
Buddhists, Taoists, Muslims, Protestants, and Catholics. They did not 
recognize such indigenous movements as Watchman Nee's Little Flock, 
Seventh-Dy Adventists and others. The government views them as cults 
and outside the freedom of religion policies. (However, when some of 
their leaders were once jailed, the leader of the China Christian 
Council and his associate went to Beijng to protest on their behalf. 
The government leaders responded by saying they did not understand the 
difference between ``true Christians'' and ``cults,'' and were willing 
to be taught the difference.)
    With increasing freedom of religious expression over the past 
twenty years there are now 37,000 registered churches and meeting 
places with between 12-15 million members. A registered meeting place 
may lack the ability to pay a pastor or be unable to have a church 
building. There are also unregistered meeting places that cooperate 
with the CCC. We do not know how many unregistered/non-cooperating 
meeting places there are. The estimates of the total number of 
Protestant and Catholic Christians registered and unregistered, vary 
widely. In a land so vast, mixed with cultural characteristics that do 
not place an emphasis on numbers, it is futile to try to verify 
accurately the Christian population of China.
    About 1980 the China Christian Council was formed to work both 
inside and outside of China. Major departments of the Council include 
church, social ministries, theological education, evangelism, lay 
training, and ministries among minorities. When the Amity Foundation, 
with its Amity Press, was formed in the mid-1980s, it came under the 
direction of the CCC. During my tenure at the Foreign Mission Board we 
worked with the CCC in helping to fund the beginning of the Amity 
Foundation Press in Nanjing. Since its inception in the mid-1980s the 
Amity Press has printed and distributed within China 20 million Bibles. 
One can even find Bibles for purchase at the Tass News Agency 
bookstores. Pastors of unregistered churches come to the open churches 
to get their Bibles and hymn books.
    My experience has been that almost anything one reads about in 
China is true; it is happening somewhere. There may be leaders in one 
province who are harassing and imprisoning some unregistered church 
leaders while in the adjacent province there may be a Christian revival 
breaking out. Pastors of unregistered churches invite pastors of open 
churches to preach in their pulpits. Pastors of open churches always 
wait for those invitations. In their position if they attended an 
unregistered church uninvited they may be accused of being spies by the 
people. One pastor in Guangzhou boasts about being pastor of the 
largest underground, or unregistered church in China. The church meets 
on the second floor of a building, immediately above the police 
station. Everything they do is quite open and known by everyone. All of 
this to say there are complexities in all of these situations that 
demand a very studied approach to any applied action.
    During February 1998 three U.S. religious leaders (Jewish, 
Catholic, Evangelical) traveled as a delegation to China to meet with 
Chinese political and religious leaders concerning the issue of 
religious freedom. They noted in their report the transition over the 
past twenty years from a Cultural-Revolution policy of banning all 
religious activity to an allowing and tolerating of organized religious 
activity under the supervision of the Communist Party's United Front 
Work Department. Officials feel this reality reflects the general trend 
to economic reform and greater social openness. All the more reason to 
keep the dialogue open and work from within the Chinese system. It is 
crucial to understand a ``Middle Kingdom'' mindset and culture. 
Friendship and trust earns one a place at the Chinese table.
    To influence change that can bring both relief and ultimately the 
eradication of religious persecution calls for wisdom, patience, and 
cross-cultural collaboration. But that alone is not enough. For any 
captives of an Enlightenment worldview that only embrace a closed 
universe devoid of Ultimate Purpose, it is impossible to understand 
that to wage a battle against religious persecution is to enter a 
different sphere: spiritual warfare where one is not wrestling against 
flesh and blood, but against principalities and powers, in the words of 
St. Paul. Therefore, how best can we accomplish the stated goal of the 
legislative framework before us? How best can we avoid simplistic 
solutions, unilateral actions, and a vacuous pragmatism that could be 
interpreted as an arrogance that perpetrators of persecution repay with 
resistance and more conflict instead of the hoped-for outcome of the 
reduction and eradication of such activity?
Influencing Change
    To build on strengths already present in S.1868 and further craft a 
highly effective instrument for achieving the intended aims of the 
bill, I recommend several considerations:
    1. Build into the mechanism the mandate for the assigned person/
group in the State Department to engage in multilateral dialogue with 
religious and political leaders in all the appropriate nations that can 
produce collaborative insights needed for recommendations to the 
President. In the light of a long history of persecution, appropriate 
and judicious delays due to multilateral engagements will not endanger 
an over-all game plan of intentionality in dealing with this issue. It 
could even allow and encourage the use of focused diplomacy that just 
might provide a breakthrough short of more drastic action.
    2. Sources identified for garnering information on religious 
persecution must be chosen with utmost care. Cross-referencing of 
sources and data is important so as to reduce the potential for reports 
being crafted from either incomplete or biased data. Furthermore, 
gathering data must be done in such a way so as not to jeopardize the 
presence and work of expatriate mission groups and missionaries. From 
my own experience in Indonesia, during the buildup to the coup attempt 
we expatriates were viewed as CIA agents. Such connections in the minds 
of local people undermine the very honest work one is there to do. 
Information gathering and reporting on religious persecution must be 
done in a way that protects it from being suspect as a tool of the 
intelligence service.
    In highly volatile areas such as Indonesia, China, the Middle East, 
to mention a few, examples of reporting through the emotional lenses of 
the source may produce slants that should be measured against other 
reports that may or may not have their own slants. The bill can require 
the Commission or whatever appropriate entity at State to carefully 
design reporting processes that include the emphases mentioned above.
    3. As regarding any possible sanctions, the bill must include steps 
that guarantee the United States, in collaboration with all appropriate 
parties, will not take any action that would produce unintended 
consequences for the very victims we are trying to help. Sanctions and 
discontinuance of aid, especially if done unilaterally, well may evoke 
a reaction from authoritarian regimes that are aimed at the persecuted. 
Christians, and/or any other persecuted religious groups, could bear 
the brunt of the anger of totalitarians or terrorists who react to what 
they perceive and experience as arrogance on the part of a lone ranger 
super power. In fact, the whole issue of sanctions should be an 
absolute last ditch approach, if used at all. The President should call 
for findings that prove sanctions would be useful and serve their 
purposes, while not hurting the people we most want to help. It seems 
to me it would greatly strengthen the President's hand, and give him or 
her much greater flexibility in dealing with those nations engaged in 
continuing patterns of gross violation of religious and human rights if 
most of the work was done in State, within any new Commission, and/or 
any other appropriate apparatus until the need arises for the United 
States to prove its will and commitment through Presidential action.
    4. Given that religious persecution in some form is happening in so 
many nations, the bill must be careful not to paint all of them alike 
with broad brush strokes. Not all persecution is state sponsored or 
endorsed. Not all persecution is carried out by groups while a regime 
either looks on approvingly, or turns its head. Sadly, some persecution 
is Christian against Christian, e.g., Hutus and Tutsis in Rwanda. 
Mechanisms to provide case-by-case analysis should be built in so as to 
deal most appropriately with each situation.
Conclusion
    I am encouraged by the will of this Congress to lift to high 
visibility the reality of severe and gross persecution of Christians 
and persons of other religions at the hands of their perpetrators. I 
encourage all of you to take a strong stand through the forging of 
legislation that is worthy of being related to the same cause that 
calls for commitment unto death from believers who understand the cost 
attached to their faith. As much as lieth within you, guard this effort 
from any appearance of politicization. Martyrs deserve better.

                               __________

                Prepared Statement of Senator Rod Grams

    Mr. Chairman, thank you for holding this hearing today which will 
allow us to hear testimony from religious leaders on the Nickles 
``International Religious Freedom Act." I believe this bill is more 
reasonable than the Wolf-Specter bill, but I still have serious 
concerns, and hop we can work to achieve some needed improvements.
    I am concerned about human rights abuses of all kinds, including 
religious persecution, and believe we should seek ways to address these 
types of injustices. But I strongly believe legislation that imposes 
sanctions or threatens sanctions, especially unilaterally, is 
counterproductive. Such legislation could lead to harm of believers in 
other countries. I believe this legislation could do that, and so do 
many religious leaders in this country and others who have served as 
missionaries abroad. They have accomplished so much to bring more 
religious freedom to the world. So much more progress is needed, but 
should we be the ones to tell them how to accomplish that? Think they 
are wise, and many of them object to this government-as-dictator 
approach that many other countries, I believe, will see as U.S. efforts 
to force out values and religious believes on them. I also believe 
efforts to force progress through sanctions are counterproductive. 
persecution will not stop. Again, believers could be placed in harm's 
way. The affected country will turn to other nations which have not 
sanctioned them. So not only have we not accomplished our purpose, but 
we have harmed U.S. economic interests as well.
    I have been blamed for looking at this solely for the impact this 
legislation would have on trade. That is my secondary concern. My chief 
concern, and one that has repeatedly been brought to my attention by 
many religious leaders, is how effective would list legislation be. 
Would it work, would it help us combat religious persecution and 
promote religious freedom. Quiet diplomacy will do that. So will the 
work of those here before us today. So will the efforts of those who 
have been reached abroad by religious leaders of all faiths. As I often 
say, the most productive changes come from inside a country, from an 
awakened people, not from outside demands.
    I was also struck by a comment by one of the drafters of this 
legislation that there will be few, if any, ``gross violators'' subject 
to sanction. If so, why are we even considering this legislation? Would 
it appear we are doing something, when, in fact, our goals would not be 
accomplished.
    Mr. Chairman, while I thank all of the witnesses for appearing here 
today. I had many requests from religious leaders who sought to 
testify, but I understand how limited our time is. I would just like to 
mention a few of them who are not here, and some of their comments: The 
Rev. Dr. Albert Pennybacker of the National Council of Churches has 
spent a lot to time looking at the issue of religious persecution and 
broadly criticizes the Nickles bill. Bishop Sammy Azariah, Church of 
Pakistan, indicates this bill will ``definitely be misread in other 
lands of the world.'' Dr. Amien Rais, Chairman of Muhamadiyah, 
Indonesia, a Muslim, said ``it is very important for us to distinguish 
between morality of rhetoric and morality of results,'' inferring the 
legislation does not work. Dr. Clifton Kirkpatrick, Clerk of the 
Presbyterian Church, says that this debate is more about politics than 
helping those committed to their faith. Dr. Marian McClure, Director, 
Worldwide Ministries Division of the Presbyterian Church says, ``in 
some contexts Christian churches exist and thrive only to the extent 
that they are able to disassociate themselves from western power.'' In 
fact, that is why many missionaries indicate they oppose legislation 
but prefer not to testify. The American Family Association Network of 
Georgia says ``monitoring religious is not a constitutional function of 
the Federal Government ... this bill increases the size and scope of 
the Federal Government.'' This group prefers an oversight committee in 
Congress on religious persecution.
     According to the New York Times, a Coptic Christian minority 
member of the Egyptian people's Assembly was quoted as saying, ``Those 
who are trying to incite foreigners to interfere in Egypt's internal 
affairs, are, in fact, stabbing Copts in the heart.'' Oliver Thomas of 
the National Council of the Churches of Christ submits a statement 
urging that these human rights abuses are best countered 
multilaterally. Rev. Dr. David Hirano of the United Church Board for 
World Ministries believes unilateral sanctions will not work. he wisely 
reminds us the Bible opposes fighting persecution with persecution. 
Rev. Dr. Riad Jarjour, Rev. Jane Dempsey Douglass, Rev. Randolph 
Nugent, Rev. Dr. Hertsfeld, and Bishop Andrew McKerrick are all well-
known church leaders critical of this legislation. ask that statement 
of some of these leaders be included in the hearing record, Mr. 
Chairman.
    I would like to work with you, Mr. Chairman, and Senators Nickles 
and Lieberman, to further improve this legislation. Such as, the list 
of countries should be classified, for one thing. There should be more 
flexibility in the determination of sanctions and more effort placed on 
a multilateral approach. The waiver authority also needs to be 
broadened, and the congressional disapproval authority narrowed. If we 
must pass legislation in this area, these are essential changes that 
will win more support as well as protect believers in countries labeled 
gross violators. I intend to pursue these changes both in committee and 
on the Floor of the Senate.
    Thank you, again, Mr. Chairman, for holding this hearing. I look 
forward to the testimony here today. I agree with one of our witnesses 
who said, ``silence is not an option.'' But I also believe if we pass 
any legislation we would have confidence it will accomplish our goals. 
But as the Hypocratic oath says: ``First, do no harm.''
    I say that in reference to those who might endure more religious 
persecution because of our actions.

                               __________

 Additional Material Submitted to the Committee for the Hearing Record


        Letter to Hon. Trent Lott, Majority Leader, U.S. Senate

                                              June 16, 1998
The Hon. Trent Lott
United States Senate
Washington, DC 20510
Dear Senator Lott: We are greatly encouraged by the recent actions in 
Congress that demonstrate a growing concern with the rnatter of 
international religious persecution. We were especially heartened by 
the overwheluiing House vote in favor of Representative Frank WoWs 
Freedom from Religious Persecution Act (H.R. 2431).
    We are concerned, however, that the Senate may not make an equally 
serious effort to pass legislation addressing this issue. We are 
particularly disturbed by the role of wealthy corporate interests in 
attempting to prevent these human rights issues from being addressed by 
Congress. Are our leaders willing to play hardball with China on 
Hollywood's pirated CD's and video tapes, but not with governments 
involved in persecuting people of faith? What a travesty if we as a 
nation subordinate our historic stand for freedom and human rights to 
the pursuit of profits.
    As you know, Senator Don Nickles has introduced companion 
legislation in the Senate to deal with this urgent issue. We applaud 
him and his leadership and we urge that you use every means available 
to bring legislation before the Senate for the earliest possible 
consideration. We strongly encourage the Senate to enact sirnilar 
legislation that embodies the principles represented in the Freedom 
from Religious Persecution Act:

  <bullet> Provides for independent and objective fact-finding about 
        religious persecution.
  <bullet> Requires clearly specified and appropriate action against 
        persecuting regimes.
  <bullet> Makes the President accountable to Congress and the American 
        people for the actions he takes in this regard.

    Failure to pass a law that contains these limited principles would 
cause great disillusionment to persecuted religious believers around 
the world. We cannot be silent while people of faith continue to endure 
imprisonment, torture, slavery, and murder. Not to act and act quickiy 
would be a shocking betrayal of America's historic role in the world as 
the great defender of human rights.
    On behalf of persecuted believers around the world, we urge you to 
work expeditiously for the passage of legislation that maintains the 
American tradition of defending freedom and basic human rights.

            Sincerely,

        James C. Dobson,
        Focus on the Family

        Chuck Colson
        Prison Fellowship
Gary L. Bauer,
Family Research Council

Randy Tate,
Christian Coalition

cc: Senator Don Nickles, Senator Jesse Helms, Senator Tim Hutchinson

                               __________

            Material Submitted by The Anti-Defamation League

                            Anti-Defamation League,
                                        New York, NY 10017.
            ADL WELCOMES INTERNATIONAL RELIGIOUS FREEDOM ACT
    New York, NY, June 17, 1998 . . . The Anti-Defamation League (ADL) 
today welcomed the introduction of the International Religious Freedom 
Act (S. 1868) being considered in hearings before the Senate Foreign 
Relations Committee today. The Act would create a framework to promote 
religious freedom internationally and sanction nations engaging in 
brutal forms of religious persecution. The comprehensive system of 
reporting and training of US personnel complements a similar House-
passed measure sponsored by Frank Wolf (R-VA).
    In a letter to bill's lead sponsors Sens. Don Nickles (R-OK) and 
Joseph Lieberman (DCT), Howard P. Berkowitz, ADL National Chairman and 
Abraham H. Foxman, ADL National Director, said the Act would 
``strengthen our nation's hand against oppression and lend hope to 
millions of religious believers.''
    As the Foreign Relations Committee markup of the bill approaches, 
the League is working with sponsors on refinements that would further 
enhance its effectiveness. In light of concern that the measure might 
sanction an overly broad group of nations, the League recommended that 
the bill clearly distinguish between the broad standard by which the US 
should monitor and engage in diplomatic efforts to promote religious 
freedom and the standard used to target sanctions against the most 
oppressive regimes.
    Messrs. Berkowitz and Foxman noted ``As a community that has 
experienced horrific persecution, we have seen first hand the 
consequences of silence and inaction and have benefited from America's 
engagement and moral leadership.''
    The Anti-Defamation League, founded in 1913, is the world's leading 
organization fighting anti-Semitism through programs and services that 
counteract hatred, prejudice and bigotry.

                               __________

 Material Submitted by The Office for Church in Society--United Church 
                               of Christ

     National Council of the Churches of Christ in the USA,
                                                       May 5, 1998.

Dear Member of Congress:

    Increasingly it appears that the overseas consequences of religious 
persecution legislation may have been misunderstood. Its impact may 
well be to further empower religious extremists. I write to alert you 
to this possibility as you weigh your decision on this well-intended 
legislation.
    This past week we invited religious leaders from several areas of 
the world to come to the United States to describe conditions in their 
countries: Pakistan, Russia, Indonesia, the Middle East and Africa. A 
list briefly identifying our distinguished guests is attached.
    Many of you and many congressional staff members responded to our 
invitation to meet with them. Many could not. Let me summarize the 
recurring themes in their reports.
    First, each overseas guest indicated that U.S. intervention in the 
internal life of their countries as a self-appointed monitor of 
religious persecution would be strongly questioned and could be broadly 
resented. It would have negative impact on other aspects of 
international relationships. Most importantly our guests felt that 
except in extreme cases, a sanctions-based approach would hurt the very 
people it is intended to help.
    Second, such U.S. intervention will have little capacity to check 
or alleviate whatever religious tensions exist or whatever religious 
persecution may occur: such acts tend to be non-governmental, actively 
opposed by governmental leadership, often precipitated by 
fundamentalist elements and best resolved by those who live in the 
setting or country where there are such occurrences.
    Third, what is reported as religious persecution is often 
understood locally as something quite different.
    In Sudan, civil war and racial hostility play a far larger role in 
what are acknowledged to be tragic abuses of human life including 
physical maiming and even assassination and murder. U.S. sanctions 
invite alternative suppliers; only multilateral sanctions have the 
capacity to be effective. Also, such actions block aid from U.S. 
churches.
    In Pakistan where a Christian was condemned for execution, it was 
broadly recognized that he was mentally unstable and his sentence was 
stayed while extradition was arranged through the Christian community 
there. Incidentally, the USA refused to accept him; Germany did, 
through church connections.
    In Indonesia the extensive burnings of churches has a 
fundamentalist history related to economic and political tensions. 
However, local Muslims have regretted the burnings and in the vast 
majority of instances have assisted the Christian community in 
rebuilding, a fact hardly ever reported. Further, U.S. intervention 
will tend to fracture the Muslim/Christian cooperation that is 
developing.
    In Russia the fundamentalist factor is actively present on both 
sides of some conflicts, and it occurs between Christians. Even the 
questionable new law on religion when placed in the context of Russia's 
long-term religious history has at least the positive value of giving 
official standing to a plurality of religious groups. Numerous such 
groups are now recognized and there is broad agreement that the most 
egregious aspects of the law will need both tempered administration and 
future change. It is important to recall that for 900 years Russia had 
only one recognized religion (Orthodox Christianity) and for most of 
the last 100 years was officially atheist. Religious openness is a new 
experience in Russia and has existed now for only seven years.
    Without recounting all of the descriptions given by our guests, it 
is clear that they presented a far different picture of religious 
persecution than we have seen thus far. The recent report from the 
three clergy officially traveling in China reflects a similar condition 
in that country. Our overseas guests affirmed that local religious 
leaders and government officials are in most instances addressing local 
situations. Further they underscored that where U.S. sanctions in any 
form or even governmental reprimands are called for, only multilateral 
efforts will succeed.
    It was clear that energy for the religious persecution legislation 
is not coming from religious communities overseas. This opens the 
possibility that victims of religious persecution when it does occur 
may find themselves caught up in a cause more than being listened to or 
actually helped.
    Several Members of Congress questioned our overseas guests directly 
as to whether religious communities in their countries were requesting 
this legislation. None were.
    As to what the United States could do to further religious liberty, 
each guest spoke appreciatively of the U.S. commitment to religious 
liberty. Then they asked that their religious liberty be respected and 
allowed to grow indigenously without U.S. intervention. They spoke 
instead of the need for U.S. help to build up opportunities for the 
poor and the disadvantaged as a way to dispel hostilities between 
religious groups. They suggested attention to the need for good health 
care, education, economic development and job opportunities. These 
would encourage religious liberty for all people and reduce the 
possibility of group conflicts and human abuse. They indicated that the 
need is for a positive response, not a punitive one.
    Additionally, I have included a statement from Dr. Youssef Boutros-
Ghali, Egyptian Minister of Economy and a member of a distinguished and 
respected Coptic Christian family. He spoke at a briefing held here at 
our invitation a few weeks ago while Congress was in recess. I think 
you will find his comments very helpful.
    Also, a brief set of statements made here by our guests is 
included. You may wish to review their own words.
    Our providing the opportunity for religious leaders from overseas 
to be heard here is meant to be a contribution to your thoughtful 
consideration of the proposed legislation. Their voices have not 
previously been heard. We would have invited such religious leaders 
earlier had we been included in providing public testimony. Perhaps 
even now their views will be useful.
    Please feel welcome to contact me at the National Council's 
Washington Office if you wish to pursue this issue further or if I can 
be of help in any other way.
            Cordially,
                          (Rev. Dr.) Albert M. Pennybacker,
                     Associate General Secretary for Public Policy.

cc: Rev. Dr. Joan Brown Campbell, NCCC General Secretary
        
                                 ______
                                 
 National Council of the Churches of Christ in the 
                                                USA
                                              June 10, 1998
                                               Washington, DC 20002
Dear Senator: On behalf of the National Council of Churches of Christ 
in the U.S.A., I want to share our views of the religious persecution 
legislation before Congress.
    Specifically, we are concerned that the International Religious 
Freedom Act (Nickles-Mack) be ajusted modestly to make it a more 
palatable and religiously sensitive bill. Our interest is in amending 
it to provide for ``findings'' of potential effectiveness prior to any 
sanctions and defining persecution more precisely.
    Our hope is that legislation can be considered that the major 
Protestant and Orthodox communities, including the African American 
Churches, can support. The full listing of the church bodies in the 
national Council of Churches is attached.
    Thank you for giving this your attention.

            Cordially,

                          (Rev. Dr.) Albert M. Pennybacker,
                     Associate General Secretary for Public Policy.

                                 ______
                                 

Member Communions of the National Council of the Churches of Christ in 
                    the U.S.A.

African-American Protestant Churches:

        African Methodist Episcopal Church
        African Methodist Episcopal Zion Church
        Christian Methodist Episcopal Church
        National Baptist Convention of America
        National Baptist Convention. USA
        National Missionary Baptist Convention of America
        Progressive National Baptist Convention

Historic Peace Churches:

        Church of the Brethren
        Friends United Meeting
        Philadelphia Yearly Meeting of the Religious Society of Friends

Orthodox Churches:

        Antiochian Orthodox Christian Archdiocese of North America
        Armenian Church of America
        Coptic Orthodox Church in North America
        Greek Orthodox Archdiocese of North & South America
        Orthodox Church in America
        Patriarchal Parishes of the Russian Orthodox Church in the USA
        Serbian Orthodox Church in the USA and Canada
        Syrian Orthodox Church of Antioch
        Ukrainian Orthodox Church in America

Protestant Churches:

        American Baptist Churches in the USA
        Christian Church (Disciples of Christ)
        Episcopal Church
        Evangelical Lutheran Church in America
        Hungarian Reformed Church in America
        International Council of Community Churches
        Korean Presbyterian Church in America
        Moravian Chttrch in America, Northern & Southern Provinces
        Presbyterian Church (USA)
        Reformed Church in America
        Swedenborgian Church
        United Church of Christ
        United Methodist Church

Churches of Other Traditions:

        Mar Thoma Church, Diocese of North America and Europe
        Polish National Catholic Church of America

                                 ______
                                 

                              Attachments

     National Council of the Churches of Christ in the USA,
                                                      June 2, 1998.
    Statement on Proposed Federal Legislation Addressing Religious 
                              Persecution
    Religious persecution is a scourge that has afflicted humankind for 
most of its history. With varying degrees of intensity, persons of 
faith have been subjected to discrimination, imprisonment and, in some 
cases, torture and death. In religious terms, where the powers of the 
world claim for themselves what is finally God's sovereignty, believers 
are unavoidably in jeopardy.
    At the close of the bloodiest century in history, it is fitting 
that Congress would turn its attention toward the goal of reducing, if 
not eliminating, this most fundamental violation of human rights.
    Legislation has now been introduced in both chambers of Congress 
(and passed by the House) that is intended to alleviate the suffering 
of persons around the globe who wish to exercise their God-given right 
to worship as they see fit. Representatives Frank Wolf, Ben Gilman, 
Christopher Smith and Lee Hamilton as well as Senators Arlin Specter, 
Don Nickles, Joseph Lieberman and Connie Mack are to be commended for 
their roles in guiding this legislative effort. Religious groups, such 
as the National Association of Evangelicals, also deserve credit for 
placing the issue of religious persecution at the top of the nation's 
moral agenda.
    The National Council of the Churches in the U.S.A. CCC) has worked 
to ensure that any proposed legislation has the intended result of 
actually reducing the incidence of religious persecution as well as 
improving the lot of those who are the victims. Many of the concerns 
raised by the NCCC have been addressed, but questions remain. We hope 
these questions will continue to be explored honestly and openly as our 
government seeks to craft an appropriate response to this pressing 
international concern. In particular, we hope to ensure that the faith 
communities most affected by the proposed legislation have an 
opportunity to be heard. To that end, we are in communication with our 
overseas partners and missionary leaders and are making them accessible 
to members of Congress and to the press.
    After much thought, prayer and deliberation, we offer the following 
suggestions to those desiring to pass legislation that addresses 
religious persecution:

1. Violations of human rights abroad are best addressed through 
multilateral efforts. A unilateral response is often ineffective and 
counter-productive. Further, unilateral action may destroy America's 
ability to participate in development efforts that improve' lift for 
the poor and alleviate the conditions that give rise to various human 
rights abuses including religious persecution.

        Comment: One of the biggest weaknesses of both the House and 
        Senate bills is the failure to provide real support and 
        encouragement for multilateral efforts. Unfortunately, the 
        opportunity to amend the House bill has been lost, but modest 
        changes in the Senate bill could help to ensure that it will 
        have the intended effect of actually reducing religious 
        persecution. First, Section 401 or 403 of the ``International 
        Religious Freedom Act'' (IRFA) could be amended to require the 
        Secretary of State to seek multilateral support before 
        unilateral sanctions are imposed. Another possibility is to 
        provide additional funds to the United Nations earmarked for 
        international tribunals that could hear charges of religious 
        persecution. Finally, the 30 day delay before the imposition of 
        sanctions under Section 409 could be extended in order to allow 
        for diplomacy as well as for multilateral efforts.

2. Appropriate training for government personnel as well as more 
thorough investigation and reporting is likely to reduce the incidence 
of religious persecution.

        Comment: These sections of both the House and Senate bills are 
        adequate.

3. Sanctions should be a matter of thoughtful last resort, not 
automatic first resort. As indicated above, multilateral participation 
in invoking of sanctions is the desirable strategy.

Comment: Obviously, the House bill is flawed in this regard. The Senate 
bill, on the other hand, has more flexibility. However, to ensure that 
IRFA meets its intended goal, Section 401 should be amended in two 
ways. First, the Secretary of State should be required to review the 
Commission on International Religious Persecution's recommendations 
before they are passed on to the President. This may be intended by the 
sponsors, but it is unclear from the text of the bill. Second, and more 
importantly, the President should be required to make a finding that 
any sanctions recommended by the Commission are likely to help rather 
than hinder the plight of the victims before any sanctions are imposed. 
This decision could be subject, to congressional review under Section 
409 as with other decisions of the President under Title IV of the 
bill.

4. Care should be exercised so that traditions and cultures of other 
nations are respected. Although we cherish and affirm the principles of 
the First Amendment as the best mechanism for protecting religious 
liberty, we recognize that they are rooted in western philosophical, 
political and religious thought We should not seek to impose the 
American arrangement on others. This includes respecting the traditions 
of established religions and churches common to European as well as 
Islamic nations. America's response to religious persecution must not 
be perceived as ``anti-Islamic.''

        Comment: Section 3 of IRFA should be modified in accordance 
        with suggestions by the State Department to ensure that the 
        bill will not sweep into its reach every nation that has an 
        established religion or that practices some form of 
        discrimination. Casting the net too widely is likely to strain 
        relations with numerous nations at different places on the 
        religious freedom spectrum and could actually reduce religious 
        freedom as well as diminish opportunities for missions 
        organizations headquartered in the United States.

5. Steps should be taken to ensure that the issue of religious freedom 
is not further politicized Making the State Department rather than the 
White House the locus of our overseas efforts is one means of 
encouraging this. Annual showdowns between the President and the 
Congress over appropriate responses to the actions of a particular 
nation should be avoided. Disagreements over responsive action should 
not become the basis for partisan wrangling. Meaningful review by the 
Secretary of State should be part of any effective strategy for 
combating religious persecution.

        Comment: Decisions to move the locus of persecution monitoring 
        from the White House to the State Department helped to ``de-
        politicize'' proposed federal legislation. The issuance of a 
        separate, annual report on religious persecution (Section 6 of 
        the ``Freedom From Religious Persecution Act'' and Section 
        102(b) of the ``International Religious-Freedom Act'' may, 
        however, serve to politicize the issue in a manner that 
        actually harms overseas faith communities as Democrats and 
        Republicans seek to use the annual event for domestic political 
        gain. The suggestion simply to fold the religious persecution 
        report into existing human rights reports should be considered.

    By subjecting any proposed legislation to these five principles, 
members of Congress can help to ensure it will have the intended result 
and that it will enjoy the support of the broad spectrum of America's 
faith communities.
    Thank you for your consideration.

                                 ______
                                 

 Excerpts from the National Council of Churches' Press Conference with 
                    International Religious Leaders
                        tuesday, april 28, 1998
Key Statements Concerning Religious Persecution Legislation:
    ``It has been a deep concern to us that often the debate has tended 
to deal much more with American politics or even American religious 
issues than the opportunity to hear firsthand from friends and 
colleagues who have really tested their own life and the firm 
commitment to their faith, at times against great odds, and out of a 
deep commitment for the well-being of the church and other faith 
communities''

                        --Dr. Clifton Kirkpatrick, Clerk of the 
                        Presbyterian Church

    ``I believe if it is viewed from the morality of rhetoric that bill 
is very inspiring, very gladdening. But I am very doubtful whether it 
is easy to implement and whether the result of the implementation is as 
good as expected by those gentlemen, the Congress members, who 
initiated this bill.''

                        --Dr. Amien Rais, Chairman on Muhamadiyah, a 
                        Muslim community of 28 million Indonesians

    ``Our consideration is that bill--if the bill will be approved, 
then it will jeopardize the relationship between the Christians and 
Islam in Indonesia.''

                        --The Rev. Dr. Joseph Pattiasina, General 
                        Secretary of the Communion of Churches in 
                        Indonesia

    ``The good intention of the American people to make sure that 
everybody in the world can enjoy religious freedom, religious liberty, 
may, at the end, produce more suffering for the people. And that is why 
we would like to appeal for that part of the legislation, that it be 
restudied again.''
                        --The Rev. Dr. Soritna Nababan, Batak 
                        Protestant Christian Church Central Council 
                        Member

    ``And I would like to emphasize the last point, that we call for a 
logic of empowerment of the victims, for a strategy of prevention 
through consciousness-raising dialogue and inter-religious cooperation, 
which, in my opinion, is more effective.''

                        --Dr. Riad Jarjour, General Secretary, Middle 
                        East Council of Churches

    ``However, the bill in question, though may have very good 
intentions in this city, will definitely be misread in other lands of 
the world.''

                        --Bishop Sammy Azariab, Moderator, Church of 
                        Pakistan.

Rev. Dr. Albert Pennybacker, Associate General Secretary, National 
Council of Churches (Dr. Pennybacker is responsible for policy in the 
Washington Office of the National Council of churches.):

    First, I want to say a word about the concerns of the National 
Council in this whole discussion about religious persecution. We have 
invited our guests today because we have been deeply concerned about 
the issue of religious persecution so concerned that we want the 
Congress and the American people informed about how this affects those 
who live in countries where religious persecution has been alleged.
    [. . .]
    [B]efore they speak, we are particularly pleased to have the stated 
Clerk of the Presbyterian Church in the USA, its senior executive 
officer, my friend of many years, Dr. Clifton Kirkpatrick, join us. And 
you should know that prior to his current assignment of executive 
leadership for the Church, he chaired the Global Mission Ministries of 
the Presbyterian Church in the USA, and is deeply informed about and 
deeply concerned about the issue of religious freedom and religious 
persecution. And I want to invite Dr. Kirkpatrick to come and make a 
brief statement to us.

Dr. Clifton Kirkpatrick, Clerk of the Presbyterian Church. (Dr. 
Kirkpatrick is the senior executive officer of the United States 
Presbyterian Church. Prior to his current assignment he chaired the 
Global Mission Ministries of the Presbyterian Church in the USA):

    As Al shared with you, I am currently the stated Clerk in the 
Presbyterian Church, but I had the wonderful privilege, for 15 years, 
of directing our Church's work in partnership with Christians around 
the world. And I need to tell you that the issue of religious 
persecution is therefore not an academic issue for me, but a very 
personal one, in that I have had the occasion over and over again to 
know friends and colleagues who have literally suffered for the cause 
of their faith, and am deeply concerned about this matter.
    We, as a part of the National Council of Churches, and as the 
Presbyterian Church share a deep concern for religious persecution and 
its ending in a context that affirms that human rights are God-given 
rights for all people. The concern we have as we come to this is not 
over the issue of whether there needs to be response to religious 
persecution, but a commitment that that response needs to be done with 
the utmost sensitivity.
    It has been my experience over the years that there were many times 
in which there was human suffering around the world because our 
government did not stand firm for human rights. But there are also 
other occasions in which had there been automatic sanctions and the 
like, we might well have increased the persecution against the very 
people we were concerned about.
    And so the concern we come with is that the U.S. Government, as it 
does move forward in a process of responding to concerns of religious 
persecution, do that in a context of support for universal human 
rights, do that with the kind of flexibility that does not, if you 
would, throw the baby out with the bath water, of offering and imposing 
solutions that might create deeper problems, do that in a multinational 
context, with others around the world. But, most of all, design 
whatever legislation might be designed in consultation with those who 
are the leaders of the churches and of other faith communities around 
the world that are indeed dealing with the front lines of these issues.
    It has been a deep concern to us that often the debate has tended 
to deal much more with American politics or even American religious 
issues than the opportunity to hear firsthand from friends and 
colleagues who have really tested their own life and the firm 
commitment to their faith, at times against great odds, and out of a 
deep commitment for the well-being of the church and other faith 
communities.

Dr. Amien Rais, Chairman of Muhamadiyah. Muslim. Indonesia. (Dr. Rais 
leads Muhamadiyah, a nation-wide Muslim community of 25 million 
Indonesians. He is a respected university professor and intellectual 
leader in Indonesia. He has become a strong advocate for religious 
liberty in a nation that has the largest Muslim population in the 
world.):

    I have [a] position concerning the Wolf-Specter bill. Let me quote 
Mr. Demetri Simes when discussing what the pluses and minuses of the 
Vietnam War. He said the other day that it is very important for us to 
distinguish between morality of rhetoric and morality of results. I 
believe if it is viewed from the morality of rhetoric that bill is very 
inspiring, very gladdening. But I am very doubtful whether it is easy 
to implement and whether the result of the implementation is as good as 
expected by those gentlemen, the Congress members, who initiated this 
bill.
    The reason why I quoted the distinction between morality of results 
and morality of rhetoric, I believe that when it is implemented, 
suppose the bill is approved and then implemented by the 
administration, what will take place in developing countries is even 
more tension. I am afraid that my Christian brothers and sisters in 
Indonesia will be put into the corner, you know, because maybe in the 
minds of the Indonesia people, who are not very well educated--and of 
course the mass is always more emotional, you know--maybe they will 
accuse the Christian brothers and sisters as having responsibility in 
the creation of the bill.
    And I also believe that when implementation--when the time of 
implementation comes, it is very difficult for Washington to deal with 
any human rights violation, as mentioned in the bill. I can imagine 
that the United States, as a superpower, still has limitations in terms 
of military, in terms of economy, in terms of, you know, concrete 
measures which are going to be taken. So this thing, I think, must be 
brought into account, and we must consider it more deeply.

The Rev. Dr. Joseph M. Pattaisina, Christian. Indonesia. (Dr. 
Pattaisina is the General Secretary of the Communion of Churches in 
Indonesia. Prior to assuming this ecumenical post he was a local and 
regional leader in his church. He is highly regarded as an effective 
voice for the Christian community in a predominately Muslim nation):

    I am the General Secretary of the Communion of Churches in 
Indonesia. As you know, the largest population of Islam in the world is 
in Indonesia. But we are not the Islamic state. And our Constitution, 
in 1945, stated very clear that we have the freedom of religion in 
Indonesia. So based on this, we would like to express our opinion 
concerning the act, persecution acts, that will be approved by the 
Congress.
    Our consideration is that bill--if the bill will be approved, then 
it will jeopardize the relationship between the Christians and Islam in 
Indonesia. Because Islam is 87.5 percent from the 202 million, and the 
Protestant . . . 6.5 percent, and . . . Catholics . . . 3.5 percent.
    [. . .]
    So the relationship is based on the Islam and Christians. Although 
we face the problem about the burning and destroying . . . [of 
churches] since 1967 . . . until February of this year, about 400 
churches [have] been burned and destroyed, but we see that the burning 
of the churches and destroying of the churches is not based on the 
conflict of Islam and Christian in Indonesia, but based on the 
political problem that is facing the gap between the rich and the poor.
    [. . .]
    [W]e insist the government [pay] serious attention, especially 
[that those] who burn the churches and destroy the churches . . . be 
brought to the court and be sentenced.
    [. . .]
    So we believe that this bill that will be passed by the Congress is 
not helpful for us. . . . Christians [are] part of the whole nation of 
Indonesia. . . . [W]e have the responsibility . . . to keep the 
relationship between Islam and Christian in dealing as one nation.

The Rev. Dr. Soritua A. E. Nababan, Christian. Indonesia. (Dr. Nababan, 
of the Batak Protestant Christian Church (Lutheran heritage), is a 
member of his church's Central Council. He is both a pastor and a past 
General Secretary of the Communion of Churches in Indonesia. For years 
he was an active youth minister and leader. Currently, he also serves 
as the Vice Moderator of the Central Committee of the World Council of 
Churches.):

    I would like to express my appreciation to the American people, 
through Congress, that took initiative to introduce legislation to make 
sure that religious liberty everywhere will be safeguarded and that 
religious persecution anywhere should be given up. I do sincerely mean 
it.
    The problem comes when it is somehow related to the political and 
economic interests of the American people, and also with sanctions. 
That the sanctions affect many countries around the world. The good 
intention of the American people to make sure that everybody in the 
world can enjoy religious freedom, religious liberty, may, at the end, 
produce more suffering for the people. And that is why we would like to 
appeal for that part of the legislation, that it be restudied again.

The Rev. Dr. Riad Jarjour, General Secretary, Middle East Council of 
Churches. Christian. Middle East. (A Presbyterian, Dr. Jarjour heads an 
ecumenical community of Christian bodies throughout the Middle East, 
including the Roman Catholic Church. A native of Syria, he currently 
lives in Beirut.):

    I come from the Middle East, which is the cradle of the three 
monotheistic religions, and where religions have started for thousands 
of years and we still witness that revival of religion in that region. 
What I have for you is some points concerning religious persecution.
    The U.S. campaign, the proposed legislation and the finger pointing 
to countries and communities, is frequently depicted as a crusade. And, 
more often than not, we activate historical memories, with their many 
unhealed wounds.
    We have strong reasons, as the Middle East Council of Churches and 
as a group of Christian and Muslims who work together, to fear that it 
is increasingly provoking general distrust between Christians and 
Muslims, Arabs and Americans, as well. We have equally strong reasons 
to express our anxiety in seeing the crusade impact negatively on 
Christian-Muslim relations in many countries, and especially in the 
Middle East and Asia, notwithstanding all efforts in those countries 
that uphold core citizenship and common national identity between 
people of different faiths.
    It would be naive to overlook the serious risks of a recurring 
Muslim perception of the Christians as aliens at home, local extensions 
of Christendom, minorities protected and used by the West in line with 
the old pattern of divide et impera, divide and you will dominate.
    Many people in the Middle East, including the small minority that 
are supportive or appreciative of the campaign for religious 
persecution, argue that the primary dividing force and determined in 
their condemnation of certain countries are political positions towards 
certain governments, that de facto hierarchy established between 
countries and, at times reordered, does not correspond to their 
comparative records on religious persecution as much as it reflects 
their consideration of political expediency.
    [. . .]
    The notion of religious persecution needs to be sharpened. It is 
often amalgamated with social discrimination and political 
marginalization. Understandably, there has been a trend among exiles, 
self-exiles and migrants from many countries in the South, the Middle 
East more particularly, to overstate some sort of religious persecution 
or the fear of it as the most determining factor in their decision to 
leave their home countries. What is said and upheld in this community 
of people should not be heard uncritically. The right to enjoy full 
freedom in carrying out evangelical activities needs to be looked at 
sensitively. The reference to evangelization evokes a painful history 
in our part of the world. In some cases, continuing practices that are 
frequently denounced by Muslims and Oriental Christians, who saw 
foreign missionary activity in the context of a colonial and hegemonic 
design. They perceive, and still do, proselytism as being a violation 
of religious freedom.
    I am pressured for time, but I want to say Christians face in many 
Arab countries and predominantly Muslim countries a number of problems. 
That is true. Most of which are of a social, economic and political 
nature. These problems affect Muslims and Christians alike. But they 
are exacerbated in the case of the latter by their dwindling numbers or 
the erosion of their influence in public life and their growing anxiety 
for the future of their children, a great number of Muslims have become 
increasingly aware that the predicament of Christians going to a 
global, societal crisis.
    Dialogue and cooperation between Muslims and Christians at various 
levels of shared living needs to be intensified in order to address the 
problem. Any impediment of such relationship impairs the chances of 
improving the situation of the Christians. There are situations where 
Christians are targets of sectarian violence. Yes, there are many of 
these situations. And also non-Christians, too.
    In some other situations, Christians are victims of fanaticism and 
bigotry. But this is much less a consequence of discriminatory 
government policies than an expression of social prejudice or political 
strategies of radical opposition.
    Finally, freedom of belief and worship, guaranteed by law in most 
Arab countries, is not in serious jeopardy. Freedom of conscience and, 
more particularly, the right of converting from Islam is quite 
problematic. While most countries do not enforce by law and practice 
the prescribed capital punishment of apostasy with the conversion from 
Islam, it is quite often not tolerated socially.
    Such intolerance have taken in a number of cases extreme forms of 
violence. There has been cases where converts from Islam have not only 
been discriminated against or been harassed, but subjected to legal 
sanctions on the grounds of disturbance of civil peace, social order or 
inter-communal harmony. A reexamination of the meaning of apostasy, 
starting from a conceptual, historical approach, as well as the 
reaffirmation of the right of belief or disbelief on the basis Koranic 
injunction of no compulsion in religion, and the tradition of the 
Prophet Hadis, is on the agenda of Muslim-Muslim and Muslim-Christian 
agenda. And I would like to emphasize the last point, that we call for 
a logic of empowerment of the victims, for a strategy of prevention 
through consciousness-raising dialogue and inter-religious cooperation, 
which, in my opinion, is more effective.

Bishop Sammy Azariah, Moderator, Church of Pakistan. Christian. 
Pakistan. (Bishop Azariah, an Anglican, is a respected leader in the 
Christian community as a whole. As Moderator, he is the senior leader 
in his church, with both pastoral and public service experience.):

    We admire the democratic principles of this land and the concern of 
this country it is showing towards human rights in other parts of the 
world. However, the bill in question, though may have very good 
intentions in this city, will definitely be misread in other lands of 
the world.
    The reason, firstly, being that the bill has an overemphasis 
towards the Christian community. And this overemphasis would definitely 
create problems for the minority churches in other lands. It will 
definitely create obstacles in the process of interfaith dialogue, 
which is very, very important to our existence in countries like 
Pakistan and others.
    Persecution of a religious nature or persecution of any nature is 
not welcome, is not acceptable. But our concern is that the economic 
and the trade sanctions which are being proposed in this bill cannot be 
the best way of dealing with situations where there is persecution. 
Because it will definitely create obstacles for the United States and 
for other international human rights organizations to be able to get 
into deep situations of discovering the causes of difficulties in that 
country or in that land. It will cut off a relation with those 
countries.

Dr. Anatoly Krasikov, President, Russian Chapter, International 
Religions Liberty Association of Russia. Christian. Russia. (As a 
member of the Russian Orthodox Church, a community where many are 
supportive of the new religious statutes in Russia, Dr. Krasikov is the 
leader of an interfaith body committed to religious liberty.):

    I have never studied English . . . [s]o I ask you to be [indulgent] 
with me when I make errors, mistakes.
    The situation, religious situation, in Russia is complicated. That 
is why, after the adoption of a new law, some important changes were 
producted in the attitude of the state, respect of religious 
organizations. [. . .] In the new law . . . [i]t is not possible to 
give special advantage to one religion or disadvantage to one religion.
    [. . .]
    I represent here the International Association for Religious 
Liberty, our Russian branch. This organization, in our country, was 
created by all religious organizations together, and the scientists and 
public persons, and supported by the Orthodox Church, Protestants, 
Catholics, Jews, Muslims, Buddhists, Catholics--practically all 
organizations.
    [. . .]
    Many organizations finally have supported the law for different 
reasons. That is why the first part of the law is excellent, the part 
[that] confirmed the constitutional principle of equality before the 
law of all organizations. But we must not forget that for 1,000 years 
our country had no real liberty of religion. For nine centuries we had 
one religious organization, which was an organization of the state. 
Then we had a century of atheism of state. And only 7 years of real 
religious liberty.
    And for over 80 years, we had, as you know, a . . . dictatorship, 
Communist dictatorship. [But] with the changes, the people are the 
same. [T]he mentality of many people is the same.
    [. . .]
    That is why we, as an organization, we follow all case of violation 
of human rights . . . And sure, we need your solidarity. Row to express 
this solidarity is another question.
    That is why you know, and I know too, each dictatorship needs to 
have enemies. [Without] enemies exterior and interior, it is not a 
dictatorship. So the United States had, I believe, had a very good 
position during, for example, the Helsinki processes, during the 
preparation of the Helsinki agreements. And the example of the past, a 
good example of the past, have to be used by all of us.
    I have not the counsel to give to the American, to the United 
States, up to decide how to express this solidarity. But I would like 
if we must be together in this important moment of our life.

                               __________

    Office for Church in Society--United Church of 
                                            Christ,
                                      Washington, DC 20002,
                                                       May 5, 1998.

Dear Senator: Religious persecution is a serious problem around the 
world. We are grateful that Congress has called increased attention to 
this important problem and is seeking effective ways to address it. 
However, there are certain aspects of the two main religious 
persecution bills now under consideration by Congress which cause us 
great concern.
    Can the power of the U.S. government be used effectively to address 
this world-wide problem? Will imposing political and economic sanctions 
on certain countries do more harm than good for those of various faiths 
facing severe discrimination and persecution both from their 
governments and from various social forces the government may lack the 
political capacity to restrain'?
    Many of us in the Christian community have been prayerfully 
reflecting on these issues for some time. Persecution of Christians is 
not new. Neither is the persecution of many different religious groups. 
Many of our global partner churches face persecution. Many work with 
great courage and effectiveness at challenging these forces for 
themselves and for other religious traditions. We have learned a great 
deal from our partners about what works and what doesn't.
    With the upcoming vote on the Wolf/Specter ``Freedom from Religious 
Persecution Act of 1998'' and the emergence of the Nickles/Lieberman 
``International Religious Freedom Act of 1998,'' we are gravely 
concerned that these bills, while well-intentioned, will acmally do 
more harm than good.
    Part of our concern is the question of how these bills will be 
applied. Both Wolf/Specter and Nickles/Lieberman have significant 
provisions for political input before sanctions could go into effect. 
Thus, it seems unlikely that sanctions will be applied against close 
allies. Countries like Saudi Arabia, Israel, and even Germany have been 
accused of religious persecution. And we indeed believe that 
governmental persecution of certain religious groups exist in each of 
these countries. But given the geopolitical realities we doubt very 
much that they would face sanctions. If serious sanctions are to prove 
effective, they must be applied by an international body and carried 
out internationally. Unilateral economic sanctions will not be 
perceived as fair and will not be effective.
    Wolf/Specter began as a bill to fight Christian persecution, and 
explicitly named Islam as a dangerous force in several nations. This 
has led to a perception in many Muslim countries that the U.S., 
perceived as a ``Christian Nation,'' was taking sides against Islam. 
While Wolf/Specter has now had these very negative ideas amended out of 
the bill, it or any other bill addressing the issue may continue to be 
viewed by many nations as an anti-islam bill.
    Wolf/Specter has now become a bill with a very narrow definition of 
religious persecution. which would apply to only a few countries. 
Because China is still persecuting some Christians, Buddhists and 
members of other religious groups who fail to register with the 
Religious Affairs Bureau. it would almost certainly fit the criteria. 
Will economic sanctions against China stop religious persecution? Will 
economic sanctions be helpful to the growing religious communities 
struggling for a place of dignity and integrity in China today?
    In the recent decades Christians in China did face horrible 
persecution. However. the persecution was most severe when China was 
most isolated during the Cultural Revolution. We are greatly concerned 
about the possible plight of our Chinese Christian sisters and brothers 
in an atmosphere of increased economic and political isolation. Would 
sanctions imposed on China cause them to stop persecuting people of 
faith, or simply lead to greater persecution? It is our belief that 
isolating China will increase, rather than decrease religious 
persecution in the world's largest country.
    While our concern certainly goes beyond persecution of Christians. 
we have learned a great deal about the changing faces of Christianity 
in China since we first sent missionaries there in 1830. Since the 
Chinese Government passed the Religious Law in the early 1990's 
requiring churches and religious organizations to register with the 
government. churches which refuse to register (for whatever reason) 
have technically been in violation of the country's law. To be labeled 
an unregistered or underground Christian is to be viewed with suspicion 
by the government. The presence of underground Christians has sometimes 
reinforced the Chinese governmental notion that Christianity is 
unpatriotic and foreign, even dangerous to the status quo. Christians 
in China have had to work hard to be perceived as a legitimate part of 
Chinese society. Therefore,there is concern that Wolf/Specter will 
reinforce the connection between Christianity and foreign powers.
    Under the best scenarios some forms of persecution might be stopped 
by Wolf/Specter. But under any scenario, Christians in China would face 
increased alienation from their society.There are some in this country 
who would like to increase that alienation, as a strategy for bringing 
down the Chinese government. The vast majority of the millions of 
Christians in China, however, do not share this goal. They resent being 
pawns in a foreign strategy to undermine their government. Having them 
suspected of this kind of subversion will only increase their 
persecution and alienation.
    The Nickles/Lieberman Senate bill, on the other hand, defines 
religious persecution quite broadly. Current estimates by the State 
Department are that it would apply to over 75 countries. Every Muslim 
country would be on the list. While Wolf/Specter will very likely have 
disastrous consequences for Christians in China, Nickles/Lieberman may 
well have disastrous consequences in the Middle East and throughout the 
Islamic world. In dominantly Muslim countries, Christians fight to be 
perceived as a legitimate part of that society. Certain radical Muslim 
forces continue to label Christians as agents of the West.
    By using U.S. power to accuse all Muslim countries of religious 
persecution and hitting them with one or more of 16 different 
sanctions, radical Muslim forces will be strengthened in their attempts 
to associate Christianity with the West, even though Christianity has a 
longer tradition in some of these societies than the faith of their 
Muslim persecutors. Christian groups and other religious groups will 
feel that the U.S.is attempting to divide and separate them from the 
rest of their society. This pattern of invasion and division has been 
going on for centuries in places like Egypt, and is well understood in 
the Middle East. This helps explain why the Middle East Council of 
Churches and other Christian groups in the Middle East are so upset 
with the dangers in this legislation.
    We have heard Foreign Relations Chair Gilman and many others speak 
of the need to put some ``teeth'' in U.S. efforts to curb persecution. 
If putting ``teeth'' in our efforts would result in less persecution, 
perhaps they should be considered. But the Bible counsels a different 
approach, urging that we pray for the persecuted, pray that we 
ourselves will have courage when faced with persecution, but NEVER 
urging us to fight persecution with persecution.
    Economic and political sanctions are a form of war. diplomatic and 
economic war. They are designed to hurt people. Think of the Just War 
criteria that have been developed over the centuries by the church. Are 
these sanctions really the ``last resort?'' Are these sanctions really 
authorized by the proper authority, or would an international body be 
the more credible and legitimate authority to attempt to judge 
religious differences and conflicts in an international setting? Will 
innocent civilian populations be hurt by these instruments of economic 
war? Do these sanctions have a reasonable chance of success? We urge 
you to pay more attention to these moral questions.
    We greatly appreciate your concern for those who suffer for their 
faith. We ask that you prayerfully consider what might be done. We hope 
that you will continue to engage in dialogue with those facing the 
persecution, to understand the many differing and complex contexts of 
persecution, before relying on ``teeth'' or economic sanctions to 
address this problem.
    What can be done? Increasing public awareness of the problem is 
certainly appropriate. Despite some unfortunate beginnings to this 
discussion, we are pleased that the real discussion is now taking 
place. Certainly the President needs to speak out regularly and 
forcefully on this important issue. Increased training for foreign 
service personnel is also a positive move, and we are pleased to see 
these provisions in the legislation. More assistance to refugees 
fleeing persecution is also extremely helpful. Applying universal 
standards of conduct and using international forums to address the 
issue is also needed, and we regret that the legislation has not gone 
as far as it might in seeking to use international structures.
    But will any unilateral economic sanctions work? We do not believe 
the sanctions in the Wolf/Specter bill will be effective. We are still 
studying the Nickles/Lieberman bill, with its sixteen levels of 
sanctions. We firmly oppose economic or trade sanctions for this 
purpose, but look forward to working with the Senate to examine the 
consequences of other various sanctions. Cutting non-humanitarian 
assistance, for example, may well be an appropriate step in certain 
situations.
    We have worked with the National Council of Churches to suggest 
amendments that will lessen the damage done to our ecumenical partners 
by these bills and increase the likelihood that effective means to 
lessen persecution can he developed. But we remain extremely skeptical 
that any approach relying on unilateral sanctions will have the 
consequences people of good will intend.

            Sincerely yours,

    The Rev. Dr. David Hirano,
    Executive Vice President,
    United Church Board for
      World Ministries.
The Rev. Dr. Ryan Kuroiwa,
Executive Director,
UCC Office for Church in Society.
      
                               __________

         Material Submitted by The Southern Baptist Convention

                       Southern Baptist Convention,
                                 Washington. DC 20002-4916,
                                                     June 17, 1998.
            sbc's land supports anti-persecution legislation
    Southern Baptist ethics agency head Dr. Richard Land testified 
before the United States Senate Foreign Relations Committee June 17 in 
support of legislation addressing worldwide religious persecution. ``We 
believe strong and effective legislation is necessary to rectify the 
current situation regarding the U. S. government and the widespread 
persecution of Christians and others of faith around the world,'' he 
said.
    Land is the president of the Ethics and Religious Liberty 
Commission of the Southern Baptist Convention. The commission is the 
ethics, religious liberty and public policy agency of the 15.9 million 
member denomination, comprised of 40,000 churches nationwide. Land is a 
graduate of Princeton University, the New Orleans Baptist Theological 
Seminary and Oxford University (D. Phil). He also hosts a daily radio 
program, ``For Faith and Family,'' which airs on 196 stations across 
the country and in Canada.
    The Southern Baptist Convention has passed overwhelmingly three 
separate resolutions on this issue at its 1995, 1996 and 1997 annual 
conventions, Land said. The 1995 resolution expresses ``support for all 
peoples suffering denial of religious liberty, but especially for those 
who are of the household of faith, and even more particularly for those 
who share Baptist convictions and commitments.'' The 1997 resolution 
states ``as Southern Baptists we believe that all people should have 
the God-given freedom to form and hold opinions and religious beliefs 
and propagate them without interference from or coercion by any 
government, religion, or person.''
    Southern Baptists, who have one of the largest international 
mission organizations in the world with more than 5,000 missionaries 
serving in over 130 countries, share ``grave concerns over the 
persecution of Christians in other countries'' with Episcopalians, 
Evangelicals, and Roman Catholics. ``(A) critical mass has been 
reached. I believe we are witnessing the mere beginnings of a broad-
based movement which will insist with increasing intensity that the 
government of the United States of America take serious and important 
steps to use its influence to insist that the offending foreign 
governments stop these atrocities,'' said Land.
    ``The issue has not occupied a significant place in American 
foreign policy. It has not even been on the State Department's radar 
screen. That must change,'' he said. ``We believe strong and effective 
legislation is necessary to rectify the current situation.'' Land urged 
legislation which provides to the greatest extent possible: Objective 
independent fact-finding through a Senate confirmed ambassador/director 
and commission; accountability from the executive branch of government, 
including reasonable Presidential waivers of mandatory sanctions and 
public reporting; and effective relief of religious persecution around 
the world.
    ``We are not insisting that the U.S. government seek to hold the 
entire world to the pristine standard of the U.S. Constitution's First 
Amendment's religious liberty rights and guarantees, as desirable and 
as beneficial to humankind as we believe that would be. We are 
insisting that basic human rights be recognized,'' Land said. ``We want 
a U.S. government human rights policy on religious persecution that is 
as good and decent as our people, our ideals, and our heritage 
demand.''
    The Foreign Relations Committee is considering the International 
Religious Freedom Act, sponsored by Sen. Don Nickles, R.-Okla. The 
House of Representatives passed the Freedom From Religious Persecution 
Act, a bill addressing the same issue, May 14 by vote of 375-41.

                               __________

   Material Submitted by The Episcopal Church--Office of Government 
                               Relations

        The Episcopal Church--Office of Government 
                                          Relations
                                       Washington, DC 20002
                                                      June 17, 1998
       Anglican Bishop Details Religious Persecution in Pakistan
  urges senate passage of international religious freedom act of 1998
    WASHINGTON--A leading bishop in the largest Christian denomination 
in Pakistan provided an eyewitness account of religious persecution in 
that country today and urged Senate passage of the International 
Religious Freedom Act of 1998.
    ``I am here because I believe in the cause of religious liberty, in 
Pakistan and around the world,'' Bishop Munawar ``Mano'' Rumalshah 
testified. ``Believe me, it would have been easier to stay at home. But 
for me, and for many of my Christian brothers and sisters in Pakistan, 
silence is not an option.''
    Rumalshah described the state of Islamic law in Pakistan and 
detailed the murder of a wheelchair-bound convert; a death sentence for 
a teen charged with blasphemy, and the dilemma of a young woman with 
two choices--conversion to Islam or death.
    His testimony came during a Senate Foreign Relations Committee 
hearing on bipartisan legislation offered by U.S. Senator Don Nickles 
(R-Okla.). The bill is designed to help America develop appropriate and 
consistent responses to violations of religious liberty worldwide.
    ``I do not believe the United States can remain silent either. You 
need to hear the cry of the people around the world who suffer for 
their faith, who are denied the basic right to believe, which you as 
Americans so naturally take for granted,'' said Rumalshah. ``But the 
United States' response must not be simplistic. Clearly, there are more 
choices than just imposing heavy-handed sanctions or doing nothing. 
Every situation of religious persecution around the world is different 
and requires a different response to be effective.''
    The Anglican Rumalshah has served as bishop in Peshawar, Pakistan, 
since 1994 and ministers to Anglicans, Lutherans, Presbyterians and 
Methodists.

                               __________

Statement Submitted by Gerard F. Powers on Behalf of the U.S. Catholic 
                                Bishops

    We are grateful for the opportunity to submit written testimony on 
behalf of the U.S. Catholic bishops regarding the International 
Religious Freedom Act of 1998 (S. 1868). We are also grateful for this 
committee's efforts, and those of other members of Congress, both to 
make the American public more aware of religious persecution abroad and 
to make religious liberty a top foreign policy priority of the United 
States Government.
    Our testimony, which reiterates many of the same concerns raised in 
our September 10, 1997 testimony before the House International 
Relations Committee on H.R. 2431, has two parts. First, we will outline 
our experience of religious persecution as a universal Church present 
in nearly every corner of the world, while briefly setting forth our 
understanding of religious liberty as a fundamental human right and a 
basic American value. Second, we will express our general support for 
S. 1868, while raising concerns with certain aspects of that 
legislation and making clear our willingness to work with the sponsors 
to strengthen the bill.
    Today there is new and unprecedented public attention to ongoing 
violations of religious liberty around the world. This is not, however, 
a new issue for the U.S. Catholic bishops. From religious persecution 
in the Soviet bloc and Latin America during the Cold War to China and 
Sudan today we have worked--sometimes quietly, at other times more 
publicly--on behalf of those denied their fundamental human right to 
religious liberty. We have made solidarity visits, issued appeals for 
the legal protection of religious liberty, protested killings and 
detentions, and met with dissidents and U.S. and foreign government 
officials alike to press our concerns. \1\
---------------------------------------------------------------------------
    \1\ See, e.g., Most Reverend Theodore E. McCarrick, ``Religious 
Freedom Today,'' March 31, 1997; Most Reverend Theodore E. McCarrick, 
``Statement on Renewal of MFN for China,'' May 21, 1997; Most Reverend 
Daniel P. Reilly, ``Statement on Vietnam,'' September 15, 1994; U.S. 
Catholic Conference letter to Immigration and Naturalization Service on 
religious grounds for asylum in abortion and sterilization cases, 
February 27, 1990; U.S. Catholic Conference, A Time for Healing and 
Dialogue: A Pastoral Reflection on U.S.-Vietnam Relations, 1989; U.S. 
Catholic Conference, A Word of Solidarity, A Call for Justice: A 
Statement on Religious Freedom in Eastern Europe and the Soviet Union, 
1988; U.S. Catholic Conference, Religious Liberty in Eastern Europe, 
1977; numerous statements on aspects of religious persecution in 
Brazil, Chile, El Salvador, Honduras, Guatemala, Nicaragua, Cuba and 
Mexico in the 1970s and 1980s.
---------------------------------------------------------------------------
    As pastors of a universal Church, the U.S. Catholic bishops are all 
too familiar with the human face of religious persecution around the 
world. We mourn the deaths of two outstanding Catholic bishops, both 
vigorous advocates of human rights, who died in tragic circumstances in 
Guatemala and Pakistan in recent weeks. We have attended funerals for 
other bishops, local clergy and missionaries, especially in Central 
America, who preached the Gospel at their peril. We know priests and 
bishops in China who have spent years in prison for their faith. We 
have supported the local Church in Vietnam as it faces intolerable 
restrictions on its ability to minister to the faithful. We have sought 
to support church leaders in Burundi who have been attacked for their 
efforts at reconciliation. Through Catholic Relief Services, the 
overseas relief and development agency of the U.S. Catholic bishops, we 
have assisted Bosnian Muslim, Serbian Orthodox and Catholic refugees in 
Bosnia and Herzegovina and Croatia whose family members were killed and 
whose churches, mosques and homes were destroyed as a part of ethnic 
cleansing, while strongly supporting the efforts of a newly-formed 
Bosnian inter-religious council and other initiatives aimed at 
reconciliation. During the 1980s we supported the Catholic Church in 
Poland and elsewhere in Eastern Europe as it sought to remain an 
independent voice for gospel values and human rights. Today we support 
the Catholic Church and other minority religions in Russia in the face 
of recently enacted discriminatory legislation.
    Our tradition holds that religious liberty is indivisible, equally 
applicable to all on the basis of every person's equal dignity as 
having been formed in the image and likeness of God. Hence our 
solidarity with all victims of religious persecution of all faiths. 
That is why Catholic Relief Services provides assistance on the basis 
of need not creed, its beneficiaries ranging from Hindu and Muslim 
victims of religious strife in India to persecuted members of 
traditional religions and Christians of all denominations in Sudan. 
Similarly, the U.S. Catholic Conference's Migration and Refugee 
Services, one of the largest private refugee resettlement agencies in 
the United States, seeks to obtain refugee status and asylum in the 
United States for persecuted believers of all faiths.
    Even this partial account of worldwide religious persecution, and 
of our efforts to oppose it and assist its victims, underscores the 
scope and gravity of this crisis. In all these and in many other cases, 
we have worked and prayed for greater religious freedom for decades. We 
welcome new allies in this vital work, as well as the promise of 
congressional action to advance religious liberty.
    In all our activities, we listen first to the pleas of those who 
are being persecuted and seek their counsel on ways we can reduce their 
suffering. For us that means close consultation with bishops of a given 
country as well as with the Holy See. We are convinced that the victims 
of religious persecution are themselves the best sources of information 
and advice. They are the experts on their own situation; they 
understand the cultural and social conditions in which they must 
struggle for their own liberty, and they are the ones most affected by 
the protests and actions of outsiders. \2\
---------------------------------------------------------------------------
    \2\ Examples of those with whom we consult include, among others, 
Bishop Carlos Ximenes Belo in East Timor, Archbishop Simon Ntamwana in 
Burundi, Archbishop Rafael Nbingi Mwana A-Nzek and Bishop Macram Max 
Gassis of Sudan, Cardinal Vinko Puljic in Bosnia and Herzegovina, 
Archbishop Tadeusz Kondrusciewcz in Russia, Cardinal Jaime Ortega in 
Cuba, the Bishops' Commission for Social Concerns (CEPS) in Mexico.
---------------------------------------------------------------------------
    Listening to those who are suffering confirms our conviction that, 
as Pope John Paul II has said, ``religious persecution is an 
intolerable and unjustifiable violation . . . of the most fundamental 
human freedom, that of practicing one's faith openly, which for human 
beings is their reason for living.'' \3\ Religious persecution is truly 
a grave evil because it attacks an individual's very identity and most 
intimate and fundamental values; it undermines conscience and subverts 
community. Indeed, religious freedom is, as the Holy Father has said, a 
``cornerstone'' of the structure of human rights, an ``irreplaceable 
factor'' in both the individual good and the common good, which 
consists of a just and peaceful social order. \4\
---------------------------------------------------------------------------
    \3\ Address to the Diplomatic Corps, January 1996.
    \4\ Pope John Paul II, ``World Day of Peace Message,'' January 1, 
1988 Origins  17:28 (December 24, 1987): 493.
---------------------------------------------------------------------------
    Religious freedom has both a personal dimension--freedom of 
conscience--and a social dimension--free exercise of religion. \5\ 
Freedom of conscience is the freedom to make a personal decision based 
on one's beliefs free from external coercion. Because human nature is 
both personal and social, freedom of conscience is tied to the social 
dimension of religious liberty: the free exercise of religion by and 
within communities of faith.
---------------------------------------------------------------------------
    \5\ See the Second Vatican Council's Declaration on Religious 
Freedom (Dignitatis Humanae)  (1965); National Conference of Catholic 
Bishops, A Word of Solidarity, A Call for Justice: A Statement on 
Religious Freedom in Eastern Europe and the Soviet Union (Washington, 
D.C.: USCC, 1988): 6-9.
---------------------------------------------------------------------------
    Religious liberty covers a broad range of activities, from freedom 
of worship to the right to establish schools and charities and to 
participate in and seek to influence public affairs. Therefore, it is 
inextricably linked to other fundamental human rights, such as freedom 
of association, freedom of speech, and legal recognition of voluntary 
associations. It is a right not just of individuals but also of 
religious communities. Denial of legal status to religious groups 
violates religious liberty just as surely as discrimination against 
individual believers.
    Given our understanding of religious liberty and our experience 
with religious persecution, we are encouraged by the increased 
attention these issues are receiving. In particular, we welcome the 
ongoing work of the Secretary of State's Advisory Committee on 
Religious Freedom Abroad, on which two of our bishops serve.
    We also welcome congressional efforts to help ensure that religious 
liberty--a core American value--play its proper role in shaping the 
U.S. foreign policy agenda. We have supported, and continue to support, 
the Freedom from Religious Persecution Act (H.R. 2431), which was 
passed by the House of Representatives last month by an overwhelming 
375-41 vote. This bill provides appropriate policy responses to many of 
the most egregious forms of persecution involving widespread killing, 
torture, enslavement, forced relocation, confiscation and the like. In 
these limited cases, the bill would end military aid, sales and 
financing to some of the world's most brutal regimes that, in many 
cases, violate not only religious liberty but also the full range of 
basic human rights. Among other things, the House bill would also end 
most other forms of U.S. assistance, while exempting humanitarian and 
development aid to avoid indirect harm to those whom the bill seeks to 
help.
    Both the House bill and the Senate bill share certain common 
features that we support:

  <bullet> Both bills seek to promote religious liberty by implementing 
        some of the Secretary of State's Advisory Committee's welcome 
        recommendations, notably in the areas of improved training and 
        incentives, emphasis on religious liberty as a factor in 
        allocating aid and organizing exchanges, as well as other new 
        structures and processes designed to focus attention on this 
        issue. These helpful and carefully considered recommendations 
        deserve prompt implementation.
  <bullet> Both bills properly address persecution against all 
        believers of all faiths in all countries.
  <bullet> Both bills mandate official U.S. responses to serious 
        violations of religious liberty, while allowing some 
        flexibility of response. The House bill does so through its 
        waiver provisions, the Senate bill through its menu of options 
        and waiver provisions.
  <bullet> Both bills rightly link U.S. aid and foreign policy 
        generally to other states' performance on religious liberty, a 
        linkage that the U.S. bishops have long urged for the full 
        range of fundamental human rights.
  <bullet> Both bills address religious liberty violations primarily 
        through aid cut-offs rather than trade sanctions. Neither bill 
        imposes an embargo. The House bill's sole trade provisions ban 
        U.S. exports of items used in persecution and exports to 
        specific governmental entities directly involved in 
        persecution. The Senate bill includes several trade measures as 
        part of a much broader menu of responses, but these are not its 
        chief focus.
  <bullet> Both bills properly exempt most humanitarian and development 
        aid in order to avoid indirect harm to vulnerable populations 
        which the bill seeks to help. While seeking to minimize the 
        impact of sanctions on innocent civilians, both bills also 
        attempt to target those directly responsible for persecution. 
        These are essential features of any morally acceptable 
        sanctions regime, as the bishops maintained in their 1993 
        teaching document, The Harvest of Justice is Sown in Peace. 

    In the matter of sanctions, our experience of a variety of 
sanctions regimes has led us to be cautious and deliberate in 
advocating their use as a policy instrument. The bishops have taken a 
case-by-case approach to the imposition of sanctions, supporting them 
(with adequate humanitarian safeguards) in some cases as an alternative 
to war (e.g., Iraq and Yugoslavia) and in response to human rights 
violations (e.g., denial of MFN for China, Jackson-Vanik in Eastern 
Europe, ending military aid to El Salvador). In other cases we have 
opposed sanctions, notably in the case of the comprehensive embargo 
against Cuba.
    While we support the aims outlined above, we believe that the 
Senate bill should be modified and strengthened in several ways.
    First, we believe that it is essential to fashion an acceptable 
definition of actionable persecution, for this definition will in turn 
determine the bill's coverage. The House bill sets a very high 
threshold for action by defining persecution in terms of bodily harm 
and confiscation, thereby limiting that bill's application only to the 
most egregious cases of persecution. The Senate bill, on the other 
hand, defines persecution much more broadly, both on the basis of 
existing U.S. law (the Foreign Assistance Act of 1961) and of widely 
accepted international declarations and agreements (the Universal 
Declaration of Human Rights and the International Covenant on Civil and 
Political Rights) by which nearly all states have agreed to be bound. 
The Senate bill further distinguishes two categories of persecution. 
One includes lesser violations of religious liberty, such as 
discrimination, which are to be addressed by various private or public 
expressions of official U.S. disapproval (options 1-8 of the sanctions 
menu); the other, more severe category of persecution requires a 
response selected from a stiffer set of sanctions (options 9-16 of the 
sanctions menu).
    There are undeniable advantages to incorporating definitions of 
religious persecution that the Administration is bound to enforce under 
existing U.S. law and by which nearly every state has agreed to be 
bound under existing international law. Moreover, the Senate bill is 
based on the appropriate assumption that U.S. policy should be 
concerned with such violations of religious liberty as wholesale 
destruction of church property, onerous registration requirements and 
other unreasonable prohibitions and forms of intimidation short of 
actual violence that effectively deny freedom of conscience and free 
exercise of religion.
    As a matter of principle, we agree with the sponsors of the Senate 
bill that all violations of religious liberty are serious matters that 
the U.S. government should seek to address by means of the wide array 
of instruments at its disposal. But as a matter of practical judgment, 
we take seriously the argument that congressional action in this area 
should focus primarily on the most serious cases of persecution, as the 
House bill does.
    Second, the Senate bill's broad coverage is matched by a 
correspondingly broad range of policy options from which the president 
must choose. This approach seeks to strike a balance between two 
objectives: Congress's rightful and clearly expressed intent to mandate 
proportionate and effective responses to religious liberty violations 
and the Executive's concern for maintaining sufficient flexibility to 
respond to such violations with appropriate measures in specific cases.
    The Senate bill's attempt to strike this balance raises several 
concerns, however. As the current version of the bill allows the 
president complete discretion to select just one option and to decide 
how far to apply it, we favor both strengthening and consolidating some 
of menu options 9-16. In our view, the most severe cases of persecution 
merit stronger responses. We are also concerned that the ``commensurate 
action'' provision, without clearer standards, may unduly undermine the 
menu approach. We therefore urge the sponsors to strengthen these key 
provisions as they seek to reconcile the bill with H.R. 2431.
    In addition, we are concerned by the provision (sec. 405(d)(2)) 
that appears improperly to subordinate religious liberty to 
intellectual property rights.
    Third, we support the Senate bill's waiver authority for national 
security purposes and in cases where the president deems imposing 
sanctions as counterproductive for those victims whom the bill seeks to 
help, as we did in the case of H.R. 2431. We are, however, concerned by 
the additional waiver for cases where the president deems that 
``substantial steps'' are being made to end persecution, given the 
record of similar waivers in drug cooperation and anti-terrorism 
legislation. The other waivers seem fully sufficient to meet 
Administration concerns about flexibility, and we would oppose any 
broadening (or lowering) of the national security waiver standard to 
one of ``national interest.''
    Finally, while we welcome the humanitarian exemptions rightly 
included in the Senate bill, we are concerned that certain types of 
nonhumanitarian development aid may be subject to the aid cut-off 
provisions of section 405(a)(9). Given the moral significance of this 
issue, we would hope that the bill would make clear, either in the 
language of the bill or in the committee report, that sanctions would 
not include bilateral aid programs that, while not technically 
humanitarian in nature, nevertheless have a significant humanitarian 
impact. Here we are referring to those economic, cultural and political 
development programs, administered by nongovernmental agencies, that 
directly empower the poor or directly alleviate poverty (e.g., micro-
enterprise development, child survival, education, rural infrastructure 
and agricultural development), as well as those that contribute to the 
development of civil society and the rule of law. Permitting such aid 
channeled through nongovernmetal organizations would help to avoid the 
moral problem of punishing the poor, victims of religious persecution 
and members of opposition groups for the misdeeds of their rulers.
    Similarly, multilateral aid that serves the poor and vulnerable 
should be explicitly exempted from the bill's sanctions. Here we are 
referring to some of the health, education and grassroots development 
programs funded under the World Bank's International Development Agency 
(IDA) and other forms of multilateral development assistance.
    In conclusion, while we welcome the higher profile and priority now 
being given religious liberty, we have been repeatedly disappointed 
that both the Congress and the Executive, during both Republican and 
Democratic administrations, have generally placed economic and 
political interests ahead of religious liberty and human rights. 
Whether it is China or Indonesia, Sudan, Pakistan, Bosnia or Russia, 
religious liberty should be a primary concern of U.S. foreign policy.
    We remain committed to this bipartisan effort to pass truly 
effective legislation that advances religious liberty and addresses the 
plight of those who suffer simply for their faith.

                                 <all>

      
</pre></body></html>
